<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 2003</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




                 DEPARTMENTS OF COMMERCE, JUSTICE, AND

                   STATE, THE JUDICIARY, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2003

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION
                                ________
  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES
                    FRANK R. WOLF, Virginia, Chairman
 HAROLD ROGERS, Kentucky             JOSE E. SERRANO, New York
 JIM KOLBE, Arizona                  ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina   LUCILLE ROYBAL-ALLARD, California
 RALPH REGULA, Ohio                  ROBERT E. ``BUD'' CRAMER, Jr., 
 TOM LATHAM, Iowa                    Alabama
 DAN MILLER, Florida                 PATRICK J. KENNEDY, Rhode Island 
 DAVID VITTER, Louisiana            
                                    
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Mike Ringler, Christine Kojac, Leslie Albright, and John F. Martens
                           Subcommittee Staff
         Printed for the use of the Committee on Appropriations
                                ________
                                 PART 7
                                                                   Page
 Secretary of State...............................................    1
 National Endowment for Democracy.................................  108
 Administration of Foreign Affairs................................  113
 International Organizations and Peacekeeping.....................  185
 Public Diplomacy.................................................  405

                              <snowflake>

                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 81-394                     WASHINGTON : 2002




                      COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2003

                              ----------                              

                                          Wednesday, March 6, 2002.

                          DEPARTMENT OF STATE

                                WITNESS

HON. COLIN L. POWELL, SECRETARY OF STATE

             Opening Remarks of Subcommittee Chairman Wolf

    Mr. Wolf. Welcome, Mr. Secretary. We want to welcome you to 
the hearing, and I have an opening statement I am going to 
make, but before I do I want to share a personal comment. I 
want to thank the Administration--you, the President--your 
service and your team, Mr. Armitage, Mr. Grant, and all the 
people, for the outstanding job that they are doing, 
particularly after 9/11, and how things have changed. I want to 
put that out on the record from my own point of view. The other 
Members will have their own comments. But you have really done 
an amazing job, and I am very grateful.
    Also, I want to make it clear where I stand with regard to 
President Bush and the policies with regard to the war on 
terrorism, both domestic and foreign. I completely support what 
the President is doing. As you know, I chatted with you when I 
got back. I was in Afghanistan for two days. We were in Kabul. 
I do not know if you read the report or not, and I do not know 
if I am pessimistic or optimistic, but it is a tough, tough 
neighborhood. I think the more people focus and understand the 
complexity of the situation there, it will become very easy to 
defend the policy. I can go anywhere and talk about why this 
policy of the Bush Administration is the appropriate policy.
    I happened to have, in 1998, visited Algeria for several 
days. As you know, 100,000 people have lost their lives through 
terrorism in Algeria. Almost every family in Algeria has been 
touched by a form of terrorism.
    September 11 was not really new; the Marine barracks in 
Lebanon in 1983, the embassy in Lebanon in 1983, the Tanzania 
Embassy, the Kenya Embassy, the U.S.S. Cole, Khobar Towers. 
This is very evil what is going on.
    I just want to make sure that, one, I strongly support what 
the President is doing, as I know the American people do, and I 
think the Congress does on both sides. I do not think it is a 
controversial issue.
    Secondly, I appreciate very much your service and how you 
have handled yourself, certainly over the past year, but 
particularly since 9/11, and I want to thank you and thank your 
entire team. You have always been very helpful, very 
responsive. There may be some issues we do not agree with 
completely.
    We are going to have a number of questions--I know you have 
to leave at 12:30--on policy issues. In addition, a lot of the 
budgetary ones will be raised with Mr. Armitage and Mr. Green 
and others. But I just wanted to make that personal comment.
    Secretary Powell. Thank you, Mr. Chairman.
    Mr. Wolf. The Secretary today will testify regarding the 
fiscal year 2003 budget request for the operation of the 
Department and the assessed contribution of the United States 
to the United Nations and other internal organizations. Perhaps 
the key feature of this budget request is the second large 
personnel increase in as many years to improve diplomatic 
readiness and diplomatic security. The request includes funding 
for 631 new positions. If enacted, this will represent a 
historic increase of over 1,500 American employees in just two 
years. I think we will actually set a record.
    This dramatic expansion of the Department has been 
undertaken at the same time as widespread calls for reform. The 
Overseas President's Advisory Panel Report, the Carlucci 
Report, and others made significant reform recommendations that 
are not necessarily--and I stress not necessarily--directly 
linked to additional appropriations or staff. These included 
right-sizing, regionalizing, overseas presence, strengthening 
the authority of the ambassador to improve management, 
improving inter-agency coordination, and reorganizing the 
budget and foreign buildings functions of the Department.
    We will be interested to hear about the progress of these 
reforms, and the Committee will look to you to be able to 
reassure us that the large budget increases are in no way a 
substitute for reform. They should go together, and not just 
one taking the place of the other.
    As we have discussed last year, I think you will find the 
Committee eager to assist you in bringing about any needed 
reform and in achieving a more secure, strategically-managed 
U.S. presence overseas.
    I am pleased to see that your budget request continues the 
funding stream that Congress and the Administration has 
established to improve embassy security. I think that is very 
important. I saw the story with regard to Rome several weeks 
ago, and Singapore, and for the Committee--and I know Mr. 
Rogers was very supportive during his tenure--I am very 
supportive of making sure that we have improved embassy 
security. That is why when any reprogramming comes up we always 
make sure that this is done not to just move something, but is 
done to maximize security.
    Since the embassy bombings in Africa, the committee has 
provided over $4.3 billion to improve embassy security, so we 
will be interested to hear your views on how this effort is 
proceeding, how is General Williams, who I do not see in the 
audience today, but how is he doing?
    Another area of particular concern this year is funding for 
public diplomacy activities. There is a critical and immediate 
need for action to counter anti-American sentiment abroad that 
results largely from misinformation, lack of information, and 
misunderstanding.
     American people are good, decent, compassionate people. 
Had it not been for the American people and the American 
Government, I do not know what would have taken place in 
Bosnia. In some respects, if there was any problem, it was 
perhaps that we waited too long. But because of American 
efforts and the American military, in Sarajevo now the shops 
are open and people can walk, and that is mainly, as you know, 
a Muslim community.
    We came to the defense of the Muslims in Kosovo, which is 
90 percent Albanian Muslim, 10 percent Serbian Orthodox. The 
United States stood very boldly, and had we not participated, 
the genocide would have continued under Milosevich. You can 
look at other places as well, such as Macedonia, which has a 35 
percent Albanian Muslim population. I see President Mubarak is 
in town--$47 billion of American taxpayer money has been given 
to the Egyptian government since the Camp David Peace Accord.
    So America is a good place, and we are good people, and for 
some reason our message is not appropriately given out. I am 
concerned that this effort has not been sufficient, given the 
magnitude of the task, and that the budget request may be 
inadequate to continue and expand these important activities.
    I sent a letter to Mitch Daniels--I think we shared it with 
the Department--asking that in this area of public diplomacy 
there should be additional funding.
    The Committee is going to have a hearing later on, after we 
finish the normal process, with your Charlotte Beers, and we 
are going to try to bring in some outside experts, with regard 
to the Middle East--Muslim, Christian, all denominations--to 
see how we get the message out of the goodness of the United 
States.
    When I saw the latest survey--I know you saw that poll--the 
country with the most positive view of the United States seemed 
to be Lebanon. And even in Lebanon--I was in Lebanon in April--
it did not seem overly warm with regard to the United States. I 
told the Lebanese we had 241 Marines killed in the barracks who 
were there in defense of Lebanese people. So America is a good 
country, decent, honest, and we have to get that message out.
    I am concerned that there is not enough money in the public 
diplomacy area to tell the message. We have a great product, 
and that is American democracy, it is freedom, it is liberty. 
How do we get that out around the world? I also saw how few 
people in many of those countries believe that Usama Bin Laden 
was responsible for this activity. There should be no doubt. We 
should be able to make a clear case that Usama Bin Laden, al-
Qaeda, the Taliban were responsible for that activity. We have 
to let them see more data and more information, put it on a web 
page, bring people in. I think the more exchange that we have 
with regard to those countries, by our people going over, the 
better.
    I think we are just going to have to really rethink and 
maybe do it a little bit differently and maybe spend a little 
bit more. But this is not a battle that we can lose.
    Lastly, the American soldier is doing an outstanding job, 
our military.
    With that, I will just refer to Mr. Serrano.

         Opening Remarks of Subcommittee Ranking Member Serrano

    Mr. Serrano. Thank you, Mr. Chairman. It is always a 
pleasure to welcome Secretary Powell. I take great pride in 
bragging about the fact that you and I come from the same 
neighborhood.
    Secretary Powell. Thank you.
    Mr. Serrano. I chose to take on the voters every two years, 
you chose to take on the world, but it is worthwhile and I tell 
you that every morning as I leave my apartment on the Grand 
Concourse in the city and I see the Grand Concourse Walk of 
Fame, there you are. I am not on the Walk of Fame yet, but you 
are there, and we are working to try to reach that point.
    I know that especially today, Mr. Secretary, you face many 
complex challenges in terms of our Nation's foreign policy. Be 
assured, however, that our Nation continues to value your 
leadership at the Department of State.
    I look forward to working with you and Chairman Wolf on 
this year's State Department budget. I have reviewed the budget 
for the Department of State and I am in agreement that we 
should continue to place a priority on improving our worldwide 
security and readiness, on the hiring of additional personnel 
and on continuing our investment in updated computer 
technology. We should explore new initiatives in the area of 
public diplomacy. We must also continue our active 
participation in and obligation to the international 
organizations of which we are members, and, of course, we 
should continue to support and fund our peacekeeping 
obligation.
    I have told you this in private, and I have said it in 
public. I think, of the so many wonderful things that this 
country does, our peacekeeping effort has really shown who we 
are as a people, as a Nation, and I think that we should 
continue that and I will support you in any way that I can.
    Mr. Secretary, I also want to take a moment to thank you 
for the personal commitment that you have made and continue to 
make to having the personnel in our State Department and 
Foreign Service reflect our diverse society. Outstanding 
progress has been made and I know will continue under your 
leadership. I look forward to learning more details about this 
progress during the course of this hearing.
    Now I would like to take a moment to express my concerns 
about the diplomatic challenges that are part of our 
relationship with Latin America, an area that you know you and 
I have spent time talking about. We need to be careful, Mr. 
Secretary, to avoid military involvement in Colombia. Colombia 
has had a problem for many years, and those of us who have the 
opportunity to read both English and Spanish media accounts 
know that is a very difficult and sad situation that has been 
going on for a long time. It is also one of the few places 
where it is very hard at times to find out who the good guys 
are and who the bad guys are, because on any given day anyone 
can tell you that the bad guys are on both sides of the issue.
    And so I would just caution--and it is a message I also 
bring from many of my constituents--caution that our 
involvement in Colombia could be a long and costly one that may 
not take us in a direction that we want to go.
    In addition, we must never take for granted but rather 
should continue to devote careful attention to our relationship 
with countries in this part of the world.
    Mr. Secretary, you can be assured that I will provide 
assistance and support to Chairman Wolf as this year's State 
Department budget moves through the appropriations process. I 
firmly believe that the State Department, with its 
professional, talented, and dedicated personnel, plays an 
invaluable role in the conduct of our Nation's foreign policy. 
I will certainly continue to work to make this a successful 
budgetary year for you.
    Let me close by saying that, although you are the Secretary 
of State, in addition to being the Secretary of State, in my 
opinion, you play a major role in the Administration. One of 
the concerns I have which touches on the Justice Department and 
the FBI and the INS is the issue of civil liberties during this 
very difficult time. I know this is an issue of great concern 
to you. And so, again, in our desire to get the bad guys, we 
have to be careful that we do not hurt the good guys, and I am 
just concerned that the tension of people, the invasion of 
privacy could, again, lead us down a road we do not want to go 
to.
    I do not know if this is a compliment to you, but I have 
always seen you, as many other Americans, as a calming voice at 
times when storms are brewing. You always seem to have a handle 
on how to keep things in their proper place, while being one of 
the great American patriots of our time. And so I ask you to 
continue that balance--that balance that makes you feel secure, 
that if someone is trying to misbehave in our Government, you 
somehow look over their shoulder and say, ``Can we talk about 
this for a second?'' It is that second that will make the major 
difference in world peace and the future of this country, and I 
thank you for being with us today.
    Secretary Powell. Thank you, sir.
    Mr. Wolf. Mr. Secretary, your full statement will appear in 
the record. Proceed as you see appropriate.

           Opening Remarks of Secretary of State Colin Powell

    Secretary Powell. Thank you very much, Mr. Chairman, and I 
do have a full statement, and I appreciate its inclusion in the 
record in its entirety.
    I thank you for your very warm opening remarks, and Mr. 
Serrano, as well, for yours. Grand Concourse always brings back 
the fondest of memories for me, Mr. Serrano.
    I want to begin, Mr. Chairman, by thanking the committee 
for the solid support that it has provided to the Department 
during the first year of my tenure. I think we have tried to be 
worthy of that support. We have been aggressive with respect to 
the reform efforts within the Department. I have taken to heart 
all of the many reports about the Department that have been 
made over the years and trying not to have another report but 
to execute on the items that have been identified for us to 
execute on--getting the right-sizing of our embassies done, 
fixing our security problem, fixing our personnel system, 
getting the right people in the right place at the right time 
for the right job within the Department, opening up the 
Department to new ideas, making sure that the American people, 
especially young Americans, see the value of service in the 
State Department, whether they are in the Foreign Service or 
Civil Service or whatever component. I think we have been 
pretty successful at that.
    General Williams is not here with us right now. He is out 
checking buildings, I hope. That is what he is supposed to be 
doing, not sitting in hearings with me, except when you call 
for him, Mr. Chairman. But he has been doing a great job. He 
has really shaken up our whole building construction operation.
    As you know, we have given him a more direct line of 
authority into the leadership of the Department, and we have 
held him accountable, and he, in turn, is holding everybody 
accountable for using the best management techniques available 
within the commercial building industries to bring those 
techniques into the Department. We have reduced the overall 
cost of our embassies. We have done some very, very smart 
things with respect to standardization of power plants and 
things of that nature. I think we are being very good stewards 
of the money that you have given to us, that Congress has given 
to us, the American people have given to us for embassy 
construction.
    I can assure you that, as I said to you last year, I am the 
CEO of the State Department, not just foreign policy advisor, 
and there is not a day goes by that I do not devote part of my 
day, along with Deputy Secretary Armitage and Under-Secretary 
Green and other members of my staff, on the leadership and 
management issues that face the Department, and we are working 
away at them one at a time.
    With respect to public diplomacy, Mr. Chairman, I could not 
agree with you more. We have got to do a better job, and I 
think we are doing a better job and will continue to do so and 
we will get better under the leadership of Under-Secretary of 
State Beers, who brings a different kind of experience, new 
experience, marketing experience to the Department. Sometimes 
we get a little criticism about that: ``What does a marketeer 
know?'' Well, we are selling a product, and the product is a 
value system that we all believe in, not selling America as a 
way of imposing ourselves on somebody else, but a value system 
that believes in individual rights, democracy, freedom as a way 
into this 21st century world that is before us, that everybody 
could benefit from being a part of a globalized world where 
trade barriers are broken down, where our value systems mean 
more and more to people around the world.
    I am as disturbed as you are over some of the surveys we 
have seen recently where we have not been successful in getting 
that message out, and we have got a tough job ahead of us. 
There is the Israeli/Palestinian conflict that to some extent 
contaminates some of those surveys. We have got to work on 
that. We have our work cut out for us, but I can assure you 
that we will be dedicated to that task.
    I also want to assure you, Mr. Serrano, that I take very 
much to heart the issue of having a Department that represents 
America. I thank you for what you have done with respect to the 
Serrano Fellows and the other programs you have sponsored. You 
and I have had a chance to sit and talk about all of this, 
reaching out to Howard University with respect to African 
American youngsters applying for the Foreign Service and also 
to the Hispanic Associations of America to help us.
    I am very pleased, just as a little vignette, to say that 
4,000 minorities signed up to take the Foreign Service exam and 
showed up for the exam, and 652 have passed--the highest 
number, I think, probably ever. We are off to a good start and 
will continue working in that direction.
    With respect to Colombia, I understand perfectly your 
point, but there is a new situation now, with President 
Pastrana deciding that he could no longer allow the safe zones 
to exist. We have to help Colombia save its democracy from 
narco-traffickers and from terrorists, and we will have to re-
adjust our policies, take a hard look at what we are doing, and 
see if there are not other ways we can help Colombia protect 
itself short of the United States armed forces going in to do 
it, but there are other things we can do, and that is the 
subject of intense discussion within the Administration now.
    And, of course, Mr. Serrano, we take very much to heart 
your concerns, the concerns of all of us, that in an effort to 
protect ourselves from terrorism we cannot do away with the 
civil liberties and civil rights that are a hallmark of the 
American tradition and the American spirit, and we have to find 
the right balance to make sure we are protecting our people, 
because they expect that of their Government, but at the same 
time they expect not to have their civil liberties trampled. I 
am sure as we go forward we will find that right balance.
    Let me conclude that opening statement by saying I thank 
you, Mr. Chairman, you, Mr. Serrano, all the members of the 
committee for the strong support that you have provided to us.
    As you will recall, at our first budget hearing last year I 
told you that what we were requesting for 2002 represented a 
significant increase in the Department's resources for that 
fiscal year. I also told you that such an increase was a good 
start, that it was the first fiscal step in our efforts to 
align both the organization for the conduct of American foreign 
policy with the dictates, the requirements of American foreign 
policy in the 21st century.
    You heard my testimony, you responded, and we are very 
grateful. Because of your understanding and generosity, we have 
made significant progress, and we need to continue that 
progress in fiscal year 2003.
    The President's discretionary request for the Department of 
State and its related agencies for 2003 is $8.1 billion. These 
dollars will allow us to continue initiatives to recruit, hire, 
train, and deploy the right workforce. The budget request 
includes $100 million for the next step in the hiring process 
we began last year. With these dollars, we will be able to 
bring on board the 631 people you mentioned, and especially 
within that number 399 more foreign affairs professionals and 
be well on our way to repairing a large gap created in our 
personnel structure over the last ten years and relieve the 
strain that we have put on our people by almost a decade of 
too-few hires and inability to train properly and fill hundreds 
of positions.
    I would also mention that, as we are staffing up with more 
people, we are also putting into our Foreign Service Institute 
a requirement, a more serious requirement for leadership and 
management training so that we are not just creating 
professionals, we are creating professional leaders, people who 
will be leaders in the future, and we are making that a 
hallmark of all of our training and management activities.
    By 2004 we hope to have completed our multi-year effort 
with respect to overseas staffing, to include establishing the 
training pool I described to you last year. That is so 
important if we are to allow our people to complete the 
training we feel is needed for them to do their jobs, 
especially their next job. We have to have a little bit of 
flexibility in the system so people can go in the schools and 
not be removed from a position, but that there is a little bit 
of flexibility so that we do not have to gap positions while we 
are training people for those positions.
    Next March I will be back up here briefing on the results 
of our overall domestic staffing review. In addition to getting 
more people on board, we will continue to upgrade and enhance 
our worldwide security readiness, even more important in light 
of our success in disrupting and damaging the al-Qaeda 
terrorist network.
    The budget request includes $553 million that builds on the 
funding provided from the emergency response fund, the 
increased hiring of security agents, and for counter-terrorism 
programs. We will also continue to upgrade the security of our 
overseas facilities.
    The budget request includes over $1.3 billion to improve 
physical security, correct serious deficiencies that still 
exist, and provide for security-driven construction of new 
facilities at high-risk posts around the world.
    Mr. Chairman, we are right-sizing, shaping up, and bringing 
smarter management practices to our overseas building program, 
as I told you we would do so last year. The first change, as 
you well know, was to put General Chuck Williams in charge and 
give him Assistant Secretary equivalent rank. Now his overseas 
building operation has developed the Department's first long-
range master plan, which projects our major facility 
requirements over a five-year period. The Overseas Building 
Office is using best practices from industry, new embassy 
templates, and strong leadership to lower costs, increase 
quality, and decrease construction time.
    As I told you last year, one of our goals was to reduce the 
average cost of building an embassy, and I believe we are well 
on our way to doing just that. General Williams is making all 
of our facilities, overseas and stateside, more secure. By the 
end of 2002, over two-thirds of our overseas posts should reach 
minimal standards, meaning secure doors, windows, and 
perimeters. We are also making progress in efforts to provide 
new facilities that are fully secure, with thirteen major 
capital projects in design or construction, another eight 
expected to begin this fiscal year, and nine more in 2003.
    With this budget, Mr. Chairman, we will also be able to 
continue our program to provide state-of-the-art technology to 
our people everywhere. Because of your support in 2002, we are 
well on our way to doing this. We have an aggressive deployment 
schedule for our unclassified system which will provide desktop 
Internet access to over 30,000 State users worldwide in 2003 
using 2002 funding, and we are developing our classified 
connectivity program over the next two years.
    We have included $177 million in capital investment for IT 
requirements. Combined with the $86 million in estimated 
expedited passport fees, we will have a total of $263 million 
for our information technology initiative. Our goal is to put 
the Internet fully in the service of diplomacy.
    With this budget we will continue to meet our obligations 
to international organizations, also important as we pursue the 
war on terrorism to its end. The budget request includes $891 
million to fund U.S. assessments to 43 international 
organizations, active membership of which furthers United 
States economic, political, security, social, and cultural 
interests.
    The budget will also continue to meet our obligations to 
international peacekeeping activities. The budget request 
includes $726 million to pay our projected United Nations 
peacekeeping assessments, all the more important as we seek to 
avoid increasing even further our U.N. arrearages.
    Mr. Chairman and members of the committee, I ask for your 
help in getting the cap lifted so that we can eventually 
eliminate all of our arrearages. Only by lifting the cap will 
we avoid continuing to add to the arrearages.
    These peacekeeping activities also allow us to leverage our 
political, military, and financial assets through the authority 
of the United Nations Security Council and the participation of 
other countries in providing funds and peacekeepers for 
conflicts worldwide.
    We will also continue and enhance an aggressive effort to 
eliminate support for terrorists, and thus deny them safe haven 
through our ongoing public diplomacy activities, our 
educational and cultural exchange programs, and international 
broadcasting.
    The budget request includes $287 million for public 
diplomacy, including information and cultural programs carried 
out by overseas missions and supported by public diplomacy 
personnel in our regional and functional bureaus. These 
resources help to educate the international public on the war 
against terrorism and America's commitment to peace and 
prosperity for all nations.
    The budget request also includes $247 million for 
educational and cultural exchanges that build mutual 
understanding and develop friendly relations between America 
and the peoples of the world. These activities help build the 
trust, confidence, and international cooperation necessary to 
sustain and advance the full range of our interests. Such 
activities have gained a new sense of urgency and importance 
since the brutal attacks of September. We need to teach the 
people of the world more about America and America's role in 
the world. We need to show people throughout the world just who 
we are and what we stand for, just as the chairman noted a few 
moments ago.
    Moreover, the budget request includes almost $518 million 
for international broadcasting, of which $60 million is for the 
war on terrorism, to continue increased media broadcasts to 
Afghanistan and the surrounding countries and throughout the 
Middle East. These international broadcasts help inform local 
public opinion about the true nature of al-Qaeda and the 
purposes of the war on terrorism, building support thereby for 
the coalition's global campaign.
    Mr. Chairman, on the subject of public diplomacy let me 
expand my remarks a little bit. The terrorist attacks of 
September 11th underscored the urgency of implementing an 
effective public diplomacy campaign. Those who abet terror by 
spreading distortion and hate and inciting others take full 
advantage of the global news cycle. We must take advantage of 
that same cycle.
    Since September 11th, over 2,000 media appearances by State 
Department officials have taken place. Our continuous presence 
in Arab and regional media by officials with language and media 
skills has been unprecedented. Our international information 
website on terror is now on line in seven languages. Internet 
search engines show that it is the hottest page on that topic. 
Our 25-page color combination, ``The Network of Terrorism,'' is 
now available in 30 languages, with many different adaptations, 
including a full insert in the Arabic edition of ``Newsweek.'' 
``Right content, right format, right audience, right now'' 
describes our strategic aim in seeing that U.S. policies are 
explained and placed in the proper context in the minds of 
foreign audiences.
    Mr. Chairman, beyond the budget requests I have just 
outlined for you, we are working closely with OMB to examine 
our overall requirements. We believe that there are valid 2002 
needs that cannot wait for 2003. The Administration will bring 
the specific details of this supplemental request to the 
Congress in the near future. We have not finished our 2002 
supplemental request for you yet, but it will be coming to you 
in the very near future, and there will be a number of priority 
items that the State Department will have in that supplemental 
request.
    Some of you know my feelings about the importance to the 
success of any enterprise of having the right people in the 
right places, and if I had to put one of these priorities as 
the pinnacle of our efforts, it would be the hiring efforts 
that I have already described. We must sustain the strong 
recruitment program we have begun for the last year, and with 
your support I am sure that we will be successful in that 
regard.
    Mr. Chairman, all of these activities that we have talked 
about so far this morning have improved morale at the State 
Department. People see that we care about them. We are giving 
them secure, safe places in which to work. We are hiring people 
to help them do their jobs better. We are doing everything we 
can to let our people know that they are valued members of 
America's foreign policy team.
    While we concentrate on the Nation's foreign policy, we 
have to take care of those who execute it, and not only the 
Americans but especially the Foreign Service nationals. These 
are an extraordinary group of people we do not talk about often 
enough--foreigners who work in our embassy. For example, the 60 
Afghan employees in Kabul who worked diligently to maintain and 
protect our facilities throughout the 13 years that the embassy 
was closed. They worked at personal risk. We were able to get 
pay to them, but even then they were working at the risk of 
their lives. And when we went back into Kabul, the embassy was 
not in a state of total destruction, as we had expected. Those 
employees had stood by their jobs, had done a good job, and 
they are an essential part of the team, as well.
    I thank you for what you have done to allow me to push 
forward in that concept of teamwork, all being members of one 
family, and I ask for your support in getting the $8.1 billion 
that we need for fiscal year 2003, and also for the foreign 
affairs budget we will be asking for, as well, in this same 
request for $16.1 billion.
    I will also ask your help for the supplemental request that 
will be coming up in the near future.
    Mr. Rogers, I think I will stop at this point, and I am 
sure we will get into specific foreign policy issues in the 
course of our discussion as members of the committee return 
from voting.
    [The statement of Secretary of State Colin L. Powell 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                           MANAGEMENT ISSUES

    Mr. Rogers [assuming chair]. Mr. Secretary, thank you very 
much for that good statement. I say on behalf of the 
subcommittee and on behalf of the Congress, how much 
reassurance your presence in this position brings to us at this 
particular time in our history. The events of 9/11 and the 
aftermath are unsettling, of course, to all of us, but your 
steady hand and your steady advice and counsel to the President 
is something of a national treasure that we appreciate very 
much.
    Secretary Powell. Thank you, sir.
    Mr. Rogers. And I am glad to hear your very good report on 
the management issues at State. As you perhaps know, I chaired 
this subcommittee for the last six years and have served on it 
the last eighteen or nineteen years. One of the biggest 
problems that we have faced was that State was just not 
properly managed--wonderful people, dedicated to the Nation, 
patriotic in every respect, but there was just not the 
organizational or management structure there that allowed 
modern management procedures to be employed. I am glad to hear 
that it sounds like you have those in place.
    You have commented on that already. Would you care to add?
    Secretary Powell. I would always love to add to that 
proposition.
    Mr. Rogers, in our conversation last year I assure you I 
took very much to heart what you said to me about your 
disappointment and the disappointment of the Congress for many, 
many years with respect to the management of the Department, 
and I tried to be very faithful to my promise to you at that 
time that you would see a change. I think you have seen a 
change in the diplomatic readiness initiatives that we have 
underway. I think you have seen a change with the way in which 
we are running our building program. I think you have seen a 
change in the way we run our security programs. One of the 
issues was why you can't have representation on Capitol Hill. 
We now have an office up here in Capitol Hill that is closer to 
the Congress on the House side. I hope to open a liaison office 
on the Senate side, as well, for the purpose of showing you the 
State Department is here, wanting to know your constituent 
problems, wanting to hear from Members of Congress, providing a 
service to link you into the leadership and management of the 
Department even more closely.
    We spend an enormous amount of time in cutting through 
bureaucratic processes to make the Department move faster, to 
speed up the decision cycle.
    When I first came in, the letter that the President gives 
to each Ambassador took 18 months, in the previous 
Administration, to get approved. I told my staff we are going 
to get it done in four weeks and I will write it myself, and I 
did, and we got it done and the President signed it. It is just 
a matter of showing everybody that they are important.
    One of the things we have been working very hard on, Mr. 
Rogers, is to connect the Department, from the Secretary of 
State out to every last employee in every embassy. We are one 
team bound together by trust, by a common purpose, by policies 
that are coherent and consistent over time, that we are going 
to push down authority, that we believe the embassies are right 
and they know more than we do back here at C Street at the 
Truman Building. Now, that is not always the case, but we are 
certainly going to act that way as a way of empowering the 
whole organization.
    I think that the results are starting to show--starting to 
show by the number of people who are signing up to become 
members of the Department of State, Foreign Service exams and 
other applications coming in for Civil Service positions. I 
think we are doing a good job, but it has only been one year. 
You know you have the start-up period, when you are still 
trying to figure out what to do. But we will continue to work 
on this effort.

                          OPAP RECOMMENDATIONS

    Mr. Rogers. A big ship is hard to turn around quickly, and 
this ship is a big one. It has been adrift for a long time. So 
you are right, it is going to take a little while to see 
whether or not we are headed in the right direction management-
wise. But I like what I hear, and we will see whether or not 
the captain steering the wheel makes the ship turn or not in 
due course of time.
    The Crowe Report of your colleague a few years ago 
recommended--and I remain convinced--that the worldwide program 
of relocation and security improvements in our facilities 
overseas is an opportunity to minimize vulnerability by moving 
as many functions as possible to secure, regional locations and 
minimizing staffing at those vulnerable posts. Is that 
something that you agree with? And, if so, are you moving in 
that direction?
    Secretary Powell. I agree with it in principle where it 
makes sense. If you can do something on a regional basis and 
perform the mission and provide the service, then we should do 
so. So in principle yes, but you always have to balance that 
against whether or not you can really provide a service at 
Point A from a location at Point B or Point C that may be 
regionally oriented. I think we have to strike that balance. 
But as a matter of principle, yes.
    Mr. Rogers. The Kaden Report and the Carlucci Reports a 
year or two ago were good studies of reorganization and 
management issues within State and how we go about making our 
presence overseas known and felt and had a great number of 
recommendations, which I have been strongly supportive of. I 
think they did a wonderful job. What are your thoughts about 
the recommendations within those reports, like consolidation, 
right-sizing, America presence posts, and the like?
    Secretary Powell. I am supportive of almost all of them. I 
was a member of the Carlucci Study Team several years ago, so I 
am quite familiar with those actions and we used them as a 
benchmark. Now, not every one of them would I agree to, but I 
think for the most part I think you will find that we are 
following not only the spirit of those reports but the actual 
specific recommendations that they made.
    Mr. Rogers. Well, I hope so, because most of them are 
headed, I think, in the right direction, particularly the 
American presence posts.
    Secretary Powell. Yes, sir. As you know, Ambassador Rohatan 
in Paris started that idea, and we have documented it and we 
have two other countries now that are exploring it, two other 
places. One is Turkey, and the other one--I forget where it is, 
but we----
    Mr. Rogers. I think we have five in France.
    Secretary Powell. Five in France, one in Turkey, and 
there's another one.
    Mr. Rogers. One in Canada.
    Secretary Powell. Canada. Yes, sir.
    Mr. Rogers. Well, I recommend that. It is a good way to 
have our presence felt very effectively but with a minimum of 
presence. There's no bulls-eye on the door----
    Secretary Powell. Yes.
    Mr. Rogers [continuing]. For terrorists. You go to an 
office building and do your work unnoticed, more or less. So I 
hope that we would get more reprogramming requests here to open 
up others all around the world.
    Thank you, Mr. Chairman. Thank you, Mr. Secretary.
    Secretary Powell. Thank you.

                   FY 03 REQUEST FOR PUBLIC DIPLOMACY

    Mr. Wolf [resuming chair]. Mr. Secretary, on the public 
diplomacy issue, your budget request is basically flat. It is 
5.3 million. I understand how these things work, and I think we 
did share the letter with you. I am sure we did, over with the 
Department. You may not have seen it. But we asked for OMB to 
look at that.
    Would you want to comment on that? We have a great product, 
and I just do not know that 5.3 million for public diplomacy in 
the current situation that we are in--that is the only modest 
increase that you asked for in that program.
    Secretary Powell. Well, my figure of our overall account 
for public diplomacy, including educational, cultural programs 
is a $26 million increase up to $535 million total. It is $288 
million, or an $18 million increase, in the public diplomacy 
line.
    Mr. Wolf. But, still, well, I guess it depends on what we 
are counting.
    Secretary Powell. Yes.
    Mr. Wolf. But I do think we need more--I mean, I am not for 
spending a lot of money. I would like to think we can have a 
balanced budget again this year, if it is at all possible. But 
knowing what has taken place, I do not think we can, unless we 
defeat terrorism.
    In the effort against terrorism, I commend the 
Administration for mentioning Hezbollah. The Hezbollah were 
involved in the Marine barracks. You were in the Reagan 
Administration.
    Secretary Powell. Yes, sir.
    Mr. Wolf. The Library of Congress put together a series of 
all the terrorism activity. Hezbollah comes up over and over 
and over. So this impacts directly on what's taking place in 
the Middle East.
    It is the same thing with regard to public diplomacy, 
defeating terrorism and at the same time telling our story, so 
do you think it could use a little additional money?
    Secretary Powell. Yes, sir. We were only able to add $18 
million in 2003, but, as part of our supplemental discussions 
with OMB, we are trying to get more under the supplemental.
    Mr. Wolf. Good. I would hope so, and I have spoken to OMB 
about that.
    I also think----
    Secretary Powell. If I may, Mr. Chairman?
    Mr. Wolf. Sure.
    Secretary Powell. Sometimes it is cost free. It does not 
cost anything to do new ways, to go about it new ways, and that 
is what we are trying to do--get our ambassadors out on these 
Arab television networks and radio stations. We can do a lot in 
terms of getting articles placed that cost us nothing.
    My own little minor effort in this was appearing in Al 
Jazeera, appearing with another Arab network, and then going on 
MTV, which reached 346 million households around the world, and 
I had to defend the United States. Are we a Satan or are we a 
protector? I made the portion of the case I made. I got asked 
about the Middle East. I got asked about a variety of issues. 
Some made news, others did not make news. But it gave me a 
chance to tell----
    Mr. Wolf. Welcome to politics.
    Secretary Powell. But it got me to take our case to 90 
straight uninterrupted moments. It was supposed to be 60. They 
let it run for 90, broadcast six times to 33 MTV channels 
around the world, population 17 to 25, mostly in the non-
western part of the world. And in each one of the locations 
that it came down, our embassies throughout the world, consular 
officers or embassy staff or the embassador himself or herself 
stayed after the performance and talked to the youngsters who 
had come to hear it, and now they are following up with 
additional discussion.
    Out of one of our embassies the request came from the 
students who were there, ``Hey, we have never heard this kind 
of thing. Why don't you now come visit our university? We want 
to hear more.''
    So sometimes it is cost-free.

                     TERRORIST ACTIVITIES IN SUDAN

    Mr. Wolf. It is. We spoke to the students at AUB in 
Lebanon, and they were very open, and I think you are right. 
Well, I am glad you are doing that, and I hope when we have a 
hearing we are going to try to bring in some outside experts, 
because there are many people in this country who really know 
that part of the world, and I think it can help you.
    Things are moving quickly in Sudan. You know of the 
concern. I saw pictures of the result. There was a Soviet 
helicopter gunship that came in a week-and-a-half ago and 
gunned down people. We have reports. We have talked to a person 
by e-mail who was on the ground at the time. We sent pictures 
over, I believe, of some of the shells. There was some 
inference that the attack may have included chemical weapons. 
The shells exploded above the people. But they literally came 
in and gunned the people down, and this is supported with the 
money coming from the oil. The oil now has given the Sudanese 
government the ability to not only operate those training camps 
around Khartoum. Hamas comes in to Khartoum, there must be a 
shuttle. They come in on a regular basis. The Iranians are 
there and everything else.
    Could you bring us up to date? I saw the story about how 
the Sudanese have now said they will cooperate, but we have 
heard this before. I would like you to speak to that and maybe 
speak to the Sudanese government, too.
    Secretary Powell. As you know, Mr. Chairman, Senator 
Danforth led a mission for us and went over there a couple of 
times and came back with a four-point plan that looked like a 
road forward, and we told the Sudanese that, ``If you want a 
better relationship with the United States, this kind of action 
simply has to stop.'' And then you saw we got something of an 
agreement, which was a step in the right direction. The 
Sudanese have been helpful with respect to intelligence sharing 
and shutting down some of the terrorist activities that were at 
least officed or headquartered in the Sudan, and so we thought 
we were moving on a somewhat positive track, considering the 
difficulties in this region, and then this helicopter incident 
took place.
    I have no evidence to suggest that chemical weapons were 
spread at that time, but, nevertheless, we went immediately to 
the Sudanese government and said, ``That is it. We stop. We are 
not going forward. You do not understand. We were serious. You 
have got to stop activity like this or it stops. This has to be 
reciprocal. We do something, you do something. But it has to be 
permanent.''
    They have now come back and investigated the incident and 
told us that it should not have happened, it was an error, 
failure of command, and they have entered into an agreement 
with us which we have now put before the SPLA that this kind of 
activity will not take place, will stop.
    Mr. Chairman, you and I both have been around this track 
before, but what we have communicated to the Sudanese 
government is that we will hold you accountable, and the 
process of moving forward, of any opportunities for better 
relationship will come to a dead halt with the continuation of 
this kind of activity.

                         PROBLEMS FACING AFRICA

    Mr. Wolf. Good. Well, thank you.
    Several weeks ago Ted Koppel did a series on the Congo, 
Eastern Congo--Goma, Bokago, and others. It was very moving. 
For ABC to be dropping Koppel for Letterman, I do not 
understand. I mean, he did an incredible job. He went in there, 
spent a lot of time. Great, great show. I do not know if you 
happened to see it. In any event, 2,500 people are dead each 
day in the Congo. They have lost almost three million people. 
My sense is we now have to, in this Administration, put 
together a group of people who are literally the best experts 
in the world to shape our policy be toward Africa. There are so 
many problems. You have diamonds with regard to al-Qaeda, 
Sierra Leone, you have the problem with Guinea, you have 
Charles Taylor. I mean, we should be looking at it. What do we 
do. We should be re-flagging all of the ships coming out of 
Liberia with the Liberia flag. That would bring down the 
Charles Taylor Government.
    What should our policy be with regard to the Liberian flag? 
What should our policy be on the diamond issue? What should our 
policy be with regard to food aid and development? By the way, 
let me congratulate you for the President's appointment of 
Congressman Tony Hall. There's not a more capable and committed 
individual in this Congress, or frankly in the country, than 
Hall. Mr. Hall will do a great job and make you very proud. But 
how do we deal with debt forgiveness? We need to forgive debt, 
but we need to do it in a way that when the debt is forgiven 
there is a reciprocity with regard to freedom of religion, 
freedom of speech, that some things go back to the people. 
Africa is ablaze, it is afire, I mean, from AIDS, to the Congo, 
to Sudan, to Sierra Leone, to Guinea. We have to step back, and 
consinder that what we are doing, as a country, and as the 
West, really has not worked. The value of a life in Goma has 
the same value as a life in Berlin, or in London, or in 
Beijing.
    You do not have to make me a commitment, but I would like 
to think we could kind of step back, put together some of the 
very best minds, new thinking, new ideas. How do we do aid? 
What do we do with promoting democracy? How do we deal with 
debt forgiveness? What do we do? Also, I am concerned about 
terrorism. Terrorism is beginning to move. Charles Taylor has 
sheltered terrorists. Charles Taylor's people go up to Libya. 
But we need to really rethink what we are doing in Africa.
    If you look at the Ted Koppel piece on ``Nightline,'' 
``Five Days in Eastern Congo,'' he makes the point again, 2,500 
deaths a day. That is like the World Trade Center every single 
day. Many go into the bush and literally lay down and they die, 
and many who are not dying are living a life that is almost as 
bad as we can possibly imagine.
    What are your thoughts about the Congo and about how we 
should step back and maybe take a look at this whole continent 
called Africa with regard to rethinking some of the policy?
    Secretary Powell. The situation in the Congo is every bit 
the tragedy that you say it is, Mr. Chairman, and Ted Koppel 
did just a magnificent job of documenting it in his program.
    Mr. Wolf. I wonder if Letterman has ever been to Goma. 
Probably has not.
    Secretary Powell. Probably not.
    Mr. Wolf. Maybe he will go.
    Secretary Powell. I think I will stay out of the ABC----
    Mr. Wolf. I understand. I probably should have, too.
    Secretary Powell. It is a tragic situation. We are working 
with President Kabila and President Kagame and the other 
leaders in the region to try to bring an end to this conflict, 
and working with the U.N. with respect to putting in the 
peacekeepers and others necessary to try to help these 
desperate, desperate people.
    We are dealing with every one of these issues that you 
mentioned in as effective way as we can figure out. It is 
always wise to step back and take a look at the overall 
picture, but I find my day dealing with the individual pieces 
that won't wait for the overall picture to fall in place. We 
have been aggressive with respect to HIV/AIDS. We have taken 
the lead there. We have taken the lead in speaking out sharply 
against people like President Mugabe in Zimbabwe. My speech in 
South Africa last year made it clear that this kind of behavior 
and this kind of political action is no longer acceptable if 
countries wanted to progress into the 21st Century. Mr. Mugabe 
is an anachronism with the way he is going about the running of 
his country.
    I think we have been forthcoming with respect to trying to 
do something about the diamond trade and supporting actions up 
in Congress with respect to getting the diamond trade under 
control because it is such a source of income for the most evil 
purposes in Africa.
    So on each one of the issues you have mentioned we are 
working on those issues, but we can always benefit from 
stepping back and see if they are so integrated that we can 
come up with a single, overall approach that would deal with 
all of them. You do not get the kind of attention with respect 
to issues in Africa that you will in Afghanistan or Bosnia or 
anywhere else. You are quite right. Not only 2,500 people a day 
dying in the Eastern Congo, but look at how many are dying with 
respect to HIV/AIDS.
    The president of Botswana was in my office the other day 
and we were talking about it. It is a country of 1.6 million 
people with an infection rate of 38.9 percent. The average life 
expectancy has dropped from 69 to 44. This is an absolute 
pandemic. It is a tragedy. Of all 15-year-olds in Botswana, 50 
percent are infected. It cries out for more attention. It cries 
out for the whole world to do something about it. The whole 
world tends to have a difficult time figuring out how to get 
their hands around the problem.
    So I do not deny in the slightest way, Mr. Chairman, that 
you have a good idea in terms of let's step back and how do we 
take a look at this in a more holistic way. I am willing to 
explore that with you and find out what we might be able to do.
    Mr. Wolf. Good.
    Secretary Powell. But we are trying to work the individual 
problems every day, as well.
    Mr. Wolf. Well, you have to. I had the Library of Congress 
do a paper, which I will send to you, on this issue. I think 
you have to continue to meet those needs as they come, but you 
have got to--get a group of top people, experts who will care, 
and come in and see if there's something a little bit different 
we can do. Or maybe what is being done is correct, although I 
find it hard to believe what the world has done for the last 20 
years has been successful, because if that is success, my 
goodness, I would hate to see failure. But I think such an 
effort can make an impact. I will send you that paper.
    Mr. Serrano.

                     COLOMBIA AND U.S. INVOLVEMENT

    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Secretary, I want to just spend some more time with you 
on this issue of Colombia, which troubles so many people.
    Last year, when you came before the committee, I expressed 
to you my concern, and after correcting me on calling upon plan 
Colombia and changing to its new name, you assured us--and I 
believe that you meant that--that this would be for counter-
narcotic trafficking and growing issues and for democracy 
building and strengthening the law enforcement and judiciary.
    Backing up a second, prior to you coming before me, 
transcript of the hearing shows that I expressed the same 
concerns to Secretary Albright about Colombia. She went on to 
say the that Administration was involved with President 
Pastrana in trying to help him deal with the needs, the real 
needs of the FARC, and other groups, and that she and that 
Administration were trying to make President Pastrana 
understand that the bigger problem in Colombia was how to 
change the society so that certain people did not feel left 
out.
    Now, I should have prefaced my comments by saying that we 
are all fans of President Pastrana and we are hopeful that he 
is successful, but I think that those of us who feared a 
military involvement may not have been totally wrong. What we 
are hearing now, what we are reading now, is that we are now 
going to go and get involved in protecting oil fields or oil 
pipelines, and that we basically have declared again the narco 
folks, the FARCs, terrorists.
    Now, I am not suggesting that they are or they are not. I 
am only suggesting that after September 11th we Americans 
shiver at the word ``terrorist'' and identify with a group of 
people we want to get rid of. There's not a single American who 
says we should not get rid of every terrorist.
    But now it seems to some that the word ``terrorist'' could 
be loosely used to allow us involvement that we should be 
analyzing in different ways. This is a civil war. You and I 
grew up with a situation militarily where there was a civil war 
that we got involved in, and we honor all the folks that were 
there, but we spend so much time now wondering, you know, what 
was the involvement and what the involvement should have been.
    All that to say, Mr. Secretary, that we have to be careful 
not to get involved in Colombia in a civil war that we can't 
get out of.
    Secondly, if we have accomplished one thing, it is that 
people who usually opposed our involvement in Latin America 
have been kind of quiet for the last ``X'' amount of years 
because we have not been behaving that way. We may wake a lot 
of folks up in Latin America who now feel that, ``Here they 
come again using their military force.''
    I do not know who the good guys are in Colombia. Maybe that 
is where I open myself up to getting hit over the head by you. 
You do that in a very diplomatic way, I know. I do not know who 
they are. I know there's a government, a government that still 
cannot get rid of its involvement with the paramilitary group. 
I know there's narco traffickers on all sides of the issue. I 
know there's an insurgency group that brings pain to the people 
in the name of trying to bring a change in government. I know 
governments who traditionally bring pain to the people also.
    So I cannot figure it out, and I try to read it every day 
in English and in Spanish. I am wondering how some folks are 
figuring out somewhere else. So could you tell us how close are 
we to military involvement, and could you tell us what would be 
the reason for allowing our troops to be used in Colombia?
    Secretary Powell. There are no plans that I am aware of--
and I think I am aware of all plans--that involve the possible 
sending or use of American military units to Colombia to deal 
with the problem they have. Colombia is a friend to the United 
States. President Pastrana we all admire. There will be a new 
president by late summer.
    Colombia is fighting for its democracy. It is fighting for 
its right to have a legitimate, democratic form of government. 
It is under assault by narco traffickers, and it is also under 
assault by organizations such as the FARC and ELN, especially 
the FARC that has been after Colombian leadership for many, 
many years.
    President Pastrana boldly tried to resolve this with the 
creation of the safe havens in the hope that this would 
encourage the FARC and the ELN to negotiate seriously. There 
was doubt that this would be successful. And President 
Pastrana, after giving it his all, came to the conclusion that 
they would not negotiate in good faith, that this is not the 
solution to the problem, and he ended the safe havens.
    He is now faced with having to deal with these 
organizations which we have designated as terrorist 
organizations. Our policies to this point--as I have said to 
you last year, we have been faithful to that--have been to use 
Plan Colombia and the Andean Regional Initiative, or ACI, as it 
is called, for counter-narcotic purposes, and we have stayed 
within the letter of the law with respect to that.
    This year we continue to stay within the letter of the law, 
but we introduced a new element to protect the pipeline, 
because this was a pipeline that was being shut down on a 
regular basis and was affecting the basic economy of Colombia. 
It was reasonable for a democratic government to be able to 
protect the pipelines. We did not think that this did violence 
to anything we have said to the Congress previously and it was 
a smart thing to do.
    But the safe havens are now gone, and President Pastrana, 
and I believe whoever will replace President Pastrana, is in a 
conflict with the FARC. There are some things we might be able 
to do with the ELN. I believe it is reasonable for us to take a 
look at our policy in light of this changed circumstance, and 
that is what we are doing.
    It may be necessary--and the President has made no 
decision, has received no recommendation--it may be necessary 
for us to give the government of Colombia additional support 
that is outside the counter-narcotics facet to enable them to 
deal with this threat to their survival as a nation, this 
threat to their economic well-being, and once we have completed 
this review, we will come up to the Congress and ask for 
whatever we believe is necessary.
    Right now we are staying within the limit of the law, but 
it is clear that the kinds of things that we are being asked to 
provide to assist the Colombian government, such as more 
intelligence information, things of that nature, that will 
quickly run into the wall, the legislative wall that is there, 
and that is what we are examining--what more is it appropriate 
to give them so that they can defend their nation?
    We also have made it clear to President Pastrana and will 
make it clear to the future president of Colombia that if 
paramilitary forces are given a free hand, this is destructive 
of our effort to help you, and we particularly mean that with 
respect to AUC, as it is called, the umbrella organization. We 
made it clear to them, and they have assured us that they 
understand it and they are not going to give the paramilitary a 
free hand, because that is also destructive of their democracy.
    So this is what we are looking at now. We are reviewing our 
policies to see what it would be appropriate to do in order to 
assist this nation in its war.
    Mr. Serrano. Well, I would hope, Mr. Secretary, that, as 
you have stated here today, that if there is a move to involve 
us in any other way, that there is consultation with Congress, 
so that at least the American people can hear a full debate on 
this issue.
    Lastly, I understand--we all do, especially representing an 
area like I do in New York--that the issue of drug trafficking 
has always been a problem, but nowhere in our history, recent 
history that I can remember, have we said that that merited 
getting involved in a civil war. So when I hear the word 
``terrorist,'' I think of the World Trade Center. I think of 
Bin Laden, the al-Qaeda, and so on. Incidentally, so that we 
understand something, I voted against this when it came up in 
appropriations when President Clinton had his administration. I 
told President Clinton at that time that I felt we would get to 
this point and that he was making a mistake. So I want to make 
clear that I have disagreed with both Administrations on this.
    When this Administration now says, ``These folks are 
terrorists,'' should the American people assume that what the 
Administration is saying is they are terrorists in the same way 
those other folks are terrorists, that they present a physical 
threat to us? The drug threat we know about, but are they 
thinking of bombing us in some way and is that why we are 
calling them terrorists, or are they attacking us physically?
    Secretary Powell. I do not know that they are going to 
attack us physically, but with respect to their being 
terrorists there's no doubt in my mind. When an organization 
such as the FARC says it is interested in negotiations, but at 
the same time is hijacking airplanes to take elected 
representatives off the airplane, when they take a female 
Senator of Colombia, an elected representative who is trying to 
help people, and they murder her, they are terrorists, and it 
is terrorism that threatens stability in Colombia, and if it 
threatens stability in Colombia it threatens stability in our 
part of the world, in our neighborhood, in our back yard, and I 
think that is something that should be of concern to us, and 
that is why I think we have an obligation to review our 
policies and to see what else we might have to do that changes 
the line that is currently there in order to help the Colombian 
government.

                   NEW CHALLENGES FOR FOREIGN POLICY

    Mr. Serrano. I have one more question I want to ask on a 
separate subject, but, once again, I meant it seriously when I 
said that I always see you as a calming voice. Both in Spanish 
and in English, I hope you pay close attention to what some 
people may be saying.
    And, with all due respect, as far as terrorists go, there 
are some people who hijacked planes in Cuba and now live 
peacefully in Miami, and we have never called them 
``terrorists,'' so those issues become bigger issues.
    Our foreign diplomacy has always been geared towards 
dealing with governments and nations. Now it seems that the 
world changed September 11th. Maybe it was changing before that 
and we hardly noticed, but now there are people outside that 
understanding of nations and governments. Bin Laden is a fine 
example of that. He's neither a nation or a government, but he 
causes havoc on the world.
    How will you see our foreign diplomacy changing in order to 
deal with that issue? And are the tools we had in the past 
still relevant to what we are doing today?
    Secretary Powell. I think they are still relevant, but will 
have to be used in new and different ways and we will have to 
come up with new tools. You are quite right. The days of seeing 
a clear enemy on the other side of a boundary and that is who 
is going to attack us is not the case any more. There is no 
superpower out there that we should see as an enemy right now. 
They just do not exist, fortunately. That is the good news. 
That is the great news.
    But we find these trans-national kinds of threats. al-Qaeda 
is neither a government nor a state as we know it, and, 
nevertheless, it is an enemy. I mean, it attacked us. It 
violated our sovereignty and killed several thousand people at 
the World Trade Center and the Pentagon.
    How do we go about it? One, intelligence, law enforcement. 
But one of the principal ways we have to go about it, which 
falls into my area of foreign policy, is to make sure that any 
nation that wants to be a friend of ours, any nation that 
claims to be an ally of ours has to make sure that they are 
following policies that make it inhospitable, impossible for 
such organizations to find haven and succor in their country. 
That is what the President meant when he said we have to go 
after those who are giving haven. That is why we went into 
Afghanistan. That is why we went after the Taliban. The Taliban 
was given a chance to stop it. They said no. And that is why 
the nations that develop weapons of mass destruction that could 
fall in the hands of terrorists have to be nations of concern 
to us.
    And so we have to use foreign policy in relations with 
other nations and governments to make it clear to those nations 
and governments that they have to take action that cause their 
nations not to be havens and places of comfort for these trans-
national threats that now exist in the presence of terrorists 
who are looking for nations where they can find a corner to 
hide in or a financial system to exploit or the lack of an 
intelligence system to take advantage of.
    That is, I think, one of the new challenges for American 
foreign policy.

                     WINNING SUPPORT IN AFGHANISTAN

    Mr. Serrano. Without details, obviously, are we involved in 
Afghanistan in trying to, at the same time that we do what we 
do, win support from the folks for future endeavors?
    Secretary Powell. Yes, we are. Our public diplomacy efforts 
are active there, the fact that we are going to help them train 
their police force and army I think shows that we are 
interested in a better future for the Afghan people, our 
humanitarian efforts, that we are the largest provider of food, 
we support their mine-clearing programs. We are doing a lot, I 
think, that will cause the Afghan people to see that we come in 
friendship.
    The point that the chairman made earlier that we get a bum 
rap, you know, it was United States armed forces that went to 
help Muslims in Kuwait in 1991. It was not America that invaded 
Kuwait, it was another Muslim country that invaded Kuwait. We 
went to Kosovo for the same reason. We went to Afghanistan for 
the same reason. But sometimes people forget to give us credit 
for that or we forget to claim credit for it, as we should. We 
have not invaded any Muslim countries with the purpose of 
taking it over. We have not tried to overthrow any Muslim 
regime. They ought to look at other enemies to Muslim causes, 
not the United States.
    Mr. Serrano. Mr. Chairman, I want to close and join you in 
your opening comments in congratulating Secretary Powell and 
this Administration. My city was the center of the pain, and 
your leadership and the President's leadership has been 
something that we have valued and found comfort in in New York 
City, and I thank you.

                   U.S. INVOLVEMENT IN LATIN AMERICA

    Secretary Powell. And if I may have one final word, Mr. 
Serrano, you mentioned in the course of your remarks earlier 
about some who have been rather quiet about U.S. involvement in 
Latin America, as opposed to, shall we say, 15 years ago, when 
I was deeply involved, and you recall those days. And I am 
still kind of proud of the fact that America's efforts and 
willingness to get involved produced change in El Salvador and 
Nicaragua that turned out to be for the better.
    Mr. Wolf. Mr. Young, chairman of the full committee.

                  Remarks of Committee Chairman Young

    Chairman Young. Mr. Secretary, welcome.
    Secretary Powell. Mr. Chairman.
    Chairman Young. I apologize that other commitments have 
kept me from attending a full hearing today, but I did want to 
come by for just a few minutes and pay my respects to the 
American who assumed this tremendous responsibility in one of 
the most challenging times in the world's history, and to say 
that I believe you have done a really good job. I think you 
have represented our country well. And I just wanted to come by 
and say those few words to you, because we are really proud of 
what you have done.
    Secretary Powell. Thank you, Mr. Chairman, and thank you 
for your support of the Department's efforts.
    Mr. Wolf. Mr. Miller of Florida.

                     Extradition Issues with Mexico

    Mr. Miller. Mr. Secretary, I appreciate Mr. Young coming 
over just to make those statements, because you really do make 
us proud of this Administration and proud of the job that you 
have done after September 11th.
    One brief comment, something I brought up last year, Boys 
and Girls Clubs. We both share an appreciation of the job they 
do. It was dropped out of the budget last year by the 
Administration. Through Mr. Wolf we got it back in last year. 
But they included it this year, so thank you, because you have 
given that moral support. We appreciate that.
    Let me first ask a question about extradition issues. I 
admire the great job that the State Department does. Last year 
I ended up working with families over here that are trying to 
get someone accused returned. I worked with the family of Holly 
Maddox, who was brutally murdered in Philadelphia in 1977. Last 
year, Ira Einhorn was returned from France to stand trial in 
Philadelphia. It was a lot of work by a lot of people in 
Justice and State that you never read about or hear about, and 
it just happens very suddenly, but apparently the French 
government was very cooperative.
    Since September 11th, the European Union has apparently 
developed an extradition within their countries to make it just 
like extraditing someone from Florida to Missouri.
    How I got involved in this originally was because of an 
issue of a horrible murder in Sarasota in 1997 of a young 
mother of six, including quadruplets who were two years old. A 
hired killer drove from Texas to Sarasota and shot her twice, 
slit her throat twice, fled to Mexico. He's a U.S. citizen, 
born and raised in the United States.
    He eventually came back to the United States and was 
convicted--or pled guilty, actually, serving a life sentence. 
But the problem was we had to waive the death penalty, and so 
with Ira Einhorn, but the question is: the Mexican Supreme 
Court has recently ruled that the life sentence is, I guess, 
cruel and unusual punishment. It has a real threat to our--
because of the huge border we share with Mexico, and we are 
going to have a safe haven for criminals now with terrorism and 
drug dealers that would have--especially U.S. citizens to be 
extradited and to use the excuse of life sentence. I read in 
``Newsweek'' and ``The New York Times'' as many as 70 people 
are being delayed extradition for that.
    What can you tell me as where we stand on that issue--I 
know President Bush and you will be going to Mexico later this 
month--that we can do to address this concern, because we all 
agree we do not, with that huge border, have that safe haven in 
Mexico for criminals.
    Secretary Powell. This is an issue that I raised directly 
with Foreign Minister Castenega, the action of the Mexican 
Supreme Court last fall, which has thrown this whole issue into 
some turmoil.
    I do not think it is quite 70 cases that have been caught. 
It is a lesser number. And we have told them we cannot give 
assurances that there will be no life sentence, that it would 
be inconsistent with our law and with the laws of the several 
States.
    The Mexican government is very sensitive to this issue, 
and, frankly, Mr. Miller, I think we are working out ways to 
deal with this problem a case at a time, and there are some 
clever legal ways that one can work this issue so that we can 
get the extradition taken care of. And so this has high 
priority within the Department and within the Administration, 
high interest on the part of the Mexican government to make 
sure that we do not stop appropriate extraditions, but we have 
to use some clever legal means to make it happen.
    Mr. Miller. I hope we can have a more general policy with 
the Mexican government rather than have to do it case by case.
    Secretary Powell. We expect that, as a result of 
conversations I have had with Foreign Minister Casteneda and 
conversations between our Justice Department and our Justice 
officials and the commitment of the Mexican government, I 
expect that there is a way to resolve this as a general matter 
over the next couple of years.

                      VIOLENCE IN THE MIDDLE EAST

    Mr. Miller. Thank you very much.
    Let me ask one other line of questioning, and that is the 
Middle East. That has to be your frustration and your 
predecessor's great frustration, what's happening there. Of 
course, it is the front page news, sadly, day after day after 
day. I will just take a couple minutes, because we do not have 
too much time.
    How much control does Arafat have in that country? He's 
under house arrest. Who is running that country, or the 
Palestinians?
    Secretary Powell. Mr. Arafat is the elected head of the 
Palestinian authority, and he is clearly the leader of the 
Palestinian people. He is seen by the Palestinian people as 
their leader, so that makes him their leader, however others 
might wish it otherwise. And since he claims this leadership 
mantle, it seems to me he has the responsibility to bring under 
control those organizations in the Palestinian movement that 
are conducting these acts of violence, these acts of terror, 
these horrible acts that fill our screens every single day.
    No issue is of a higher priority to the United States, and 
there is no issue that I spend more time on than on this one, 
and we are encouraged by new initiatives that come along, such 
as the initiative that came from Crown Prince Abdullah of Saudi 
Arabia, suggesting that in due course, if we can get a 
settlement to the crisis, then we can get all Arab nations to 
recognize Israel and normalize relations with Israel once we 
can determine what the Israeli withdrawal will be and what the 
new boundary will be between the State of Israel and a 
Palestinian State.
    And, of course, President Mubarak was here this week, and 
he had an idea that perhaps we could get the two sides to sit, 
Mr. Sharon across the table from Chairman Arafat, and begin 
discussions. There were lots of ideas.
    We have had ideas out there. The President's statement at 
the U.N. last fall calling for the creation of a Palestinian 
state called Palestine, no American president has said that 
before. I gave a speech in Louisville that laid out in a very 
comprehensive way the American view and laid out in a very 
comprehensive way what both sides had to do and what both sides 
had to stop doing in order to move forward.
    And so we have had a lot of initiatives, a lot of ideas. 
They have all not worked so far because the violence continues. 
And you can come up with all the ideas in the world, but until 
the violence ends you are not going to move forward, and the 
violence has to end, and it has to end as soon as possible.
    We need to find a way to get into what is called the 
``Tenet work plan,'' which is a plan that George Tenet, our CIA 
director, worked out with both sides last year as a way to get 
them into the Mitchell process, the Mitchell plan. The Mitchell 
plan leads to a political discussion on the basis of U.N. 
Resolutions 242 and 338, but to get started the violence has to 
go down, so I am anxious to see both sides to do everything 
they can to bring down this tension, to bring down this level 
of violence so that we can get into the Tenet work plan, and 
both sides through this Tenet work plan can begin to work with 
each other and bring security to individual sections within the 
region and then the whole region so that there can be 
confidence-building measures undertaken as called for by the 
work plan and by the Mitchell plan and get back to 
negotiations.
    Both sides are following policies right now that will just 
lead to more violence, and it is a tragic situation, and the 
President is committed to doing everything he can to see that 
we can get into a process of discussion which will bring the 
violence to end, bring a cease-fire into place, and then get 
into peace discussions.
    Mr. Miller. Just reading a paper, I have not been there for 
several years now, but, I mean, Mr. Sharon is talking about 
just having to kill more Palestinians. That is what we are 
going to do. The Palestinians are saying we are going to kill 
more Israelis. I do not know how the Palestinian area even 
continues to survive. They are treated as second-class 
citizens. Now there's vigilante groups--it sounds like possibly 
Israeli vigilante groups that blew up a school, and the mayor 
says, ``Well, they are second, you know. We will only respond 
to them after we take care of everything else.''
    Well, you know, the roads are blocked. There's no commerce 
within the West Bank or Gaza. I am not sure how Mr. Arafat is--
house arrest, and he's symbolically the head of it, and how he 
can really function.
    Secretary Powell. He may be under restraints. He cannot 
move around freely. But he has the ability to call people or 
talk to people and give instructions, so I think he can do more 
and he should do more.
    Mr. Miller. I think Palestinians are second-class citizens 
over there, not the Israeli citizens but the Palestinians.
    Secretary Powell. Well, in this condition of violence 
everybody is a second-class citizen when you cannot even go out 
for an evening walk without worrying about a bomb going off and 
killing you. Yes, the Palestinian people are having--are under 
enormous difficulty right now, with their inability to get to 
jobs, their inability to conduct commerce, and all of these 
problems can be on the way to resolution with the ending of the 
violence, and Mr. Arafat has to do more. He can do more. He 
must do more. And I think at the same time Prime Minister 
Sharon has to take a hard look at his policies to see whether 
they will work. If you declare war against the Palestinians and 
think that you can solve the problem by seeing how many 
Palestinians can be killed, I do not know that that would lead 
us anywhere. Right now I am not satisfied that both sides have 
thought through the consequences of the policies they are 
following. They need to take a hard look at what they are doing 
now and find a way to get into the Tenet work plan as quickly 
as is possible.
    Mr. Miller. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Mollohan.

               FY 03 REQUEST FOR PEACEKEEPING ACTIVITIES

    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Secretary, I would like to welcome you.
    Mr. Secretary, just a couple questions regarding 
peacekeeping. I notice that your request for $726 million was a 
decrease. It does not seem adequate to me. How does this deal 
with the arrearages issue?
    Secretary Powell. Well, the decrease is a function of a 
lesser demand, lower assessment rates, termination of 
operations in Bosnia anticipated, reduction of operations in 
East Timor and Sierra Leone, and we assume that the rate cap 
will be lifted. If the cap is not lifted, then we may have to 
come in for more money.
    Mr. Mollohan. Well, how does it deal with--let me get back 
to the arrearages. Do we have an arrearage?
    Secretary Powell. Yes.
    Mr. Mollohan. About $318 million?
    Secretary Powell. Yes.
    Mr. Mollohan. Does this deal with the arrearage at all?
    Secretary Powell. No. We still have an arrearage.
    Mr. Mollohan. And how are we dealing with that?
    Secretary Powell. We have just finished paying our second 
tranche of $582 million, and it was always this arrearage that 
was left, and we really have not dealt with it. I want to work 
with the Congress in trying to get rid of the cap, which keeps 
the arrearage from continuing to build up, and then figure out 
a way of how to work off this last debt that we have to the 
United Nations. But I am anxious to get the cap lifted so that 
that does not increase.
    Mr. Mollohan. Where is the problem in lifting the cap? I 
mean, is the United Nations not doing something that Congress 
requires, which keeps arrearages from being dealt with? Do you 
have an authorizing problem? Talk about that issue and where 
the problems are.
    Secretary Powell. I do not know that there is anything left 
for the U.N. to do that it has not done that we are not 
satisfied with. The only thing right now is we have to get the 
cap lifted in the authorization bill. It is in the Senate 
version of the authorization bill, and we are still trying to 
lift that cap. But I think it is just a question of coming to 
grips with this final bill. It was all we could do last year to 
get the $582 million dealt with.
    Mr. Mollohan. What does that mean, it is all you could do 
last year to get it dealt with? It is all you could do to get 
that much money out of the Congress?
    Secretary Powell. To tie all the bows and check all the 
boxes and make all the pledges and all the other things that we 
had to do to satisfy the Congress that this was a smart thing 
for Congress to do. And I must give credit to Ambassador 
Holbrooke, my predecessor at the U.N., who pulled this all 
together and managed to satisfy the various constituencies in 
the Congress that it was time to get that bill taken care of, 
but there was still a remaining bill.
    Mr. Mollohan. Well, is it not time to pay the remaining 
bill, all the bows tied up and is it not time to get that 
remaining bill----
    Secretary Powell. I would love to get the cap lifted and 
all of the arrearages paid off.
    Mr. Mollohan. How do you get the cap lifted? What do you 
have to do?
    Secretary Powell. I need the House to authorize the lifting 
of the cap and for it to go through the conference process and 
come out the other end in the overall State authorization bill.
    Mr. Mollohan. So this budget does not anticipate your being 
successful in getting that cap lifted, does it, because you are 
not requesting the money----
    Secretary Powell. This budget assumes that the cap will be 
eliminated. It will go from 25% to 27%.
    Mr. Mollohan. Okay. So you assume to pay these arrearages 
in this request. Is the arrearages request contained in the 
$726 million?
    Secretary Powell. No.
    Mr. Mollohan. Then where is it?
    Secretary Powell. It is not in this submission.
    Mr. Mollohan. Then how does the budget anticipate----
    Secretary Powell. The budget does not reflect the 
elimination of arrearages.
    Mr. Mollohan. Okay. I am sorry. You probably misunderstood 
my question or I----
    Secretary Powell. I want to make sure I am saying it right.
    Mr. Mollohan. What I thought I asked was: does this budget 
anticipate the cap being----
    Secretary Powell. The budget anticipates the cap being 
lifted, but it does not request the money, because the 
arrearages money has already been appropriated.
    Mr. Mollohan. Where? Where is it?
    Secretary Powell. It is in previous appropriations.
    Mr. Mollohan. And carried?
    Secretary Powell. And carried forward, but we cannot finish 
it off----
    Mr. Mollohan. So you are just holding it pending----
    Secretary Powell [continuing]. Until we deal with the cap.
    Mr. Mollohan [continuing]. Authorization.
    Secretary Powell. Yes. It is an authorization issue. The 
funds were previously appropriated.
    [Secretary Powell consulting with aide.]
    Mr. Mollohan. If it is not quite right, maybe you can 
expand on that for the record.
    Secretary Powell. Yes.
    Mr. Mollohan. On to the adequacy of the $726 million for 
the peacekeeping missions that are ongoing, you have assumed a 
decrease, as I am reading this justification, in almost every 
one of the missions. Is that realistic? The U.N. is not going 
to continue anything in Bosnia, and all these other missions 
are going to decrease as you have reflected here?
    Secretary Powell. This is what we assume to be the case. If 
it turns out not to be the case, then we will have to come back 
to you.
    Mr. Mollohan. Well, I understand that.
    Secretary Powell. Yes.
    Mr. Mollohan. But the question is: is it realistic that we 
are going to be decreasing these missions in every one of these 
areas?
    Secretary Powell. Yes, I believe it is realistic.
    Mr. Mollohan. That would be great. That would reflect a lot 
of progress in many areas around the world.
    Secretary Powell. Well, there has been progress. For 
example, in East Timor, and especially Sierra Leone, the bulk 
of the work in Sierra Leone with respect to that peacekeeping 
operation and the collection of weapons has gone rather well, 
and so I think these are reasonable savings--or ``reasonable 
reductions'' is a better way to put it. But, you know, you 
cannot anticipate a new mission coming along or one suddenly 
expanding, in which case we will have to come back to you.

                   FY 03 REQUEST FOR PUBLIC DIPLOMACY

    Mr. Mollohan. I was just kind of surprised. Maybe the 
chairman will have detail on that.
    It is clear that we are not communicating adequately on a 
number of different levels with the Arab world. How does this 
budget address that issue? I mean, do you agree with that? I am 
sure you do, and you might talk about that a little bit and 
talk about how your budget addresses that. I am looking at a 
couple of areas here. The public diplomacy programs, $5.3 
million is about level funding. It says you expand the services 
in the Office of Broadcasting. Just as a starter, would you 
talk about that premise a little bit?
    Secretary Powell. I spoke about it earlier, but you are 
absolutely right that we have to do a better job of getting our 
message out, especially to Muslim Arab populations, and we do 
have an increase in public diplomacy. It is not as great as I 
would like, and we may well be coming in with more in a 
supplemental request that we are currently discussing with the 
Office of Management and Budget, and we have to do a better job 
of conveying our value system to the Muslim world, letting them 
know again that it is the United States who came to the rescue 
of Kosovo and Afghanistan and Kuwait, Muslim countries that 
were not invaded or attacked by the United States but were 
attacked by others.
    Mr. Mollohan. How are we doing that?
    Secretary Powell. Just by saying so and by putting out more 
and more people, by putting more and more people on Arab 
television and Arab radio, by putting more and more articles in 
Arab newspapers. We have a station opening up in the region 
that will convey our message more effectively.
    Mr. Mollohan. Who is opening that up?
    Secretary Powell. We are with a public/private venture.
    Mr. Mollohan. Not out of one of the radio----
    Secretary Powell. I do not think--no, it is a separate 
account--BBG, Broadcasting Board of Governors operation.

          FY 03 REQUEST FOR CULTURAL AND EDUCATIONAL EXCHANGES

    Mr. Mollohan. In cultural and educational exchange 
programs, which I think would be a natural complement to 
broadcast----
    Secretary Powell. Yes.
    Mr. Mollohan. You are requesting a decrease in the 
professional and cultural exchanges of $3.3 million, a bit of 
an increase in academic--actually, it is not an increase. It 
would be level funding, at best. In exchange programs it would 
be level funding, as well.
    Secretary Powell. On overall educational exchanges, it is 
not quite level, a slight increase of $8 million by my numbers.
    Mr. Mollohan. Well, I would say that would be virtually 
level funding with inflation. But these are wonderful programs. 
Hamid Karzai, I understand----
    Secretary Powell. He was.
    Mr. Mollohan [continuing]. Was a participant in one of 
these programs.
    Secretary Powell. He was a participant in one of the 
programs, and I could not agree with you more. These 
educational and cultural exchange programs, the Fulbright 
program, these are all wonderful efforts, as well as, for 
example, IMET--International Military Education and Training. 
We have increased that, as well. These are terrific ways of 
bringing young potential leaders to the United States, exposing 
them to our value system, letting them live here.
    Mr. Mollohan. Why don't we expand on that?
    Secretary Powell. Well, we have been expanding. I mean, 
there are limits. I would love to triple it. If you want to 
triple it, go ahead.
    Mr. Mollohan. Well, I think it would be delightful to 
triple it, but I think the question is what do you want to do?
    Secretary Powell. I want to increase them and we have 
increased them and I am going to try to increase them more in 
the years----
    Mr. Mollohan. Did you ask OMB for more money in these?
    Secretary Powell. We got more money. It is a slight 
increase.
    Mr. Mollohan. Well, I know. That did not quite answer my 
question.
    Secretary Powell. Yes, it is.
    Mr. Mollohan. Did you ask OMB for more?
    Secretary Powell. We asked and we received an increase.
    Mr. Mollohan. You received what you got? So, in other 
words, you wanted an $8 million increase and that was all?
    Secretary Powell. I do not know what we requested. I would 
have to go in and find out.
    Mr. Mollohan. I am not trying to catch you on it, I am just 
trying to----
    Secretary Powell. No, it is not a catch, Mr. Mollohan, but 
everything competes with something else, and when you go in and 
you try to get an increase in every single account--and I would 
love for this budget not to be $26 billion, I would love for it 
to be $46 billion, but it is not, cannot be $46 billion at this 
time. Maybe if I stay long enough I can get it up there.
    Mr. Mollohan. You know, in the war on terrorism the 
competition is huge and maybe it is not this program. Maybe you 
are asking to fight back more some place else by making the 
funding more robust. And I have not looked at every one of the 
accounts, so this line of questioning is my way of expressing 
my feeling that----
    Secretary Powell. No, I----
    Mr. Mollohan [continuing]. This is an area that we ought to 
be doing a whole lot more, and these exchange programs are 
wonderful programs.
    Secretary Powell. I could not agree with you more, Mr. 
Mollohan.
    Mr. Mollohan. Let me join all my colleagues in telling you 
how I admire what a good job you are doing. We appreciate your 
efforts.
    Thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Mollohan.
    We are going to recognize Mr. Obey and then Mr. Cramer. I 
apologize to Mr. Cramer. I think it has been a good practice to 
always recognize the chairman and the ranking member because 
they have 13 different committees to go to and subcommittees, 
but Mr. Obey and then Mr. Cramer and then Mr. Vitter.

                Remarks of Committee Ranking Member Obey

    Mr. Obey. Well, thank you, Mr. Chairman.
    I do apologize, Mr. Chairman, for not being here earlier. I 
have been across the hall with Secretary Thompson, who was also 
my former governor, so we had to do first things first.
    Mr. Secretary, I hope you do not take my comments the wrong 
way. There are lots of questions I would like to ask you on 
policy, but there is a more overriding concern I have this 
morning, and so I think I am just going to get something off my 
chest.

                  FY 03 ADMINISTRATIVE BUDGET REQUEST

    As you know, last year the administrative budget of the 
State Department was increased significantly, a 14 percent 
increase, going from $3.2 billion to about $3.7 billion. And, 
as you know, I was strongly for that. I urged my colleagues to 
provide just as much as humanly possible, because I thought 
that your agency had been under-funded for years.
    This year you are asking for 399 new positions and an 8 
percent administrative budget increase over last year, and I 
want to tell you I do not support that this year. It is as you 
say--every dollar that you put in this budget somewhere is 
accompanied by a dollar that has to be taken out.
    At the risk of offending the former Old Miss cheerleader on 
the Senate side, I am going to dare to suggest that the 
allocation of resources between what we are doing abroad and 
what we are doing at home might just not be plum perfect in the 
White House's budget. And if the cheerleader from Mississippi 
is going to hyperventilate over that, that is tough, but I want 
to get something off my chest.
    I am an internationalist. I believe very deeply that we 
need to be doing more than we are doing in a variety of areas. 
But the Marshal Plan was not sold at a time when we were 
clobbering domestic expenditures. The American public, even 
though public opinion polls were never positive in terms of the 
Marshal Plan, nonetheless the American public tolerated it as a 
grace note because they thought that their at-home needs were 
being tended to.
    I think there are a number of needs that are not being 
tended to at home which relate to our ability to marshal public 
support for national security expenditures and international 
expenditures. Example: homeland security. I am still steaming 
over the fact that last year the White House had to be dragged 
kicking and screaming into supporting additional homeland 
security funding above their own request, including 
bioterrorism preparedness funding. The President personally 
told me that if we passed one dime above the amount that the 
Administration asked for, he would veto our homeland security 
efforts last year. I think that was profoundly reckless, given 
the threats that were described to me by a number of agencies, 
including your own.
    In addition to that, I take a look at some other actions 
that are being taken by the Administration in its budget. Both 
political parties posed for political holy pictures supporting 
NIH. That is a nice, popular, politically sexy account. But 
then the White House budget cuts $1.4 billion from other health 
care programs. I do not think that kind of budget is going to 
marshal support for our providing more money for foreign aid. I 
think it is going to diminish public support for it.
    I firmly believe that we ought to be doing more to provide 
additional help for Third World countries with respect to their 
education problems and their health problems, but it is going 
to be hard as hell to convince the American public to do that 
when we are slashing the rate of increase in support for 
education that we had the last five years in this budget and 
when we are gutting programs like world health. The districts 
in this country where we need the biggest increase in public 
support for international activities are rural districts, and 
politically a practical fact is we ain't going to get that 
support from people if they see their own needs being short 
sheeted.
    So I just wanted to make that point because, as you say, 
nothing occurs in isolation, and in my view we are being set up 
in the Congress so that we are forced to choose between 
providing additional funding for international activities or 
additional funding for education and health care and job 
training, and we are forgetting the third part of the equation. 
I know we are not supposed to talk about taxes, nasty word, but 
the fact is these three numbers--and I recognize you are not 
making these decisions, but I am going to get this out every 
chance I get. These three numbers represent what has happened 
economically in this country over the last 20 years to after-
tax income. The top number is $400,000. That is the amount by 
which the most well-off 1 percent of people in this country 
have seen their after-tax income increase over a 30-year 
period. The $3,400 figure below that is the amount by which the 
American who is exactly in the middle of America's income 
stream, that is the amount by which their after-tax income has 
risen over the last 30 years--$3,400 as opposed to $400,000. 
And then, if you are unfortunate enough to fall in the bottom 
20 percent of people in terms of income in this country, over 
the last 20 years you have actually lost $100 in terms of real 
income after taxes.
    And yet, if you take a look at that tax cut that was passed 
last year, when fully effective that tax package will provide 
the folks who have already over the last 30 years had an 
average of $400,000 increase in their after-tax income, they 
will wind up with a $52,000 tax cut. The folks in the middle, 
who have seen their income rise by $3,400 over that same 
period, will have a $600 tax cut. And one-fourth of the people 
who have already lost ground will get absolutely nothing 
because they do not make enough to quality under the tax cut 
that Congress passed and the President signed.
    In my view, that is the context in which we are going to 
have to deal with all of the requests for defense, for foreign 
aid, education, you name it, and it seems to me--I know that 
some people are as offended when we talk about delaying 
scheduled tax cuts for this 1 percent at the top of the 
economic heap--and, incidentally, you have to make $330,000 a 
year to be in that top 1 percent. Not bad. But I know some 
people are offended when we talk about delaying tax cuts for 
those folks so that we can afford to do more of what you think 
we need to defend the national interest and more of what we 
think we need to do to strengthen us here at home, including 
education and health and homeland security.
    So I just wanted to put that on the table. It is beyond 
your jurisdiction, and I do not expect to debate you on it 
because it is the White House, OMB, and the other wizards in 
this town who are setting that policy. But I think this is a 
warped result which is going to result in squeeze on a lot of 
programs, including the administrative budget for which you are 
asking an increase to finance 399 new positions.
    I want you to understand why I think it is a different ball 
game this year than it was last year in terms of your budget 
request for administrative purposes.
    Thank you, Mr. Chairman.
    Secretary Powell. Thank you, Mr. Obey.
    Mr. Wolf. Thank you, Mr. Obey.
    Mr. Cramer.

                          EMBASSY CONSTRUCTION

    Mr. Cramer. Mr. Secretary, I want to add to the chorus of 
welcomes as well. I have been impressed with your leadership at 
the Department and especially since September the 11th. I have 
always enjoyed working with you and look forward to the day 
when we might interchange over issues that I brought up last 
year.
    Last year I talked to you about our embassies and security 
at our embassies, and you laid out for me and then sent General 
Chuck Williams to see me--most impressive plan with our 
security issues at our embassies. I am sorry I was not here for 
your testimony, but I read through the detail that you are 
offering there.
    I would like you to be a little more specific about what's 
coming on line. Thirteen facilities coming on line? What does 
that mean? Give me some examples of what we have accomplished 
specifically in the last year with regard to security.
    Secretary Powell. I would like to give you a more fulsome 
answer for the record, but let me just say that General 
Williams, in the course of the last year, has managed to reduce 
overall construction cost of embassies, new embassies, by about 
20 percent. One embassy in Beijing that we were building that 
was of great concern, he has been able to really reduce the 
cost of that embassy considerably. He is trying to do a better 
job of matrixing new embassies so that you have common 
components with respect to powerplants and other facilities 
that you can repeat embassy after embassy and not reinvent it 
with every new embassy building that you design, some common 
components with respect to embassy construction.
    Mr. Cramer. Now, does his plan take into consideration 
sites where we already have our embassies located and what we 
might do to improve those sites----
    Secretary Powell. Yes.
    Mr. Cramer [continuing]. Or is this mainly for new 
construction?
    Secretary Powell. No. He's put together a master plan that 
includes new construction as well as upgrading facilities in 
existing sites, such as the couple that I have referenced in my 
documents this morning. Kingston, Jamaica, is an example where 
we are upgrading a number of sites. It includes not only new 
construction, but, as well, it includes security-driven 
projects, things that have to be done because of security, not 
necessarily new construction, as well as redesign fit out of 
newly-acquired buildings. Bridgetown, Barbados; Kingston, 
Jamaica--newly-acquired buildings; design and construction of 
annexes in Athens, Tirana, Almaty, Albania, and Moscow. Then 
there are security-driven projects in Astana, Kazakhstan, 
Bamako, Mali, and in Panama City. He's got a master plan which 
I do not know if he's had a chance to provide to you or not, 
but a master plan of exactly what we are going to do for the 
next five years on the basis of new construction, on the basis 
of upgrades, on the basis of security-driven projects, and new 
office buildings, and presence facilities that we have talked 
about.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Cramer. I have not evaluated your budget, but your 
budget takes into account those new designs, those new plans, 
and new facilities, as well?
    Secretary Powell. Yes. Yes, it does.

                           EXCHANGE PROGRAMS

    Mr. Cramer. I want to echo some of the remarks of Mr. 
Mollohan about the exchange programs and the budgets for those. 
I have co-chaired with Roger Wicker a Russian leadership 
exchange program which I think has gone incredibly well, where 
we have brought young potential Russian leaders here to the 
United States, gotten Members of Congress--I think some 20 to 
30 Members of Congress that have sponsored those groups that 
have gone all across our country, settling into our 
communities, going to church with people, visiting business 
people, looking at land issues, school issues, all kinds of 
issues. Now, that program is not funded out of your budget, but 
it is funded out of another budget, so I think there are ways 
that we could incorporate these programs. But I also want to 
emphasize that I think these are programs very much worth of 
budget increases and budget priorities, as well.
    Secretary Powell. I could not agree with you more, sir. 
And, as I said to Mr. Mollohan earlier, these programs are 
terrific, and I had experience with them as a soldier when I 
met foreign officers back when I was a captain and I followed 
them throughout their careers and we have both ended up 
chairman of the Joint Chiefs of Staff of our respective 
services, and they always treasured the time they spent in the 
United States school. That is the military part of it.
    It is the same thing with Fulbright scholars, all your 
other kinds of programs where you bring people from overseas, 
have them come, live in our community, go to our schools, meet 
our families, understand our customs and traditions. This is an 
incredibly powerful investment.
    Mr. Cramer. And it sure gets us the chance to overcome some 
of the----
    Secretary Powell. Absolutely.
    Mr. Cramer [continuing]. Pre-set ideas of what we are 
really all about.
    Secretary Powell. Absolutely.

                  RECRUTIMENT AT THE STATE DEPARTMENT

    Mr. Cramer. And also I want to go back to an issue that we 
discussed last year. You have done an incredible job with 
recruiting people for the Department, and, as I have had the 
few occasions to mix and mingle with our overseas State 
Department employees, I have been most impressed. It is always 
interesting to understand what family sacrifices they make, and 
husband-and-wife teams and how they go about settling 
themselves, especially when a spouse is not a State Department 
employee.
    In your comments you refer to a new web-based recruiting 
tool, and vigorously asserting the truth. Can you tell me a 
little bit more about what you mean by those?
    Secretary Powell. We made a major effort last year to let 
all young people in the United States and not-so-young people 
in the United States know that the State Department was looking 
for quality people who wanted to serve--serve in the front 
lines of democracy, as we called it. And, as a result, we 
doubled the number of youngsters applying for the Foreign 
Service exam last fall, and that is why we needed those 
positions that Congress gave us. No point in having a great 
recruiting effort you cannot hire at the other end of the 
process.
    We are also concentrating on the Civil Service part of it, 
as well, not just Foreign Service. We need great civil servants 
to come into the Department, as well. And so we are putting a 
lot more of this on the web--how to apply on the web, how to 
find out information about jobs in the State Department and 
Civil Service on the web. And so we are trying to make this 
user friendly, web-based. More and more people have access to 
the web and get information about the Department on the web.

                     DIPLOMTIC READINESS INITIATIVE

    Mr. Cramer. And the Department's diplomatic readiness 
initiative, what exactly is that?
    Secretary Powell. It is a tiger team. It is a bunch of 
people we have put together in their own little office drawing 
from assets within the Department, and their mission is 
diplomatic readiness--finding people who want to become part of 
the Department, getting them ready to take the exams.
    For example, people in my front office--I have a Cuban 
American in my front office, my executive secretary, and on the 
weekends she calls Hispanics who have taken the Foreign Service 
exam, or at least applied for it, and she makes sure that they 
show up to take it, to encourage them--that kind of direct 
contact. Our Diplomatic Readiness Task Force works on issues 
like that, cradle-to-the-grave, bringing people into the 
Foreign Service, and let them know we have a career path for 
them. We put out a training program now. They know what is 
expected of them over time. It just gives total attention to 
the readiness of our people to do the jobs that we have waiting 
for them.
    Mr. Cramer. How long has that task force existed?
    Secretary Powell. I inaugurated it and put it in a new 
office about six months ago.
    Mr. Cramer. Very good. Thank you. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Mr. Wolf. I thank you.
    Mr. Secretary, we have a vote and we are not going to keep 
you, so we are going to end in about four minutes.
    Mr. Kennedy, did you want to----

                      INTERNATIONAL CRIMINAL COURT

    Mr. Kennedy. Sure. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. I thank you for the job that you 
are doing on behalf of our country. You are representing our 
country very well and we are proud that you are our Secretary.
    I would like to bring up a question that I brought up last 
time that you were before this committee, and that has got to 
do with the International War Crimes Tribunal.
    As you know, last time we spoke about it--and I know of our 
differences on it--there are over 52 countries that have 
ratified the International Criminal Court, and it was at that 
time you said that the Administration's position would be to 
support the ad hoc courts that are already in existence, and 
yet in your budget you actually have lower--you cut, basically, 
funding for the ad hoc tribunals in former Yugoslavia and in 
Rwanda. So I would ask you what other multilateral venue do we 
have to bring the issue of criminal justice to light in an 
international setting if we do not support the ICC and we do 
not support the ad hoc?
    And let me just say one final thing. I think that the 
message that has been going around in the Congress about how we 
cannot get entangled with the ICC because we might end up 
becoming victims, our young men and women might be held 
accountable under the ICC statute, but it is not true that we 
are going to be under the ICC statute whether we ratify it or 
not. Even if that is the case, would not it make sense to join 
it, because if we did then we would be able to access the 
theory of complementarity and be able to have first right to 
try our own troops before they would ever be called before an 
ICC? So in essence we have more protections for our troops if 
we ratify it than if we do not, which is kind of a funny way of 
thinking about it, wrapping your head around the idea that by 
joining it you actually have more independence than by not 
joining it. I would ask you to comment on that, as well.
    Secretary Powell. We still believe that the ICC does not 
serve our interest and it has some deleterious effects with 
respect to our ability to conduct our operations around the 
world and might put at risk some of the Constitutional 
protections that we expect our soldiers to have and our 
soldiers expect to have.
    President Clinton believed this also at the time he signed 
the treaty or the agreement, because in the signing statement 
he as much as said that--that he did not intend to send it up 
for ratification, and this Administration does not intend to 
send it up for ratification, either.
    With respect to the various international tribunals, we do 
support them. My ambassador for war crimes tribunals, 
Ambassador Pierre Prosper, testified before Congress last week 
that some of these tribunals will be going out of service in 
the timeframe 2007, 2008, and their workload is decreasing over 
time, so I do not know what the specific numbers are with 
respect to specific cuts in any of the tribunals----
    Mr. Kennedy. It is four million for Rwanda and 2.5 for 
Yugoslavia.
    Secretary Powell. I would have to get for the record why 
those specific cuts are in there, but I suspect it does not 
reflect--I know it does not reflect a lack of support for these 
tribunals, but it may reflect the declining workload, but I do 
not know. I would like to give that to you for the record.
    Mr. Kennedy. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Secretary Powell. We just feel our soldiers are better 
protected not as a signatory to the ICC, and we recognize that 
it will go into effect once it is ratified by 60 countries.
    Mr. Kennedy. Yes.
    Secretary Powell. And when it goes into effect, it is with 
the force of international law, and therefore all persons are 
subject to it.
    Mr. Kennedy. Right.
    Secretary Powell. And we would have to then condition where 
we send our soldiers and under what circumstances we send them 
overseas as a function as to what dangers they might be put 
under with respect to the ICC. The United States is different. 
We are unique.
    Mr. Kennedy. I understand that.
    Secretary Powell. And I think we have a certain obligation 
to our young men and women in uniform.
    Mr. Kennedy. And that is why we have the theory of 
complementarity built into the treaty, and I know that was 
worked out through much work by the United States delegation. 
The whole purpose of that was that then we would retain the 
power to try our own troops under our own court martial system, 
our own justice system, rather than have them immediately go 
through the ICC. So it actually is the opposite. If we want to 
protect our troops, we had better ratify it, because then we 
maintain our first right of refusal, if you will, for trying 
these.
    Secretary Powell. That is not the judgment that this 
Administration or the previous Administration came to, and I do 
not believe we have gotten the level of protection, even with 
complementarity, that I believe our young men and women are 
entitled to.

                               EAST TIMOR

    Mr. Kennedy. Could I ask you also about East Timor, the 
fact that we have not been able to get, despite the memorandum 
of understanding, the Indonesian government to help us at all, 
helping to prosecute some of these war criminals as part of the 
whole reconciliation process. Could you comment on that?
    Secretary Powell. I would like to give that to you for the 
record. There has been a problem with that tribunal, but I 
would like to give you a more fulsome answer for the record.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                       AID WORKERS IN WEST AFRICA

    Mr. Kennedy. And the abuse by AID workers in West Africa.
    Secretary Powell. A source of enormous concern to us, and 
we are in discussions with the United Nations as to how to get 
to the bottom of this, how to find out those who are 
responsible and guilty and bring them to justice, but we have 
to make sure that we do not throw out the programs. There's 
some suggestion we should cut off funding for these programs, 
but the only ones who would be hurt are the people receiving 
the benefits----
    Mr. Kennedy. I hear you.
    Secretary Powell [continuing]. So we should not do that.
    Mr. Kennedy. I hear you.
    Secretary Powell. Yes.

                        U.S. POLICY IN COLOMBIA

    Mr. Kennedy. Let me also say finally that in my 
Congressional District we had a priest, Father Paul Guiterrez 
Corrales, who was assassinated in Colombia recently. He was a 
priest in my District. Obviously, the tumultuous war in 
Colombia is affecting our international policy to a great 
extent, and I just would like to make a point of saying that 
this is a case that I am watching, and I would like you to 
comment maybe to the committee--I know you may have already--
about what the State Department is doing to address these 
issues.
    Secretary Powell. I have commented to the committee 
earlier, Mr. Kennedy, with respect to the fact that we are 
reviewing our policy in light of the changed situation in 
Colombia with the end of the safe havens and whether it is 
necessary for us to assist the Colombians with counter-
terrorist efforts in addition to the counter-narcotics efforts 
that we are assisting them with. That review is taking place 
within the Department now.
    To assist them as they move more aggressively against these 
counter-terrorists or insurgents, some might call them, we will 
run up against the limits of the current authorities that we 
have under the counter-narcotics programs that we are running.
    Mr. Kennedy. And we will be following that.
    Secretary Powell. Yes.

                    GLOBAL POVERTY LOANS AND GRANTS

    Mr. Kennedy. Finally, I would just say I had a very 
interesting meeting with the president of the World Bank, Mr. 
Wolfenson, a couple of weeks ago. He went through with me the 
international poverty issue, which was featured in last week's 
``Time'' or ``Newsweek'' magazine.
    Secretary Powell. Yes.
    Mr. Kennedy. I am not sure which. And it really does point 
to our international security in the developing world with the 
booming populations who are in destitute poverty. As part of 
our national security, we will not be able to be fully secure 
unless we address the issues of global poverty.
    I would just say I agree with President of the World Bank 
Wolfenson that we should not convert these loan programs to 
grants, because we take the money out from being recycled. 
Basically, these loan programs through the World Bank are 
programs that are interest free and almost like grants, and 
when a country 30 years later gets to paying them back, and as 
they often do, they put the money back in circulation where it 
can go help another very troubled part of the world.
    I would just say that I am very troubled by the prospects 
of the Administration at Monterrey saying that they are about 
to turn this loan program into a grant program, because I think 
it will destroy what little we have in terms of recycled value 
and international aid, and I hope that you may be able to 
comment on that.
    Secretary Powell. There is an argument over this issue as 
to whether or not it is better just to give grant, and we are 
inclined to think that we probably can strike a better balance 
between loans and grants and give them grants so that the money 
goes to immediate use and you do not saddle that country with 
the debt, long-term or otherwise. And so I have the utmost 
respect for Jim Wolfenson. It is an area that I hope to be able 
to spend more time talking to him about so that we can have a 
more unified position when we get to Monterrey.
    Mr. Kennedy. Well, if we do go for the grant process then 
it would make sense we would up the money in our international 
aid budget.
    Secretary Powell. I am always for upping the money 
internationally.
    Mr. Kennedy. I would imagine you are, so maybe we could 
work on looking at those issues. Thank you.
    Mr. Wolf. Mr. Secretary, we are down to four minutes. Thank 
you very much. We will submit additional questions for the 
record or raise them in subsequent hearings. Trafficking in 
persons is a big issue we were going to raise with you, also 
the abuse of the children in West Africa. Also, we are waiting 
for the report to come up on compensation with regard to 
American victims of terrorism. In addition I wanted to raise 
the issue of the return of criminal aliens to their country of 
origin. There are 3,000 now in prison in the United States. We 
should be asking Vietnam and those other countries to take them 
back.
    We thank you for your testimony.
    Secretary Powell. Thank you very much, Mr. Chairman.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, April 11, 2002.

                        U.S. DEPARTMENT OF STATE

                               WITNESSES

RICHARD ARMITAGE, DEPUTY SECRETARY OF STATE
GRANT S. GREEN, JR., UNDER SECRETARY OF STATE FOR MANAGEMENT

             Opening Remarks of Subcommittee Chairman Wolf

    Mr. Wolf. The Committee will come to order. It is a 
pleasure to have with us the Deputy Secretary of State, Richard 
Armitage, and the Under Secretary of State for Management, 
Grant Green, for their second appearances before the Committee. 
I appreciate the great job that the Secretary and both of you 
are doing, and your people are doing; and frankly the Bush 
administration is doing with regard to all of the issues that 
we are facing. There have never been greater challenges when 
you look at Afghanistan and Middle East and what is taking 
place in Africa. I want to let you know we personally 
appreciate what you are doing. I am sure I speak for the rest 
of the Subcommittee.
    We will hear your testimony regarding the fiscal year 2003 
budget request for the operation of the Department, including 
the cost of improving security for employees overseas and other 
management improvement initiatives. The budget request includes 
funding to expand the efforts we began this year to 
significantly increase staffing, both overseas and 
domestically.
    You are seeking funding for 631 new positions and 
significant continued funding for capital technology 
investments and embassy security programs. For many years, this 
Committee has been very supportive and helped you to improve 
the management of the Department. We look forward to hearing 
about the progress you are making in bringing about needed 
reforms and putting in place improved management structure and 
many other issues. There will be a number of questions on 
policy issues I am sure and a number of budget issues as well.
    With that, let me recognize Mr. Serrano. And after that you 
can proceed as you see fit. Your full statements will appear in 
the record.

           Opening Remarks of Ranking Minority Member Serrano

    Mr. Serrano. Thank you, Mr. Chairman. Good morning, 
gentlemen, it is nice to see you here. It is obvious from the 
chairman's comments that we are big supporters of the State 
Department and the work you have to do. And I want to join the 
chairman in saying that these are very difficult times. You 
guys have done a great job and the ladies who are at the 
Department also. We are very proud as Americans and very 
grateful to you for the work that you are doing.
    I will also tell you when the Secretary was here before 
this Committee, I was careful not to ask him a single question 
about Cuba and I didn't get him in any trouble anywhere in the 
country. I am not promising you the same thing. And lastly, one 
thing I mentioned to the Secretary, which is of great concern 
to me and one that falls more on the Justice Department than on 
your department, but since you are the State Department, and 
since you play such a major role just keep in mind as we go 
through this very difficult time in this country and as we try 
throughout the world to root out the evil of terrorism and get 
the bad guys, that in the process, we in this country don't 
hurt the good guys and that we respect peoples' civil liberties 
and civil rights, and we don't stereotype people ethnically, 
racially or in religious terms.
    We don't want to repeat what we did during World War II. We 
don't want 20, 30, 40 years from now to feel about Arab 
Americans and other groups the way we now feel about what we 
did to the Japanese-Americans during World War II. And I know 
this is a very delicate situation you have in your hands. And 
as I said, it probably falls more on the Justice Department 
than it does on you. But it is something that I need to remind 
us and to remind myself, that we have to be balanced in this 
approach so that as we get the bad guys, and we don't hurt the 
good guys. And with that, I welcome your testimony and stand 
ready to work with Chairman Wolf to make your life much easier 
this year.

              Opening Remarks of Deputy Secretary Armitage

    Mr. Armitage. Thank you Mr. Chairman. Mr. Serrano, if I may 
just comment on your comments. Sir, that is not a Justice or 
State or Defense issue you raised, it is a human issue, and I 
thank you for reminding us. It belongs to all of us. It is our 
duty to respect every human being and treat them with the same 
dignity and respect which with we want to be treated. I 
appreciate the reminder.
    Mr. Chairman, I owe you several thanks today. First of all, 
to you, and your committee, thanks for supporting us so well. 
We are extraordinarily grateful and we count on earning your 
continued support. Number two, I want to thank you for the 
letter that you sent me. I want to make some comments about the 
Middle East in a while, and I think your letter, which I got 
yesterday reminding us of the words of Dr. Martin Luther King 
and the Nobel laureate Elie Wiesel do come to mind as Secretary 
Powell is on the eve of his journey into Jerusalem. I want to 
thank you for the letter.
    Third I want to thank you and the committee for allowing us 
to reschedule this hearing from March 21st, because what you 
allowed us to do that day was to go to Andrews Air Force base. 
I had the duty of welcoming back into this family the remains 
of Barbara Green and her daughter, Kristen, and welcome back 
into this family her husband, who was gravely injured and her 
son. It gave us the opportunity with President Bush to 
privately meet with them at Andrews Air Force base out of the 
glare of the press lights. He didn't want press.
    The President and Mrs. Bush spent some time with Mr. Green 
and his son. Although obviously the President couldn't bring 
back his wife, the President told the Greens that he would pray 
for them, and he was secure in the knowledge that they were in 
a better place. He went on to say that none--no less than our 
men and women in uniform, the men and women of the Department 
of State are fighting on the front lines, and he appreciated 
their sacrifice. That reminded me vividly why we are here.
    Mr. Chairman, before we were going to have the last 
hearing, I asked your permission to poll the members of your 
committee to see if there were particular issues they wanted me 
to raise. I did receive some responses, and I will tick, tick, 
right down if I may and I will end with you, Mr. Chairman. 
Congressman Miller and Congressman Latham both wanted to talk 
about embassy security, which my colleague Grant Green can 
address in much greater length than I. We are appalled as 
anyone else with the cost of security today.
    General Williams, who directs our overseas building 
operation, has decided on a modular construction plan, to 
standardize embassies which we hope will allow us to bring down 
the cost. He is using best business practices. He put together 
an advisory panel from industry. Quite stunning the level of 
these folks. I went down and spoke to them, and Grant spoke to 
them. They are there to give us the latest, greatest ideas on 
how to save our money, the money Congress appropriates to us 
and how to make sure that we are as safe as possible. We will 
continue to do that. I don't know how to go below the cost of 
embassy security. It is something that we face in this day and 
age and I don't think we will be able to get away from it.
    Congresswoman, you were kind enough to talk to me about 
your own concerns, which is small businesses and the 
availability of our embassies and the State Department 
particularly to help them. Of course, if you are Lockheed 
Martin or Boeing, I guess you can easily get help, but small 
businesses are particular. We do have a unit in the Department 
of State dedicated to this. I am going to ask, with your 
permission, that Assistant Secretary Tony Wayne come up and 
provide you the information that we do have and make sure that 
all of the small businesses in which you are interested know 
what our embassies can and can't do.
    Now out in the field, is the foreign commercial service is 
in the main duty. Our ambassadors have this duty as well; we 
accept it, we embrace it, and I appreciate you raising it to 
me. With your permission, Tony Wayne will contact you.
    Congressman Vitter raised the issue of the Middle East. I 
want to make a few remarks. Secretary Powell is on his way to a 
meeting with King Abdullah. Tonight, at 4:20 our time, he will 
land in Jerusalem and begin his discussion with Prime Minister 
Sharon, and most probably with Chairman Arafat on Saturday. You 
saw he left Madrid after getting strong statements from what is 
now called the Quartet, the UN, the EU, the Russians, and of 
course the United States. Strong statements which he would not 
have been able to get, and we would not have seen from the EU 
or any of these folks left to their own devices. It was a 
strong statement that paralleled the President's April speech 
and called on both sides to make the necessary sacrifices.
    It is obvious that the leadership of Chairman Arafat has 
been a disappointment. Our President said that the other day. 
He is, however, the elected leader of the Palestinian people. 
He is what we have to deal with. It is clear that suicide 
bombers are not martyrs. They are murderers. We have to do 
something about the lack of hope that leads people to that type 
of decision.
    Finally, we recognize that the Israelis do have a right to 
self-defense, but they have to realize that in this projection 
of their self-defense, there can be repercussions that were not 
considered beyond their control. That is why the Secretary has 
been sent by the President, because we couldn't sit by in 
silence as a friend of the Israelis and friend of the 
Palestinian people while this suffering went on.
    The Secretary is going to do his utmost, with the support 
of the administration, to try to revive the vision which he 
spoke of in his Louisville, Kentucky speech, and the President 
was so eloquent at the UN of two states, Israel and Palestine. 
It was the first time an American President has spoken about 
the state of Palestine, living side by side in peace and having 
a hope of a future for all of their peoples.
    Congressman Serrano, on the question of minority rights, 
you have raised this consistently. I want to assure you and 
show you that not only do we hear you, but you can see results. 
Unfortunately, many of the things that we do in our government 
lives seem to have a gestation period. But I think in a year, 
we have seen some changes that have happened. Let me just tell 
you that last year we had 23,459 people who applied for the 
foreign service exam, of which 8206 were minorities. 12,150 or 
so actually took the exam, of which 4,086 were minorities and 
652 minorities passed, which is the highest we have had since 
we have kept these records.
    Is that good enough? No. However if you look at that and 
with the Pickering scholarships, with the Serrano scholarships 
and the fact that we work with 52 universities to try to 
recruit minorities from Texas to Howard, I think you can see 
that we are pushing. You can quibble with us if you like 
whether we are pushing hard enough or fast enough, and we will 
take whatever guidance you want to give. When I came here last 
year, I spoke about our office of civil rights. The State 
Department was 76 out of 79 agencies when it came to EEOC 
complaints, 76 out of 79.
    Secretary Powell made it clear to Barbara Pope, who runs 
the Office of Civil Rights, that she will be in the top five 
this year. Right now, we have only 17 cases that are still 
outstanding and that have been on hold for more than a year. We 
are getting into the top 5. We are knocking on the door, and in 
slightly less than the year that Barbara has been on the job.
    Finally Mr. Chairman, you are responsible for us adding at 
least 120.5 million dollars to our supplemental request. You 
came back from a trip to Kabul. You showed us a video. That 
video had a stunning effect on all of us and allowed us to get 
OMB permission to put in among other things a budget request 
for $120.5 million for the embassy in Kabul. I wanted to report 
specifically to you, because you told me on the phone that 
those Marines better have weights. Those Marines got their 
weights. We took them from Islamabad and crossed through Kabul. 
They are exercising in pretty shoddy quarters, but they are 
exercising. I will stop there, sir, and thank you very much for 
your support and Mr. Serrano's and Congresswoman Roybal-Allard 
and look forward to your questions.

                Opening Remarks of Undersecretary Green

    Mr. Green. Mr. Chairman, members of the Subcommittee, I am 
happy to be here, along with the Deputy Secretary, to testify 
on support of the State Department's budget for fiscal year 
2003. The Secretary's management priorities are pretty simple. 
They haven't changed: its people, its technology, its 
facilities, its security and the resources necessary to achieve 
those objectives. Thanks in great part to the tremendous 
support from this Subcommittee, I think we are making 
tremendous progress in restoring the management platform of the 
Department, but it is still going to take a couple more years, 
I think, to get us where we need to be.
    Let me address people for just a second. With the FY 2002 
funding the Department received, we have taken the first steps 
to meeting the needs of both our overseas requirements and here 
in the main State Department. We join the Secretary in asking 
you for your support so we can maintain the hiring plan. We 
have got to complete this plan in order to restore the health 
of the diplomatic corps.
    As the Deputy mentioned, in September, the foreign service 
entrance exam had about 13,000 takers, the highest number since 
1988 and a 63 percent increase over just the year before. We 
are proud to have the highest number and percentage of minority 
exam takers and passers ever. We have cut from 27 months to 10 
months the time a successful applicant waits to be hired after 
taking the test. Incidentally, we have filled all seats in the 
most recent A100 course, which is our basic course for foreign 
service officers, and we are well on our way to doing the same 
for all of the fiscal year 2002 classes. They are subscribed 
right now at 80 percent.
    The next foreign service exam, and we have gone from one a 
year to two a year, occurs this Saturday. We have over 25,000 
people who have registered for that exam. Let me move----
    Mr. Wolf. Is that an all-time high?
    Mr. Green. I will check. It has got to be an all-time high, 
because we were at 23,000 and that was the highest since 1988, 
but I will confirm that. It is over 25,000. Regarding embassy 
security, for just a moment, as you know, we have more than 30 
U.S. Government agencies overseas that rely on us as the 
platform at over 260 diplomatic and consular posts. Obviously, 
as the Deputy mentioned, one of our major concerns about these 
overseas facilities are security and safety where our people 
work and live. Our security challenges again are pretty 
straightforward, sustaining the security readiness as the 
threat levels are elevated, strengthening our existing security 
programs and having the flexibility to deal with increasing 
threats worldwide.
    In the area of technology, our priorities also have not 
changed in the last year. They are OpenNet Plus, which is web 
access for all State Department employees on their desktops by 
mid 2003, based on increases we received in the 2002 budget; 
provide classified connectivity and e-mail to every eligible 
post by fiscal year 2004, and provide a foundation for 
modernizing our outmoded 1950s messaging telegram system.
    Lastly, test and evaluate the foreign affairs system 
integration system, which is currently being piloted in posts 
in Mexico and India which will enable us to communicate across 
agencies and across posts.
    Finally, facilities. In the aftermath of September 11, the 
security and working conditions of our employees not only 
overseas, but also in the United States, became a major 
concern, and we are moving aggressively to improve both. The 
deputy had mentioned some of the initiatives that had been 
taken by our overseas building office. Let me add they have 
also developed a long range overseas building plan covering six 
years of planning data. That plan is in the final stages of 
approval at OMB, and should be in your hands within 30 to 45 
days. It will serve as a strategic road map for facilities and 
increases the transparency in our decision making process. As 
Rich mentioned, they have developed the standard embassy design 
concept for small, medium and large embassies. This concept 
will reduce the cost while speeding the construction and 
enhancing the quality of our new embassies overseas.
    By the end of this fiscal year over two-thirds of our 
overseas posts should reach minimal security standards, meaning 
secured doors, windows and perimeters. We are making progress 
in efforts to provide new facilities that are fully secure with 
13 major capital projects in design and construction, another 
nine expected to begin this fiscal year, and nine planned for 
fiscal year 2003. Obviously, these are our highest priorities. 
They cost something. For the administration portion of the 
foreign affairs account in fiscal 2003, in our budget 
submission, we are requesting $5.9 billion.
    Mr. Chairman I think I speak for the Deputy when I say we 
will be happy to answer any questions that you and other 
members of the Subcommittee may have.
    Mr. Wolf. Good. Well, thank you both very much and we have 
a number of questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                EMBASSIES IN AFGHANISTAN AND TAJIKISTAN

    Mr. Wolf. On the supplemental request, you are seeking $322 
million for State programs funded under this subcommittee. Over 
$200 million of that is for the embassy security projects in 
Afghanistan and Tajikistan. Can you describe the projects and 
the American diplomatic presence that you are planning for both 
countries?
    Mr. Armitage. If I may, Mr. Chairman, in Kabul we have 
spaces for 28 American diplomats. We have 21 there. There are 
92 Marines present right now. There are any number of other 
agencies, including CIA, who are there. In the short-term, we 
are trying to make thorough use of trailers, et cetera, for 275 
spaces total. We cannot, however achieve that total of 
Americans until we have a much better situation on the ground.
    For instance, we are going to have to dramatically kick up 
our AID component. Right now, because of the security 
situation, it is very difficult to get AID personnel out into 
the field for extended stays because they have to go in an 
armored vehicle with DS protection. This will change over time. 
We do not have a full staffing profile. I am sure you are more 
familiar with than I am, and you know what it needs to have in 
terms of upkeep and rehab. We also want a secure chancery, or 
work building.
    In Dushanbe, Tajikistan, we are basically living in 
something that is on the street. It is an old office building 
and has barbed wire around it. Until recently, we had our 
ambassador working out of Almaty and travelling to Dushanbe. We 
hope we will have a full embassy, particularly as we have such 
a large number of U.S. Forces.
    Mr. Wolf. How many personnel will be in the embassy?
    Mr. Armitage. I don't think we have a profile. We have 12 
or 14 that are there now.
    Mr. Wolf. When fully staffed, what is your expectation?
    Mr. Armitage. An embassy of that size would have roughly 
what we have in--slightly less than what we have in 
Afghanistan.
    Mr. Wolf. 24, 23?
    Mr. Armitage. There will be more than that. I think with 
other personnel it will be quite a bit higher.
    Mr. Green. Mr. Chairman, the plan right now for the 
chancery is 39 U.S. Desks and 42 foreign service nationals 
desks, if you will.
    Mr. Wolf. You have----
    Mr. Green. Let me just add, because I just mentioned to 
you, I talked to Chuck Williams. You and I both went to Kabul 
and saw it at its worst. I saw it a little better than you saw 
it, but not much. Chuck reported to me yesterday he spent a 
day-and-a-half with the ambassador. They walked the ground. As 
I mentioned to you, the two Butler-like buildings for the 
Marines are up. They are prepared to be occupied by the 
Marines. We are going to take about two weeks because there is 
some concern about overhead cover. Chuck's people are going to 
build a structure over these two buildings. They are light 
weight. They are like a Butler Building and then have some 
sandbag cover over the top. We are going to do the same with 55 
or so relocatables that are now in place and ready to be 
occupied.
    As the Deputy said, we can now house about 250, 275 people 
there. In addition to that, which of course is the temporary 
arrangement, the ambassador and General Williams have agreed on 
the concept for a full-up, permanent facility with an annex, a 
GSO facility, Marine security guard compound and housing for 
some of our people within the Kabul complex.
    Mr. Wolf. Within your supplemental request is $25.6 million 
to rehabilitate the chancery.
    Mr. Green. That is going to be mostly for mechanical--if 
you went into the basement of that place--you saw it--
mechanical, air, heat, some structural, water, some structural 
improvements, doors, windows, blastproof doors and windows and 
those kinds of things.

                  PUBLIC DIPLOMACY EFFORTS AND FUNDING

    Mr. Wolf. Last month when the Secretary was here, I raised 
the issue of a vigorous public diplomacy program. The Committee 
is going to have a hearing on the 24th with Under Secretary 
Charlotte Beers and we are getting outside witnesses to come in 
to tell us what they believe we should be doing with regard to 
telling the good American story abroad, particularly in the 
Middle East. It is very disturbing to hear about low public 
opinion of America among Kuwaitis when we think in terms of the 
American soldiers who sacrificed their lives for the Kuwaiti 
government and Kuwaiti people. Clearly, their media and their 
government people are not speaking out to tell the story. I 
know the story. You know the story.
    Anyone who truly knows, knows that America is not anti-
Muslim. We were the ones who rescued the Muslim community in 
Kosovo. We were the ones who led the effort with regard to the 
Muslim community in Sarajevo and Bosnia. And if it had not been 
for us and what is taking place in Kosovo with our 
stabilization force there who knows what would have happened.
    So the same with regard to Kuwait and all over the world. 
And I think we have to do a better job with the media in the 
Middle East. And I also believe that we should take our values, 
the eternal values that were talked about in the Declaration of 
Independence. Ronald Reagan said the Declaration was a covenant 
with the world, not only with the American people, but with the 
world. Many of these countries where our reputation is not that 
good, where it ought to be very high, really don't have a free 
press.
    There are anti-Semitic statements in the press in Egypt. We 
should jump on that and speak out, not criticizing the Egyptian 
people, but criticizing the media and criticizing their 
government, because as they say one thing, they feed the fire. 
So we need a public diplomacy program that tells the good story 
of the American people and of the American men and women who 
are in Kabul today and throughout Afghanistan living in very 
difficult conditions. The Afghan people are very appreciative 
of what the United States Government and our people are doing.
    If you ask the average Muslim on the street, they will tell 
you they want more, not less. They want more American soldiers. 
They want more Special Forces. They want more Marines, more 
than we can perhaps even give. So I looked at the supplemental 
request. You included $10 million for an exchange program, $7.5 
million for information programs, and I have really serious 
concerns. I know most other members on both sides of the aisle 
share the perception that this is an enormous task. Is this 
amount of money sufficient? This would not be sufficient to 
sell a very good product in the United States. It is not fair 
to make an analogy of a product. The product we are selling is 
honesty, integrity, democracy, freedom of speech, freedom of 
religion, freedom of movement, respect for women. I was in an 
Afghan school and the women told me they wanted an education. 
They are all anxious to have that education.
    So is this really enough? Hopefully, we will get some 
information out of this hearing to encourage and urge our 
government to do more. Maybe we lost something in the abolition 
of the USIA and the resources that we used to have, such as 
libraries around the world. But we can't go back and revisit 
that now. But is this really enough? Shouldn't we be pulling 
together the best minds, both American and non-American, 
prominent Muslims from the Middle East who are very supportive 
for what the United States is doing. And there are many that 
are--in fact, privately, almost all of them are. When I talked 
to them off the record privately, they are all supportive. They 
are all anxious. No one in the Kuwait government asked us to 
leave. No one in the Saudi government but perhaps one or two 
asked us to leave. And you can go right across the board.
    In Mr. Hyde's bill, there is an authorization for $70 
million. We have American men and women who have risked their 
lives. You all have done a very great job. Our military has 
done a great job. This is one of the areas that you may have to 
invest and be bold and put more money in to tell the great 
story that we have. So is this $7.5 million for information 
programs and $10 million for exchange programs really enough to 
tell the story?
    Mr. Armitage. I would say the way you set it up, absolutely 
not, but I need to tell you why we put that number in. The 
tenets under which we move forward with the supplemental were 
very strict because OMB and the administration wants to make 
sure they are absolutely credible. One of the rules was you 
cannot go in for money that is not an emergency. You have got 
to be able to justify this as an emergency that needs to be 
addressed before the FY03 bill comes forward, before the 2003 
bill becomes law.
    That from the beginning, I think, puts constraints on us. 
Do we want more money? Absolutely. I have talked to Chairman 
Hyde about his bill. But any amount of money would be wasted 
unless we know exactly what we are doing. You correctly said 
that in my words, if I may, our values are special because they 
are universal values. That is what makes us special.
    If you look at a word that has become unfashionable now in 
politics, but if you look at focus groups and focus groups in 
Egypt, if you ask what word springs to mind when you hear the 
United States, the word was a four letter word, it was 
``hope.'' It was only way down the list when you got to the 
question about Middle East and Palestinian rights and things of 
that nature.
    Hope, freedom, et cetera were on the list. Charlotte Beers 
will be up here and you and I talked about this hearing. 
Charlotte looks forward to coming up here. One of the 
preparations we did, and she is doing was to have all of our 
PAO officers in. I believe we have been a little slow to truly 
embrace our public affairs officers. I spoke to them yesterday 
and found they were thrilled because we were paying attention 
to them. I spoke in the Secretary's, stead. It proved to me 
yesterday that we have first, really embraced our family and 
got them ready to go out and do exactly what you want done and 
what we need done.
    Second, we have to know exactly what we are selling to 
whom. What we are selling is hope. We are selling our universal 
values. It sounds easy to do, but it is not quite that easy 
because we have to go through the thicket of governments in 
many cases which are not Democratic.
    I appreciate your point criticizing the media, which, in 
effect, in most of those governments, is criticizing the 
government, but it allows you to do it and not get into a big 
confrontation. The short answer is no it is not enough money, 
but we are under pretty tight constraints to make sure that we 
can look you in the eye and say that is about the money we need 
in an emergency supplemental between the time we hope the 
emergency supplemental is enacted and the time the 2003 bill is 
enacted.
    Mr. Green. You mentioned the travelling exhibit.
    Mr. Armitage. Charlotte briefed us this morning. We have 
had an exhibit from New York, the Twin Towers exhibit, and it 
shows fire fighters in the moments of most stress during the 
horror of September 11. It is going around the country. It is 
going to 26 Middle Eastern cities. It went to Kuwait yesterday, 
and it was such a hit because it shows humans and human 
suffering, that we all suffered when the towers were hit.
    It is in Jeddah now, and we are having the same response 
from the Saudi population, which is even much more conservative 
than Kuwait. That is the kind of thing that we have learned 
that we are on the right track on and going in the right 
direction because we are not talking about politics but human 
values and universal values.
    Mr. Green. To go a little further on that one, when it went 
to Kuwait, they thought they had limited availability of people 
to attend so they kind of had to be on the A list. Once the 
officials in the Kuwaiti government went to it, they were so 
impressed they opened it to all citizens. It is very striking. 
It is very emotional when you see these fabulous photographs.
    Mr. Wolf. I would like to see it when she comes up here. 
Also I think in the political process sometimes when you are 
making a message you have to say it 10 times before people hear 
it. And we may all feel good at the first meeting, but 
sometimes we have to have 10 meetings to make the case. We have 
a great product. This is almost a God-ordained product. I mean 
this is a product of the Declaration of Independence. Go to 
Williamsburg and walk it. This is a product that will sell 
every where in the world because it is the right product. It is 
freedom, liberty, respect and dignity.
    And I think we may have an emergency when I turn on the TV 
and see the demonstrations and things like this. So the 
Committee may need to put more money toward this effort. This 
is not only a military effort, it is also to win the hearts and 
the minds.
    I think some of our friends in the Middle East ought to be 
very careful. There is an article that Bob Kaplan wrote for the 
Atlantic Monthly in March. He points out that Egypt and some of 
these countries may very well see the closing down of certain 
Americans' involvement there.
    Mr. Armitage. I want to say what Charlotte is going to talk 
about. One of the things she is going to talk about is that it 
is not sufficient to have the message. We have to magnify the 
message. One of the ways we are going to do it is these 
exchange programs which you also mentioned, Mr. Chairman, where 
we are bringing in journalists, and we sit them down. I had the 
Middle Eastern journalists in my office the other day. We had 
the Indonesians. They sat down with the leadership of State, 
and we had at it. But the response when they go back home, when 
they are allowed to write, is quite fantastic because they 
magnify the message and get it out ten fold. We are not just 
reaching one journalist. They are getting it out, and we found 
that experience just recently in Indonesia. We are also finding 
it in the Middle East States, such as Jordan, Kuwait. Obviously 
Saudi Arabia less so, and Egypt less so.
    Mr. Wolf. I will be looking forward to talking with her. I 
am going to leave the subject, but I also think we should use 
the Muslim community in the United States to speak out because 
they know of our values. They are good citizens. They know of 
our values. It would be powerful to have a Muslim living in the 
United States who has come from Syria talk about the values in 
the United States, the Muslim in the United States who has come 
from Lebanon, someone who has come from Egypt to talk about the 
goodness of the American people. What we have to tell people is 
that most of the food that came to the Muslim community in 
Afghanistan during the days of the Taliban was paid for by the 
American people. We didn't go telling everybody and bragging 
but the American people were feeding and paying for the food 
that the average Afghan was eating during the reign of the 
Taliban.
    So I think there is an opportunity to use the Muslim 
community in the United States who want to participate, who 
want to be involved, to use them. There would be nothing 
greater than a face of a Muslim from America to go back and be 
on Al-Jazeera and say this is the goodness of the country I now 
live in.
    Mr. Armitage. I hosted Shariff Abdul-Rahim, which won't 
mean anything to you unless you happen to be a basketball fan. 
He is an NBA all star this year with the Atlanta Hawks. And he 
agreed to work with us and publicize his life as a Muslim, and 
this is MTV stuff. This reaches a lot of young people because 
basketball is big. But that is the kind of thing that Charlotte 
has got us doing. He agreed to do this. His father is an imam 
in Atlanta, and he speaks quite passionately about this 
country.
    Mr. Wolf. He should be on television.
    Mr. Armitage. We are following him around and filming him, 
not talking about how many points he scored but what is life 
like for you as a practicing Muslim in this country.

                         REPORT OF SUDAN ENVOY

    Mr. Wolf. Shifting to Africa and then I am going to 
recognize Mr. Serrano. On the issue of Sudan, one, I want to 
thank the President and the Secretary for appointing Senator 
Danforth as a special envoy. He is getting ready to make his 
report, I understand, by sometime this month.
    Mr. Armitage. End of the month.
    Mr. Wolf. There was a news clip by Charles Cobb yesterday, 
where it said Khidir Haroun Ahmed in Saudi Arabia said the 
following thing. He said, Major General Ahmed Abbas speaking at 
a nationally televised address in Khartoum this weekend is 
calling for a holy war in support of the embattled Palestinians 
and for freeing the Gaza Mosque from Zionists. Training camps 
have been operating in Khartoum and the suburbs for years. We 
know where they are and we know who has gone in certain 
circumstances, although they have changed uniforms. The camps 
have been set up pursuant to an order by Sudan President Umar 
Hasan al-Bashir to train volunteers to join the fight against 
Israeli military occupation.
    The training camps are ready to receive volunteer fighters 
as of today. I am not against talking to people that I don't 
agree with. In fact you have to talk to people. But I think the 
Sudan government better get the word from the Bush 
administration. We are expecting them to bring about a just 
peace by the end of this year. If there is not a just peace by 
the end of this year, there will be a number of people who will 
begin to aggressively push for other options to deal with the 
problem here.
    Could you tell the Committee what your plans are once 
Senator Danforth submits his report? Let me say I congratulate 
you. You have done a great job and I think there are a lot of 
positive things taking place. But where do we go from here? The 
report's filed. I don't know if Senator Danforth is going to 
stay or not stay. That is up to him. But what is our policy now 
to bring about a just peace, working with the English, working 
with the Norwegians. Where do we go once the report is filed?
    Mr. Armitage. Right now with the Norwegians in the Nuba 
Mountains we have two U.S. Colonels working with them to be the 
monitors. We have several issues going simultaneously with him, 
all of which are extraordinarily well known to you, as it was 
your idea.
    Mr. Wolf. He was your idea. I just thought we were going to 
have an envoy but I never even thought of him to be honest with 
you.
    Mr. Armitage. He is going to file his report and it is 
supposed to be on the 28th, and we want him to give it to the 
President. The only problem we have is scheduling one and make 
sure he gets in to see the President and take the time he needs 
to make his report. We have two colonels now in the Nuba 
Mountains along with the Norwegians monitoring things. Some 
food is now going forward. The cease fire is more or less 
holding. The question of slavery is being looked at at this 
very minute.
    George Lukes, one of our diplomats, is on the team. I think 
there is a 10-person team there. The very comments you referred 
to--I didn't see that news broadcast, but a couple of days ago 
we saw Bashir, the President screaming out about jihad and holy 
war. Walt Kansteiner, our Assistant Secretary for African 
affairs, was following with the foreign minister, saying this 
is absurd.
    Now the pushback we got from the foreign minister is for 
domestic consumption. It doesn't mean anything. Saying it don't 
make it so. We have to really be all over him on this one, and 
we really have been tough on Bashir with this kind of language. 
You were gentle. You didn't use the language that he allegedly 
used in his speech, which was very, very inappropriate. We 
can't have a relationship with a country that moves like that.
    Mr. Wolf. Well, then I think when Senator Danforth makes 
his report on the 28th, the administration has to be able to 
articulate, as a result of this, what we are going to do.
    Mr. Armitage. I brought with me today, because you 
expressed in a phone call some interest in a meeting with him, 
opposition leader John Garang. I got a memo from that meeting 
and shows further some of the complications. We are working 
with Garang and the southerners as you know trying get one 
country, two systems, but the right kind of systems and the 
right kind of setup. That is another complicated factor because 
we are moving forward with Garang and his colleagues.

                         U.S. POLICY IN AFRICA

    Mr. Wolf. Last question, and then I will go to Mr. Serrano. 
Africa is having a difficult time. We had the CRS do a report 
and we sent a copy to the Secretary. It said HIV/AIDS has cut 
life expectancy in Botswana from 71 years to 39 years. Both of 
us would be dead if we lived in Botswana. In Zimbabwe from 70 
years to 38 years. U.S. Census Bureau experts predict that the 
life expectancy throughout southern Africa will be 30 years old 
by the year 2010.
    There are so many other things. In that piece that Kaplan 
wrote for the Atlantic, he said in Africa, the rising tide of 
young males will be even more extreme than in the Middle East. 
The top ten ``youth bowl countries'' are all in sub-Saharan 
Africa. The next decade could be disastrous, judging by recent 
political violence that has developed, and gang warlordism in a 
number of African cities. He said, ``Nigeria is already 
crumbling although too slowly to generate headlines.''
    ``The loss of central authority may be part of a long-term 
transition that will ultimately yield positive results and in 
the long-term it will provide new opportunities and havens for 
global terrorist groups to strive in legally governing 
realms.''
    We had asked the Secretary to look at the possibility of 
appointing a panel to take 90 days to come up with a policy for 
Africa. We were going to put in legislation here and it would 
take us months to get it out.
    What we ask for in the letter is a blue ribbon panel to 
come up with strategies and solutions to address how the United 
States can help solve the massive challenges facing Africa. My 
sense is not only are you having the AIDS problem, the health 
problem, but you are going to have little Afghanistans 
developing. This can be a Presidential panel or a panel 
appointed by the Secretary of prominent people who know a lot 
about Africa, far more than I know. How do we do this? Maybe 
the establishment of a new university in Kenya. Africa is 
crumbling before us. This is not a big expensive proposition--
20 people, 90 days, come up and see if the administration can 
refocus because what we, the United States, are doing now isn't 
working.
    I think we have to try to do something different. It is not 
just a question of spending more money, but spending it wisely 
and getting the results for whatever we were spending. Not 
supporting corrupt governments, but doing it in a way that help 
these people.
    Mr. Armitage. When I came back to government this time 
after an 8-year absence, I was shocked more than anything else 
by what I saw in Africa. What I saw in almost every country was 
that the infrastructure was much worse than it had been 8 years 
before. It happened for a lot of reasons, not the least of 
which is the unbelievable prevalence of HIV/AIDS. You know the 
map as well as I, east and west and north and south, and it 
radiates in a horrifying stream showing the incidence of 
infection and the implosion of HIV/AIDS.
    I think the trap we fall into very often is we look at the 
parts instead of the whole. For instance, we have been very 
active in Sierra Leone trying to stop Charles Taylor. We have 
been active in the DROC in trying to bring some sense to that. 
We are happy that the Angola War has ended after 20-odd years. 
But we are looking at the parts, and you are suggesting we look 
at the whole. You mentioned Nigeria. You have a city, Lagos, 
with 32 million people. No infrastructure can keep up with that 
implosion of population.
    You run the risk of having what you suggest, as you call it 
in the military, a strategic center of gravity against the 
government, and something that will develop into little 
Afghanistans and things of that nature. I must admit to you I 
don't know where that piece of literature from the Secretary 
is. I will find out, and I will respond to you once I go back. 
But I see we tend to focus on the individual problems where we 
are making some small success, but we are missing the whole.
    Mr. Wolf. Mr. Serrano.

                     VISAS AND INFORMATION SHARING

    Mr. Serrano. Thank you, Mr. Chairman. Let me ask you a 
question and then move on to some comments I would like to 
make. Recently we learned about the embarrassing and 
potentially dangerous error that occurred at the INS where 
student visas were mailed to two of the men who were 
responsible for the September 11 terrorist attacks. What are 
you doing at the State Department to ensure that similar 
problems do not occur with various systems that you deal with 
and how much money are you proposing to spend in FY 2002 to 
enhance the entry exit technology and how will these work?
    Mr. Armitage. Grant will get into the particulars. I don't 
think I am putting him on the spot. Part of what is being 
proposed by Mr. Ridge gets right at the whole problem of INS in 
identifying who is who, and who has responsibility for 
admitting people, and following up on people who are visitors 
to our country. Part of the answer to your question, I think, 
will lie on whatever legislation eventually comes out of the 
Congressional process, but it is not just because of the 
terrible embarrassment to the INS, but the people who are to 
follow up and actually apprehend, if necessary. Justice, part 
of INS, is separate from the people who have visas or the State 
Department. Our difficulty historically has been that we don't 
always get information from the FBI or CIA.
    Since September 11, I can say with complete assurance that 
has improved enormously. God knows it must after that horror. 
But whether it still is where it ought to be, I think not.
    Mr. Green. We have a strong track record, I believe, in 
dealing with the other agencies in sharing information. We have 
the Consular Lookout and Support Systems, the CLASS system 
where we share very detailed information on people coming into 
this country with the INS, Customs and DEA. We have on the law 
enforcement side a tip-off system which we fund out of consular 
affairs money which are run by our Intelligence Research 
Bureau, which shares information with the law enforcement 
community.
    Subsequently that information provides name checks and 
checks to INS and Customs. With the advent of Homeland Security 
and the standing up of that, we are working with them very 
closely on the terrorist tracking system. We have people 
detailed there. We sit on six of their 11 subgroups, working 
groups. I just think that, as the Deputy said, the sharing of 
information is getting much better, unfortunately, in the 
aftermath of September 11. We still have some difficulty on the 
law enforcement side having them provide information to us. 
That is also slowly getting better. We have about, as you 
probably know, we will take in about estimated 1.2 billion in 
various fees in the consular area this year. We keep about half 
of that to support border security, pay for our consular 
officers throughout the system, upgrade IT systems relating to 
security and the border. If you draw a circle around the 
country, we are the first line of defense for people coming 
into the country. We are making tremendous progress both in 
what we are doing in the information technology area, the 
sharing of information and also in working very closely with 
the Homeland Security Office.

                         LATIN AMERICAN POLICY

    Mr. Serrano. I thank both of you for those comments. That 
is a grave concern and it was pretty embarrassing and everyone 
wants to make sure that it doesn't happen with other systems 
that we have in place. Let me just be very careful how I say 
this. I don't want to put you in a situation that you may not 
want to be in, but when the chairman spoke about public 
diplomacy and spreading our message, part of the message is the 
fact that we have a unique system. We perfected it pretty well 
and that is the whole issue of having a judicial branch, an 
executive branch and a legislative branch. And we take each 
branch very seriously.
    Without mentioning names, I would just hope that the 
Secretary, and that you folks begin to pay closer attention to 
the fact that there are some members of the administration in 
the State Department who have taken it on their own to 
disregard comments coming out of Congress and publicly denounce 
comments coming out of Congress in terms of what this Congress 
feels should be some of our behavior in Latin America. You 
know, as I look across here to Mr. Wolf and Mr. Vitter and Mr. 
Miller, we have reached some decisions in the last few years on 
Latin America and have taken a long time to get there. For all 
of us it has been very painful to go there, to get to that 
point. And now we have top officials at the State Department 
get up in front of recorders in public and say we don't care 
what Congress is saying on this issue.
    I am not here to allow us to give in to anyone on a 
particular issue, and I am not going to allow that to happen. 
Well, there is a big difference between that statement and the 
President saying I disagree with the Congress on the 
supplemental, and I think for the good of the American people, 
we should pass the supplemental. That is what this country is 
about. But it is different to say that when Mr. Miller and I, 
or Mr. Latham and I, reach a point where we reach some sort of 
understanding on an issue that that issue should not be paid 
attention to and for us to be seen by a member of the Secretary 
of State's Department as a bunch of idiots with no power and no 
responsibilities.
    And that bothers me. The reason I don't want to mention the 
person's name is because I will be on record as having 
denounced them and there will be all kinds of back and forth, 
and I don't want to get into that. You know who I am talking 
about. You know what I am talking about. This year I am up for 
reelection as we all are. I take very seriously that fact. 
Every morning when I drive by the Capitol dome, as dramatic as 
this may be, I get chills. I take very seriously the fact that 
someone who came from a poor town in Puerto Rico and came and 
lived in a public housing project in the Bronx became a Member 
of the Congress. I didn't accomplish all that, and I didn't do 
all that with the help of people in my district to be made an 
idiot by someone who is appointed to our government.
    So I would hope that you begin to look at that and at the 
minimum, whisper to the gentleman and say they were elected, 
you were not. You should pay a little respect.
    Mr. Armitage. If I may, I got the message very loud and 
clear, and I know to whom you are referring, and, as I 
indicated this very day, I will take this up. It will not 
happen again, at least with that individual. Let me make a 
comment more generally about the responsibilities of the 
various branches. One of the reasons we are the best hope, I 
think, of mankind, at least as far as I am concerned, we as a 
Nation, is because unlike every other great power that has ever 
gone before us, we have got this necessary and creative tension 
among our three branches of government which keeps power from 
being concentrated in any one person's or groups' hands. It is 
self-renewing. We all in Secretary Powell's State Department 
understand exactly what the duties and the rights and 
prerogatives are. We know who is appointed, and who earned it. 
That is the policy and I will take this back and take care of 
this matter.
    Mr. Serrano. Thank you so much. Let me move on. As you 
know, part of the reason why I was so careful in my 
presentation is because of the great respect that I have for 
you, and Secretary Powell. Some of the obvious things, he and I 
come from the same neighborhood as well, and that carries.
    Mr. Armitage. Yeah, but he speaks Yiddish.
    Mr. Serrano. Well, when it comes to his budget, he is a 
real nudge. We know what that is all about. And I came to 
Congress incidently like so many children of my generation with 
all kinds of troublesome thoughts about the State Department 
and how much the State Department is responsible for any 
mistakes our country made overseas.
    Since then, I have gotten to really care for the work you 
do, to respect and be very supportive of it. There is one issue 
I am going to disagree with very loudly, and I am going to be 
as vocal as I can. And that is the fact that I think we are 
making a terrible mistake in Colombia. I think we are on the 
brink of getting into what I call a Spanish speaking Vietnam. 
That has been going on for over 30 years. It is hard to tell 
who the good guys and the bad guys are anymore in Colombia. The 
traditional left has no respect for the Colombia left--
interesting because they don't see them as true insurgent 
revolutionaries.
    The military folks of Latin America are not crazy about the 
paramilitaries in Colombia. And not many people respect any 
government in Colombia. With all of that in mind, I am troubled 
by the fact that we have found a new gimmick in our country and 
that is a gimmick that plays on the fears and sentiments of the 
people. It is very shrewd because it makes it difficult for 
guys like me to confront and the fact is that we no longer call 
people insurgents or narco-traffickers or murderers. We call 
them something dash terrorists. So now they are narco-
terrorists and we have to get the narco-terrorists.
    In the process you are asking now in the supplemental for 
changes in the language that will allow you to be involved 
which is just what Bill Clinton told us he wasn't going to do, 
and George W. Bush told us he wasn't going to do and that is to 
allow the helicopters and the advisers to be used in a military 
way to get the terrorists, not to get the paramilitaries, not 
to get any corrupt people in the government, not to get the 
Attorney General who is no longer enforcing or conducting the 
human rights violations or studies or investigations, not to 
get them. We have taken sides now. When we take sides, we are 
making a terrible mistake. It will probably happen. I will be 
probably one of a few lonely voices saying don't do this. It 
will probably happen.
    But even if it happens and we get involved, you folks don't 
have the ability to curtail our involvement and suggest to the 
President how far we should go or could go. I tell you 
something, representing a district in the south Bronx, I am in 
touch with people from Latin America on a daily basis. You 
don't have to travel there. They are in my district, and they 
live there, work there and travel there. They are very pro-
American, but they tell us that the thought of American 
uniforms, soldier uniforms throughout any part of Latin America 
will awaken the dormant left and bring back that ugly anti-
American sentiment.
    In the Middle East Secretary Powell is saying guys, you 
have to come to talk peace, and you have to be strong--the 
first one to talk about a Palestinian State openly which is 
right and the security of Israel. In the same way that is what 
we should be doing in Colombia, not sending in--as we will and 
you can say we won't but we will--we will send troops and we 
will attack the insurgents and we will create a backlash. That 
is a 35 years Civil War. And we can go in there and just clean 
out a cave. So I hope you keep that in mind because I am sure 
this will happen somewhere on down the line, and that you don't 
let it get out of hand.
     Mr. Armitage. Mr. Serrano, I take seriously your words. 
This is an area in which we will disagree without being 
disagreeable. You have very strong heartfelt sentiments. The 
administration has them as well. I want to be clear on one 
thing, and you cautioned us to make sure you limit your 
involvement. I do want to be sure that it is understood, and it 
was discussed yesterday at Mr. Kolbe's hearing, when we talk 
about movement and we do want an expansion of the authority--we 
want it, but we don't want to get rid of the Byrd cap or the 
Leahy amendment, which discusses human rights particularly.
    I want to be clear on that.
    Second, part of the reason we came forward is because we 
were very clearly warned and cautioned and advised by the 
Congress. Come forward. Let us debate it, as our system 
requires, and be clear about it. We have a disagreement, but I 
hope we get some credit. We are trying to be clear about it. I 
do take seriously your warning.
    Mr. Serrano. One last comment: You are getting around us 
when you include it in a supplemental that talks about a fight 
on terrorism, and which talks about embassy security. You have 
a choice. You either vote against the whole package or you 
accept it as it is. Had you brought it to Congress alone as a 
freestanding situation, the sentiment would be different. This 
is a very smart way of doing it, but it is not a totally honest 
way of doing it. This is too big of an issue to be in a 
supplemental. This is a declaration of war, in many ways, and 
that should stand by itself. Thank you.
    Mr. Wolf. Mr. Miller.

                      Cost of Embassy Construction

    Mr. Miller. I just got back Tuesday from a trip with Mr. 
Kolbe and some others to Africa--Mali, Ethiopia, Mozambique, 
South Africa--we made numerous stops. Every time I travel 
reinforces the admiration that I have for the people that work 
for State. They do a great job and they often live in difficult 
conditions. When I first came to Congress, I thought of people 
going to Paris and going to embassy parties. That is not the 
way it is in Addis Ababa and other places in the world. And it 
is a great challenge to live in the lifestyle, the air they 
breathe, the food that is available, I have great admiration 
for State Department employees.
    We were looking at a lot of the AIDS challenges and what we 
are doing to address them. I know this work is not funded by 
this subcommittee, but there is a lot being done.
    When I visit places, I visit the embassy and see the 
facilities. I am interested in the question of the cost and the 
planning for new embassies and also the operational costs of 
embassies.
    How much do Congressional requirements contribute, if they 
do, to that cost? We have security problems in Moscow from 20 
years ago that affects some of our thoughts, and what happened 
in Nairobi raises different security concerns. Comment on what 
is going on with planning for new embassies, and buying the 
land. We have nine planned for next year and nine the following 
year. How does the cost vary between all of these? I know the 
costs are not the same in Addis Ababa versus the one in Berlin 
where I visited. That is going to be very costly.
    Mr. Armitage. I do recall our telephone conversations, and 
also concerns about the cost of embassies and the cost of 
security of embassies, and I made some remarks. Basically we 
are trying to control the costs by having modules or models 
small, medium and large. They all look alike so they do not 
have a unique design. Relatively alike. We save money that way, 
through economies of scale.
    Second, General Williams, who takes this business very 
seriously, has put together a rather unique and formidable 
industry panel. I spoke to him a couple of months ago. It will 
give us the latest of what is business practice, how can we 
save money, et cetera.
    Grant can be more specific on how Congress costs us money. 
But I think our system requires it in a way. I do not like all 
of the ``Buy America'' aspects of it because it does raise 
prices, and I think in some cases we could do a lot more if we 
used a lot more local materials.
    I do not know how to get around the absolute need to have 
total and complete and continual oversight. So it may cost us a 
little more, but I think the system demands it because when you 
have gentlemen like yourself stand up and say you have been 
there and done that and you know how people are living and how 
they have done that and you can attest that you have got people 
out there who are doing the Lord's work and are not living with 
their face in the canape tray, they are in hard and dangerous 
places doing work for our country.
    Mr. Miller. On the Buy America, like basic things, light 
bulbs, paper products and all of that? And what can we buy in 
the local market versus have to import from the U.S.?
    Mr. Green. On those kind of things, expendables, we are 
buying a lot more----
    Mr. Miller. We are not required to buy our bulbs and such?
    Mr. Green. Absolutely not. We warehouse those in Europe and 
ship them to the various posts. At risk of repeating some of 
the things that the Deputy said, I think the whole thing on 
overseas construction and positive movements began with the 
reorganization of the building operations and pulling them and 
making them a stand-alone organization. General Williams has 
made, I think, tremendous progress in reorganizing that, making 
it a results-based organization, with accountability.
    I do not know if any of your staff have been over and sat 
in on some of these review sessions, but if they have not, and 
they are interested in how we are doing things overseas in a 
business-like way, I would encourage them to do that. These 
happen a couple of times a month, and all of the stakeholders 
are in the room, 30, 40 people from contractors to the design 
people to the architects to the actual construction folks, and 
they go through every one--not every project, but I just sat 
through one on China about 2 weeks ago. It is a very business-
like process.
    Rich mentioned the three standard embassy designs that we 
have adopted which reduce costs. We will put a facade on them 
that fits the local community or the local country's 
architecture, but basically they are a standard design. This 
enables us to not design something new and go into those costs 
every time.
    Another thing that I think is interesting in the cost area 
is we now have approval from OMB to do a pilot in 2003, 
assuming the Congress agrees, on cost-sharing. In other words, 
other agencies, other departments which rely on our platforms 
would share in the construction costs of those facilities.
    This does two things. It spreads the cost and it makes 
other departments and other agencies look very carefully at 
right-sizing. Now there is no incentive. There is no incentive. 
When you have to start paying for desk space in a classified 
portion of an embassy, you will ask yourself, I think, twice 
whether I really need five people, and can I get by with three.

                       RIGHT-SIZING AT EMBASSIES

    Mr. Miller. Tell me in an embassy, other than State 
Department people, how many other agencies?
    Mr. Armitage. It is 30 in a big----
    Mr. Miller. Thirty other agencies, that is what you are 
talking about? The 30 people from Agriculture, Commerce?
    Mr. Green. Some agencies do not--this Subcommittee has a 
lot of interest in what we do overseas. Some of the other 
oversight committees do not have that same interest. I go back 
to right-sizing. I don't want to beat a dead horse. We are 
under a lot of pressure to right-size. Make sure you have the 
right number of people at the right post. Other agencies 
frankly do not think much about that. I do not think a lot of 
them even know how many people they have overseas at a 
particular post.
    Mr. Miller. With 30 different agencies, that is a large 
number to be there. I know they are all under the ambassador. 
He or she is in charge in that country, but you are talking 
about a large number of desk spaces. When we visit these 
embassies, you meet a lot of them and they play critical roles.
    Mr. Green. Sure they do. Sure they do.
    Mr. Miller. But right now there is no way to oversee the 
numbers in the budgets?
    Mr. Green. There is not a systematic, organized way to do 
it. Now, that being said, a couple of years ago there was an 
interagency group that went out to about a half dozen embassies 
and tried to divine a concept for right-sizing and they could 
not even agree on a concept. GAO recently went to Paris. They 
have not completed their report, but I was briefed on it about 
a week ago, and they believe now they have a concept, a 
structure for possibly right-sizing an embassy. We are going to 
have a hearing the end of this month and discuss that, among 
other things. While, as you say, the chief of mission has 
tremendous authority to run that post, we, very frankly, with 
some of the other agencies do not have a lot of leverage. And 
as the world changes, and as there is more and more emphasis on 
health issues, terrorist issues, drug issues, you get--you 
continue to get a larger influx of law enforcement people and 
health and ag and----
    Mr. Armitage. FBI.
    Mr. Green [continuing]. FBI, and it is tough to just say 
hey, no. Go home.
    Mr. Miller. I met a lot of them. Whether it is CDC people 
or the FBI, certainly a larger presence, and each has a 
critical role.
    Mr. Green. Sure.

                           MIDDLE EAST POLICY

    Mr. Miller. One other comment about Africa. Where it is 
heading is just a huge concern as HIV, the role of Government 
there, whether it is the president of South Africa or Swaziland 
and the acceptance of the cause of it, the spread of it. The 
orphan crisis there. The role of women is just horrible. But I 
see we are trying, the international community is trying.
    I know we do not have much time, but let me briefly switch 
over to the Middle East, which is not a budget issue. I had 
limited news while we were gone. We watched CNN International 
for our news in Africa. But we are not popular over in that 
part of the world. I mean, the perception is that we have 
chosen sides, we are pro-Israeli--Israel's position, and the 
image is that we have given a green light to Sharon to do 
whatever he wants. Secretary Powell shows up in Morocco and 
they say what are you doing here? Get off to Jerusalem, 
basically I think is what was said.
    I know we were talking about this communications issue 
earlier. It is more than just communications. So please comment 
about what we are doing there, and comment about the settlement 
issue. I know we do not have much time. But the settlement 
issue is a thorn in the sides of the Palestinians and we are 
defending these settlements, basically our country is, because 
we are defending the Sharon policy.
    Mr. Armitage. The President has called for a halt to 
settlement activity.
    Mr. Miller. We have been calling for a halt to that for 20 
years.
    Mr. Armitage. It is one of these things, depending on how 
you look at that time, the settlements, there was an allowance 
for natural growth. Well, how much is that? How much is 
``natural growth,'' and how do you define it? The wording that 
surrounded settlements historically is not clear, and we are 
hoisted on our own petard. I think it is not right to blame all 
of our image problems in the Middle East on the Palestinian 
question. I think to some extent that is the immediate one, and 
it is certainly causing the demonstrations right now that we 
are seeing in front of our embassies, whether it is in Bahrain 
today or in Cairo or anywhere else. I think it is more subtle, 
and in part television is a reaction against oppressive 
governments at home and lack of the ability for young people to 
express themselves in other ways. We did not give a green 
light. The President said: Withdraw now. The reason Secretary 
Powell went the way he did, and why he is in Amman Jordan right 
now, is because we are going to make progress. Not only does 
Israel have to stop the military activity, but Arafat has to be 
told by the Arabs that he has to get in line. He has to once 
and for all stand up and show some leadership. That is why the 
crown prince of Saudi Arabia in Morocco, that is why he went to 
Cairo and Amman, and will arrive tonight. We have to get the 
moderate Arabs to put some steel in Arafat to do the right 
thing. His leadership has been, as I said earlier, 
disappointing, to say the least. That is why the Secretary went 
about it this way.
    Finally I might say in Madrid you saw the statement by the 
Quartet. The statement issued by the Quartet is one that none 
of those organizations, the U.N., I think, or the Russians, 
would have ever issued on their own, calling for the 
Palestinians as well as the Israelis to restrain themselves. 
There was a method to this madness, if you will.
    Mr. Miller. Causing problems for our friends, whether it is 
in Egypt or Jordan and such by these demonstrations and the 
image that--CNN is not the only source--that all you see is 
what is taking place in Palestine. And I do not know how much 
they show of the bus bombings in Israel which are a horrific 
sight, and the terrorism that takes place there, but the image 
is the U.S. is being very one-sided.
    Mr. Armitage. Yet every single person in the region and 
probably in the world wants us to fix it. While we have the 
image that you talked about, I think there is also the almost 
palpable hope that we will fix it because we are the only ones 
that can.
    Mr. Miller. Well, let us hope that we can. Thank you, Mr. 
Chairman.
    Mr. Wolf. Ms. Roybal-Allard.

                         DEFENSE TRADE CONTROLS

    Ms. Roybal-Allard. Thank you, Mr. Chairman. First of all, I 
want to express my concern for the lack or the small amount of 
money that is being allocated for information. I share the 
Chairman's concerns about that. Because I think lack of 
information is a part of the problem that we are facing, for 
example, in the Middle East. And it is an emergency because I 
do not think we are going to be able to begin to turn things 
until, for example, in this case the Muslim world learns to 
trust the United States, and the only way they can do that is 
through gaining a better understanding of what it is we stand 
for and what it is we have already done to help the Muslim 
world.
    By not having that kind of information, it contributes to 
the hatred that exists about the United States and makes it 
easy to feed that hatred and to turn it into the kind of 
terrorist threats that we are facing now. So I think getting 
out information is critical.
    And in talking to Muslim Americans in my own district, they 
themselves are frustrated by the fact that accurate information 
is not getting out and that they, even though they have 
volunteered in various ways, are not being utilized to get the 
message out to their families and the friends that are still in 
those areas. So I just wanted to make that statement.
    Last year we talked about some of the problems that small 
businesses were experiencing with the Office of Defense Trade 
Controls and at that time you attributed some of the problems 
to the fact that you were understaffed and you were, in fact, 
starting to take steps to make the whole process more user-
friendly.
    What I would like for to you do is tell me what you have 
been able to do since then, but also to respond to a GAO report 
that was issued in December that found a lot of deficiencies 
that still existed in the agency and also to respond to them. I 
believe there was a difference of opinion about that report and 
I would like to give you an opportunity to respond to that.
    Mr. Armitage. Thank you. Lincoln Bloomfield, the Assistant 
Secretary for Political and Military Affairs, has been tasked 
by Secretary Powell to not only make this whole process user-
friendly, whether it is small business or otherwise, by the 
way, because the complaints were not just limited to small 
business. I was in business. I was one of the complainers, so I 
know.
    I do not have at my fingertips the processing time, but the 
processing time was down sufficiently for a group of industry 
folks come in to see me just to thank us for having made that 
move. Linc Bloomfield has more people on it and has cut down 
the process time. I apologize, I do not know what it is. I 
received an industry group not so long ago that thanked me for 
that and urged us to continue. The question of the GAO----
    Ms. Roybal-Allard. If I can, let me just summarize a part 
of it maybe that you can respond to. It says that the State 
Department has not established formal guidelines for 
determining the agencies and offices that need to review 
license application. As a result, the licensing office refers 
more license applications to other agencies and offices than 
may be necessary. The reviewers in the State Department 
reviewing offices consider license reviews low priority.
    I am reading directly from it.
    Mr. Armitage. Yes, ma'am.
    Ms. Roybal-Allard. Are those guidelines being established? 
Do you disagree with----
    Mr. Armitage. I am not sure how much I disagree with it. I 
am looking at the defense trade control paper that I have here. 
What I have is sort of along the lines of what I was briefing 
on a minute ago about people coming in and telling us that we 
were moving in the right direction. Processing time lines are 
at an all-time low and the outside auditors have determined 
that even with the process deficiencies which you speak about, 
the department handles its case as equally efficient as other 
agencies with much greater additional human resources.
    Perhaps there is a difference of opinion, but that is what 
our outside auditor is telling us. I want to be clear with you. 
In no way am I or Secretary Powell or any of us saying that we 
have got it right.
    Ms. Roybal-Allard. Okay. I guess really what I am trying to 
find out, based on these findings--for example, the State 
Department lacks procedures to monitor the flow of license 
applications through the review process. The planned business 
system upgrade needs to focus on ensuring a timely flow of 
applications and implementing a mechanism to track the progress 
of applications. Otherwise the benefits of the upgrade may be 
limited.
    I guess my question is that these things have been 
identified and are you now taking steps to remedy them?
    Mr. Armitage. I want to say yes, we are, but since I do not 
personally--I have not personally looked at this, let me take 
that back, if you do not mind. I think we are, but I do not 
want to say something that I have to come back and say that I 
was wrong. I would like to take that question and come back 
with a correct answer that I can stand by.
    [The information follows:]

    While a good deal of work is already under way to make 
updated and revalidated business rules fully operational, we 
believe future IT development will provide the tools to further 
improve process efficiency. This will include electronic 
transmittal of data with electronic ``clocks'' and ``ticklers'' 
to monitor and track cases.
    Assistant Secretary Bloomfield recently convened a session 
of the Defense Trade Advisory Group during which industry 
representatives were briefed about the upcoming IT pilot 
program and were asked for their input. A kick-off session with 
industry participants in the pilot will be initiated soon.

    Ms. Roybal-Allard. I appreciate that. I have gotten 
complaints from businesses in my district. I have one more 
question. This actually comes from a constituent who did not 
have a good experience. He has an idea and has recommended that 
the ODTC inaugurate a pilot program that is designed to provide 
a one-stop-shopping for small businesses or other companies who 
are new to the licensing process. And the idea is to set aside 
two or three licensing officers to screen new registrants and 
shepherd them through the voluntary disclosure and licensing 
process, with the ultimate goal being to make sure that small 
businesses do not get lost in the process, that they gain a 
positive experience in learning how to go through the process 
and hopefully not have to hire these high-priced counsels to 
accomplish the same thing.
    Mr. Armitage. In other words, you want to put me out of my 
private job. I see where you are going here.
    If you will write me the name of that constituent where I 
can find him, I will have Linc Bloomfield call them, as a 
result of this conversation, and probably this afternoon.
    Ms. Roybal-Allard. Okay. Thank you.

                       HIRING AT STATE DEPARTMENT

    Mr. Wolf. Thanks. We have three votes, but we are almost at 
the end of one. I will just ask a few questions and then we 
will recess for probably about 15 minutes at the most and come 
right back.
    The Congress fully funded your fiscal 2002 request for 
additional personnel. Between the CJS bill and the 
supplemental, you have received 871 new positions. You are now 
seeking an additional 631 new positions in your budget request 
for fiscal year 2003. This takes you well beyond your original 
goal of 1,158 new positions for full diplomatic readiness. What 
more remains to be done or has the definition of readiness 
changed based on September 11?
    Mr. Armitage. What has changed, we are still looking for 
1,158 foreign service officers. The additional numbers to make 
up the 600 odd that you have spoken about are DSA, more 
diplomatic security, and computers----
    Mr. Wolf. That was changed based on 9/11?
    Mr. Armitage. It is in addition to.
    Mr. Wolf. So 9/11 changed that?
    Mr. Armitage. Yes, the DS, it did.
    Mr. Green. The 1,158, I think this often gets confused. 
Those are new positions over 3 years, which we hope to get us 
back up to the level that we need to be. That does not include 
attrition, which runs about overall through civil service, 
foreign service probably runs about 400 a year, and it does not 
include these added diplomatic security CA personnel that are a 
result of principally 9/11.
    So this year--or 2003, I should say, 2003, we are looking 
at a total of 1,411 folks to come in across the board. Civil 
service, foreign service, both foreign service generalists and 
specialists. So the 1,158 that we often throw out and people 
seem to hang on, those are the positions we need and hopefully 
over 3 years, 360 last year, 399 in 2003--I should say 360 in 
2002, 399 in 2003, and 399 in 2004 is what we hope to have to 
make up those shortages that we have to give us the training 
float.
    Mr. Wolf. Right. I understand.
    We are just going to recess. We will be back in about 15 
minutes. Thank you.
    [Recess.]

                            EMBASSY IN ROME

    Mr. Wolf. The hearing will resume. Can you tell us a little 
bit about the embassy problem in Rome, the counterterrorism 
issue that you had in Rome?
    Mr. Armitage. The recent holes and whatnot?
    Mr. Wolf. People were arrested, who were they?
    Mr. Armitage. We have had different cells over the last 
year, a lot of intelligence information about various cells and 
al Qaeda operatives, and it reached a crescendo at the time of 
the President's visit some time early summer. We actually had 
to have the Italian police bust a few safe houses to disrupt 
activities. We continue to receive reports of that. Recently in 
the embassy in Rome, some water systems looked like they had 
been tunnelled into. My understanding of the investigation is 
that it is relatively inconclusive, and we have not found that 
these folks were actually going to introduce something into the 
water system. However--and the holes were relatively small. 
They did not do a very good job if they were going to introduce 
something into the system.
    Because of the high level of threats that we have been 
receiving generally, we took it seriously. Two weeks ago in 
four Italian cities we had to put out a travel notice because 
of our fear that Americans would be targeted.
    Mr. Wolf. So arrests were made in the Rome situation?
    Mr. Armitage. I do not think they were technically 
arrested, but I think they were held for a while and they are 
gone.

                      REWARDS FOR JUSTICE PROGRAM

    Mr. Wolf. The department received an additional $51 million 
in emergency supplemental funding for emergencies in diplomatic 
and consular services. Part of the funding was for the Rewards 
for Justice Program which has been widely publicized both here 
and abroad. These would be rewards for information preventing 
terrorist acts or information leading to the arrest and 
conviction of terrorists. What kind of response and results 
have you seen from the program and how much has been paid out 
in rewards?
    Mr. Armitage. Sir, I will have to take that. I do not know 
the answer. With your permission, I will take it. Does anybody 
know?
    Mr. Millette. We have not paid rewards yet. We have paid 
for advertising.
    Mr. Armitage. Jim Millette tells me that we have not paid 
any rewards yet. I cannot tell you how many hits we have had.
    Mr. Wolf. Tell us how much was spent for advertising.
    Mr. Armitage. And how many hits we get out of this.
    Mr. Wolf. So no rewards have actually been paid?
    Mr. Armitage. No, sir.

                   BORDER SECURITY POSITIONS AND FEES

    Mr. Wolf. Border security, the department's primary 
homeland security role, is in your consular and border security 
activities which are funded through fees, not appropriated 
funds. The budget includes a program increase of $78 million 
for these activities from anticipated fee revenue including an 
additional 98 new consular positions. What initiatives are you 
undertaking to safeguard the Nation's borders and to improve 
the visa application and review process? If somebody comes in 
from Syria, they are making application for a visa, how does 
that tie back in with regard to INS? How is that tied back in 
with regard to the FBI?
    Mr. Armitage. Let me give you sort of the long-winded 
answer, if I may, and Grant probably wants to either correct it 
or add to it.
    Mr. Wolf. You are a great team.
    Mr. Armitage. We have done this before. Sir, the consular 
fees are one of our many ways of bringing some revenue to the 
department, which obviously is applied to border security. We 
have been down, since September 11th, 13 or 14 percent. We are 
right now contemplating and have out for public comment a raise 
in the visa fee from $45 to $65.
    Mr. Green. $65, correct.
    Mr. Armitage. Which will make up for that shortfall. We are 
looking for 70 consular affairs people and 28 or so domestic.
    Mr. Green. 98 new ones overseas and 36 domestic. That was 
in 2002, and we are looking for 70 and 28--70 overseas and 28 
domestic this year, which will permit us to strengthen further 
our border security process.
    Back to your question, though, on how do we--if somebody 
applies for a visa in Syria, that goes into the CLASS system, 
which is distributed and available to the border agencies, INS 
and DEA. Then it is also distributed into the TIPOFF system 
which gets into the law enforcement component of it. What 
Homeland Security is doing now is attempting to rationalize, 
systematize all of those various IT systems so that in the end, 
hopefully, I think their objective is to get to one system that 
everybody plugs into, where now you have different ones.

                       BORDER SECURITY AND VISAS

    Mr. Wolf. Well, if somebody does come from Syria, does that 
information first go to INS?
    Mr. Green. Absolutely. It goes into the CLASS system which 
is available to the INS.
    Mr. Wolf. And also the FBI?
    Mr. Green. Yes, sir.
    Mr. Wolf. And that person is not granted a visa until----
    Mr. Green. If they fit the category that we are looking 
for, they will not get a visa for, I think, 20 days.
    Mr. Wolf. That is the way that fellow Rahman came in. He 
came from Egypt and the Sudan, there was a visa granted to him, 
and now he is in a prison, and he was involved in the bombing 
of the World Trade Center in 1993. So the more you can keep 
this from coming to our shores by----
    Mr. Armitage. Going to Grant's point, being the first line 
of defense is how our consular officers are referred to by the 
Secretary, by the senior leadership in the department.
    Now we got a little bad publicity after 9/11 because we 
changed--we profiled, frankly. We profiled people in our visa 
application process. People who are of a certain age, primarily 
male, who came from certain countries where the visa 
application process was slowed down, just to make sure we could 
look through all the various databases to make sure that we 
were not letting a bad character in inadvertently. We took some 
heat for it, but I think it has worked out fairly well.

                     TRAINING OF CONSULAR OFFICIALS

    Mr. Wolf. What you are doing to upgrade the credibility and 
reputation of the consular offices? Generally the reputation 
has been it is staffed by the most junior person. They are not 
going to go on and move up. It is not the best job. That has 
been the history when you go around and talk to them. That does 
not mean it is not a very important job. I think it is. The 
Secretary ought to have an awards program and single out people 
in the consular offices that are doing a good job.
    Mr. Armitage. We are making sure that they are looked at, 
and the consular cones are looked at when it comes time to get 
a chief of mission. The executive secretary is now a consular 
affairs officer. She was previously an ambassador. That is, 
probably for a system like the Foreign Service, is the way you 
really score and make it clear that the consular officer is 
full-fledged foreign service family member, and that is where 
the reward is. They see they are becoming chiefs of mission.
    Mr. Green. We have to do that across those cones in which 
we have difficulty in both recruiting and retaining.
    Mr. Armitage. And public diplomacy.
    Mr. Green. But it is in many cases, particularly in some of 
the larger posts, drudgery. As you know, having visited. We try 
to rotate people through there. They are not just consular 
officers that serve in those positions. We rotate political 
officers, ECON officers and so on, so that everybody gets a 
bite of that apple. But it is difficult.
    Mr. Wolf. Do they meet with the FBI before they go abroad? 
Is there a training program at the Foreign Service Institute 
whereby an FBI agent is brought in for one of the courses, to 
tell them what they should be looking for? Is there some 
mechanism?
    Mr. Green. Rather than give you what I think is the answer, 
let me give you some specifics. I have got to assume that in 
the A100 course there is certainly exposure to many law 
enforcement----
    Mr. Armitage. They have a lecture, but that is not quite 
the question that you raised.
    Mr. Wolf. Particularly since 9/11.
    Mr. Green. And as they go on in their consular training, I 
have to assume that, but let me give you specifics.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                       RETURN OF CRIMINAL ALIENS

    Mr. Wolf. Certain countries refuse to accept the return of 
criminal aliens who are currently being detained in the United 
States. There are 3,000 of those detainees and the Justice 
Department's costs of detention are substantial. $70 million a 
year. Section 621 of last year's CJS bill prohibits the use of 
funds by State and Justice to grant visas for countries that 
deny the return of such aliens, Somalia, Vietnam.
    Mr. Armitage. Cambodia.
    Mr. Wolf. Cambodia. This restriction is triggered by 
determination by the Attorney General. Mr. Ashcroft expressed a 
willingness to make such a determination.
    How are you coordinating this with your ambassadors and 
with others? By the end of the year I may offer an amendment on 
the floor, not put it in the bill, just put it out on the floor 
and let members vote, that we do this legislatively to Vietnam. 
If Vietnam cannot take back their 340 people. Give me a break. 
Now if they take them back, good for them. Good for us. And 
also good for the American people, because they will not get 
out of jail and rob somebody in the United States or kill 
somebody.
    So could you talk to us a little bit about that?
    Mr. Armitage. Yes, this is a very instructive issue. The 
Attorney General not only has a willingness to do it, he has 
done it. He invoked, I think it is 243D or B, whatever, in the 
case of Guyana. Of course, the State Department took the 
position that it would be the end of the world, you cannot do 
that. What do you think happened after we--the Attorney General 
did invoke it? Within a month Guyana has come to a decision 
that they would accept their returnees. It worked just like the 
legislation proposed.
    We are now using that same threat with Vietnam and Cambodia 
particularly. The Attorney General, there is no doubt in my 
mind if he does not feel he is getting satisfaction, he will 
invoke it in those cases. The most recent one, Guyana, worked 
very well for them.

                      CENTER FOR SECURITY TRAINING

    Mr. Wolf. I would encourage you. Armenia has 35 such 
people. I am very supportive of Armenia. I was in Nagorno 
Karabakh. I think what happened to the Armenian people has been 
a tragedy. But I also think Armenia ought to take back these 35 
people. Somalia, 51 from Somalia. I would encourage to you do 
that. And hopefully we can wrap this up by the end of the year 
and find out who really wants to trade with us or have dealings 
with us. I did not serve in Vietnam. You did, and I appreciate 
that. I have admired you. I have never voted for MFN for 
Vietnam but if we are going to trade with them particularly 
after the number of lives that we lost in Vietnam, and 
colleagues that both of you must have had in Vietnam, clearly 
the Vietnamese government better take these people back. If 
they do not, we ought not grant any visas. And my sense is this 
also goes to the diplomatic corps.
    You are requesting 52 million for the establishment of a 
Center for Antiterrorism and Security Training in the 
Washington, D.C. area. The facility would host training for 
State Department diplomatic security agents as well as foreign 
law enforcement officers under the Antiterrorism Assistance 
Program funded by Mr. Kolbe's foreign operations bill.
    Why is this necessary and what will we be doing at this 
center? Could you not work it in with Quantico or expanding 
Quantico or develop some relationship there?
    Mr. Green. Well, sir, the problem we have now, is that we 
are spread all over the country.
    Mr. Wolf. Yes.
    Mr. Green. We have in theory a capacity to train about 
3,000 of these people a year. We need to train more than that. 
We would like to train 700 under the ATA program and 3,000 of 
our diplomatic security agents. We lose a lot of training time. 
We are out there with a tin cup begging for ranges and 
defensive driving facilities. We need to have a location close 
to Washington, which provides a couple of advantages. This 
certainly eliminates lost training days, TDY, and travel time. 
It also permits those individuals, particularly the foreign law 
enforcement personnel who come here for training, to interface 
with other law enforcement agencies here in town.
    Mr. Wolf. I think it is a great idea.
    Mr. Green. A full range of training from medical training 
to dog training to ranges, and defensive driving. We will still 
have a couple of specialized training facilities like in 
Louisiana. We have got a pipeline security facility there 
because Louisiana has got a lot of pipelines. We will retain a 
small desert training facility in the Southwest. We really need 
to bring this together so that we do not waste so much money in 
shuttling people around the country and we can expand the 
capability through additional training. We are looking at 
several sites. Obviously Aberdeen is one that is high on our 
list.
    Mr. Wolf. I would encourage to you look in Virginia, too. I 
mean, I am not trying to--let me say for the record, I do not 
put things in my area that ought not be there. If it does not 
fit in, then it ought not go. But you also have a facility out 
in Warrenton that is a very large, large facility which used to 
be with another government agency. And you have----
    Mr. Green. Indian Town Gap has been looked at.
    Mr. Wolf. You have AP Hill and others. But you feel this 
would be an opportunity? Would you then close down other ones? 
Where do they go now? Glynco now?
    Mr. Green. They would still go to Glynco for normal law 
enforcement training. For the foreign terrorists and 
antiterrorist training program, the person would come from law 
enforcement and individuals from other countries do not go to 
Glynco. We have training facilities around the country where we 
send them.
    Mr. Wolf. Now you train a group in my district, you train 
an Egyptian team in Front Royal with regard to the dogs. There 
is a dog training facility, ATF and Customs have that. How 
would that differ? Would they continue to be there or would 
that be then moved to----
    Mr. Green. I do not know specifically, sir, but I can 
certainly get that.
    Mr. Wolf. If you could let us know, because I am interested 
in this.
    Mr. Green. Okay.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. Also, how much of it would be diplomatic security 
as opposed to the ATA program?
    Mr. Green. If we get a single facility, what we are looking 
at is 7,000 a year ATA and about 3,000 a year diplomatic 
security.
    Mr. Wolf. Okay.
    Mr. Green. So 35 percent, 65 percent.

                        EMBASSY SECURITY FUNDING

    Mr. Wolf. We are just beginning on the effort to upgrade 
the security of all the overseas facilities. Only 3 programs 
have been funded from the list of posts requiring urgent 
replacement. With all that is left to do and with the current 
environment of increased terrorist threats against U.S. 
interests worldwide, is it the wrong time to be seeking less 
money for embassy security?
    Mr. Green. I do not know that we are seeking less. I think 
maybe the confusion is in 2002, there was some AID money 
included in that number. I think we are really, I think, $24 
million higher than----
    Mr. Armitage. We have $82 million in 2003 foreign ops 
capital construction.
    Mr. Wolf. 2002 was $665 million.
    Mr. Green. But that included AID. That included about $80 
million for AID and----
    Mr. Wolf. So if you add that in.
    Mr. Armitage. We put it in the foreign ops with Mr. Kolbe.
    Mr. Green. So we are actually about a plus $25 million in 
2003.

                           EMBASSY IN BEIJING

    Mr. Wolf. We recently received a reprogramming request from 
the Department to reallocate $224 million from other priority 
fiscal year 2002 embassy security capital construction projects 
to the project in Beijing, which your fiscal year 2003 budget 
defines as a nonsecurity project. Why are you proposing to do 
that, and is the Beijing project a security-driven project as 
your reprogramming suggests, or is it driven by post 
responsibilities and staffing outgrowing the existing facility?
    Mr. Armitage. What it is driven by is a reciprocal 
agreement with China. We completed our negotiations with them. 
They are moving ahead on their embassy, and we want to move on 
the exact same scheduling. We do not want them finishing their 
embassy before ours is finished and then finding ourselves with 
having difficulty with getting materials introduced. You are 
right. The Beijing embassy is on the list and is in the second 
tier, and we are using nonsecurity money or requesting to use 
nonsecurity money. I think the fact of the matter is where 
Beijing may not be a physical security post, it is clearly a 
technical security post.
    Mr. Wolf. But they do not even allow the Falun Gong to 
unveil a banner in Tiananmen. So if they do not want somebody 
to come to the embassy, they will not come to the embassy.
    Mr. Armitage. It is not so much a physical security as it 
is technical security and electronic surveillance. I could make 
the argument that it really is a security expenditure.
    Mr. Wolf. On that issue, in addition to China, in addition 
to the threats of terrorists and criminals fraudulently 
obtaining visas, I think there is an urgent need to prevent 
visas to those who would commit espionage. I have read things 
and have read articles and have talked to individuals talking 
about this could potentially be a serious problem with regard 
to China, that China may very well have people trying to steal 
secrets from the United States, particularly from high-tech 
companies. So what do we do to make sure that personnel who are 
responsible for issuing visas in China are sensitive to this 
issue?
    Mr. Armitage. I know it is primarily a domestic law 
enforcement issue with FBI, and it is a real problem, 
particularly on the West Coast. But it has spread to the East 
Coast. It is particularly, as you suggest, in high-tech 
machinery, high-tech manufacturing processing. Industrial 
espionage is a big factor in China's espionage plans.
    I do not know that we have particularly raised this with 
consular affairs office. I think it is a little difficult to 
know the motives behind some of these people, if they otherwise 
qualify for a visa, they are a business person and they want to 
do business but they have a sideline of doing industrial 
espionage, like the Japanese did for a number of years. Like 
the French have had for some years. I guess I need more advice 
on it.

                   INFORMATION SHARING IN GOVERNMENT

    Mr. Green. Let me just add one thing, if I might, sir. Very 
frankly, we have to do better--I do not mean State Department 
necessarily, the Government--we have to do better in having the 
FBI share some of that information with us. Of all the sharing 
of information that is going on within the Federal Government, 
the weakest link as far as our consular offices are concerned 
is getting law enforcement information from the FBI. And they 
get--I am not throwing rocks, they get into sources and methods 
and all of those kinds of things. We have got to have better 
cooperation there.
    Mr. Wolf. Okay. Well, we will talk briefly. I wanted to 
mention it because I wanted to ask you if you could do 
something. I think you understand the point that I am trying to 
make.
    Mr. Green. Yes, sir.

                      LONG RANGE CONSTRUCTION PLAN

    Mr. Wolf. Your testimony last year and this year referred 
to the Bureau of Overseas Building Operations' long range 
planning efforts, but the committee still has not seen the 
plan. If it is linked to appropriation requests and spending 
plans, this plan could potentially be a major step toward 
making the embassy security and construction program function 
more efficiently, including the congressional review process.
    Mr. Green. You are going to see it 30 to 45 days. It is at 
OMB right now.
    Mr. Armitage. 30 to 45 days.
    Mr. Green. It is a good document.

                          VICTIMS OF TERRORISM

    Mr. Wolf. Section 626 of last year's bill asked the 
President to submit a legislative proposal to establish a 
comprehensive program to ensure fair, equitable compensation of 
all U.S. victims of international terrorism, including those 
with hostage claims against foreign states. The proposal has 
not been submitted yet. State has taken the lead in developing 
the proposal. I am not asking you to give me specifics at this 
time, but could you talk about what type of proposal we might 
see, what do you think would be fair, and when the Congress 
might very well see something?
    Mr. Armitage. We do have the lead. We are required by 
legislation to develop such a proposal. Even last night 
Assistant Secretary Paul Kelly and others were over at OMB 
working on that proposal. Do you know what the timetable is?
    Mr. Kelly. It is over at OMB. We are pushing them to get it 
over here. Our proposal specifically contains $250,000 
compensation across the board for anyone killed in the line of 
duty. We are looking at a funding source. That seems to be the 
potential concern with OMB, how is this going to be funded? Is 
it going to be State's blocked funds? Is it going to be from 
the Justice crime fund? Is it going to be appropriated funds? 
We are trying to resolve that.
    Mr. Wolf. Okay. So you think something will be up here by?
    Mr. Kelly. A decision coming out of the OMB within the next 
week.
    Mr. Wolf. With that, I think what we will do is we will 
just submit the rest of the questions for the record. And I 
appreciate both of you taking the time, and the hearing is 
adjourned.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, March 14, 2002.

            DEPARTMENT OF STATE--INTERNATIONAL ORGANIZATIONS

                               WITNESSES

JOHN D. NEGROPONTE, U.S. AMBASSADOR TO THE UNITED NATIONS
WILLIAM WOOD, PRINCIPAL DEPUTY ASSISTANT SECRETARY, BUREAU OF 
    INTERNATIONAL ORGANIZATION AFFAIRS

             Opening Remarks of Subcommittee Chairman Wolf

    Mr. Wolf. The committee will come to order. The 
subcommittee is pleased to welcome today Ambassador John 
Negroponte, the U.S. Representative to the United Nations, and 
let me say I appreciate your service, Mr. Ambassador, now and 
particularly during the 1980s when you did such a great job 
with regards to Central America; and, William Wood, the 
Principal Deputy Assistant Secretary for International 
Organization Affairs.
    We will receive the testimony today regarding your budget 
request for assessed contributions to international 
organizations. This request represents a decrease of $77 
million, or 4.5 percent below the current funding level. We 
discussed this before, and I will just say this for the record, 
I have been a strong supporter of paying our dues to the U.N. I 
have been a strong supporter of the peacekeeping efforts. I 
spoke on the floor 3 years ago, in opposition to this 
Committee. I don't know, I think probably you would have agreed 
with me at that time, but----
    Mr. Serrano. I agree with you now.
    Mr. Wolf. You don't know what I am going to say, though. 
But I think when you join an organization you pay your dues. I 
think we have an obligation, a moral obligation, to do it. That 
gives you the right to then speak out and help shape that 
organization. If you are part of a Democratic Caucus or a 
Republican Caucus in the Congress and you pay your dues, you 
have the right to articulate your values and try to get your 
group, and whether it be the YMCA or the local Rotary Club or 
the U.N., to expound the views that you believe very deeply.
    America is a good country. We are decent. We have done a 
lot of good things, and I think at the U.N. we should be 
speaking out. This is not directed against you, because I know 
you have just arrived there, and also with regard to September 
11, which has changed a lot of things and taken a lot of time, 
but I think we ought to articulate our values. I would have 
hoped we would have spoken out at the U.N. with regard to the 
fact that the Sudan Government killed 17 innocent southern 
Sudanese at a World Food Program site. They just gunned them 
down. I think that is the type of thing that you could have 
gone to the Security Council, you could have gone to the 
General Assembly and spoken out.
    We do better when we articulate our values, and our values 
are universal values. President Reagan made a comment that the 
words of the Declaration of Independence that are constantly 
quoted, ``life, liberty, pursuit of happiness'', ``all men and 
women are created equal'', that is the way to govern the whole 
world. Those words, in essence, came before the Constitution, 
and so when we articulate those values, they are not any danger 
to anybody. They are actually liberating, and we are, in 
essence, siding with the people.
    For instance, with regard to Iran, I agree with the 
President's, ``axis of evil'' statement. Remember when Ronald 
Reagan was criticized for the ``Evil Empire''? He was right. 
That was the beginning of the end of the Soviet Union. I think 
we should also make it clear that we speak out for human rights 
in Iran and maybe articulate that the Iranian Government should 
release some of the dissidents in jail. By doing that we will 
send a message to the Iranian people that we are with them. 
Like in the old days when we spoke out on behalf of human 
rights in Romania, most of the Romanian people, except for 
Securitate and Ceaucescu's henchmen, most of them wanted us to 
take away the MFN because they knew that by doing that, it 
showed we were identifying with them. So I really think at the 
U.N. it is very important that we articulate our values.
    Also I would say David Welch, who was here in Mr. Wood's 
place last year, has kind of broken his promise. He said when 
he became the Ambassador to Egypt, he would speak out for the 
Coptic Christians. We have given Egypt, our good friend, $47 
billion since Camp David, and life for a Coptic Christian in 
Egypt is worse today than it was then.
    Well, Mr. Ambassador, you knew that during the Reagan years 
when Secretary Shultz would go to Moscow, he would articulate 
on behalf of the dissidents, sometimes wear their bracelets, 
meet with them in the embassy. Why isn't our Ambassador in 
Egypt meeting with the Coptic Christians? Why isn't he 
articulating freedom, liberty, freedom of worship? We have a 
diversity in this country, it is one of our strongest assets. 
We allow people to come here and build mosques, but you can't 
build a church in Egypt.
    In Saudi Arabia we saw the story of a young major, an 
American military person, a woman, who didn't want to have to 
wear the veil in Egypt. We should be standing with her. When 
the Saudi Government, when Prince Bandar, who lives out in my 
congressional district, comes to the United States, he can 
worship and go wherever he wants to go. I would defend him and 
stand next to him and say Prince Bandar has that right, and I 
would go with him if anyone said he couldn't do it. But I also 
would want a Christian, or somebody who is Jewish, or a Hindu, 
or of the Muslim faith, or a Buddhist in Saudi Arabia to be 
able to worship there. If you are Roman Catholic, why shouldn't 
you be able to take holy communion from a priest? If you are in 
the American military, why shouldn't you be able to go without 
a veil? We are never going to offend anyone if we do it with 
humility.
    I didn't plan on getting into all of this, but it is just 
now coming out. President Bush, who I admire very much, and as 
a matter of fact I think the speech that the President gave at 
the U.N. was an unbelievable speech. I have been at the U.N. 
When people are speaking and nobody is listening. Everybody 
listened to him. You could have heard a pin drop. If we do it 
with humility, not arrogance, not beating people over the head, 
people will listen. I think we are strong, we are certainly 
strong with the people. So I would hope at the U.N. we could be 
speaking out for the persecuted, speaking out on behalf of 
human rights and religious freedom.
    You are in a key spot with regard to the reputation the 
United States has in the Middle East. I saw the Gallup poll. I 
think it would be important to get up and give a major speech. 
It was American military that brought peace to Bosnia. They 
were all Muslims. I supported the bombing of Serbia, which is a 
non-Muslim country, in support of the Kosovo Albanian Muslims. 
I supported the effort with regard to the Gulf War, and our 
poll numbers in Kuwait were worse than they were in any other 
place.
    So I think you have to tell the American story: good 
people, decent people, open, liberty, freedom. Yesterday, 
Justice Kennedy was talking about liberty, freedom, and 
tolerance, that is what we are. We are open. We welcome other 
people, but they have to do the same for us.
    I think you are in a key spot, and, frankly, I think your 
appointment was a great appointment, and you are a good person. 
I know 9-11 has over taken everything, but now that we are 
beginning to do other things in addition, I think it is 
important to articulate our values. They are good values, and 
we seek to dominate nobody. Frankly, some of these countries in 
the Middle East would be in a very precarious situation if it 
was not for the United States government. We have to tell 
people who we are and what we stand for and what we believe and 
verbalize it over and over. When you sell a product, sometimes 
you have to say it 10 times before it sinks in. We know it. All 
of us up here know it. The American people know it. Now we have 
to take it out and tell them. We have to export that value and 
not Baywatch or some of the stuff that is coming out.
    I just hope you will use the opportunity to speak out on 
these issues at the U.N. Once we resolve the 9-11 and get 
things worked out. I think you should tell Ambassador Welch, I 
have last year's hearing on the record. If I am wrong, I will 
publicly apologize. If he can send me the speeches where he has 
named names, then I will come in here and I will say that I was 
wrong. But just to say, ``I am for human rights''; Mention the 
names of the people in the prison. Sharansky will tell you that 
when people mentioned his name when he was in the Perm, his 
life got better. Wei will tell you that his life got better.
    So you have to mention individuals. Mr. Serrano knows this. 
People come up to you and say, I am really for you, but I just 
don't want to say it publicly. Well, in political life if you 
want to be neutral, that is okay, but if you are for me, you 
ought to say so publicly. I think if we are for them, we should 
be publicly identifying and speaking out for the persecuted 
Christian, Jewish, Muslim, Buddhist, the Baha'i faith--we 
should be articulating more to the Baha'is in Iran. That is 
what America is, and when we do that we are on very, very high 
ground, and we can make a tremendous difference.
    With that I recognize Mr. Serrano.

           Opening Remarks of Ranking Minority Member Serrano

    Mr. Serrano. Thank you, Mr. Chairman. I tell you, I am very 
honored to be the senior Democrat on this subcommittee. I have 
great respect for the fact that you have strong beliefs as I do 
about some of these issues.
    Let me welcome both of these gentlemen. It is an honor and 
a pleasure to have you here. As my record will indicate, I am a 
strong supporter of our participation in the U.N. and 
international organizations. I have put my actions where my 
mouth is and I am very supportive of paying our dues and 
participating in every organization that we should.
    However, our participation in the U.N. sometimes breaks my 
heart because you have no choice but to toe the party line, the 
administration line, whichever administration that is. I wasn't 
happy with the last one on some of these international issues 
either. So I know, for instance, the tensions that exist 
between the American delegation and the Cuban delegation at the 
U.N. There is some sort of a friendship established between the 
American delegation and other delegations who may be accused of 
the same thing that the Cubans are accused of.
    Why do I bring up that? First because I have a long-
standing tradition in this subcommittee to try to bring up Cuba 
and Puerto Rico at least once during every subcommittee 
hearing, and I just accomplished both, and I will figure out 
how to bring up Puerto Rico in terms of substance. But I 
continue to be troubled by our foreign policy when it comes to 
our ability to pick out on a case-by-case basis which 
Socialists/Communists we deal with. On the House floor you find 
people who are the hardest hard-liners on sinking the island of 
Cuba, who are the strongest supporters of trading with China, 
and they can explain that.
    I believe in trading with everyone. I believe if you talk 
to people, you may get them to see your way rather than 
confronting them all the time. So I am troubled at what I know 
will have to be your role at the U.N. Now that Mr. Otto Reich, 
our Assistant Secretary of State, has made in a speech a 
statement about the Cuban Government and the island of Cuba 
that we haven't heard perhaps in all of the 42 years. It was 
borrowed, I believe, from Nikita Khrushchev's line that ``we 
will bury you,'' and his comment was that our policy will even 
get tougher and stronger, and that we will not trade or sell 
food or medicine, and we will just make them cry, ``Uncle 
Sam.'' That troubles me a lot because I think there is a major 
problem with our policy.
    Having said that, I think it is important for all of you 
who are involved in setting forth our policy and when you meet 
together to keep in mind that while on one hand we have the 
administration on the issue of Cuba being stronger than any 
administration has been in a long time in terms of burying them 
or making them cry uncle, we now have more Republican Members 
of Congress joining Democrats in saying this policy has to ease 
off or has to change, or it has to end. I knew that would 
happen. I have been quoted for years as saying that the Cuban 
embargo would either change or end when Wall Street and farmers 
wanted it to end, but not when I or people who want political 
changes say so. So Wall Street is saying, end it, and farmers 
are saying they can certainly eat our wheat. Their bread tastes 
better this month than it did two months ago.
    Having said all that, and joining my Chairman in saying I 
don't know why I got into this, but I support your efforts. You 
will find that even though I don't agree with a lot of parts of 
our policy, especially in Latin America, I do support our 
peacekeeping efforts. I will do whatever I have to do to make 
sure that we pay our dues, that we are never in arrears again, 
and that we participate in peacekeeping efforts. So consider 
me, if you will, a disagreeing at times ally, not disagreeable, 
but disagreeing at times ally, who really believes that our 
best policy should be divulged to everyone who understands 
politics and understands Florida politics and Florida 
reelection politics during the reelection year. So I thank you, 
and I welcome you.
    Mr. Wolf. Thank you.
    Your full statement will appear in the record. You can 
proceed as you wish.

                Opening Remarks of Ambassador Negroponte

    Ambassador Negroponte. Thank you, Mr. Chairman. Just 
briefly, before going into my summary remarks, which will be 
quite brief, let me just answer in part some of the comments 
you made.
    I recall reading the testimony that Mr. Welch made before 
you last year and the comments you made, if I recall correctly, 
about the urgency of finding some kind of special envoy for the 
country of Sudan. And I recall that, and if I remember, it was 
quite an impassioned statement that you made, and I think that 
you would agree that the administration has been responsive to 
that.
    Mr. Wolf. I do.
    Ambassador Negroponte. I think that Senator Danforth, 
assisted by Robert Oakley, has moved the issue along quite 
nicely on that.
    Mr. Wolf. I agree.
    Ambassador Negroponte. I just wanted to mention that. On 
the subject of human rights, I don't think there is anything 
you said that I could possibly take issue with. I agree with 
your statement, and I think we should speak out, and we do. 
Just to cite a couple of examples: in Iran, we were supportive 
of the Iranian resolution that went through the General 
Assembly this year that was sponsored by the Europeans.
    Our representative before the Economic and Social Council 
of the United Nations is Sichan Siv, a Cambodian Holocaust 
survivor, a man who left Cambodia in 1976, and 16 years later 
he was the Deputy Assistant to the President of the United 
States, and now he is our ambassador to the ECOSOC, and last 
year he was one of our delegates to the Human Rights Commission 
in Geneva.
    Next, the work we have done in Afghanistan and for Afghan 
women. Mrs. Bush spoke the other day at the Conference on Women 
in New York. The initiatives of Mark Grossman in support of 
freedom of religion. The Greek Orthodox Archbishop has praised 
the work that Mark that has done with respect to trying to help 
protect the interests of the Greek church in Istanbul. The 
resolution on the protection of the religious sites that was 
passed recently by the United Nations.
    I suspect this is one of these situations where the glass 
is sort of half empty and half full. Clearly there is always 
more that can be done. I will take your comments to heart, Mr. 
Chairman, and try to find ways to better bring to the 
committee's attention what it is that is already being done, 
and then also take a hard look at what more it is we can do.
    You have my commitment in that regard, and I couldn't agree 
with you more. I genuinely and sincerely agree with you that 
the U.N. is a platform where we must articulate the fundamental 
values of the United States. I wholeheartedly agree with you.
    To Mr. Serrano, I would like to mention the fact that our 
President is about to embark on a trip to Latin America. He is 
going to the Monterrey Conference late next week, which is a 
U.N.-sponsored conference on financing for development. Then he 
is on to Peru and coming back to El Salvador. I think we will 
see in the very near future an important statement of the 
administration's interest in Latin America.
    Let me just comment on the importance of our funding 
request, and say that last summer as I prepared for my 
potential responsibilities in New York, I contemplated an 
ambitious U.N. agenda. Then September 11 happened. The pre-
September 11 agenda remains relevant and pressing. It is all 
about building a lasting peace. But the post 9-11 agenda is 
even more urgent. It is all about winning a complex war.
    Let me itemize for you the elements of our agenda for peace 
as we headed into the 56th General Assembly last year, that is 
before September 11: maintaining U.N. budget discipline and 
continuing the work of building a more effective and efficient 
U.N. through reform; enhancing and rationalizing the capacity 
of the U.N. Department of Peacekeeping Operations; following 
through on the conclusions of a successful special U.N. General 
Assembly session focusing on combating HIV/AIDS; meeting the 
challenge of advancing sustainable global development; calling 
for greater attention to fundamental freedoms; improving the 
safety and security of U.N. personnel around the globe; 
reaffirming our commitment to improve the lives of children and 
the hungry. Mr. Chairman, I think we have made progress in each 
dimension of this program, September 11 notwithstanding.
    Let me turn briefly to our post-September 11 agenda. U.N. 
actions in response to those tragic events underscore the value 
of the United Nations to U.S. foreign policy and global 
security. We have enjoyed an extraordinary level of solidarity, 
support, and cooperation at the United Nations. Individual 
member states, the U.N. General Assembly, the U.N. Security 
Council, and the U.N. Secretary General have all stood by our 
side.
    The single most powerful response of the U.N. came on 
September 28, when the Security Council passed Resolution 1373 
instructing all member states to review their domestic laws and 
practices to ensure that terrorists could not finance their 
operations or find safe haven. To date 144 out of 189 member 
states have submitted detailed reports on legislation and 
practices in their countries. Those states that need our help 
in this fight will benefit from technical assistance provided 
by lateral and multilateral donors.
    At the same time the Security Council initiated the 
difficult work of helping rescue Afghanistan from the 
accumulated ravages of serving as host to global terrorism's 
headquarters. In a remarkably short time the U.N. brokered the 
coordination of an interim government, fostered plans for a 
longer-term, popularly chosen government, encouraged the 
creation of the British-led International Security Assistance 
Force, and played a major role in an international donors 
conference that generated sufficient pledges to sustain 
progress over the next 18 months. All the while, of course, 
U.N. relief agencies with significant U.S. support rushed 
humanitarian aid to the desperate Afghan people.
    We must continue to work with the U.N. to guarantee that 
terrorism never takes root in Afghanistan again. We also must 
continue to keep close watch on states that have developed 
weapons of mass destruction which could be used to enhance the 
terrorists' destructive capabilities. In the case of Iraq, the 
Baghdad regime refuses to comply with Security Council 
resolutions, accepting the return of weapons inspectors, fully 
declaring and destroying prohibited weapons of mass destruction 
and missiles, and dismantling the programs that created them.
    Let me emphasize that we do not pursue a policy to injure 
the people of Iraq. In a major effort to free up trade and 
goods, the Bush administration proposed revamping the U.N. 
sanctions to focus on prohibited dual-use and military 
technologies. We are now close to the agreement on the new so-
called ``Goods Review List'' that will guide this approach as 
the Security Council decided that unanimously late last year.
    Mr. Chairman, peacekeeping is a critical function of the 
United Nations. It enables us to provide security in 
postconflict areas without engaging U.S. troops. Let me cite 
but a few examples of the most important operations currently 
taking place.
    In Sierra Leone, Unamasil has helped restore a new level of 
stability. Forty-five thousand RUF rebels and progovernment 
militia have turned in their weapons.
    In Kosovo we have seen the successful election of Ibrahim 
Rugova as the first President of the Kosovar Assembly.
    In East Timor the peacekeeping operation there has 
contributed to progress towards elections scheduled for April 
14.
    There is an important point that I would like to stress 
here, Mr. Chairman. Beyond specific cases, I do want to 
emphasize that we need to have the cap on peacekeeping 
assessments lifted effective January 2001, to avoid accruing 
arrears of some $78 million last year and a similar amount this 
year.
    Our effectiveness at the United Nations rests on the 
goodwill we enjoy throughout the membership. Thanks to Congress 
we were able to release $582 million in arrears last year. Now 
we are making excellent progress on the benchmarks required for 
final payments under the Helms-Biden legislation. We expect the 
U.N. to fulfill these conditions this summer, enabling us to 
release $30 million to the United Nations. This assumes that 
the State authorization bill will be enacted shortly.
    The funding we seek in this request is consistent with our 
approach to maintaining budget discipline. It represents a 1.2 
percent a year over the previous budget primarily because of 
inflation and currency fluctuations, but it is far below the 
U.N.'s threshold for zero real growth. It comes amidst the 
Secretary General's continuing efforts, which we support, for 
additional reforms, comprehensive reviews of major U.N. 
departments, and in-depth analysis to determine low priority or 
obsolete mandates.
    Mr. Chairman, the war against global terrorism comes first, 
but fortifying the conditions of peace is an agenda we will not 
likely surrender. We will not be deterred on either front.
    In conclusion, let me emphasize my conviction that our 
efforts at the U.N. have been completely in line with President 
Bush's broader agenda against global terrorism and 
proliferation of weapons of mass destruction. Since September 
11, the United Nations has repeatedly demonstrated its 
relevance to our foreign policy goals and national security 
objectives, be they with respect to terrorism, Afghanistan, or 
Iraq. I would submit to you that under the circumstances, our 
budget request for our U.N. contributions are deserving of full 
and timely support.
    I thank the committee for its attention and would welcome 
any questions.
    Mr. Wolf. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. Mr. Wood.

                    Opening Remarks of William Wood

    Mr. Wood. Thank you very much, Mr. Chairman. Just a couple 
of introductory comments regarding the points that you made. 
You should know that just last evening, in fact, we instructed 
our embassies in the capitals of all of the member states of 
the Commission on Human Rights and our delegation in Geneva to 
raise our priorities for the Commission on Human Rights 
session, which convenes next Monday. We are observers in this 
session, but we are not passive observers. The first priority 
we raised in this cable was Sudan, and we asked for an accurate 
and complete resolution that will cover the subjects of 
slavery, interference with humanitarian relief, persecution of 
religious minorities, and attacks against the civilian 
population and humanitarian workers.
    In Iran, we asked for a strong resolution focusing on 
restrictions against women, the impediments to religious 
freedom and the impediments to freedom of expression.
    In the case of Cuba, Mr. Serrano, we are also seeking a 
resolution, and our focus this year is the need for a 
democratic opening in Cuba. That is our primary orientation 
there.

                         HUMAN RIGHTS IN CHINA

    Mr. Serrano. Are you seeking the same one for China?
    Mr. Wood. The China resolution is still under review. We 
are absolutely convinced that we have to take some action on 
China. We are not sure what it is, following the President's 
trip to Beijing where the President, of course, went through 
the full agenda.
    Mr. Serrano. But you are not seeking the same one on China 
or North Korea?
    Mr. Wood. I can only say we are certainly seeking a 
resolution on North Korea.
    Mr. Serrano. Did you mention that?
    Mr. Wood. No. I was only addressing the ones you had 
mentioned.
    Mr. Serrano. I just want to know how many, quote/unquote, 
bad states you are seeking one on, and how many bad states that 
we are making money from we are not seeking one on.
    Mr. Wood. Again, when you cast your priorities in a cable 
like this, one of the things you want to do is advance your 
priorities in areas where you think there may not be adequate 
action taken by others, but I can assure you that North Korean 
and Chinese human rights are high in our agenda.
    Mr. Serrano. Mr. Chairman, I apologize for interrupting, 
but you know how I feel about this. With all due respect, sir, 
I think what should happen when you come to these hearings is 
be straight, but don't ever insult my intelligence. You are 
seeking it against Cuba because that is what the administration 
wants to do. You are not seeking it against China in the same 
way because we make money with China, and there is no one 
running in China for reelection. They are running in Florida 
for reelection.
    So if we understand what is going on, we can get along; 
otherwise this is a waste of time for me.
    Ambassador Negroponte. Excuse me, but perhaps you saw 
President Bush's appearance at Tsinghua University in China 
when he was on his trip, and he spoke out very strongly on 
human rights.
    Mr. Serrano. Right. And I would like to see his appearance 
in Havana, too.
    Ambassador Negroponte. I am saying he spoke out very 
strongly on Chinese human rights and freedom of religion.
    Mr. Serrano. You could call me any name you want and still 
vote for me, and I will be fine. You could trade with me and 
call me names, I am fine. It is a problem when you try to 
strangle me and 11 million people on an island in the Caribbean 
and then come before a committee of Congress and say there is a 
moral justification for what you are doing. There is no 
morality involved in the fact that we deal with China and not 
with Cuba, none whatsoever, except that the Chinese American 
community is not as strong as Dade County, Miami, period. It is 
that simple. If we know that, we can have a better, respectful 
understanding.
    Mr. Wood. Let me turn to my prepared statement. It is a 
pleasure to appear here with Ambassador Negroponte, who heads 
up what is really a dream team in New York that includes one of 
our most distinguished Foreign Service officers who served as 
charge d'affaires for 9 months, Ambassador Sichan Siv, who 
personally experienced what it means to live under and escape 
from a brutal regime; the former Assistant Secretary of 
International Affairs, who has special responsibility in New 
York with peacekeeping, and the most experienced Foreign 
Service officer in the business on administrative matters, who 
is watching budgetary and management matters in New York.
    Let me also say that I think the relationship between the 
United States and United Nations is supportive and mutually 
reinforcing. Part of the reason for that is the very positive 
role that the Secretary General Kofi Annan has been playing. He 
was reelected in June for his second 5-month term in an 
unprecedented manner, demonstrating international support for 
his leadership, and the U.S. is in regular dialogue with him 
primarily through Ambassador Negroponte.
    In that regard we are very pleased at his continued efforts 
to make the U.N. a sharper instrument for use by its members 
and more efficient and effective. Just last week, for instance, 
he announced a new initiative that was his initiative, no one 
else's initiative, to try to make an even more efficient U.N.
    Third, the U.N. completion of a number of steps permitted a 
release of $582 million in arrears last year, which removed a 
major irritant and an easy talking point for those who disagree 
with us. As the Secretary of State made clear in his recent 
testimony before this committee, it is important that the 
Congress approve legislation lifting the 25 percent cap on our 
peacekeeping rate effective January 1, 2001, so that we can 
make good on the agreement that lowered our rate of assessment 
effective that same day. It is also important that the Congress 
approve legislation relating to the third tranche of our 
arrears payments so that we can take better advantage of the 
considerable progress mentioned by Ambassador Negroponte that 
the U.N. institutions have achieved in reaching those 
benchmarks, and so that we can make a final payment of $244 
million, $30 million of it to the U.N. and $214 million to 
other international organizations.
    Mr. Chairman, the U.N. continues to act in areas of prime 
importance to the United States. In my prepared statement I 
discuss the areas of most urgent priority: counterterrorism, 
Afghanistan, Iraq, and I demonstrate the range of U.N. 
involvement in all of those issues, such as the U.N. political 
role; its capacity for mobilizing international consensus and 
compassion; its capacity for unifying the world behind a set of 
values that since its founding has steadily moved in the 
direction we favor, that is, the rights of the individual and 
the dignity of the individual; its humanitarian role; its 
developmental role; and its peacekeeping role. Although a 
number of these activities are funded through voluntary 
contributions and, therefore, do not fall under the 
responsibilities of the U.N., I believe it is necessary to take 
the full range of U.N. activities into account and assessing 
its contributions to U.S. foreign policy interests.
    Afghanistan is a classic case of the humanitarian side, the 
political side, the peacekeeping side, and the developmental 
side all coming together in a very positive synergy.
    Another area of intense U.N. activity is Africa. In our 
budget request for peacekeeping assessments, more than two-
thirds is for Africa. Sierra Leone and MONUC in the Democratic 
Republic are the two largest items in our peacekeeping request. 
I am pleased to report progress on the ground in both cases, 
but not as much as we would like. U.N. peacekeepers are also 
active in Ethiopia and Eritrea, where the U.N. plays a pivotal 
role in defending the peace, and in the western Sahara building 
ceasefires. The underlying question of the status of the region 
still has to be resolved, however.
    The U.N. has more than 15 special envoys of one form or 
another for Africa confronting challenges in Sudan, Angola and 
elsewhere. Just last week I joined Deputy Secretary Armitage in 
meeting with the coordinator for Sudan, and the principal topic 
of their discussion was the outrageous attack on the 
humanitarian workers a few days earlier. In the interest of 
starving aggression and in all political humanitarian 
developmental activities in the U.N., the pathbreaking special 
session of the General Assembly on AIDS had a special relevance 
to Africa. In the interest of starving aggression and advancing 
peace, targeted sanctions of the Security Council are also 
enforced on Liberia, Somalia, Unita, Angola and nongovernmental 
forces in Rwanda and Sierra Leone. Africa occupies more than 50 
percent of the Security Council's time and is likely to 
continue to do so.
    In summary, Mr. Chairman, I am very grateful for this 
opportunity to appear before you. The U.N. continues to take 
action in areas that are urgent and areas that are merely 
important, but it continues to take action around the world. 
The U.S. is a full participant in every aspect of U.N. 
activity, and with the support of the committee, we will 
continue to be so. Thank you very much, sir.
    Mr. Wolf. Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. At the outset I want to make sure this is not an 
adversarial relationship. Speaking for myself, I am very, very 
supportive of what the Bush administration has done and, 
frankly, what Secretary Powell has done with regards to the 
Sudan. The President mentioned the Sudan in three different 
speeches last year before the appointment of a special envoy. 
This is my opportunity, though, and your opportunity to make 
sure that we continue to sort of push the envelope even farther 
on some of these issues.
    There was a quote by Martin Luther King, Jr. He said, ``In 
the end we will remember not the words of our enemies, but the 
silence of our friends.'' We don't want there to be the silence 
of our friends by abdicating the responsibility to speak out.
    Also let me say what the U.N. World Food Program has 
averted a fundamental famine that would have taken many more 
lives in Afghanistan. So this is not meant to be adversarial. 
But these are points that I think----
    Mr. Serrano. Mr. Chairman, may I say something? Obviously 
the word ``adversarial'' alludes to my behavior.
    Mr. Wolf. No, it wasn't yours. It was me, because I started 
it----
    Mr. Serrano. But I followed it up.
    Mr. Wolf. We are together, and let me just say----
    Mr. Serrano. I think when you deal with the truth, and you 
question the motives of our foreign policy towards one island 
in the Caribbean and reelection politics in Florida, because 
Dr. King also told us that the truth will set you free, and I 
think it is because we all want to be free.
    Mr. Wolf. On that, then we will move from this, Mr. Serrano 
has a legitimate point in that point. I differ with him, but my 
difference is that I was opposed to MFN for China because there 
are Catholic bishops in jail and Protestant pastors. So I was 
opposed to what we did for China with MFN, and I am opposed to 
the Castro administration down in Cuba. I think his point is 
well taken, what he says is the difference with regard to Cuba 
and China, and he makes a very----
    Mr. Serrano. I respect the fact, Mr. Chairman, that you 
have taken the opposite side, but you have been consistent on 
it. I support trading with China; I support trading with Cuba. 
You do not support either. I respect that.

                       U.N. Sanctions on Liberia

    Mr. Wolf. A U.N. panel of experts issued a report in 
December of 2000 which found overwhelming evidence that Charles 
Taylor continues to be a major source of instability plaguing 
West Africa. There are U.N. Security Council sanctions on 
travel and on arms and diamond trading, and we would like to 
hear whether you think they are effective.
    Secondly, Charles Taylor continues to destabilize in that 
portion of the world. There are reports in the Washington Post 
of the diamond trade coming out of there funding al Qaeda, 
funding Hezbollah in Lebanon, and the experts panel found a 
payment from the Liberian flag ship registry to a known arms 
trafficker.
    The ship registry and timber bring an estimated $220 
million a year of revenue to the Liberian Government. Liberia's 
maritime and corporate registry is of international repute. It 
has also been a steady source of revenue for the Liberian 
Government. From 1949 to 1999, the registry remitted around, 
U.S. Dollars, $700 million to the government.
    Charles Taylor helped--Charles Taylor is really responsible 
for many of the atrocities. He and Foday Sankoh were partners 
in that criminal activity. During the civil war, the revenue 
from the ship registry represented 90 percent of the total 
state budget. Previously it had been 10 to 15 percent. Today 
the revenues account for about 50 percent of the country's 
official budget, according to the Bureau of Maritime Affairs.
    Could you comment on one, the effectiveness of the 
sanctions; two, the idea of taking the Liberian flag away and 
having our government be actively involved in that; and three, 
dealing with the issue of sanctions on timber which is a major 
environmental issue as well as a human rights issue.
    Mr. Wood. Let me try to answer that, Mr. Chairman. First, 
regarding the effectiveness of the sanctions on Liberia, I 
think that our best indicator, because it is always hard to 
know what the actions are that have not taken place because we 
have levied sanctions, but our best indicator is that the 
Government of Liberia just hates these sanctions. They have 
launched major political efforts. They have protested to the 
Security Council, to the United Nations. They have squirmed and 
squealed, if I may say so, about the travel ban. They have made 
it very clear that they are very unhappy, so we are actually 
happy in almost direct proportion to their unhappiness.
    Regarding further sanctions, we have studied the timber 
issue. We have studied the ship registry issue. Right now 
because of the Liberian diplomatic initiative that I have 
mentioned among African states in particular, we are not 
finding as much support for broader sanctions on Liberia as we 
would like to see. We can be in favor of broader sanctions 
within the Security Council, and we will continue to talk about 
that. We are not the problem on that. The question is finding 
the support and the votes.
    Third, regarding ship registry, I know there have been some 
discussions about the International Maritime Organization 
taking some action. In fact, the International Maritime 
Organization is oriented almost exclusively toward safety and 
security of merchant shipping and really doesn't have anything 
to do with the issuance of national flags and the registration 
of ships under national flags. That will be a sanction that 
would be carried out by the Security Council, if it could be 
carried out by the Security Council. We are not finding 
significant support for that in the Council in part because 
there is a view that just might not be as targeted a sanction 
as other steps. There is a real reluctance in the Security 
Council to take steps that would damage the civilian economy of 
countries rather than aiming at the decisionmakers who are the 
source of the troubles.

            Abuse of Children in west African Refugee camps

    Mr. Wolf. I think, though, that the money from the flag 
registry has enabled him to stay in power, and the hospital in 
the capital of Monrovia is horrible. Life is horrible. And I 
really think both the U.N. and the American Government ought to 
look at taking the flag away from Liberia. We won't beat that 
too much, but I think we ought to look at that, and I think we 
also ought to look at the timber issue, because he has been 
involved in the death of a lot of people. He also is creating 
the problem in Sierra Leone.
    I don't know if you read the piece in the Washington Post 
about the diamond situation, but I think it isn't just one 
country. It is that whole region, and what is taking place with 
regard to terrorism.
    The other issue is the abuse of children. Recently a U.N. 
High Commissioner for Refugees study alleged that children in 
refugee camps in West Africa are being sexually exploited by 
camp officials. These officials in many cases are using 
humanitarian aid in return for sexual favors. Over 40 aid 
agencies were implicated, and U.N. peacekeepers are also 
reported to be involved.
    Taking advantage of the most vulnerable is reprehensible, 
and especially when it is done on behalf of those who they are 
supposedly helping. The U.N. appears to have been aware of the 
reports since early December; yet they have appeared to have 
only informed governments and NGOs after the press reported it.
    When did the U.S. Mission learn of the allegations, number 
one; and, two, does the UNHCR have an explanation as to why 
they withheld this information and perhaps delayed corrective 
action, thereby resulting in young people being every day 
abused?
    Ambassador Negroponte. Well, my----
    Mr. Wolf. So be the first question would be when did the 
U.S. Mission learn of the allegation?
    Ambassador Negroponte. I am not certain that I have all the 
information, although I have an indication here that in January 
2, 2002, these allegations came from a report by consultants 
who were engaged by the UNHCR and the nongovernmental 
organization concern Save the Children U.K., and this 
information was provided to UNHCR and the OIOS, which is the 
Office of Internal Oversight at the U.N., at the end of 
January.
    Let me just add that we are appalled by these allegations, 
and we are following the issue closely. We have had a series of 
high-level meetings with the UNHCR urging immediate action to 
prevent the sexual exploitation of children, and we are also in 
touch with other U.N. agencies and nongovernmental 
organizations whose staffs are alleged to have been involved. 
The U.N. has a team right now in the region investigating the 
complaints, and we expect a report once the investigation is 
complete.
    Mr. Wolf. Do you know when that will be?
    Ambassador Negroponte. I do not, sir, but I can certainly 
find out, and we certainly want to see this through to a 
conclusion as quickly as possible in terms of getting the 
necessary information on which to base some action.
    Mr. Wolf. I think we ought to ask the UNHCR why they 
withheld the information. When you are part of the dues-paying 
group, the information certainly ought to come, and there are a 
lot of American citizens who donate with regard to helping out, 
and very compassionate, and I think in some of those camps, I 
mean, the conditions are horrible, and then to add this on top 
of it. So hopefully you can kind of keep us informed and get us 
an assurance that the practices are ending, and the children 
are being protected and that they are punishing the 
individuals. I think that may be some of the problems. You are 
really going to have to punish those who are involved; 
otherwise it may continue in other places.
    Ambassador Negroponte. Just to say I am not absolutely 
certain that what was withheld when, but I will also look into 
that, Mr. Chairman.
    Mr. Wolf. So you say the Office of Internal Oversight, they 
are doing an investigation. We don't know when the report is 
going to come, and hopefully there will be prosecution of 
individuals involved if there is a crime.
    Ambassador Negroponte. And whatever other forms of 
disciplinary action would be required.

                         PEACEKEEPING IN CONGO

    Mr. Wolf. I am going to ask one more, and then I will go to 
Mr. Serrano. On the Congo, despite the overall reductions in 
the peacekeeping request, the largest single item increase in 
the entire State Department budget, an additional $190 million 
for U.N. Peacekeeping in Congo. Did either of you see the Ted 
Koppel Nightline piece? I think you ought to watch it. It was 
about 2 hours. He was in eastern Congo, Goma and Lake Kivu. Two 
thousand five hundred people are dying every day. By the end of 
today another 2,500 there will die. That is really not a 
success story.
    I think we ought to try to be bringing parties together, 
whether it be through the U.N., or you can't have 2,500 people 
die every day. And then you overlay that with the volcano. Can 
you tell us what you think about it? That is costing a lot of 
money, too, and the results are not very good.
    Mr. Wood. I think we would both like to respond because 
while the Sierra Leone problem in Africa is a very intense one, 
Congo, because of its size, an area the size from Chicago to 
California, is the big problem. It receives constant attention 
in the State Department. It is very high in the Secretary 
General's personal agenda. It is a large peacekeeping 
operation. The numbers in the budget submission for 2002 and 
2003 are slightly misleading because there will have to be some 
reprogramming in the course of 2002. Sierra Leone is going to 
come in a little bit cheaper than we expected, and Congo is 
going to come in more expensive.
    We are prepared to pay that and support that. Indeed when 
we made the initial budget estimate, there were only about 200 
peacekeepers, and we were expecting 5,500 to be in place by the 
end of the spring of this year.
    The essence of the problem in the Congo is that both 
Kinshasa and Kigali, both the Democratic Republic of Congo and 
neighboring Rwanda, have legitimate security concerns which 
they are attempting to address, which increases the security 
concerns of the other.
    It is an extremely difficult problem with huge humanitarian 
consequences, although the humanitarian consequences now are 
less acute than they were a couple of years ago when you had 
refugees in groups of several hundred thousand on the move 
through the most rural parts, the most inhospitable parts of 
the country. So far, the U.N., the African leaders and the 
United States and everyone who was involved in the problem have 
succeeded in getting a disengagement by the foreign forces and 
a sharp reduction in the fighting, but we are not even close to 
peace there and we know we are not.
    Speaking from the State Department headquarters 
perspective, I can tell you that this is an issue that we have 
spent lots of time on. At the same time, because of the 
difficulties, because of the inaccessibility and because of the 
size of the country, it is one where we are also very leery, or 
our desire to resolve the problem leads to false hopes and to 
either unnecessary risk for peacekeepers or unnecessary expense 
for member states.
    Our request is $273 million for fiscal year 2003 at roughly 
27 percent. That will give you an idea of the overall cost of 
the peacekeeping mission to the international community. 
Roughly four times that amount is the overall cost of what the 
U.N. is doing on the peacekeeping side, in addition to its 
humanitarian, political, developmental activities in the Congo.
    We are trying to help, but it is not easy.
    Ambassador Negroponte. I think that the situation has 
improved since Kabila's son has taken over. I think it has 
improved. There is a heck of a long way to go, but it is much 
better than it was under his father. That is one point I would 
want to make.
    On the AIDS issue, I think part of the contribution to the 
very high death toll you are talking about is the HIV/AIDS rate 
of infection, and anything that can be done in that area is 
also helpful. It is an issue on which the Security Council gets 
briefed very frequently. I don't think that I know of a more 
complex issue that we are dealing with, because you have seven 
foreign armies in the country. There is a very complicated 
inter-Congolese dialogue that is being pulled together with the 
help of both an African mediator and a special representative 
of the Secretary General. It does get a lot of attention, but 
it is a very difficult problem.
    Some of the high costs involved in operating the Congo are 
attributable to the almost total lack of infrastructure in that 
country, due to either the total lack or destruction of the 
existing infrastructure of that country.

                         PROBLEMS FACING AFRICA

    Mr. Wolf. First, we ought to tell Uganda to get its troops 
out and we ought to tell Rwanda to get its troops out. We have 
to make a greater effort.
    I think the administration, and I mentioned this to 
Secretary Powell ought to put together a blue ribbon panel to 
look at Africa. Africa is falling apart: Sudan, Algeria, the 
Congo. The best minds ought to come together on AIDS, poverty, 
hunger, to think what should our policy be with regard to 
Africa. How do we make life better? The amount of money that we 
are spending for peacekeeping, they are not keeping the peace. 
They are all hunkered down. They are not out among the people 
generally. The countries are so large, if there was a 
peacekeeper on every square mile, you could not do it.
    I think 90 days, tops, a group of knowledgeable people 
maybe spend a week or two in Africa and come up with a new 
concept. How do we forgive debt? What do we do with regard to 
hunger and AIDS? Otherwise, more people are going to die and 
the problems go on for years and years.
    The Congolese do not hire powerful people here in town. 
They do not have anybody. People get briefed and then they move 
on, and 250,000 more die.
    We will share the video with you, and you can give your 
thoughts.
    Mr. Serrano. I apologize ahead of time, but if you can, 
take me through what I see as a little contradiction here.
    On the one hand, there is a $118 million reduction in our 
peacekeeping budget. Please comment, why you believe that we 
can cut the budget.
    Secondly, if we do not lift the cap, which you are asking 
for, we will accrue arrears because I understand we are being 
assessed on roughly 27 percent. There is a reduction and then a 
desire for an increase? Take me through that, please.

                   PEACEKEEPING CAP AND FY03 REQUEST

    Mr. Wood. First, thank you very much for your interest in 
the cap. This is an important issue.
    We accumulated roughly $78 million in arrears last year 
because of the failure to lift the cap. We carried that money 
forward, so once we are authorized to pay, we can pay without 
any new appropriated funds for last year.
    Our budget estimates this year are based on the assumption 
of a cap. At the same time, we have provided information to 
your staff directly and in the course of our regular monthly 
briefings, which we think is a very good way of improving 
transparency and communication all of the relevant information. 
I would be wrong if I said that our submission for peacekeeping 
for fiscal year 2003 is anything but austere; it is austere. It 
is austere based on our projections, but we think that they are 
good projections. We think that we have given you a good 
number. The President has given you a good number.
    We think that there will be some decreases year to year 
because of changes in operations. We expect the peacekeeping 
operation in Bosnia to terminate. We are also looking at a 
reduction in expenses in East Timor. As intensive peacekeeping 
comes to an end and we go into a maintenance program which is 
more appropriately handled by developmental and unassessed U.N. 
activities, which will take place over a period of years, we 
expect there to be a follow-on peacekeeping mission, but it 
will be small.
    We also think that there are savings due to increased 
efficiencies in operations, and the biggest one there relates 
to Kosovo. We think that there is going to be a sizable cut 
there.
    Sierra Leone, first of all, has been a real success in the 
last 2 years. I remember where it was 2 years ago. I remember 
when U.N. peacekeepers were being taken hostage and being 
killed. In the last 2 years, that situation has changed. There 
are going to be elections held. We expect large savings there.
    If you are asking if we would like to have more money, that 
puts me in a very awkward position because I would always like 
to have more money. However, we think that we are giving you a 
very good number in an area that is inherently uncertain. For 
instance, in the case of East Timor, between January and 
September of 1999, not one but two sequential peacekeeping 
missions were created, and an entire political process in East 
Timor was created, none of which could have been known even 1 
month before President Habibi announced the possibility of a 
referendum.
    There is an inherent uncertainty in these numbers, but we 
think that we are giving you good estimates.
    Mr. Serrano. Do your estimates deal with the possibility of 
any new situations arising, number one?
    Number two, if you already have some thoughts about some 
other missions, when will the subcommittee be informed? When 
will Congress be informed?
    Lastly, are there any discussions going on for peacekeeping 
missions in Afghanistan itself?

                      PEACEKEEPING IN AFGHANISTAN

    Mr. Wood. First, there really is not--are no contingency 
fundings in here because of, in part, the uncertainty on the 
ground in all of these conflicts. It does not always get worse, 
it only sometimes seems that it always gets worse. There are 
fewer peacekeepers on the ground than at the beginning of the 
year, and that is because we have been able to consolidate and 
make some gains. Ethiopia and Eritrea is another area where 
things are getting steadily better.
    Second, in Afghanistan, we have found that in situations of 
real conflict, a traditional blue-headed force which is subject 
to periodic renewal by the Security Council and subject to a 
variety of political influences, which has the internally 
contradictory mandate of going to war for peace, is not the 
best way to confront a situation in which offensive conflict 
may be necessary.
    We have found in Bosnia, in Kosovo, and in East Timor, that 
when interfeds came in, following the referendum, to resolve 
the violence that had broken out, a coalition authorized by the 
Security Council is a more effective force. Our selection of 
that mode is really based on our assessment of its 
effectiveness rather than on cost considerations.
    The same is true in Afghanistan. The Security Council 
authorized in December on ISAF which is doing a good job of 
providing, under British leadership, security in the capital 
city, in particular providing a safety zone where diverse 
political leaders can come together and lay the groundwork for 
a more permanent Afghan Government.
    As you know, there is discussion under way about expanding 
ISAF beyond Kabul, which depends on there being a coalition of 
members who are willing to do that. Lots of discussions are 
going on among potential troop contributors as to who would be 
willing to do what, where, for how much and with how much 
assistance and backup training. That is an issue that will gel 
over the next few months, but it has not gelled quite yet.
    There is no discussion right now about putting in a blue-
headed traditional peacekeeping force at this time. The 
challenges in Afghanistan are so daunting that we want to solve 
the problems of today as they come up, and we think that we are 
doing that in the military area in the best possible way.
    Once an acceptable level of stability and security has been 
reached, once we are confident that the Taliban and the al 
Qaeda terrorists have been expunged from the Afghanistan 
equation, there may be talk at that time about moving to more 
traditional efforts. The Afghanistan story has not been 
traditional in any sense. So far, we have done it right; we 
want to keep doing it right.
    Mr. Serrano. My question is inspired by your comment. It is 
probably better asked of a military person, but I am not on 
those committees.
    I guess we are also, while fighting this war, fighting a 
public relations war in Afghanistan. Are we doing other things 
that would set the groundwork for things that will happen 
later? Do you have any comment?
    Mr. Wood. I can only say that providing humanitarian 
assistance was always part of our military strategy while we 
were conducting operations in Afghanistan, and working with the 
World Food Program.
    We worked very hard, for instance, to open up access, 
including political access, while the World Food Program 
provided the goods. At the same time, it is a little known fact 
that in November, at the height of the fighting, an inoculation 
program took place in Afghanistan. In one day tens of thousands 
of children were inoculated against smallpox and some other 
diseases with medicines provided by UNICEF, with Afghan medical 
personnel trained by the WHO, and with CENTCOM fully aware of 
what was going on and taking care that its military operations 
facilitated rather than impeded this operation.
    This is one of the things that we have done right, even 
though it is intuitively clear that it is hard to conduct an 
effective military campaign against a targeted enemy while at 
the same time not only avoiding unnecessary damage to the 
civilian population, but in fact supporting that civilian 
population in many ways. I think that is recognized widely in 
Afghanistan.
    Mr. Serrano. I commend the administration for that. I 
really think that while we win the war against the bad guys, we 
also have to make sure that we extend a hand to those that are 
innocent and happen to be there while other people were doing 
other things.
    As we know, that country was basically taken over and shop 
was set up basically under their noses, and they had nothing to 
say about it. I think it speaks well in terms of our behavior 
to fight the war and at the same time plant the seeds for a 
relationship that has to be established after the war so that 
resentment is not there.

                          U.N. AND AFGHANISTAN

    Ambassador Negroponte. Just two quick points on Afghanistan 
that have a bearing on the U.N.
    I just think that the Secretary General's Special 
Representative to Afghanistan, Lakhdar Brahimi, the former 
Foreign Minister of Algeria, has done an extraordinary job in 
brokering the creation of the interim Afghan authority. I think 
they deserve credit for that, and I think Kofi Annan deserves 
credit for having gotten the donors together in Tokyo to pledge 
$4.5 billion for Afghan reconstruction, which goes to your 
point about dealing with the repair of that damaged society 
over the longer term.

                          WAR CRIMES TRIBUNALS

    Mr. Serrano. On this war crime issue, how much in total is 
being requested for war crimes tribunals and does this 
represent a change in administration policy?
    Also, we know that our ambassador at large for war crimes 
has criticized the tribunals. Is that still an ongoing 
criticism, and what is the message that you are sending 
Congress in your request here on this particular issue?
    Ambassador Negroponte. I don't have the numbers in front of 
me, but maybe I can answer the general point.
    I have a very close relationship with Mr. Pierre Prosper. 
He comes to visit us often in New York, and we are very 
interested in both the work of the tribunal with respect to 
Kosovo and the one in Rwanda, and also the one that we are 
trying to get set up with respect to Sierra Leone, which is 
kind of a hybrid tribunal. We think that it is very important 
that these war criminals be brought to justice, and I know that 
Mr. Prosper is very committed to that outcome as well.
    In the case of Yugoslavia, I think that it is very 
important that criminals who are still at large and were 
masterminds in support of Slobodan Milosevic must be captured 
and brought to justice.
    Yes, we are committed to providing strong support to those 
courts.
    At the same time, there is an issue of balancing the agenda 
of those courts at the moment and, over the longer term, 
relying and enhancing the capacity of these various countries 
to improve their own justice systems to deal with the lesser 
criminals. I think it is a question of also thinking about what 
the end game might be 5, 6, 7, 8 years down the road. However I 
don't think that there is any desire to undercut the excellent 
work that is being done at this stage.
    Mr. Wood. I have the numbers. It is slightly complicated 
because part of the funding is in the CIO account and part of 
the funding is in the CIPA account. In total, we are asking for 
$58 million for the ICTY, the Yugoslav tribunal; the ICTR, the 
Rwanda tribunal; and about $4 million for an Iraq tribunal 
which has not yet been established, but if we have the 
opportunity to try someone in it, we want to be ready.
    Just to note, there was some press coverage of Ambassador 
Prosper's remarks, and I am not saying that the press coverage 
was wrong, but there was a nuance, we believe, that the 
tribunals should do their job in the time frame that they 
themselves have been aiming for.
    We are concerned that, in some cases, they are not moving 
and taking as effective or rapid action as they could and that 
we encourage them to do. But this should not be interpreted as 
lack of support for the tribunals. It should be interpreted as 
support for the work that the tribunals are supposed to be 
doing.
    Mr. Serrano. I thank you for your comments.
    Thank you, Mr. Chairman.

                            RWANDA TRIBUNAL

    Mr. Wolf. I think you are right. How much have we spent for 
Rwanda Tribunal?
    Mr. Wood. I don't have that information in front of me.
    Mr. Wolf. When was the Rwanda court set up?
    Ambassador Negroponte. I just met with the registrar of 
Rwanda.
    Mr. Wood. The Rwanda Tribunal began work in 1997.
    Mr. Wolf. So 5 years ago.
    Mr. Wood. And to date, through fiscal year 2002, we have 
directed roughly $455 million.
    Mr. Wolf. Just for the record, 5 years, how much money has 
been expended?
    Mr. Wood. I am sorry, that is the total U.N. Contribution.
    Mr. Wolf. $450 million, and the U.S. portion is what?
    Mr. Wood. Roughly a quarter.
    Ambassador Negroponte. I see $126.6 million.
    Mr. Wolf. And how many people have been convicted?
    Ambassador Negroponte. There are 53 indictments and 8 
convictions.
    Mr. Wolf. Eight convictions for a half a billion dollars. 
And how many people are in prison now in Rwanda?
    Mr. Wood. Outside of this system?
    Ambassador Negroponte. Fifty-one in custody.
    Mr. Wolf. How many Hutus are in prison in Rwanda for the 
genocide?
    Mr. Wood. Thousands.
    Mr. Wolf. Hundreds of thousands. Half a billion dollars; 
eight people have been convicted. It was on film. I visited one 
of the sites where all of the bodies are still--have you been 
to Rwanda?
    Ambassador Negroponte. I have not.
    Mr. Wolf. The bodies are still there. They put lime on 
them. They are contorted.
    I think the administration is right in saying, let us move 
on and get this over with. This is draining the Rwandan 
Government because they have hundreds of thousands of people in 
prison, and there should be some effort to come in and deal 
with reconciliation and move on.
    What is the population of Rwanda?
    Mr. Wood. Four-point-five million people is my rough 
estimate.
    Mr. Wolf. And how many people do we think are in prison, 
maybe a half million?
    Mr. Wood. I would be pleased to provide detailed 
information. I don't think that we know in detail offhand.
    Mr. Wolf. If you can.
    Mr. Wood. It is a big number.
    [The information follows:]

    Question. How many people do we think are in prison in 
Rwanda, maybe half a million?
    Answer. There are more than 100,000 people in Rwandan 
prisons accused of complicity in the genocide. This has taxed 
the Rwandan judicial system. The Government of Rwanda has 
launched a program of community-based justice, called gacaca, 
as a means of dealing with the mass of lower-level offenders, 
while major offenders are prosecuted in the criminal system. 
The gacaca program provides for grassroots or average citizen 
participation in the adjudication of cases based on a 
traditional method of dispute resolution. The Rwandan 
government hopes to begin the community-based gacaca trials by 
mid-2002; the judges have been elected and are being trained. 
The U.S. has contributed to the gacaca process through the 
Great Lakes Justice Initiative.

                  FEE SPLITTING IN THE TRIBUNAL COURTS

    Mr. Wolf. And what is it costing the Rwanda Government to 
keep them there?
    What is being done for reconciliation?
    A half billion dollars, do you know how many people could 
be fed for a half billion dollars? That is one of the defects 
of this.
    And, also, they have not done a great job in The Hague 
because the preparation of the trial of Slobodan Milosevic is 
turning the other way.
    What about the fee splitting with regard to the courts?
    Mr. Wood. There are several things there. First, I would 
like to note that in the case of Rwanda, it has never been 
conceived that the international tribunal would try all of the 
people.
    Mr. Wolf. I know that. You could never.
    Mr. Wood. Right.
    The fee-splitting problem has been a source of real 
concern. Steps have been taken to remedy it. We are continuing 
to follow up.
    Mr. Wolf. Have people been fired?
    Mr. Wood. People have been disciplined. I don't know that 
people have actually been dismissed. At least one that we know 
was fired.
    Mr. Wolf. Can you explain fee splitting?
    Mr. Wood. Fee splitting is when because the lawyers are 
funded internationally, a lawyer makes a deal with a defendant 
to keep some of his remuneration and give the rest of it to the 
defendant in exchange for the defendant accepting him as his 
lawyer. That provides the lawyer with income and provides the 
defendant with counsel. That is my understanding.
    Mr. Wolf. Talk about a scandal, that is a big scandal.
    Ambassador Negroponte. A Scottish lawyer was just fired, 
Mr. Chairman, and he has been referred to the Scottish bar 
association for discipline. Also, the Office of Inspection and 
Oversight Services now has a resident team. I met the new 
registrar, who is a jurist from Senegal and I think he has 
brought improvements to the situation.
    Mr. Wood. I met 10 days ago with the head of the Office of 
General Oversight Services who visited us in Washington, and 
one of the points we made is the importance of keeping the 
tribunals effective and clean. That is a priority for the U.N.
    Mr. Wolf. If you can, please submit for the record a little 
bit about the fee splitting and how many people are involved 
and how much money is involved and how many defendants.
    [The information follows:]

    Question. If you can, please submit for the record a little 
bit about the fee splitting and how many people are involved 
and how much money is involved and how many defendants.
    Answer. In February 2001, the Office of Internal Oversight 
Services (OIOS) reported to the UN General Assembly that it had 
initiated and was continuing inquiries into the possibility of 
fee splitting at the International Criminal Tribunal for the 
Former Yugoslavia (ICTY) and the International Criminal 
Tribunal for Rwanda (ICTR). OIOS found evidence that some 
former and current defense attorneys has accepted requests from 
indigent detainees to share their legal fees. As a result of 
this and other findings, OIOS issued 16 recommendations to 
correct and prevent their occurrence in the future. In February 
2002, OIOS issued a follow-up report indicating that both 
Tribunals has implemented most of their previous 
recommendations in a timely manner and were in the process of 
responding to the remaining recommendations. For example, on 
February 6, 2002, as part of the ongoing efforts in investigate 
abuses, ICTR dismissed a Scottish defense attorney and reported 
him to his home bar association for disciplinary action. OIOS 
also issued more recommendations designed to prevent abusive 
practices by detainees and defense counsel.
    OIOS reports indicate that only a few detainees have 
admitted to soliciting fee sharing arrangements. Also, fewer 
than 10 cases have been confirmed where defense counsel had 
been solicited for or agreed to such arrangements. In two 
separate cases defense counsel had been solicited but 
apparently declined to share fees, equal to $2,500 and $5,000 
per month. OIOS has indicated it will continue to pursue 
inappropriate legal aid issues in consultation with the 
Tribunals' Registries.

                 OVERSIGHT OF PEACEKEEPING EXPENDITURES

    Mr. Wolf. A primary driver of the U.N. Peacekeeping cost is 
military expenditures for troops and equipment. The committee 
understands there is no independent oversight for these 
expenditures and that they are outside the jurisdiction of the 
Office of Internal Oversight Services. Is that accurate?
    Mr. Wood. I am sorry.
    Mr. Wolf. Regarding the peacekeeping missions in Congo and 
Sierra Leone, the committee is under the impression that there 
is no independent oversight of these expenditures and that they 
are outside the jurisdiction of the Office of Internal 
Oversight Services. Are they?
    Mr. Wood. Are these expenses incurred in the field?
    Mr. Wolf. Yes.
    Mr. Wood. First, there are now U.N. inspectors with every 
peacekeeping mission with a budget of over $100 million, except 
for a temporary vacancy in Bosnia.
    Mr. Wolf. This is the Office of Internal Oversight 
Services. There is somebody in Sierra Leone, somebody in the 
Congo. Bosnia is not filled, however.
    Mr. Wood. That is right. Again, in my conversations just 10 
days ago with the head of the OIOS, he said that the Secretary 
General was moving forward with an initiative to increase the 
inspections presence at peacekeeping missions.

                      SEXUAL TRAFFICKING IN BOSNIA

    Mr. Wolf. I think they should.
    Speaking of Bosnia, regarding the sexual trafficking by the 
U.N. Officials, which damages the U.N., were there any American 
citizens involved in that?
    Mr. Wood. The most recent allegations were investigated, 
and according to the American head of the operation, Jacques 
Klein, were not found to be accurate. In previous cases where 
there were such allegations, indeed, in at least one case, an 
American--I believe he was a policeman--was found to be 
implicated. He was removed from service in Bosnia, and was sent 
back to the United States for appropriate action here.
    Mr. Wolf. What was that action?
    Mr. Wood. I am not sure, sir.
    Mr. Wolf. Can you tell the committee what happened to him?
    Mr. Wood. I will.
    Mr. Wolf. Was he prosecuted?
    Mr. Wood. I am not sure. We, of course, would not have a 
role in determining whether or not charges were brought in the 
United States by prosecuting authorities.
    Mr. Wolf. If a U.S. citizen was involved in sexual 
trafficking in Bosnia, exploiting his position, would that not 
be a violation of American law?
    Mr. Wood. I am only saying that it is not the State 
Department's responsibility to reach a conclusion as to whether 
or not a prosecution should be brought.
    Mr. Wolf. Whose responsibility is it?
    Mr. Wood. Whatever the appropriate law enforcement 
authority is.
    Mr. Wolf. Would you see if the Department of Justice did 
something? A lot of times the country sends them back and they 
live happily ever after. Things like that really hurt the U.N., 
the cause, and hurt the support for it.
    I know that you have to go by 12:15.
    Ambassador Negroponte. The President is giving a speech.

                        AMBASSADOR TO EAST TIMOR

    Mr. Wolf. On East Timor, will you tell us a little bit 
regarding where we are regarding appointing an ambassador for 
East Timor? That has been a successful effort for the U.N. What 
is that status now?
    Ambassador Negroponte. They are not going to gain their 
independence until the 20th of May. I am not privy to our 
internal thinking on that subject. However, even if we were 
getting ready to appoint an ambassador, we could not go to the 
government to get its consent because it is not yet an 
independent country.
    I am not aware which individual might represent us there, 
or whether we might be represented by an individual who is 
accredited to another country in the region. That frequently 
happens with a country that size. I know when Palau became 
independent, the resident ambassador in the Philippines was 
accredited to Palau as well.
    Mr. Wolf. I hope we do have someone.
    Mr. Wood. I can only say, and this is not particularly 
something that affects the IO, we would not be privy to the 
discussions, but I can say that there has been extensive 
discussion and real awareness of the need for effective senior 
U.S. diplomatic leadership in East Timor.
    Also, I know that there has been a discussion about the 
possibility of an ambassador. I am not sure where that stands.

                    RENOVATION OF U.S./U.N. BUILDING

    Mr. Wolf. The United Nations master plan, the GAO cautioned 
that the U.S. Government had not yet developed a comprehensive 
position on the renovation. What are you doing to ensure full 
government coordination, approval and oversight of the 
renovation plan?
    Ambassador Negroponte. Some funds have been requested for 
the development of this project. I don't think that we have yet 
reached the point where we have decided if we will support this 
project.
    Mr. Wolf. The building needs----
    Ambassador Negroponte. The building needs renovation and 
improvement for a whole variety of reasons, not the least of 
which are safety and fire concerns. I can assure you that 
whatever plans are developed, we will coordinate and consult 
fully with the Congress on them because we realize that it 
raises issues about how this project will be funded.
    Mr. Wood. We understand that the U.N. is going to present 
its updated renovation plans this spring for the approval of 
members. Until we get those plans, we cannot accurately know 
what they have in mind.
    We know they have something in mind. We know that the 
buildings are falling down and are dangerous to the occupants. 
Therefore, we have requested $8 million, which we feel safe in 
saying is a necessary amount in order to fund the first steps 
necessary to do design work. Once we have the initial plans and 
once we have a better idea of exactly what they want to do, the 
next step is to fund design work to see how they are going to 
do it.
    We are trying to participate in what I think the GAO found 
to be a professional and orderly process on the part of the 
U.N. We are trying to participate in a professional and orderly 
way by providing timely budgeting.
    Mr. Wolf. I guess New York City is involved in that, too?
    Mr. Wood. I am sure that they are.

                       U.N. AUDITORS AT TRIBUNALS

    Mr. Wolf. I agree with your comment about Mr. Brahimi in 
Afghanistan. I think it is important to make sure that all of 
the countries that pledge, you have to make sure that the 
pledges clear the bank.
    Also, I do worry about the safety of people. I think the 
British ought to make sure that they are protecting the good 
people over there, too. We know what happened to the tourists, 
a minister, over there.
    Auditors at the tribunal, we were given the impression that 
the U.N. had independent auditors at all of the tribunals. Was 
that as of last year?
    Mr. Wood. I am not sure when they arrived, but yes, they do 
have auditors, and they have been there for awhile.
    Mr. Wolf. Are you sure? We were under the impression that 
they said that they were going to do it, and they didn't, and 
they were not there.
    Mr. Wood. I meant a matter of a month or so. They have been 
there this year.
    Mr. Wolf. Everyone has somebody there now?
    Mr. Wood. That is my understanding. We are talking about 
two tribunals, the ICTY and the ICTR. My understanding is that 
there are auditors at each one.
    Mr. Wolf. We were told that there is no resident oversight 
staff at the mission in Sierra Leone.
    Mr. Wood. That is not correct.
    Mr. Wolf. When did he or she come?
    Mr. Wood. I am not sure.

                        HUMAN RIGHTS COMMISSION

    Mr. Wolf. The Human Rights Commission, can you state how we 
are doing with regard to having our voice heard on human 
rights, and are the rules being changed? There was some talk 
about public voting, that if you say you are going to be for 
somebody, or how are we doing with regard to the next round 
when the openings come up.
    Mr. Wood. First, we are going to be observers at the 
session that begins next Monday. We are going to be active 
observers.
    Mr. Wolf. Who will do that for our government?
    Mr. Wood. Kevin Moley, who is our Ambassador in Geneva, 
will be leading the delegation. He will also be supported by 
experts from Washington. We intend to participate actively 
across the agenda of the commission. There are some things that 
we are not going to be able to do as observers that we were 
able to do as members.
    Mr. Wolf. What is that? Just vote, isn't it?
    Mr. Wood. Vote, and introduce resolutions unilaterally.
    In tactical terms, being observers, although we have a 
voice, we cannot determine whether or not consensus is going to 
be formed because we would not be part of the consensus in 
resolutions relating to the Middle East, for instance, or 
relating to Sudan.
    Mr. Wolf. They are on it, aren't they?
    Mr. Wood. Sudan is, yes.
    In the past we have been able to threaten to withhold 
consensus on a resolution unless it moved in the right 
direction. So tactically our position is nowhere near as 
strong. However, we intend to be active and active with other 
delegations and working with NGOs, and we intend to be speaking 
out.
    Mr. Wolf. I hope that the gentleman speaks out. If you call 
him and say, we would like to see a copy of the statement, we 
will put it in the record just to see what he says. It would be 
good to talk about these different cases and things and explain 
them. That is a unique opportunity. Everybody is there, and it 
would be well covered by American and European media. He will 
have an opportunity to speak?
    Mr. Wood. Oh, yes.
    Mr. Wolf. Do you expect to be on it next year?
    Ambassador Negroponte. We expect to be a candidate. Yes, I 
do expect we will be on it next year, because we are part of 
the Western European and Other group. That is the regional 
grouping in which we participate in the U.N., and now they have 
created a so-called ``clean slate'' for the four candidates.
    Mr. Wolf. So everyone running will win?
    Ambassador Negroponte. That's correct, and we will be one 
of the candidates to be filled at the year 2002 election. This 
needs to be formalized, but that decision has been taken within 
the Western European and Other group, and that will be for a 3-
year term beginning in 2003.
    Mr. Wolf. I know we were at a disadvantage because we did 
not have anybody. You were not there at the time.
    Mr. Serrano, do you have any other questions?

                      U.N. AND A PALESTINIAN STATE

    Mr. Serrano. Thank you, Mr. Chairman.
    The United Nations Security Council just sponsored a 
resolution which speaks about endorsing a vision of a 
Palestinian state. Can you take a moment to discuss that 
resolution and tell us what we may not know in terms of any 
opposition that we got and from where?
    Ambassador Negroponte. I am losing track of time because it 
has been a busy week, but a couple of days ago we had a 
briefing from the Secretary General on the Middle East in a 
plenary session of the Security Council. We have established a 
practice of having monthly meetings on the Middle East 
situation, at which he made some statements which were fully 
reported in the press.
    In the wake of that, the Arab group led by Syria, and 
supported by Jordan, cosponsored a resolution on the situation 
in the Middle East that I think we would inevitably have had to 
veto. In response to that situation, we proposed the resolution 
to which you are just referring. As it turned out, late Tuesday 
night, we succeeded in getting it passed by the Security 
Council, 14-0, with Syria abstaining.
    We think that it is a positive resolution, and it is 
supportive of General Zinni's mission to the region, and it 
keeps the focus on getting the parties to de-escalate and start 
the parties talking seriously about the Tenet and Mitchell 
plans and moving this process forward.
    In the process of debating that resolution, one of the 
issues that was not in the draft that we originally submitted 
was a vision of a Palestinian and an Israeli state living side 
by side with secure and recognized borders.
    That was a provision that was urged upon us by other 
members of the council, and Washington concurred in that 
language being included. It is language that has been used 
before by us in President Bush's speech to the General Assembly 
November 10 and in a subsequent speech by Secretary Powell in 
Louisville.
    Mr. Serrano. So our original resolution did not have that 
provision. It spoke about people coming together and working 
things out, but the Syria resolution was more direct?
    Ambassador Negroponte. No, there was no reference in the 
Syrian resolution either. This was actually language that was 
urged upon us by a variety of other members of the council, 
including the Palestinian observer to the United Nations and 
others.
    I think we felt comfortable including that in the preamble, 
and I think that it was, on balance, a positive resolution. I 
think what distinguishes it from many of the past resolutions 
that we have had to resist or veto, that have come out of the 
Security Council on the Middle East, has been the fact that it 
was not lopsided in favor of the Palestinian position, and it 
was not designed to isolate Israel. Rather, it was designed to 
help move the peace process forward and to focus on points of 
convergence within the Security Council rather than points of 
difference.
    Mr. Serrano. The New York City Council, the local 
government, has a resolution before it asking the White House, 
the administration, to close down the Palestinian Authority 
office. I realize that those resolutions are just from people 
saying what they need to say, but if asked, does the 
administration have anything to say about that? What is your 
sense on the whole idea of closing down any mission and this 
particular mission in New York as an act of our government 
saying give us the keys and you cannot be in the building 
anymore.
    Ambassador Negroponte. The first thing I would do is ask my 
lawyers, even if I was inclined to follow the advice of such a 
resolution.
    Secondly, of course, our administration's position has been 
fairly consistent in recent years, and that is that the 
Palestinian authority is a valid diplomatic interlocutor. There 
are elements over which we think they have influence within the 
Occupied Territories that do carry out acts of violence which 
we have urged upon them, and continue to urge upon them, to 
bring under control, and to de-escalate the level of violence. 
I do not think we would be supportive of any effort to shut 
down the Palestinian mission at this point.
    Mr. Serrano. Thank you.
    Mr. Chairman, I have to go to a Hispanic congressional 
caucus meeting on immigration, but I want to thank the 
witnesses for the record.
    Also, when the chairman was attacking Charles Taylor, it 
was not Representative Taylor.
    Mr. Wolf. I am glad you pointed that out.
    Mr. Serrano. Thank you so much.

                FY03 REQUEST FOR PEACEKEEPING ACTIVITIES

    Mr. Wolf. I am glad you cleared that up, Mr. Serrano.
    Focusing on the current year, fiscal year 2002, is the $844 
million that you requested and we provided going to be enough 
to cover all anticipated assessments; and if not, are you 
seeking supplemental funding?
    Mr. Wood. I think the Secretary of State in his recent 
testimony indicated that the possibility of a supplemental is 
under consideration, and no final decision has been made. We 
are not in a position to say at this time.
    Mr. Wolf. I have some other questions that I will just 
submit for the record.

                       U.N. BAN ON HUMAN CLONING

    Mr. Wolf. On cloning, while the West is debating the ethics 
of human cloning, the Chinese are forging ahead. Are we doing 
anything at the U.N. To bring about an enforceable ban on human 
cloning?
    Ambassador Negroponte. There was a meeting a couple of 
weeks ago, a preparatory conference on the question of a 
convention on cloning. Yes, we have a delegation to that 
conference and we also have a position that we oppose cloning 
of any kind, whether it is reproductive or therapeutic. We have 
experts whom I have met with personally on that issue. I think 
we are well represented on the issue.

                      U.N. AND SEXUAL TRAFFICKING

    Mr. Wolf. Have there been any actions recently at this U.N. 
with regard to sexual trafficking? That is a big problem in the 
country, 50,000 people brought to this country every year. And 
as you know, Congressman Chris Smith and Senator Brownback had 
a bill passed, and there is a report coming out rating 
countries. Is there any plan with regard to the U.N. on this 
issue? There will be an international conference next year, 
early in the year here in Washington.
    Mr. Wood. The U.N. has been focused on trafficking in 
persons, and we have been full participants and have moved 
forward on agreements.
    There is something that is directly related, which is 
coming up shortly. The administration supports and has sent to 
the Senate ratification of a national protocol on the rights of 
the child which does not imply any support for the underlying 
convention, which is a different issue. The protocol relates to 
the sale of children, child prostitution and child pornography.
    Trafficking in children is an element of that convention. 
The administration is asking for the Senate to provide advice 
and consent on an urgent basis for the General Assembly 
Children's Summit May 8, and the special session that starts 
shortly thereafter concerning trafficking in persons as it 
relates to children. There is a new convention that we hope to 
be able to join very soon.
    The Committee on the Status of Women and other women's 
related activities also address this question. There are a 
number of forums in the U.N., including the Commission on Human 
Rights, and we will be active participants in all of them. It 
is an issue that people are aware of and we are trying to work 
on it in a number of different ways.

                         U.S. REJOINING UNESCO

    Mr. Wolf. I don't know when the report is coming out. I 
take it, at that time, it will mention the countries, and some 
are countries that are our friends, and it will have a 
significant impact.
    The House authorization bill last year included an 
authorization of appropriations to rejoin UNESCO. Your budget 
does not include any funding for this purpose. What is your 
position on the U.N.'s rejoining UNESCO?
    Mr. Wood. The issue of UNESCO is under discussion. There is 
no question it is not the organization that it was previously. 
We think that Director General Matsuura is doing a good job, 
and we are examining the issue carefully.
    We cooperate in UNESCO in many ways. The ``S'' is for 
science, and you cannot do science in the world without having 
the United States there. We participate actively in these 
things even as nonmembers.
    At the same time, we are absolutely clear about one 
element, and that is that no decision to rejoin UNESCO can be 
separated from a decision that we are going to pay our dues to 
it if we do rejoin.
    Mr. Wolf. How much would that be?
    Mr. Wood. In excess of $60 million a year. And that comes 
from the CIO account.
    Mr. Wolf. You can't get temporary membership like health 
clubs do; that is the problem.
    Mr. Wood. It is certainly a big part of it.

                       WEAPONS INSPECTORS IN IRAQ

    Mr. Wolf. The last issue is, President Bush said yesterday 
that the U.S. will take action against Iraq and that all 
options are on the table.
    Kofi Annan met on March 7 with the Iraqi foreign minister 
about possible return of U.N. Weapons inspectors. Today, the 
New York Times reports that President Mubarak of Egypt, in an 
effort to avert military action, will press Iraq to admit the 
inspectors, and that he did not receive any indication Iraq 
would now agree. What is the prospect of Iraq accepting 
unrestricted inspections; and what additional actions are we 
looking at from Iraq to avoid other options being exercised?
    Ambassador Negroponte. I mentioned the ``Goods Review 
List'' and the ``Smart Sanctions'' and improving that. That is 
one thing that we are working on very hard in the Security 
Council regarding Iraq, and we expect this new, I guess I would 
call it an ``Export Control Regime'' to go into effect by the 
1st of June.
    The second issue is the inspectors. The foreign minister of 
Iraq did meet with Kofi Annan the other day, and my 
understanding is that they have agreed to come back and meet 
again in April after the summit, the Arab summit that is going 
to take place in Beirut.
    Our position, and we believe this is also the position of 
Kofi Annan and Hans Blix, the head of the Iraq inspection group 
that would go in there, is that the inspectors should have 
unrestricted access to the different sites so they could 
conduct meaningful inspections, and that the Iraqis should 
fully comply with the existing resolution.
    You asked me, what chance I saw that they might in fact 
agree to this. Well, the past history is not very good. We left 
in 1998 because it turned out to be impossible for the old 
UNSCOM to cooperate with the Government in Iraq. Maybe pressure 
is building on them to reconsider that position, so we will 
have to wait and see.
    I think it would be foolhardy for me to predict that I see 
a high degree of likelihood that they will agree to this. I 
think we need to wait and see.

            Concluding Remarks of Subcommittee Chairman Wolf

    Mr. Wolf. There may be an opportunity. Obviously, President 
Bush is a man of his word. He has been very candid with the 
American people and very candid--when I heard the speech up at 
the U.N., it was very, very clear; and I think he has followed 
through on everything that he said.
    Also with regard to some of the other countries, we are 
assisting the Philippine Government, we are assisting the 
Georgian Government, and so I think President Bush is a man of 
his word; and I think he is approaching it on a very systematic 
basis.
    My sense is that it would be good for the Iraqi people and 
for everybody involved. I think they ought to be given an 
opportunity to say yes or no, and I think the people that are 
involved ought to be someone from our government, too, who can 
understand a yes is a yes and a no is a no, so there is no 
misunderstanding.
    If it is yes, you want to make sure that they have full 
access because they have actually agreed to this. This was 
their agreement after the Gulf War. I think they have to keep 
that, and that would certainly be beneficial for everybody. We 
are going to submit the other questions for the record. I thank 
both of you for your testimony and service.
    I would just ask any time you get an opportunity, to move 
the ball forward on our values. Words really count for a lot. 
You remember, to go back to what I started with, when President 
Reagan was severely criticized for his speech in Orlando, 
Florida. I have since seen statements from people in the Soviet 
Union that believe his comment changed the dynamics.
    I visited a Russian prison camp in 1988. The prisoners in 
that camp, this was still during communism, they knew of Ronald 
Reagan's statement and they knew of the rally that was held on 
the Mall in 1985 on behalf of Soviet dissidents. Even if you do 
not necessarily see the progress, if you were in prison in some 
country as a dissident, you knew that the ambassador was 
speaking out on your behalf.
    And I want to commend the ambassador in China who listed 
individual cases. I don't think that had been done, certainly 
not for awhile. For that individual, the warden is going to 
say, my goodness, I didn't know anybody knew he was here, so we 
had better not beat him or kill him. It moves it forward in so 
many ways. I think doing that is very positive.
    The last thing I would ask you to do--and this is not a 
fair question because it is not directly on your areas--there 
is a provision in law that says if we have a prisoner in this 
country who has committed a violent crime, from a particular 
country, Vietnam as an example, and we have 3,400, they should 
take them back.
    There are 10 countries that will not take them back. 
Vietnam will not, Somalia. I would urge that you get a copy of 
that list, sidle up to the country's ambassador, and tell them, 
we want you to take them back. They want to trade with us. 
Otherwise, there is a provision in the law that says that we 
will deny them visas.
    And I am certainly willing to offer this amendment on the 
floor to deny visas. It is section 621 which says, ``None of 
the funds appropriated or otherwise made available to the 
Department of State and the Department of Justice shall be 
available for the purpose of granting either immigrant or 
nonimmigrant visas, or both, consistent with the Secretary's 
determination under section 243(d) of the Immigration and 
Nationality Act, to citizens, subjects, nationals, or residents 
of countries that the Attorney General has determined deny or 
unreasonably delay accepting the return of citizens, subjects, 
nationals, or residents under that section.''.
    Attorney General Ashcroft did this with Guyana, and they 
have taken them back. Otherwise, there could be no visas for 
anybody, diplomatic, business. There is a good-faith effort on 
the part of our government to develop a good relationship, 
which is appropriate now, and we do not seek to have problems 
with all these countries, but I think they have an obligation 
to take their people back.
    Some of these are very hardened criminals, and under a 
recent Supreme Court decision, some may have to be let out of 
jail and American citizens may very well be harmed, killed, if 
you will.
    We will send you the list. If you can just talk to them and 
say, just take these people back. I think Somalia has 51. Just 
take them back.
    Another is Cuba. I think it would be a good thing to help 
relationships between the two countries. If Cuba were to take 
these prisoners back, it would certainly have an impact on some 
of us who are opposed to the Castro government.
    If you can take a look at that list and try to help the 
State Department advocate with these countries; otherwise, I 
don't think that we should give their people visas--there may 
be some exceptions in that group, too.
    If you would do that, I would appreciate it.
    With that, I thank you both and the hearing is adjourned.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, April 24, 2002.

                            PUBLIC DIPLOMACY

                                WITNESS

PROFESSOR SHIBLEY TELHAMI, ANWAR SADAT CHAIR FOR PEACE AND DEVELOPMENT, 
    UNIVERSITY OF MARYLAND AND SENIOR FELLOW, BROOKINGS INSTITUTE

             Opening Remarks of Subcommittee Chairman Wolf

    Mr. Wolf. Welcome. The committee will come to order.
    Today, the Committee will hear testimony regarding the 
public diplomacy programs and activities of the U.S. 
Government. These days one has to look no further than the 
daily news to see evidence of widespread anger and negative 
attitudes among foreign publics directed toward the United 
States.
    No matter how commonplace this becomes, it is always 
somewhat disappointing and surprising. We wonder how they 
cannot see the things about this country that are positive and 
good that we cherish. This represents the great challenge of 
public diplomacy to communicate directly with foreign publics 
in order that they should better understand and appreciate our 
policies, our culture and our values.
    When we hear the word diplomacy, most of us probably think 
of traditional government to government interactions such as 
negotiations of a peace treaty or building a multilateral 
coalition at the United Nations. However, increasingly some of 
the most important diplomatic activities the U.S. Government 
undertakes are public diplomacy where the interaction is not 
with a foreign government, but rather with a foreign public.
    The subcommittee funds a variety of public diplomacy 
programs, including information and international exchange 
programs at the State Department and TV, internet and broadcast 
programs at the Broadcasting Board of Governors. All these 
programs play a vital role in making ourselves, our country, 
our policies and our culture understood to people in other 
countries.
    Why is public diplomacy growing in importance? Two reasons 
perhaps. The world is less centralized and more democratic than 
it was just a few years ago with fewer authoritarian and 
totalitarian governments, particularly in the Eastern Bloc and 
the Soviet Union, and populations all over the world are more 
empowered, and their political leaders are more answerable to 
public opinion. In short, even countries that have 
authoritarian governments are answering their foreign public 
opinion, and foreign public opinion now matters more than ever.
    Also, the continuing proliferation of television and radio 
resources and the development of newer technologies like 
satellite communications and the internet, means that we can 
reach more people more quickly and directly than ever before.
    The need to strengthen our public diplomacy has gained a 
sense of urgency as we have seen in the startling foreign 
public opinion polls and foreign media content related to the 
war on terrorism that reveals profound anti-American sentiment 
and often a thorough rejection because they do not understand 
our policies.
    As foreign publics are growing in both number and 
influence, many hold opinions and come from points of view that 
are significantly different from our own. This raises 
questions, such as, what specific audiences is it most critical 
for us to communicate with? What are the messages and ideas we 
need to communicate? How can we most successfully deliver the 
right messages to the most important audiences? Finally, how do 
we measure results of these programs so that they can be 
continuously improved?
    To help us work towards some answers to these questions, we 
are honored to have before us today witnesses from both inside 
and outside the U.S. Government. We look forward to a frank 
exchange today based on each of your expertise, and I would 
encourage you today in sharing new and bold ideas. We have a 
renewed appreciation both in Congress and the Administration of 
the importance of public diplomacy, and my hope is that 
discussion today will contribute to improving these efforts.
    Also, just in closing comment, I do not think the answer is 
to solve the problem in the Middle East. Obviously we all know 
that the problem in the Middle East has to be solved, but we 
are talking about what do we do aside from that.
    Secondly, I have had the opportunity in the last year and a 
half to spend five days in Pakistan and two days in Afghanistan 
and then last year to spend a week in Lebanon going down and 
throughout all of Lebanon just talking and listening to people.
    When you look at the surveys that I have seen and some of 
the news stories that we hear and knowing full well 
particularly with regard to what is taking place in the Middle 
East, the United States was in essence the country that led the 
effort to help Muslims in Bosnia and Herzgovina. Many of us--
Congressman Hoyer, Congressman Smith and I--would get up daily 
to speak out on behalf of arming the government of Bosnia and 
Herzgovina.
    We, the majority of Congress, supported very strongly, the 
bombing with regard to helping the people of Kosovo that are 85 
to 90 percent Muslim. The same held true with Desert Storm and 
Desert Shield with regard to Kuwait.
    In some respects the Muslim community in China, the best 
friend it has, is frankly, the United States Government and the 
pressure with regard to speaking out on behalf of the Muslim 
community that are being persecuted by the Chinese Government.
    To even take it a stretch farther, I would think the United 
States Government has probably been the best friend of the 
Muslim Chechens, those in Chechnya who are trying to reach some 
sort of self-determination.
    We have not been anti-Muslim. We have to tell the story of 
the goodness and the decency of our country. We do not seek to 
dominate any nation. We are not seeking to conquer. We engaged 
in nation building after we defeated Japan, the same way with 
regard to Germany. Many of you remember the Berlin Brigade and 
the Berlin Wall and the efforts with regard to that.
    What we are trying to do is come up with some idea today, 
both from a funding level, which I think is perhaps inadequate, 
and also some new and creative ideas to begin discussions to 
help the Administration come up with some ways to do a better 
job telling the good story that I believe we have to tell.
    With that I recognize Mr. Serrano, and then we will go 
straight to the witnesses. Mr. Serrano.

           Opening Remarks of Ranking Minority Member Serrano

    Mr. Serrano. Thank you so much, Mr. Chairman, and thank you 
for your vision in calling this hearing, which addresses a very 
important issue.
    When I look, Mr. Chairman, at the New York Times 
enlargement there, ``U.S. Attacked, Highjacked Jets Destroy 
Twin Towers and Hit Pentagon in Day of Terror,'' that day 
obviously changed our lives forever as Americans and in my case 
obviously as a New Yorker.
    That day a lot of people forget the terrorists accomplished 
a few things. One of the things they accomplished momentarily 
is that they disrupted in New York City our electoral process. 
It was primary day, and I publicly admit, as I have on other 
occasions, that I was not in Congress that day.
    I was in front of a school, a polling site in the Bronx, 
trying to convince some of my constituents to vote for a 
candidate who was running for the city council, who happened to 
be Jose Serrano, Jr. I did not take anything for granted that 
they would support him just because they love me. We were 
working hard.
    As we saw the police leave the polling sites, in typical 
political fashion our first concern was who is going to watch 
the voting machines if the police are gone? Then we realized 
that there was a reason why they were leaving, and when the 
elections were suspended and all the pain hit us, we realized 
that we had changed forever.
    The next day I left New York the only way that you could 
leave that day, by car. As I was heading onto the turnpike to 
get on 95, I turned over and saw the missing twin towers. As a 
typical New Yorker, I had not paid much attention to them when 
they were there. All of a sudden I had this empty feeling that 
they were gone forever. Two buildings have become the symbol, 
along with the Pentagon, of the pain that we suffered that day.
    When you called this hearing, Mr. Chairman, I felt that 
this was one of the more important hearings you could call 
because it is now more than ever that we need to tell the world 
that we are a good people, that we are a good country, that we 
are a people who care about other people. We have to tell the 
story of Arab Americans and other folks in this country who 
have done well.
    At the same time, I feel a certain frustration at the fact 
that perhaps the people that are in front of me today who will 
testify, Mr. Chairman, have their hands tied in terms of how 
much they can do to change the behavior of this country so that 
it does not contradict at times in our foreign policy that 
which we know the people to be.
    There is the problem. At times our foreign policy does not 
reflect who we are as a people, and so while you are out there 
telling the people that we are a good people, I just finished 
meeting with the Ambassador from Colombia because he wants more 
and more of our help, and I have more and more concern about 
military involvement on our part. You are out there trying to 
tell the world that we are good people, and we are. In 
Colombia, if they see military uniforms from the U.S. the 
feeling will not be the feeling you are trying to portray.
    Last week or two weeks ago, all indications are we 
participated one way or another, either by not participating as 
we should or by participating as we should not have, in an 
attempted coup, a failed coup, in Venezuela. That will make 
your job harder because there are segments of the Venezuelan 
population right now who do not see us as good people; not for 
anything we are doing anywhere else, but rather something we 
did not do or did do right there in Venezuela.
    Then we have a situation where we just found out this 
morning, Mr. Chairman, that the President of Mexico was asked 
by this government to ask a leader of another country, Cuba, to 
leave a meeting prior to him arriving because they did not want 
to be in the same room at the same time.
    Throughout Latin America and other parts of the world, your 
job is a challenging one because we are doing the right thing 
and we are the right people, but some of our statements, some 
of our mistakes, are coming to haunt us.
    We have to do two things. We have to continue on the road 
to being who we are and telling the world who we are, and at 
the same time hopefully when you folks are asked, either by 
those from the private sector or those from government, what 
our policy should be just continue to make the point that our 
policies cannot contradict our public relations. They have to 
be the same.
    One last point. When you are carrying out this mission of 
public relations, if you will, for us, make sure in those 
countries you deal with you talk to all sides of the equation 
because if there is one thing we learned in Venezuela which we 
should have learned a thousand years ago and we keep making the 
same mistake, is that we spoke to this guy and asked him how he 
felt about his President. We spoke to this corporation and 
asked them how they felt about their President. We talked to 
this media mogul and asked him how he felt about his President.
    Then when the dark-skinned, poor, countryside people took 
to the streets to demand the return of their President we were 
startled that they would want to go back to having him as 
President. Well, maybe we should have asked them at the same 
time we asked other people how do you feel about your 
President. Maybe we could have seen a balance.
    With that in mind, I welcome all of you here. I am looking 
forward to your testimony, and I stand ready with the Chairman 
to help you as appropriators in any way we can to make your job 
easier and a full success.
    Thank you, Mr. Chairman.
    Mr. Wolf. I thank you, Mr. Serrano. I think as Paul Harvey 
says, the rest of the story is Jose Serrano, Jr., won the 
election. We will put that in the record.
    Mr. Serrano. Big.
    Mr. Wolf. Big.
    Our first panel today will consist of Mr. Shibley Telhami, 
Anwar Sadat Chair for Peace and Development at the University 
of Maryland, and an expert on the role of the media in public 
opinion in the Middle East.
    Ambassador Kenton Keith, who chairs the Alliance for 
International Educational and Cultural Exchange, and is senior 
vice-president of Meridian International Center, has served as 
U.S. Ambassador in Qatar, home base of Al-Jazeera, and, as a 
career practitioner of public diplomacy most recently led the 
coalition's public affairs effort in conjunction with the war 
in Afghanistan.
    If both of the witnesses would come up? Mr. Telhami and Mr. 
Keith will be on the first panel. Secretary Beers will be on 
the second panel, and the two Broadcasting Board members will 
be on the third panel.
    You are welcome to proceed.

                   Opening Remarks of Shibley Telhami

    Mr. Telhami. Thank you, Mr. Chairman. It is really a great 
honor for me to be here and in this building particularly where 
I helped myself organize many hearings before the Foreign 
Affairs Committee; at least it was called that when Congressman 
Lee Hamilton chaired it. I helped organize many of the hearings 
in this building.
    It is important to begin our discussion of public diplomacy 
toward Arab and Muslim countries by putting regional 
perceptions towards the U.S. in a broader perspective.
    First, it is clear from recent public opinion surveys 
across Arab and Muslim countries that there is much resentment, 
anger and mistrust toward the United States and especially 
toward its policies, but it is important to note that these 
attitudes are also pervasive in other regions of the world, 
including Latin America, Asia, even western Europe.
    While the intensity of these feelings in the Middle East 
may be at a higher level, it is important to highlight the 
prevalence of these attitudes globally. Certainly some of these 
attitudes are simply a function of our role as a superpower and 
in some cases even jealousy, but to the extent that there is a 
problem in projecting a positive image of America we must think 
globally, as well as regionally.
    Second, while Arab and Muslim countries have much in 
common, especially on issues of identity and on core issues of 
foreign policy, it is important to note that Arabs and Muslims 
are highly diverse culturally, politically, even religiously. 
As such, we must not lose sight of that diversity in designing 
our public policy toward the Middle East.
    Third, recent public opinion surveys, including ones that I 
have conducted in the region, clearly reveal that the primary 
source of resentment and anger toward the United States is not 
American or western values, but central foreign policy issues, 
especially the Arab-Israeli conflict. Certainly the United 
States will not change its policies on the basis of public 
attitudes, but American diplomacy must find a way to explain 
these policies to people of the region.
    Fourth, to the extent that events of 9-11 have increased 
the gap of perception between the United States and Muslim and 
Arab countries or at least highlighted it, it is also important 
to note that there has emerged a deep division between Arab and 
Muslim countries between voices of militancy and voices of 
moderation, between advocates of tolerance and advocates of 
intolerance.
    It is important in the pursuit of American public diplomacy 
toward the region not to portray the global campaign as a 
campaign between us and them, between the United States and the 
Muslim world, between the west and the Middle East. A more 
prudent strategy would focus on supporting the voices of 
moderation and tolerance in the region, empowering them and 
helping them to wage their own battle for the hearts and minds 
of people in the region.
    Fifth, in projecting our message toward the region, we must 
be especially mindful of the fact that every good salesman 
understands. If you do not trust the messenger, you do not 
trust the message. It is, therefore, essential in the design of 
our public diplomacy to be especially careful about the 
messengers who spread our message.
    In particular, we have not made good use of our own 
resources, especially among Muslim and Arab-Americans who have 
every interest in building bridges between the United States 
and Muslim countries. In addition, we must encourage those in 
the region whose voices are trusted and who share our message, 
and we must work with the existing media in the region and not 
only put forth our own media outlets.
    Sixth, it is important to understand that there has been an 
information revolution in the region that has resulted in new, 
more independent and diverse media outlets, especially 
television, such as Al-Jazeera TV out of Qatar that has been 
made famous in the past several months.
    While certainly there is room for additional media outlets, 
including ones that would project messages that are compatible 
with the aims of our public diplomacy, we must be clear on why 
stations like Al-Jazeera are successful today and what the 
logic of the information revolution is.
    The most important change generated by the dozens of new 
media outlets available to the public in the region is that 
governments lost their monopoly on information. Any station 
that hopes to get a sizeable market share of viewers must take 
into account consumer demand and consumer taste. Those who 
understand what the public wants to see and create programming 
that reflects consumer demand are the ones who succeed.
    In large part, Al-Jazeera's success is a function of its 
ability to reflect public opinion, not so much shaping it. As 
such, it is important to understand the limits of any new 
television or radio outlet supported by the United States 
intended to compete regionally.
    Seventh, experts on the Middle East, as well as our public 
opinion surveys, indicate that a primary source of regional 
frustration and anger toward the United States is a perceived 
lack of empathy by the United States toward pain and hardship 
in the region. This comes across in almost every country in 
which we do a survey. As such, it is incumbent upon any 
effective public diplomacy strategy to find ways to project 
empathy toward the people of the region, especially where there 
is obvious pain and suffering.
    A good example is in the recent hardship of Palestinians in 
the West Bank. Regardless of our view of the rights and wrongs 
of policies toward Israel and the Palestinians, it is important 
to project at the highest level our empathy with the almost 
unbearable pain that Palestinians have endured, just as we must 
also project empathy with Israelis as they endure the 
unbearable pain of terrorist bombings. This is an issue that 
must transcend policy.
    In addition, the United States always has important 
humanitarian projects across Arab and Muslim countries, and 
those must be increased, highlighted and brought to the 
attention of people in the region.
    Eighth, to the extent that many in the region remain 
suspicious of our policies and often jump to conspiracy 
theories as a favorite form of explanation, this appears to be 
in part a function of a broad cultural and political psychology 
in the region that is difficult to significantly alter at least 
in the short term.
    To the extent that we can make a difference at all, it is 
clear that many in the region feel that we take them for 
granted and we do not bother to explain to them why we do what 
we do and expect them simply to accept and follow. It is, 
therefore, extremely important in the conduct of our policy, in 
the conduct of our public diplomacy, to have careful and 
credible explanations for all our important policies, even 
those that are controversial in the region. If we shy away from 
doing it, conspiracy theories will have even a bigger field 
day.
    Ninth, it is obvious that people in the Arab and Muslim 
countries have a mixed view of American life and values, but 
mostly a negative one. For example, most have a positive image 
of America as a free economy, as a free country, of our 
accomplishments in science and technology, but most see our 
values through the prism of sensational Hollywood movies and 
thus have little understanding of the importance of faith, 
family and charity in America. To the extent that public 
diplomacy can affect this image, it can certainly serve to 
highlight the richness and diversity of American life.
    Tenth, although much of public diplomacy has to be carried 
out through specific agencies of government and through 
specific programs, it is extremely important that the public 
utterances of our high-level officials, especially at the White 
House and State Department, often have more power in shaping 
public images in the region than all our programs and the 
hundreds of millions of dollars we put behind them.
    A single word by the President or Secretary of State could 
outweigh months or years of efforts. We seem to understand this 
issue well in the conduct of our domestic policy as all of our 
officials have their statements scrutinized by dedicated 
advisors whose role is to assure the projection of the right 
public image. The global stakes today are so high that we must 
find a way to have dedicated advisors to scrutinize the impact 
of our utterances globally.
    Mr. Chairman, it is clear that bridging the gap of 
perception between Arabs and Muslims abroad and the United 
States will be a difficult one and will require a substantial 
long-term strategy, as well as short-term efforts. It is also 
clear that above all the strategy must be based on dialogue 
with the region. Such a dialogue is important not only for us 
in understanding the sources of resentment and anger, but also 
for governments and elites in the region who clearly must 
understand us and do their own part in bridging the gap. It is 
a two-way street.
    A good place to begin is by encouraging the establishment 
of Centers of American Studies in major universities in the 
Middle East. Remarkably, there is little knowledge about our 
culture and our politics even in institutions of higher 
learning in the region, which allows conspiracy theories to 
prevail without answer.
    We must also encourage educational exchanges, media 
exchanges and people-to-people contacts more broadly. One of 
the sad consequences of our security concerns following the 
horror of 9-11 is that more people from the region and more 
Americans are discouraged from participating in such exchanges 
that are more needed today than ever.
    Let me end by saying how important it is that we succeed in 
our efforts to reduce the gap of perception between the United 
States and Arab and Muslim states even as we know that we 
cannot fully bridge this gap.
    As we live with such a gap of perception with other regions 
of the world, we can certainly live with some gap in the 
relationship with the Muslim world, but we also know that if 
the gap is too wide, the anger is too deep, there are enemies 
of our interests who will be able to exploit it. In the era of 
globalization, the costs are too high. We cannot afford not to 
try.
    Thank you, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Serrano [presiding]. Let me just take a second to 
explain the Chairman's absence. We have three votes coming 
here, and if we were to take a break it would be like a 40 
minute break, so we are going to try to put some fancy footwork 
here back and forth to vote.
                                         Wednesday, April 24, 2002.

      ALLIANCE FOR INTERNATIONAL EDUCATIONAL AND CULTURAL EXCHANGE

                                WITNESS

AMBASSADOR KENTON KEITH, CHAIRMAN OF THE BOARD, AND SENIOR VICE 
    PRESIDENT, MERIDIAN INTERNATIONAL CENTER

                  Opening Remarks of Ambassador Keith

    Mr. Keith. Thank you, Mr. Serrano. I am Kenton Keith, 
senior vice president of the Meridian International Center and 
chair of the board of directors of the Alliance for 
International Educational and Cultural Exchange. The Alliance 
is an association of 65 U.S. based exchange organizations, and, 
as you know and as the Committee knows, we have worked with 
this subcommittee over the years on a variety of issues.
    Prior to taking up my current positions, I spent 32 years 
as a Foreign Service Officer with the U.S. Information Agency, 
including my appointment by President Bush in 1992 to be U.S. 
Ambassador to Qatar. More recently, I took on a temporary 
assignment for the State Department during which I established 
and directed the Coalition Information Center in Islamabad. In 
that intense period of the early days of the war on terrorism, 
I was particularly grateful to the Chairman for his visit to 
the region and for those of his congressional colleagues.
    I have submitted some written testimony, which I would 
greatly appreciate having made a part of the record. Meanwhile, 
I would just like to summarize some of the points that are in 
that testimony.
    I welcome the opportunity to testify today about the 
importance of public diplomacy in our war against international 
terrorism. To win the war on terrorism, the U.S. will need more 
than the might and skill of our armed forces. We must also 
engage the Muslim world in the realm of ideas, values and 
beliefs. No previous foreign affairs crisis has been so deeply 
rooted in cultural misunderstanding. We must address the gulf 
between us and the Muslim world if we are to succeed.
    There is no doubt that many in the Islamic world deeply 
disagree with aspects of American policy in the Middle East, 
but policy disagreements alone cannot account for the fact that 
many Muslims regard the U.S., the greatest force for good in 
human history, as a source of evil. As a nation, we have not 
done an adequate job of explaining ourselves to the world or of 
building the personal and institutional connections with these 
countries that support healthy binational, bilateral 
relationships.
    The exchange community welcomes the leadership of Chairman 
Wolf and that of his subcommittee in focusing attention on 
public diplomacy as a critical element and a successful anti-
terrorism strategy. A February Gallup poll reports that 61 
percent of Muslims believe the attack on the U.S. was not 
carried out by Arabs, and that statistic alone speaks somber 
volumes about our failure to project our values and ideals 
effectively in Islamic nations.
    Changing minds or merely opening them is a long, 
painstaking process, and there are no quick fixes, but we must 
put new energy and resources into the effort, and we should do 
it quickly.
    We are calling for an increase in the State Department's 
exchanges with the Islamic world, which will give us the means 
to build a range of productive relationships based on shared 
interests. Such an initiative will engage the American public 
in our communities, schools and universities in an effort to 
project American values and begin to deal seriously with our 
public diplomacy deficit. We believe that an effective Islamic 
exchange effort will require $75 million.
    Members of the Subcommittee, I would stress that this has 
to be new money, not merely a shift of resources within 
existing exchange programs. Already reductions in public 
diplomacy over time have limited our reach throughout the 
world. We have closed posts and cultural centers. We have 
reduced numbers of public diplomacy positions in our embassies. 
We have steeply reduced the number of exchange participants.
    As populations in significant Muslim countries have 
increased by some 15 percent over the last ten years, the 
numbers of exchange participants from these countries have 
declined by about 25 percent. The funding level we request is 
both necessary and appropriate.
    We welcomed the opportunity to discuss the proposal earlier 
with Chairman Wolf and his staff, and we have found broad 
bipartisan support for an Islamic exchange initiative in both 
chambers. Chairman Hyde's Freedom Promotion Act, to be marked 
up this week, authorizes new funds for exchanges with the 
Muslim world. The exchange community is supportive of the Hyde 
bill and welcomes its call for an additional $35 million 
annually over the next two years. We also appreciate his 
attention to the need to rethink the way public diplomacy is 
structured in the State Department.
    In the Senate, Senators Lugar and Kennedy will soon 
introduce the Cultural Bridges Act calling for an additional 
$95 million for such exchanges. Their bill has attracted six 
additional co-sponsors drawn from both sides of the aisle.
    This level of support from senior Members of both parties 
and both chambers underscores the timeliness and importance of 
this initiative. This is a moment when our national interest 
requires Congressional leadership to build these cultural 
bridges. The U.S. exchange community stands ready to assist you 
in this effort and is grateful for your support.
    Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Serrano. Thank you, Ambassador.
    We are running out of time. I apologize. It is the 
situation around here. There are going to be two more votes in 
a few minutes, but they are back to back so I will wait until 
the end of the first vote and leave and then come back.
    [Recess.]
    Mr. Wolf [presiding]. I apologize, Mr. Keith. Did you 
finish?
    Mr. Keith. I did, sir.
    Mr. Wolf. Okay. I read your testimony. Is it different than 
what you submitted?
    Mr. Keith. No. It is approximately the same; just 
summarized, Mr. Chairman.
    Mr. Wolf. Okay. Let me collect my thoughts here.
    Mr. Telhami, the aftermath of September 11 revealed a 
reality that many Americans previously had not noticed or 
thought important that in many parts of the world America is 
perceived as an enemy. There was that news magazine that you 
may have seen, ``Why Do They Hate Us?''
    Aside from the legitimate policy differences, and I know 
you referenced that once or twice in the hearing, what explains 
the negative opinions and the vehemence behind them? Is it the 
level of funding? Is it just the message? Are the right words 
being said? Is it the advertising package?
    If you had to fix this problem what would you do?

                     NEGATIVE OPINIONS OF THE U.S.

    Mr. Telhami. First, Mr. Chairman, I like the way you framed 
the issue even at the outset, which is you are looking at it 
globally and not only looking at the region because in fact we 
do have a global problem. It is not just in the Middle East and 
Arab and Muslim countries. It is more of a higher magnitude 
obviously in the Arab and Muslim countries. Unfortunately, we 
see that it is consequential and so in that sense, you know, we 
have to focus on some of the particulars of that situation.
    I think that there is always a gap between the role of a 
superpower and other countries. We can live with some gap. I 
mean, the question is at what point does it become dangerous?
    In the surveys that we have conducted, two issues have 
become very clear. In a survey, for example, I conducted in 
Saudi Arabia I asked the question ``Are your attitudes toward 
the United States mostly based on, A, its values or, B, its 
policies?'' Among the elites, 86 percent said mostly based on 
its policies. Only six percent said mostly based on its values. 
Among the general public, 59 percent said mostly based on its 
policies. Only 19 percent said based on its values.
    Clearly the policies are important in the attitudes, but 
the most important issue that comes up when you try to unpack 
it is really the issue of absence of empathy, the sense that we 
do not care, the sense that we are not feeling their pain, the 
sense that we are not doing enough to care about their 
hardship.
    Maybe they expect too much of us again because we are a 
superpower and maybe now because we are the sole superpower, 
but clearly that comes across not only in the Middle East, but 
if you look at the survey among elites across the globe and you 
ask them even after 9-11 when there was tremendous sympathy for 
the U.S. across the globe, you ask them do you believe that the 
U.S. is behaving in the coalition on global terrorism, is it 
serving all of its interests or is it also taking into account 
the interests of its coalition partners, the majority across 
every region in the globe said it is mostly focused on its 
interest and not taking into account the interest of its 
partners. I think that is the problem right there.
    Mr. Wolf. How do we deal with that? We are trying to 
develop some process, and what we do here will hopefully help 
the Administration to deal with the problem.
    I do not believe, though, that the perception of a lack of 
empathy is accurate. Many Members of Congress, and I know that 
the President, all care deeply. I have heard him speak 
personally with quite significant passion. I think President 
Bush is a compassionate man who cares very, very deeply.
    When I was in Afghanistan, they told us that 43 to 47 
percent of the food that was fed to the people in Afghanistan 
before we defeated the Taliban was funded by the United States 
through the World Food Program. It was therefore somewhat 
disappointing to see bags of grain with the Japanese flag, and 
I saw bags with American words, which many people could not 
even understand. So I think maybe we do not do a very good job 
promoting ourselves, but it is clearly not the case that there 
is a lack of empathy.
    When we were in Lebanon, we spent a lot of time going to 
AUB University, spent a lot of time listening. I would 
periodically say ``But do you not understand that 243 American 
Marines died not very far from here, and there is not even a 
little plaque or a little monument? There is nothing but the 
airport. We sent those people. We cared.''
    I think if you look all over the world, in Kosovo the 
Americans were the first people on the ground with regard to 
food, with regard to shelter, with regard to tents. The World 
Food Program, probably 50 percent of the funding now comes 
through the U.S. UNICEF is the same thing.
    We are doing those things, and my sense is that there is 
strong support in the Congress for those efforts. Is it that we 
are just not doing a good enough job to tell people, or is it 
we are so busy that we do not express our empathy, just as a 
doctor in the hospital who says I understand to his patient? 
How do we deal with that?

                     DEALING WITH NEGATIVE OPINIONS

    Mr. Telhami. That is a good question. First of all, I do 
not think it is a question of a problem of this Administration 
or this President. I think you would have found the same thing 
in the previous Administration. I think it is a problem in the 
perception that we have had probably over the years and 
certainly since the end of the Cold War. It is not a problem of 
this Administration per se, the conduct of policies since 9-11. 
I think it is just a broader problem.
    I think to the extent that we have a story to tell, 
certainly we have not been telling it well. We have people in 
the region look for symbols, for cues, for ideas, in the same 
way that we look for ideas that form our opinions about the 
region. We think of the Islamic world mostly through the 
terrorism that we have seen often at the public level. We are 
looking for cues.
    As I have suggested in the testimony, I do not think we 
have taken special care to project empathy as we must, I think. 
Even inadvertent statements by the President and the Secretary 
of State are magnified in the region and in fact overwhelm all 
of our efforts because they look at them as indications of 
policy even if they are not.
    I also think we have not done a good job in highlighting 
some of the good things that we do in projecting empathy. 
Projecting empathy also means that we tell people about the 
good things that we do, including the humanitarian efforts that 
we are doing, the programs that we conduct, the issues 
pertaining to causes that we have supported that were Islamic 
causes. All of that clearly we have not done a good job at, and 
I think we need to do that.
    Mr. Wolf. The first funding initiative for public diplomacy 
in the aftermath of 9-11 was $15 million for a State Department 
campaign to market the United States as a brand in foreign 
media.
    We are going to have an opportunity later on to talk to 
Undersecretary Beers who will be here, but what do you think 
about the likelihood that such a campaign will significantly 
impact attitudes particularly in the Middle East and in the 
larger Muslim world? A brand?
    Mr. Telhami. I think there is no question there is room for 
that. I think it has to be carefully done, and when I say 
carefully done I think we have to pay attention to the 
following:
    One is that the messenger is as important as the message. 
You know, when you do not trust the messenger you do not trust 
the message. People ask, as you said earlier, about how is it 
possible that you have so many Muslims and Arabs not believing 
the obvious evidence that bin Laden was responsible? How could 
this be in that particular case?
    I think the way to think about it is to think about it in a 
way akin to how some African-Americans reacted to the O.J. 
Simpson case, to the same evidence that many white Americans 
reacted to, which is that they did not trust the system. They 
did not trust the evidence. They simply did not trust the 
messenger. The whole package was essentially not trusting the 
system.
    You have a lot of that in the Middle East, and we have to 
find a way to communicate that does not go through the channel 
that people mistrust. I think there is room for structuring a 
campaign that employs messengers that are trusted, including 
media outlets that are already there that are trusted, 
including using individuals and organizations who share our 
message, but who have more clout and----
    Mr. Wolf. What groups?
    Mr. Telhami. For example, there should be better use made 
of respected Arab and Muslim Americans in all walks of life, in 
business, in culture, in the academy, people who already have 
clout and who are respected by virtue of being able to 
communicate the same language.
    There has not been enough in the pursuit of our foreign 
policy broadly, whether it is in the State Department or 
elsewhere.
    Mr. Wolf. Do you mean you think we should, and I agree if 
this is what you are saying, use someone from the American 
Muslim community as a spokesperson back in Syria and Yemen or 
wherever the case may be?
    Mr. Telhami. Absolutely. You know, the term ``use'' is----
    Mr. Wolf. Many are anxious to do that.
    Mr. Telhami. Exactly. That is the point. Exactly. It is not 
``using'' in the sense that we are ``using'' them. They want to 
participate. It is in their interest to highlight the bridges.
    They have more to gain by this for more reasons than one. 
They want to build those relations. They want the friendships 
to be built. They also, frankly, are worried about the 
consequences here at home when the tension grows, so they want 
to reduce the tensions.
    You have a lot of willing people, and clearly you also have 
to use people there. We have to understand that this is not 
``us versus them.'' We have to understand that there are 
segments of society, respected segments of society, elites, who 
truly want to be empowered to be able to stand up to those 
intolerant forces and militant forces in society. We have to 
work with them. We have to empower them. We have to help them 
in a way that does not portray this as a war between us and 
them, but as a conflict from within the region, as something 
that is ongoing within the region.
    There is a battle for the soul of the region, and it is 
more really within the region than it is between the region and 
the rest of the world. In a way we have to be very, very 
careful in not showing ourselves to be sliding into a war of 
civilizations, into a clash of civilizations, because that will 
rally all of the forces on the other side instead of us, as the 
President in fact did start doing after 9-11, to his credit, of 
saying this is not a clash of civilization. This is a conflict 
of forces of good and forces of evil within the region.
    Mr. Wolf. Right.
    Mr. Telhami. I think that is something that we have to go 
back to. I see that there is a process that has inadvertently 
taken us back into a clash that we really do not have anything 
to gain from, and they do not have anything to gain from.

                       SUPPORT IN MODERATE STATES

    Mr. Wolf. How do we deal with a country, such as Egypt, 
where we have funded since Camp David $47 billion in aid? Do we 
have any control over the very antisemitic cartoons, very anti-
U.S. cartoons and articles? How do we deal with that? Do we go 
to President Mubarak? What do we do because we are trying, plus 
we are very generous with American foreign aid. We appreciate 
the support we have had from President Mubarak on a number of 
issues, but yet we do one or two good things in a statement, 
and then you pick up a leading newspaper in Cairo, and you have 
an antisemitic cartoon. How do we deal with that?
    Mr. Telhami. Let me say there are two different kinds of 
things. The racism should be absolutely unacceptable. We should 
make it clear consistently. It cannot be accepted, it should 
not be tolerated, and governments should not tolerate obviously 
racist rhetoric. It does not matter what it is, whether it is 
simply anti-Jewish or anti anybody else. It should be 
absolutely forbidden, and I think we should make that point 
consistently.
    On policy, to the extent that there will be criticism of us 
in the government media, I think we should give them a little 
bit of slack there. Let me explain why I think that is the 
case. You have to put in perspective that now every single 
person in the Middle East has choices to watch their own 
television channel or some dozen other television channels. It 
is a market-driven medium. People are going to switch to the 
channel that they think is representing what they believe. The 
reason why Al-Jazeera out of Qatar is being highly watched 
today is because it is putting on the air stuff that people 
want to watch. And, frankly, if people were seen to be catering 
too much to America in the Egyptian media, everybody would turn 
it off. There has to be some selectable legitimacy.
    There is an environment in the region today where much of 
the regional media, the pan-Arab media, that governments do not 
control is carrying the pain of what is happening on the West 
Bank, let us say, and they are calling governments like the 
government of Egypt and the government of Saudi Arabia, the 
government of Jordan servants of America, servants of Israel. 
They are delegitimizing them. And to that extent it is 
obviously hard for them to even be more so appearing in public, 
so they have to give some slack to the media. So we have to 
differentiate between those issues of racism that are 
unacceptable and those policy issues where they need to give a 
little bit more leeway for their reporters to be able to gain a 
little bit of legitimacy in projecting a different image.
    Having said this, I do believe that Arab governments have 
discovered after 9-11 that they have empowered forces that are 
self-defeating for them and for us, and clearly the Saudis have 
understood that. That is a long-term project that they have to 
address. I think it is something that has to be addressed in a 
sophisticated way, not just in a simplistic way of standing 
next to the Secretary of State and denouncing terrorism because 
that does not do any good. It needs very, very careful efforts, 
and they have to be sustained, and they have to be long term.
    Mr. Wolf. I am going to have a couple of questions for Mr. 
Keith, and I am going to recognize Mr. Serrano. Ambassador, let 
me ask you about your recent role as spokesman for the 
Coalition Information Service in Islamabad. You probably have a 
greater understanding of this than most people because you were 
there for how long?
    Mr. Keith. Seventy days, sir.

                  RECENT OPINION POLLS AND PERCEPTIONS

    Mr. Wolf. What do you make of the Gallup poll results that 
I quoted earlier? Does your personal experience on the ground 
support the poll findings that only four percent of Pakistanis 
believe that our war effort was justified?
    Mr. Keith. I was personally surprised by that, and I took 
it as a personal failure.
    Mr. Wolf. Well, I do not think you failed. But did that fit 
with----
    Mr. Keith. Yes. It certainly fits with the question of 
trust of the messenger that our friend, Mr. Telhami, was just 
talking about. We actually did put the message out, all the 
messages that you referred to earlier, about our humanitarian 
relief effort, about the care that was taken to protect 
civilians in our military campaign. All of those messages went 
out every day in a variety of ways, and I made myself available 
to especially the Arab world press for on-the-record 
interviews, for backgrounders, for one-on-one interviews. The 
information was there.
    The question was did they trust the information because did 
they trust the messenger or the organization in this case, the 
coalition for which the messenger worked? The answer is to a 
greater extent than one might gather from these statistics, but 
in the main there is that lack of trust. There is a sense in 
that part of the world that the West is inherently anti-Muslim. 
They look at public pronouncements of figures in this country 
about Muslims. They look at the portrayal of Muslims in popular 
culture in films as war-like and ignorant, and they look at a 
number of other issues that they regard as hypocritical as far 
as the West and the United States in particular are concerned.
    If they are Pakistani, their principal issue was Kashmir, 
in their minds a subject in which the West has sided with the 
non-Muslim position. And they also, along with the Arabs, look 
naturally at the Arab-Israeli issue, again, an issue in which 
they perceive that the West and the United States in particular 
is siding with the non-Muslim position.
    To the extent that I would differ just a little bit with 
Mr. Telhami, I believe that there is an Islam question here 
more than just a policy question. Certainly the policy question 
is very, very pertinent. There is no way that we would ever be 
able to sell to most Muslims that the United States is even-
handed in its approach to Middle East issues. But that is a 
different and, I think, less important question at this moment 
than the fact that they think that the United States is 
inherently anti-Muslim.
    And here is where we absolutely have to build a better 
public diplomacy tool. We need more public diplomacy so that we 
can start to turn this thing around so that we can start to 
build trust and understanding. Most of us would feel very 
comfortable if our values were really clearly understood by the 
Islamic world and, in fact, worldwide. The problem is that they 
cannot be in some areas because the means do not exist to have 
that happen. Look at the situation in Pakistan. There would be 
very little opportunity for certain segments of the population 
to know very much about the United States at all, and what they 
did know about the United States would be distorted by the 
kinds of philosophies and misinformation that is dispensed in 
some of the Islamic school systems.
    What we will need in a case like Islamabad, it seems to me, 
is a combination of wise use of our development aid but much 
better use of public diplomacy. It is a long-term process, it 
will cost money, but we should start it now.
    Mr. Wolf. Mr. Serrano? We have a vote on. We are going to 
go, and then we will adjourn for about probably 15 minutes, and 
I think that is the last vote of the day.
    Mr. Serrano. Thank you. I am very interested in your 
comments, Ambassador, about the perception. If it is true that 
in baseball pitching is 75 percent of the game, well, then in 
diplomacy and politics perception is 75 percent. What people 
think is what ``is'', until you change their mind.
    With that in mind, and I am sorry if this was answered 
while I was out, we spend a lot of money on putting forth radio 
broadcasts and publications and so on, and then we spend money 
also on exchanges. I do not want to put you in a situation 
where you are choosing between one or the other, but can you 
tell us the value of one and the value of the other? You seem 
to fall strongly on the side of exchanges, and I want you to 
tell me how you feel about that.
    Mr. Keith. You are absolutely right, Mr. Serrano. I would 
not like to be put in the position of saying one is more 
important than the other. But certainly they are valuable for 
different reasons and to achieve different goals. It is 
extremely important for United States policies, especially in 
the presence of rapidly changing political developments, 
military developments, and so on, and especially in this period 
when we are involved in an antiterrorism war, it is very 
important for us to have a voice to speak in real time to 
people on issues that are developing. But that is not enough. 
That may be enough to help defuse a situation in a particular 
country, but it is not enough to build the understanding of our 
values that would preclude our great fear that people could be 
driven into some kind of violent action because they simply do 
not understand that we really would not be capable of the kinds 
of things that we have been accused of in the past. Both are 
essential. One is long range, one is more tactical, but both 
are essential, and we cannot short change either one of them.
    Mr. Serrano. When people have this feeling about us, how 
much would you say is based on just distorted information about 
us, and how much could be mistakes we have made, or is it 
totally a lack of understanding? As I am hearing you speak, 
Ambassador, I am thinking of growing up in New York City as a 
member of the Puerto Rican community. I often met a lot of 
people from outside my community who said, ``Gee, you are so 
smart, and you are so different,'' growing up, and then I would 
say, ``How many Puerto Ricans do you know?'' He said, ``Well, I 
do not know any. You are the only one.'' And I said, ``Well, if 
you meet more, you will find some are like me, and some you 
would not want your sister to marry, and that is who we are.''
    How much is it based just on total distortion, or have we 
had business people in the area throughout the years who have 
misbehaved or diplomats who misbehaved or anyone else or 
visiting members of Congress, whatever?
    Mr. Keith. Mr. Serrano, I think I understand your question, 
Mr. Serrano, and I think the answer is that there are real 
differences on policy issues, and there will always be real 
differences on policy issues. I think, as a super power, we 
have to learn to live with that. But the question of their 
perception of us, those perceptions are fed by various things 
in the Islamic world. One, there is a perception that the West 
is inherently anti-Islamic. There is a perception that we tend 
to support antidemocratic or nondemocratic regimes, and for 
many people that thwarts their desire for a more democratic 
society. There is a sense of humiliation throughout the Islamic 
world, humiliation for the galling defeats in Middle East wars, 
but also Al-Jazeera is doing a very good job, and other media 
are doing a very good job as well, showing the daily plight of 
Palestinians even before the current situation in the region. 
So that is a problem.
    So the problem of legitimacy within their own governments, 
the problem of humiliation, the problem of poverty amidst great 
wealth; those feed into a collective sense of grievance, and we 
are very much at the heart of that.
    Mr. Telhami. May I just follow up a little, Mr. Serrano?
    Mr. Serrano. Sure.
    Mr. Telhami. Obviously, it is both, but the perception 
issue is very important because most of the Middle East looks 
at it through a very narrow prism, like we look at them through 
a very narrow prism. Take, for example, their notion of what 
our values are. When you ask them about whether they like our 
values or not, they essentially are responding to the values 
that they see through a very limited number of Hollywood films 
or television shows like ``Baywatch'' and ``Dynasty.'' They 
have no idea that family is important in America or that 
religion is important in America or that charity is important 
in America. They are looking at it strictly through the prism 
of those narrow shows, and I would bet you that if we were 
looking at it through those shows, we would also have the same 
feelings about values.
    That is an area that we can address, for example. That is 
an area where we have the capacity to project more 
understanding of America, to explain the diversity of America, 
the complexity of America, and including a lot of values that 
they share with us--family, faith, and charity--as the Office 
of Public Diplomacy has correctly highlighted as common 
interests between the two.
    There is also the political focus. As the chairman has 
correctly focused, for example, on our coverage in the Middle 
Eastern press, there is some horrible stuff that comes out. 
Obviously, that is what we are focused on. We do not see all 
the good stuff or the interesting stuff that is out there. We 
are focused on that.
    You know what they are doing. In the Middle East if you 
look at the press, what are they covering? They are not 
covering every single story in the New York Times and the L.A. 
Times. They are covering a news story about one famous American 
journal, the name of which I will not mention here, whose 
editor wrote an article about maybe we should consider nuking 
Mecca. And that particular issue was the subject of debate in 
the region for weeks. An American politician who said it is 
very easy to figure out a way of stopping people from getting 
on airplanes. If they wear a diaper on their head with a fan 
belt on top of it, then they should be prevented from doing so. 
That is the sort of stuff they see. They do not even 
differentiate. It does not matter who. They focus on those 
reports that are ugly to them, and they think that is the 
projection of America. So we really have to project a broader 
picture than they are seeing.
    Mr. Serrano. We have to go vote now. I guess we will have 
to tell the world that not every American looks like Pamela 
Anderson.
    Mr. Wolf. I think what we will do, so we do not keep you, 
we are going to submit a number of questions for you, and I 
hope the administration is meeting with both of you. Have they 
met with both of you? Have you been talked to by the State 
Department? Have they picked your brains?
    Mr. Telhami. Yes, yes, and actually they have been making 
terrific efforts in reaching out.
    Mr. Wolf. Okay. Well, I thank both of you for your 
testimony. I apologize for the voting situation. We will have 
questions for you for the record.
    Mr. Telhami. Thank you, Mr. Chairman.
    Mr. Serrano. Professor, if you just for the record could 
maybe send us something. You said something about we will have 
to learn how to monitor our statements. I think you said 
something like that, about what we say.
    Mr. Telhami. Yes.
    Mr. Serrano. I am very interested in that because I think 
that gets us into a lot of trouble at times.
    Mr. Telhami. I will send you something on it.
    Mr. Serrano. Thank you so much.
    Mr. Telhami. My pleasure.
    [Whereupon, at 3:07 p.m., a recess was taken.]
    Mr. Wolf. Secretary Beers, we will reconvene. We apologize 
for the breaks, but that will be, I think, the last one for the 
day. We welcome you. Let me just say at the outset this is an 
issue that I care very deeply about because I want to show the 
best face of the United States Government. As a strong 
supporter of the Bush administration I think President Bush's 
approach is very appropriate, and I think he has spoken out. 
But it is somewhat of a frustration seeing how we are received.
    After I saw the poll, we wanted to have this hearing, but 
nothing that is said should be viewed, any criticism of you or 
the Department or of the Administration.
    This is a beginning of what may very well be a long-term 
process, and maybe the government structure is not set up in 
quite the way it ought to be. So this is idea generating, and 
obviously the Committee would hope that we could put some 
additional funding in with regard to public diplomacy, but 
nothing is meant to imply any criticism of you or the Secretary 
or the Department. I am certainly not speaking for Mr. Serrano 
but for myself, and that is why we wanted to have this hearing.
    So with that, I will recognize Mr. Serrano, and then after 
that you are welcome to proceed. Your full statement will 
appear in the record, but you can proceed as you see 
appropriate. Mr. Serrano.
    Mr. Serrano. Mr. Chairman, I just want to clarify when you 
said you do not speak for me. You do on many of these issues. 
We are never here to criticize the attempts or the work of the 
State Department. The folks who work at the State Department 
are good people who want to do the right thing. My comments 
always are based on my belief that we make mistakes here in 
Congress. We pass some bills that we probably should never 
pass, knowing sometimes the courts take care of it, and 
sometimes the public takes care of us. And sometimes we do 
things in our foreign policy that I do not think we should do, 
but it is never a criticism of the leadership at the State 
Department. We welcome you today.
                                         Wednesday, April 24, 2002.

                   UNITED STATES DEPARTMENT OF STATE

                                WITNESS

CHARLOTTE BEERS, UNDER SECRETARY OF STATE FOR PUBLIC DIPLOMACY AND 
    PUBLIC AFFAIRS

                Opening Remarks of Under Secretary Beers

    Ms. Beers. Well, Mr. Chairman and Mr. Serrano, I consider 
this hearing a completely positive opportunity to talk about 
public diplomacy. I also have learned over long years in the 
marketing world that to define a problem is halfway to getting 
there to solve it, so I think this is a completely constructive 
process.
    As Secretary Powell and Deputy Secretary Armitage have 
said, the importance of full funding for 2002 and 2003 in the 
President's budget just cannot be overstated. We all agree it 
is a vitally important time to promote our overall foreign 
policy and our national security interests. This hearing has 
been kind of interesting, like studying-for-test day. It has 
done a lot of good things for us. It has forced us to 
scrutinize the numbers, account for results, and given us a 
much needed opportunity to assess where we should be going long 
term.
    I am going to do one reference to marketing because it is 
important here in this context. The one great necessity that 
all multinationals have around the world is to gain something 
called ``share of mind,'' and then you study how and what 
quality and kind of share of mind you have. I think the United 
States has something of a record high in share of mind in the 
eyes and feelings of the world, but the question is what sort 
of recognition? What is the quality of it? How much 
understanding exists? And the short answer is it is not good 
enough, and it is eroding.
    You just had a panel of experts who spoke to this 
eloquently, and I do not think I need to elaborate the nature 
and type of dissension and distortion that exists. But when 
people use phrases like the ``world's bully'' or that we are 
imposing a way of life or we are only interested when it 
benefits us, we know that we have a gap here. In such an 
environment the issue is that every policy and action is 
contaminated by skepticism and disbelief about our intentions, 
and this is why it is so puzzling to us when we hear these 
remarks.
    It is obvious that the perceptions of Muslims are more 
personalized. They are more intense, and you heard that 
referred to. We are talking about 54 countries that are Muslim 
majority, with a population of some one billion. So it has to 
be considered seriously. There is a sizable percentage who see 
us as a decadent and faithless country. So there is a great 
deal of misunderstanding even about things we assumed the world 
understood, which is our cherished views of democracy and 
freedom.
    Now, ``WHY?'' is what we have to deal with, because we have 
to come up with programs that will begin to answer this. And 
the ``whys'' are very complex, but I want to address three 
because they fuel the way we came up with our strategic goals. 
The first ``why'' you heard referred to is BIG-BIG. We are now 
not a super power but considered in many places in the world as 
a hyper power. The only thing I want to point out to you is big 
is not bad if you are allowed to be a partner with someone who 
is big or if you let me influence your access or access all the 
power and control that big means.
    Another ``why'' stems from the fact that in many countries, 
especially Muslim, we have had no or very little ongoing 
dialogue. So basically we are dealing in a conversation with a 
stranger or a group of people who have just a narrow facet of 
what we are about.
    And the third ``why'' really fascinates me, and that is 
that conversations, debate, and gossip are occurring all over 
the world at an awesome rate and with groups of people with 
whom we have no contact. The information revolution does not 
begin to describe it. And what is happening is that in this 
heated and informal exchange of ideas and beliefs we are a 
smaller and smaller voice. It is not that we do not speak 
significantly to officials and elites; we do, but less readily 
to the young, the wired, and the street.
    I mention these because they did influence our three goals. 
They are, briefly, one, re-present the values and beliefs of 
the people of America because it is these values and beliefs 
that inform and influence our policies, and these two cannot be 
disconnected. Two, define and dimensionalize the role that the 
democratization process plays in engendering prosperity, 
stability, and opportunity. Where else are we going to offer 
hope? And third, even though it is a dimension of both of 
these, I think it is too important to be left within those two, 
and that is communicate clearly our concern for and support of 
education for the younger generations.
    Now these strategic goals follow the first mandate we have, 
which is to inform our many publics of the content of U.S. 
policy swiftly, accurately, and clearly. I would rate us since 
September 11th in terms of our ability to do that informing as 
quite good. Beginning September 12th, we produced every key 
government speech and policy statement in six languages often 
on the day of publication and up to 30 languages within the 
next two days. Fortunately for us, we had added Arabic among 
the top six in August. We averaged interviews of one a day, 
which is really a record for the State Department, because we 
had such support from all the officials in the Administration.
    When Al-Jazeera showed such an affinity and fondness for 
bin Laden testimonials, we needed someone who could speak 
Arabic and live. Ambassador Ross, who is joining me today, was 
just such a counterpunch. We did liaison with the White House 
and Department of Defense to gain a rolling news cycle and 
prepare a rapid response. Because we had such a dialogue among 
ourselves going, the United States was able to lead the world 
in the support of a role for Afghan women in the new 
government.
    We quickly mounted media tours to the U.S. for foreign 
journalists. We refocused our ECA affairs, education and 
cultural exchanges. And even with these actions the 
distortions, the lies, the headlines that came back to us made 
it clear that for some people what happened to the United 
States was a big, tall building full of financial big wigs and 
not real enough.
    So we immediately went in search of a different kind of 
communication than we normally make in the State Department. We 
needed pictures, not just words. We needed to show the web of 
Al-Qaeda physically so that you could not walk away from it, 
and we needed to give a forum for the few moderate Muslims who 
had spoken out. I asked for four-color, emotionally involving, 
deeply faithful telling of the story, and this booklet, ``The 
Network of Terrorism,'' was published by the International 
Information Group by November 6th. I think that is just a 
remarkable dimension of the productivity of our group. And this 
is another side of it which shows how we put together the exact 
quotes of bin Laden and a map of the Al-Qaeda.
    This publication became the most widely distributed ever 
produced in the State Department. It went to every conceivable 
kind of audience, not just the elites. It went to the Japanese 
Diet, to the Beirut airport guards, to boarding schools in 
Jakarta as a teaching lesson, and it was inserted in amazing 
places like Italy's Panorama, which is a popular magazine, and 
Kuwait's Al-Waton. But then we purchased a full insert into the 
Arabic edition of Newsweek, which was a first in proactive 
behavior for the State Department.
    What is important about this document is we came out of it 
with some criteria we do not want to leave behind for future 
programs. Convey the emotional as well as the rational. This is 
not always a rational discussion. Put all the messages in 
context to the audience. The audience wants to know do you 
understand me, do you care about me. It is not what we say; it 
is what they hear. Enlist third parties for authenticity, and 
that was something you heard earlier. And when we do something 
good, let us move into modern capability of magnifying the good 
results.
    Let me give you an impressive example of how we can magnify 
something we do well. The educational and cultural group went 
to New York and had a wonderful opportunity to take Joel 
Meyerwitz's stunning photographs of Ground Zero, two of which 
we brought, but we have 26 of these, and we moved them all 
around the world as fast as possible. They have already been in 
20 countries, and they are scheduled to be in 60 or more cities 
by the end of the anniversary.
    In every case the embassies did an astonishing job of 
taking these pictures and marrying them with something very 
relevant for the audience in that market. In London they put up 
World War II blitz pictures, and it got twice the coverage and 
interest because it was so connected. In Santiago, Chile, 
Captain Daly of the New York Engine Company Number 52 met with 
the local firefighters, and they went out and visited and took 
the exhibits to children.
    So what I like so much about this example is it follows 
these new criteria of getting beyond the elites and the 
officials and to the younger people as we move around the 
smaller towns. Furthermore, because it was not so policy 
driven, it got immense coverage in the press in terms of 
understanding and communicating what happened in this country 
and evoked a lot of sympathy.
    Thanks to the support of this Committee for the President's 
Campaign Against Terrorism, the first tranche, we were 
allocated an additional $15 million to prepare messages for a 
broader audience. We decided the best thing to communicate was 
a kind of religious tolerance. We had learned by this time. We 
had many meetings with Muslim-Americans. They agreed to 
organize themselves to take up this cause with us, and they are 
in charge of taking the documentaries into second and third 
generation and organizing their peer class in key countries to 
not only stop with the documentaries but to start a dialogue, 
and so it has become a catalyst for a much larger 
communication.
    But think what a story we have in Muslim life in America. 
Here is a picture of a poster we put out because there are 
1,200 mosques in this country. They are all over the place. 
They are all amazingly beautiful. There are three million 
Muslims in the U.S.--the numbers vary by estimate--and they 
have a 20 percent conversion rate. That is a sales curve a lot 
of people would like to have. So they are obviously thriving, 
and each of these documentaries places the Muslim in the 
American life, practicing their faith with no tension, 
supported by their American friends and honestly being shown 
esteemed, and that is an important part of it.
    Those programs of documentaries will be surrounded by 
acquisitions we have made with public television in places like 
that, and they will go out into nine Muslim countries. The 
point? To open a dialogue, not to assume we are finished with 
anything, and to create a catalyst for Muslim-American leaders 
and leaders in the representative towns and countries to begin 
a dialogue, and if it starts with the religious tolerance, so 
much the better.
    Now, speaking of exchanges, our many exchanges are central 
to accomplishing those three goals. Coming from the private 
sector, it is really hard to imagine anything more productive 
than these exchanges. The $237 million we are going to spend in 
2002 for 25,000 exchanges is immensely magnified by the fact 
that we have 80,000 volunteers who help make this happen. And 
we also have a lot of countries who participate and sometimes 
spend more than we do in these exchanges.
    The emergency supplemental before you for 2002 can do 
something really remarkable on behalf of the exchanges. We need 
an alumni data bank. We do not have a way of tracking the some 
700,000 exchanges that have been in this country over the 
years. A car dealer would have better access to its previous 
customers than we have. And if we can fund the alumni data 
bank, think what happens. We would put these people and 
activate them in the role of emissaries. We can do a program we 
call ``The American Room,'' which copies the great success of 
libraries and informational centers, except that it is more 
portable, it is more efficient. It is also going to be virtual 
reality so that we can show values as well as scholarly works.
    We are also going to recommend a newly designed, English-
teaching program which focuses on values, not just necessarily 
teaching. And many of the initiatives in the supplemental will 
focus on Muslim youth exchanges like sports, educational, 
cultural. And finally, a program to establish studies of the 
United States in prominent universities. Did you know that the 
University of Cairo has absolutely nothing in its universe 
about teaching what American studies are all about, and they 
are asking for it?
    Now, let me address 2003. We are requesting a five percent 
increase over 2002. This allows us in total $5 million for new 
programming. And while you might not find the number so large, 
it is the first time in 10 years that we have had the ability 
to increase new programming. It will allow us to improve our 
delivery of material from the Web site and take our CD-Rom, 
which is called ``Info USA,'' and is used by legislators all 
over the world and embassies to tell the whole story. We are 
going to put it in more languages, which we desperately needed 
to do.
    We will expand our capacity to do remote productions. Even 
now we have a crew in Afghanistan taking pictures of the 
reconstruction, even though many of us cannot be there. We are 
going to turn that into B roll and get it out through the 
embassies to television. We are going to do more TV co-ops. You 
have probably seen the brochures we have put out. When the 
journalists come here, they go home, and they present a 
different picture. It is an extremely productive return. And we 
are going to put money into the regional bureau so that these 
new programs that we have now test marketed can roll out.
    As focused as we are on opening a positive dialogue with 
Muslim-dominated countries, I am concerned that we not diminish 
efforts in other countries with regard to these strategic 
goals. And like you I believe that we have many stories to tell 
that are positive, inspiring, and true. Our science and 
technology leadership is an amazing asset, and all the real 
benefits of the rule of law, the rights of the individual, and 
the unique spirit and diversity of the American people are the 
long-term answer to balancing perceptions everywhere and 
deflecting the hate that terrorists must inspire to succeed. 
Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                        POLLING AND INTELLIGENCE

    Mr. Wolf. Thank you very much, Secretary Beers. There are a 
number of questions we will have, and then we will go back and 
forth. Any marketing effort must be based on a thorough 
knowledge and understanding of the audience. How are you 
ensuring that your programs and activities have such a basis 
that you can absolutely, positively, categorically be sure of?
    Ms. Beers. I do not know if I will ever get categorically 
sure, but I think it is the best question because if you cannot 
indicate you know and understand, you have no communication 
going. A million dollars of the 5.3 scheduled for 2003 is 
focused exactly on consumer research and in-depth analysis of 
what the audience is about, but these many documentaries we 
have prepared for rolling out to the Muslim countries were sent 
into Jakarta and Cairo, which represent two very different 
Muslim communities, and evaluated for their ability to get the 
job done. We are going to test everything, and then we are 
going to refine it, and then we are going to roll it out, and 
then we are going to test what it is people heard.
    Mr. Wolf. Last fall, the Congress appropriated $15 million 
specifically for a post-September 11th public diplomacy 
initiative. How have you used the resources, and have you been 
able to measure any impact of anything that you have done with 
the expenditure of that money?

                         SUPPLEMENTAL SPENDING

    Ms. Beers. That is a good question. The analysis is such 
that we have learned that we cannot be the U.S. Government 
sending out these many documentaries which I referred to. So we 
are making films that tell stories about Muslims in America. We 
are surrounding them with acquisitions about the Islamic Empire 
and relevant stories. We are organizing, with the help of 
Muslim-Americans, a way to do that and to put in the field with 
events. It is not until this moment that we have corroborated 
that the messages work, that the media is going to let us in, 
and that the program is ready to go.
    I would say that measuring the results of the program will 
come later when we have actually been in the marketplace. And 
if the Middle East crisis is still such a polarizing issue, we 
may delay the introduction by three or four months.
    Mr. Wolf. If you could comment on this, I believe this is 
such an important issue that it may very well have to be run 
from perhaps even the White House. How do you coordinate with 
the Defense Department, with the Justice Department, with AID 
and other agencies with regard to this?

                       GOVERNMENTAL COORDINATION

    Ms. Beers. Well, I think one of the fundamental tenets we 
have learned in the communication world is that if you do not 
speak with one voice, you are seriously fragmenting the 
efforts. So it is essential that we not appear to be speaking 
from different voices. At the moment Karen Hughes, is an 
important part of crystallizing all of this into an overarching 
communication goal. We agree at State that this is a very 
important collaboration, and we will have to see where we come 
out on that.
    Mr. Wolf. Well, I would urge the White House to do that 
quickly because I share your concern with regard to the loss of 
Karen Hughes, although I might say I congratulate her and 
commend her. It is very comforting to see somebody who is 
willing to leave the center of power and make a decision for 
her family, and the only place you are ever truly missed at the 
end of your life is in your own family. It is not in your job 
at work. So to her credit, I would congratulate her.
    But I think the White House has to move very aggressively 
and very quickly with regard to that because it cannot be done 
just in the State Department. It is also how you deal with AID. 
We saw bags of grain that the Japanese had their flag on, and 
we just had two people shaking hands in a language that the 
people that were getting it did not completely understand. 
Congressmen Hall and Pitts, and myself, asked that the American 
flag be on all of our products, and we just got a letter back 
from somebody in the Department of Agriculture saying that is 
not a bad idea. We are doing some of that, but we could offend 
some people, or they may use that fabric for something else. If 
they use it for something else, and it happens to have an 
American flag on it, that maybe a good thing. The American flag 
is recognized all over the world. The people should know that 
most of the food that fed the people of Afghanistan during the 
days was funded, almost 47 percent, by the United States 
Government. I think that is important for them to know. The 
last panel talked about empathy. The American people do have 
empathy for the hungry, the naked, the starving, and those that 
are in prison, those whose rights are being violated; and, that 
is why we do that.
    In some parts of the world the skepticism about America is 
so great that our message, no matter how good, will not be 
credible. What options have you developed to find relevant and 
credible media to carry the messages that if heard directly 
from us would not be taken seriously? What other means are you 
using in addition to those that are currently out there?

                                 MEDIA

    Ms. Beers. The most primary example we have right now is 
that the Muslim American Council for Understanding will take up 
a program that is now described as ``Muslim Life in America,'' 
and we will be a support force for that, as they take their own 
story forward.
    So part of it is going to be the more third party 
authenticity, where we can activate people to speak. When we do 
the alumni data bank every single one of those people will be 
more forceful in their stories about the United States than we 
will be.
    If I could drop back for a minute, Chairman Wolf, I think 
that the aid program and the development programs are the 
greatest unsung asset of the United States. I am ambitious to 
do a great deal more than just the flags. I think if you tell 
that story properly, we will have one of the largest, most 
positive reactions we could have.
    We could tell that story through some of the NGOs that we 
virtually support and have made productive. They might be open 
to that.
    Mr. Wolf. Well, I think they should be open to it. If it is 
supported by American taxpayer dollars, and it is a result of 
the compassion and the decency of the American people, I think 
one ought not hide one's light under a bushel basket.
    To tell people, not in a bragging way and say, ``look how 
wonderful we are;'' but we do care. This is the empathy.
    You have encouraged U.S. Government officials to do more 
media appearances, mainly on al-Jazeera. Some have argued that 
al-Jazeera is not widely watched and is not widely trusted by 
those who do watch. A more effective approach may be to work 
instead with media outlets across the region that are both 
popular and highly regarded.
    Are we concentrating too much on al-Jazeera, where 
evidently some fear we will never get a fair shake, or our 
presentation will never be carried fairly?
    Ms. Beers. Well, even in the most discordant environment, 
we have to be there. The most dangerous thing for us to take is 
a position of silence. So I want to be on al-Jazeera, and I 
think when Ambassador Ross is on, he has a way of making sure 
we are heard.
    But we have been very active with every single one of the 
satellite networks and all of the Middle East capacity and 
local television. They have all been vying for our time.
    We have had Dr. Rice on many of the Middle East networks 
and in interviews, and we have had Secretary Powell. We have 
had very wide distribution.
    I would be glad to give you the list of those, because it 
is comprehensive and it is impressive. We have been all over 
the place.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. Chairman Hyde recently marked up a bill to reform 
public diplomacy and authorize additional resources. What is 
your reaction to that legislation?

                       PD AUTHORIZING LEGISLATION

    Ms. Beers. Well, I personally thank Chairman Hyde for that 
kind of support and concern. That bill is in a state of 
dialogue with the State Department and Chairman Hyde's staff. 
There are some issues there we have to discuss.
    Mr. Wolf. I am careful now how I ask this, because I 
certainly do not want to get you in trouble with OMB, and I 
respect that. I think you have an obligation to respond, 
representing the Administration.
    But my sense is there is not enough funding, and as a 
conservative Republican who generally votes to reduce funding 
when I can and is committed to a balanced budget, this is an 
area that we really cannot do on the cheap.
    We sent a letter down to OMB asking there to be additional 
funding in this area. I think spending wise money early is 
better than something you may have to do two years from now or 
three years from now.
    We are not trying to get you to take a position of opposing 
OMB or anything. But my sense is additional funding would be 
very, very helpful.
    You recently convened for the first time ever a worldwide 
conference of public affairs officers, the top U.S. diplomacy 
officials from every embassy to discuss what is working and not 
working in the field. What was the primary outcome of that 
conference?
    The other question is, after consolidation, the public 
affairs officers in the field no longer report to you, but 
rather they are accountable to headquarters through the 
Regional Affairs Bureau. Is this a good arrangement? I think 
not.

                       PUBLIC AFFAIRS CONFERENCE

    Ms. Beers. Well, the public affairs conference is going to 
help me answer that question, because it never occurred to me 
that they did not report to me, so I called a global 
conference. [Laughter.]
    Mr. Wolf. Good for you.
    Ms. Beers. Yes, because, you know, the one with the idea is 
going to get something happening. Our group was determined to 
bring them together for the first time. They have never done 
it. They needed to see who the State Department was today.
    They had an amazing reception. Karen Hughes spoke. 
Secretary Powell, unfortunately, left us for the Middle East, 
but we had Members of Congress. We had all the leading 
officials of the State Department.
    But what else took place there is that each one of these 
people were broken into teams, and they exchanged the successes 
they have had over the last year, so they can cross-pollinate 
successes. They also had some training about making their 
communications more persuasive.
    They left, I can honestly say, very motivated, with very 
much more a feeling of being welcome at the State Department, 
which I think was necessary. They left determined to instigate 
the whole country team and the Ambassador in a different way, 
into engaging in the Media.
    I made a pledge back to them that we are going to 
completely improve our training of public affairs officers, and 
make sure that we understand how the communication structure 
works.
    So on that second question, I would have to say, it is a 
matrix organization, and it is a little strange, but I have 
seen those in corporate life before. I think that the 
relationship that we have with the public affairs officers is 
very good.
    I think that there is some complication between the 
functional bureaus and the public affairs officers and the 
location of our bureau, which we call ``R.''
    My intention is just to make it work. We have got a lot to 
do. We have to hurry. We have every evidence that the 
functional bureaus are involved and interested. They come to us 
every day, more and more often, because we have ideas and 
resources and plans, and the field is our channel of 
distribution.
    Mr. Wolf. Could that be changed by Executive Order, without 
legislation?
    Ms. Beers. I have no idea. I think it could.
    Mr. Wolf. This is my last question, and then I will 
recognize Mr. Serrano. Well, there are two, really. One we 
covered indirectly, but I want to get it on the record, and 
then just maybe not ask it, but to state it.
    In all of our State Department hearings this year I have 
been expressing concern with the level of public diplomacy 
resources requested for fiscal year 2003. As I said, I did 
write Mr. Daniels.
    We seem to get agreement from everyone, yet the fact 
remains that the budget request includes a relatively modest 
increase of $5.3 million for public diplomacy information 
programs, and the request for the exchange programs is 
basically flat.
    The question we were going to ask was, is that adequate 
response to the challenge. My sense is that it really is not. I 
would encourage you to redirect the base resources, knowing as 
well as you do that you could use additional funding.
    The Committee, my sense is would be open to reprogramming, 
particularly moving money from perhaps other parts of the world 
to these particularly critical areas at this time.
    Next year, it may be another region, we do not know. But we 
do know what the problem is today, and we do not want to rob 
Peter to pay Paul, when there is a particular problem that you 
can deal with.
    So if the Committee can help you, we would hope that we 
could do some additional funding. But maybe you could reprogram 
as well.
    The other issue is, in the largest increase last year of 
the Committee, the largest increase in the Department budget 
request was for additional staff across the board of 631 new 
positions; only 25 of these are allocated for the public 
diplomacy function.
    The question is, should there be more people for that, than 
the 25. I would urge you to look to see if there should be more 
than just the 25.
    This is the last comment I will ask you on this, and it is 
a question that I do not think puts you in a difficult spot.
    Did you see Secretary Holbrooke's column? I read his 
column, which was in the Washington Post or the New York Times, 
I forget, several months ago, where he basically recommended 
what I said at the outset, bringing this into the White House 
for better coordination. Do you have any comments on his 
column, or do you remember the column well enough to comment?
    Ms. Beers. I remember it, because it guided me somewhat in 
terms as he also defined what needs to be done.
    Mr. Wolf. Right.

                             COLLABORATION

    Ms. Beers. You know, at that time, I was scouting around 
for counsel everywhere. I thought that article was particularly 
cogent. A number of us referred to it. I think it guided us 
more in terms of what matters and what strategic priorities we 
should set.
    I cannot possibly quarrel with the idea that we would be 
better united in the multiple agency collaboration, because 
everywhere I have ever gone in the business world, the sum of 
that is larger than the parts. So I am anxious to participate.
    I think I have the support of Secretary Powell and the 
Deputy Secretary. It is not only in public diplomacy, but also 
in this idea of collaborating with the other departments, so 
that we do not overlap, we do not replicate, and we do not 
miscue. It is important.
    Mr. Wolf. And I think we had that during the war against 
communism and the Cold War. I think the White House has to do 
this, and pull it together, such as how you are working with 
DOD.
    I have a report, which we are going to have some questions 
on later, the report of the Defense Science Board Task Force on 
Management Information Dissemination, jointly sponsored by the 
Department of State, your office, and DOD. They had a lot of 
very positive recommendations.
    Ms. Beers. Yes, they had very good ideas.
    Mr. Wolf. My sense is, most of those recommendations ought 
to be followed. They came from the State Department or they 
came from the Defense Department, and they are very good.
    Ms. Beers. Yes.
    Mr. Wolf. I think, with that, let me just recognize Mr. 
Serrano.
    Ms. Beers. Thank you.
    Mr. Serrano. Thank you, Mr. Chairman, and thank you for 
your testimony.
    Many of the concepts in foreign diplomacy center around 
concepts of nations and governments. The tools we use today are 
all geared towards this concept.
    However, this seems like a simplistic concept in the 
current world. Multi-national businesses that affect the lives 
and fortunes of hundreds of thousands of people exist outside 
of this concept. Bin Laden exists outside of this concept.
    Given the reality that non-nations can be as influential as 
certain nations, if not more so, are the old tools still 
relevant in how we deal with these issues? In addition, what 
new tools will the State Department need in the future to deal 
with non-State actors?

                           SPEAKING TO PEOPLE

    Ms. Beers. That is a good question. I think that what you 
hear as the genesis of some important programs we are working 
on suggests that we understand that we have to participate in a 
dialogue with more than the Government and the elites.
    That is going to take a different kind of resourcing in 
order to do that. I think we owe you and our own State 
Department tested plans that show we know how to enter the fray 
in that sense.
    For instance in Kosovo, we just produced a 15 series 
television show, in conjunction with local actors, on the civil 
process, and it was a wild success. You cannot imagine such a 
thing being a wild success, but it was so artfully done and so 
relevant for the people in that area. That is exactly how we 
have to go past the borders in limitations of, let us say, 
Government's beat.
    These kinds of programs require skill sets that we may not 
have, but can get, which is the creative process, the engaging 
of talented people, who are capable of talking about emotions 
and drama and religion and spirit, and marrying them with more 
traditional programs which are very good at explaining who we 
are and how the rule of law works in situations.
    So we ended up marrying hard education with docu-drama, and 
we are not looking at whether or not we can take that 
everywhere in the world. I view that as a test market, and it 
is rolling out, if we can get it resourced.
    Mr. Serrano. I was interested in your comments. You said 
rather than only talking to, you said the elite and who else?
    Ms. Beers. Yes, and government officials, which is almost 
the way you put it, when you said, policy and governments.
    Mr. Serrano. Right, well, is that not a part of the 
traditional problem for us in foreign policy in many areas, 
that we respond to who we feel is on our side on the issue, and 
never try to figure out, or for some reason, do not have the 
time or the resources to figure out what other people in that 
area or in that particular country are thinking?
    Ms. Beers. You know, I have learned a lot about how the 
embassies work, and I am in awe of their capacity to reach many 
segments of the population.
    When they cable back to us, I think we get a very broad 
ranging response, beyond the government. Their first job is to 
reflect the government in their particular moment in time. Then 
they have to deal with those people to influence the 
government. So in order of priority, they are on the right 
track.
    But you cannot speak to any of our public affairs officers 
or the key country team without knowing that they are deeply 
into their community. For example, Morocco. Every member of the 
country team goes and visits high schools, and talks about 
American life, and listens to what they have to say.
    So I do not think it is so much that we are just listening 
to those who love us, but that we need to come up with tools 
that allow us to get an exchange going with a much wider 
universe.
    It is difficult. I mean, in Morocco, the literacy rate is 
very low. In certain parts of the world, in Africa, there is 
only radio. We are teaching the story about HIV/AIDS in Africa 
by using puppeteers and local theater.
    So exploring beyond the boundaries of traditional public 
diplomacy is what we will be doing.
    Mr. Serrano. But you see, the point also that I am trying 
to make is related to my next question, which has to do with 
Colombia and Venezuela.
    But it seems to me, and I am trying to word this carefully 
here, so I am not insulting anyone, but when I started hearing 
reports as to what was happening in Venezuela, the question I 
always kept thinking, it was like in those old movies, asking 
the radio to see if the radio would respond back to me was, 
well, where are his supporters? Are they gone; do they not 
support him any longer; are they satisfied with what is 
happening the last 24 hours?
    It seems to the amazement of our government, but not to me, 
his supporters did take to the street and demanded the return 
of their President, and so he is back for awhile or for a long 
time or whatever.
    My question is, did we not know that? Did we not know that 
there was that kind of support, and if we do not know, is that 
not a shortcoming of our public diplomacy, that we always talk 
to certain people and not to others?
    I mean, I knew it, and believe me, I was sitting here, 
listening to Spanish radio reports and reporters who were out 
on the street saying, well, this person is here, this person is 
there.
    The minute I heard one person say, where is the President, 
and it was a street vendor, I said, this one person is going to 
turn this around.
    How come we did not know that? I am saying, we did not 
know, because at the White House, again, with all due respect 
to them, somebody was saying, he deserved it, he had it coming, 
and they made it sound like it was a done deal that he was 
gone; and he, in fact, was not gone.
    Ms. Beers. Yes, well, I think how we receive information 
and interpret policy is probably outside the frame of reference 
for me today. But I do want to tell you that in that very 
turmoil, we were putting speakers on as fast as we could, to 
talk about democracy and the process. We were trying to enforce 
the proper way to do things.
    We were trying to stand for the very things, I think, we 
have talked about in that country for years. I believe those 
programs, over time, have a very important influence.
    Mr. Serrano. You were putting speakers where?
    Ms. Beers. Well, we always have a set of 15 or 20 speakers 
rotating through, in that particular part of the world, about 
the democratic process, the rule of law, the justice system. 
Those people were going on, full speed ahead.
    Mr. Serrano. Where were they going?
    Ms. Beers. Well, they spoke at the embassy. They would go 
and speak to schools. They went to travel to four adjacent 
towns and held seminars and work shops on these subjects. That 
is an ongoing public diplomacy program.
    Mr. Serrano. We are talking about Venezuela?
    Ms. Beers. Yes.
    Mr. Serrano. During those 48 hours?
    Ms. Beers. Well, no, I did not mean to suggest that. I do 
not know that much happened in that way. But I am just talking 
about an ongoing dialogue and climate of communication.
    Mr. Serrano. Let me just come back to this then. I am very 
concerned about what I see happening, both in Colombia and 
Venezuela, about U.S. involvement in what I consider to be 
civil disputes.
    I do not want to defend the FARC, and I do not want to 
defend any of the various factions of Venezuela. But as I told 
Secretary Powell, especially in Venezuela and Colombia, it is 
very hard to tell who the good guys are and the bad guys are, 
because there have been 35 years there of the good guys being 
bad guys and vice versa.
    After that case of anti-American sentiment, the radical 
left in Latin America has been effectively dormant for many 
years. I fear that all the good we have done will come undone, 
and that the anti-American sentiment will be back. I fear that 
we are getting ourselves involved in something that will 
undermine our credibility in Latin America, erode our ability 
to fight drug trafficking abroad, and get us embroiled in a 
conflict that is not our own.
    Has the State Department done any type of analysis to 
measure, and here we go again, public opinion about America, in 
either of these two countries? What efforts is the 
Administration taking to influence public opinion in both 
countries, in response to recent events? Are there any plans 
for increased public diplomacy efforts in the area?

                             LATIN AMERICA

    Ms. Beers. Well, I think if you made some of those comments 
to Secretary Powell, you were definitely talking to the right 
person.
    The things we are doing in Colombia, I think, are very 
aggressively positive. We are putting together a number of 
programs that connect narco trafficking to a lot of things that 
people do not understand are connected.
    One would be the environment, where we put together a 
pamphlet called Andean Under Siege, with multiple agencies 
corroborating on this, and we got wide coverage of that. We are 
taking that out as a piece to talk from. So that is one 
positive way we are doing it.
    The whole plan there is to fight drugs by promoting 
economic and human rights and democratic institutions. I think 
we have had a number of journalists from the whole region come 
into the United States and have a chance to deal with all the 
ways we are trying to deal with drugs, and to teach them, so 
they would go back and represent a more balanced picture.
    We are increasing funding on things like the co-op with the 
journalists and the speaker systems that go into that part of 
the world.
    Mr. Serrano. You know, right after I met with you this 
morning, I met with the Ambassador from Colombia, Ambassador 
Morano, and I told him that I share his desire to bring peace 
to his homeland or his country, but that I am afraid that if we 
keep going the route we are going, we may see American 
soldiers, in uniform, in Colombia.
    That will undo everything that you folks are trying to do, 
because nobody then will believe that we are trying to help, 
since military involvement is not the way to go, in my opinion.
    When you folks sit and talk to other parts of our 
government, are there lively exchanges about what approaches to 
use; i.e., the diplomacy folks versus the military folks who 
sometimes may not see each other the same way?
    Ms. Beers. Well, I think when Chairman Wolf talked about 
the great need to make sure that we have agency-to-agency 
collaboration, I think it is clear that we may not do that as 
well as we should.
    My sense of it is that the reason the public diplomacy 
director is in the bureau itself, the functional bureau, is 
because they are in the circle of interpreting what is out 
there, trying to gather opinions, and understanding and 
incorporating it into policy.
    Mr. Serrano. I have one more question. Are there any ideas 
from the private sector that you have implemented, or are 
planning to implement related to the war on terrorism and our 
public diplomacy efforts?
    I kept hearing the public relations aspect throughout your 
statements, which I think is really at the center of what we 
have to do, to try to change this perception in so many places, 
that we are not friendly to them.

                      PRIVATE SECTOR PARTNERSHIPS

    Ms. Beers. Well, I really appreciate your asking that, 
because I am fascinated by another untapped asset in the United 
States. That is, having come from the world of multi-nationals, 
when I am invited to speak to them, I always ask if they would 
be willing to participate in telling America's story. At the 
very least, you know, they are living embodiments of it, if it 
is done properly.
    The response we get back is more than interested. So the 
burden is on us, and as Chairman Wolf would say, the other 
agencies and perhaps the White House, to harness these people. 
Johnson and Johnson happened to mention in one of these 
meetings that every single one of their 4,000 employees in the 
Middle East could be sent out to speak to schools.
    I think activating the private sector is a very important 
part of getting the word out in a way that goes beyond what the 
U.S. Government can do. So I am with you on that one.
    Mr. Serrano. Well, I am with you on that one, too, and I 
thank you.
    Ms. Beers. Thank you.
    Mr. Wolf. Let me just say, before I pass this to Mr. 
Kennedy, I would urge you to meet with the Americans abroad. 
There is a group that represents the Americans abroad. They are 
a resource. Mr. Serrano is exactly right, whether it be in 
Islamabad or whether it be in Beirut or wherever; to bring them 
in, to make them feel a part. They have been by my office 
saying, what can we do?
    Ms. Beers. What can we do, yes.
    Mr. Wolf. The fact is, they are coming to Washington in 
another month or so.
    Ms. Beers. I have heard about this group.
    Mr. Wolf. They are not looking for a government contract. 
They are not looking to be hired. They are not looking for pay. 
They want to participate.
    I think when you are living abroad, you somehow feel a 
little removed; less so today, but you still feel removed. 
Secondly, you want to feel a part of the process.
    So I think Mr. Serrano is right, to tap in, certainly in a 
pilot group that you could pick, in both Latin America and the 
Middle East, to tap in.
    Sometimes, though, in those countries, the American 
citizens do not really feel that loved by the American Embassy. 
I had an experience whereby somebody was bitten by a pack of 
dogs in Bulgaria. They went to the American Embassy, and were 
not helped.
    The British Embassy brought them in, gave them the 
injections, and did a lot. I mean, it is just not enough to 
have the party on the 4th of July. [Laughter.]
    But it is really to reach out and to make the Americans 
feel part of it.
    So I think Mr. Serrano is right. I think there should be a 
formal program. You cannot do it in the whole world today, and 
it is probably less important that we do it in England.
    But maybe we should try it in those critical countries, 
both in Latin America and in the Middle East, to see how you 
can bring them in and use it.
    Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman.
    I had it written down on how we were going to involve the 
private sector and their advertising power here in my 
questions, after I was hearing your testimony; and how we are 
going to involve Hollywood, if we are the ones that are 
exporting our culture abroad. They are a key component to the 
way people view us. What are we doing to involve them in this 
effort? Maybe you could comment on that.

                               HOLLYWOOD

    Ms. Beers. That is the other great asset, is it not? It is 
funny, it is polarizing, because it is a love/hate 
relationship. You hear talk about Baywatch, but you also hear 
from some of the experts, whom we were quizzing in all parts of 
the Middle East, that Hollywood is our great weapon.
    When I asked a gentleman in Cairo if he thought we needed 
to do something more about our culture, he said, Madam, we are 
drowning in it; meaning, the television and the access.
    But we have had some very interesting conversations with a 
number of highly motivated people in Hollywood, and they are 
now beginning to look at producing their own messages. These 
messages, we would help place. They are really American 
advocacy, and they are capable of doing it on a scale that goes 
beyond even my television experience.
    Mr. Kennedy. Right, I mean, it dwarfs whatever government 
can do.
    Ms. Beers. Right.
    Mr. Kennedy. This stuff is saturating their cultures.
    They already employ their own efforts. They know what works 
and what does not. You can see the same movie four different 
times and different stories that are rewritten, because they 
know what works.
    Why can we not take what we know works in these other 
cultures, and try to figure out a way to put them into these 
movies; or at least let these executives know.
    This is a way they can help America. This is a way they can 
be, you know, a good citizen and help our soldiers. You know, 
they all want to help our country. Here is a chance for them to 
do it.
    Ms. Beers. Karl Rove has been working with them in that 
kind of relationship. But I have taken the responsibility of 
briefing them on what we know about the media and the outlets, 
and some of the opinions and personalities.
    We have asked them to make available to us those films that 
the Arab community tell me are the ones that are popular and 
sought after, the Life of Mohammed, the 13th Warrior. There is 
the beginning of that kind of constructive dialogue.
    Mr. Kennedy. Would you comment on some of the arts 
exchanges in this kind of venue, like, what we are doing for 
cultural exchanges, because those can be powerfully motivating 
to people in reaching their spirits and their motions.
    Ms. Beers. True.
    Mr. Kennedy. It can also bridge some of the differences 
that people have culturally. They can all enjoy music and the 
arts and things. What is happening with that?

                           CULTURAL OUTREACH

    Ms. Beers. Yes, well, part of the supplemental that we are 
here to petition for, in 2002, is designated for cultural 
events which, in many cases, will start with music. You are 
going to hear from the group, Voice of America, about their 
radio channel, which understands that music is a very important 
part of getting onto some wave length together.
    The cultural activities in our public diplomacy have been 
diminished, because we have not had the money.
    Mr. Kennedy. Right.
    Ms. Beers. We have amazing stories about jazz and the 
musicians, and how they crossed over the boundaries.
    Mr. Kennedy. Right.
    Ms. Beers. So in new products, we are very anxious for 
that. But in the Meyerowitz example, it was interesting how it 
told the story and created much more response than even we had 
forecast in its conformation of that; that the pictures and a 
love of an experience goes past the rational.
    Mr. Kennedy. Right, well, I have some questions to that 
regard that I will submit for the record for your comment.
    Ms. Beers. Thank you.
    Mr. Kennedy. Finally let me say, you know, the sports 
exchanges, too, are very useful, we found. We are the host in 
my State for the International Sports Education at the 
University of Rhode Island.
    I wanted to say, though, with all this talk about 
perception, the best way to change perception is change 
reality. I mean, I know reality, nine-tenths of it is 
perception of reality.
    But when we have such disparity in global resources and 
such extensive global poverty, all the positive images and 
pictures are not going to do it, when you have half the world's 
population earning $1.50 a day.
    I do not know what we can do to bring the multi-nations 
into this discussion, because it is going to be in everyone's 
collective interest in the world that we saved for our way of 
life.
    Like Franklin Roosevelt did in the Great Depression, the 
capitalists were furious at him, but he saved capitalism from 
the capitalists. We have got to figure out a way to talk or 
convene forums on what we are going to do with global trade, 
and what it is going to mean to global development, and how we 
are going to be doing more in terms of aid to international 
development, World Bank, how we are going to be supporting 
those.
    Because it seemed to me when I saw those protesters last 
week, that if they only knew how much good was being done by 
the World Bank and the developmental assistance, and how we 
need to do more in support of IMF, not less, it just was 
frustrating to me.
    Finally, I would just like to comment, because I have got 
this opportunity to comment, and I have got the microphone, in 
the Middle East and the polarization, it seems to me, we can do 
all the messages we want, but we are going to be still viewed 
through the prism of being Israel's ally, as we should.
    It would seem to me, we need to coordinate very closely 
with them, how they are working on their image. Because if they 
do not succeed in promoting a positive imagine, you know, we 
are not going to be able to succeed in our position, because 
they are our ally, they are our friend, and we are going to 
stick with them.
    All the other talk about mosques and the United States is 
not, to me, going to cut it, if people fundamentally feel that 
they are being treated unjustly by Israel, and we are 
supporting Israel.
    I am worried, with the anti-semitism that is growing in 
Europe and amongst our allies, that we are not even successful 
in bringing our allies along in this struggle for our value, 
our collective values. That if we are losing it, even amongst 
our allies, there is not a chance we are going to be able to 
win the hearts and minds of our Arab friends, our Muslim 
friends.
    But that is the comment I wanted to make. I don't know if 
you can make any response to that.
    Ms. Beers. Well, I think that is a comment that we take 
seriously. We are working at that, at the State Department--how 
to deal with the consequences of the Middle East crisis, and 
how it affects all other communications.
    But I would just say one thing, and it is not to deflect 
that, but I have heard it here in several places. We cannot 
afford not to keep moving. So even though sometimes you say, 
the mosque, and the story might be minor, I think the best 
thing we can do is open a dialogue, and then it will force us 
to articulate this dialogue and have it influence everything we 
think about in policy, too.
    Mr. Kennedy. And that is why I am for the Chairman calling 
for an increase in some of these accounts. Because it seems to 
me in this budget, we need to do a little bit better, if we are 
going to be encouraging that exchange, that dialogue, cultural 
exchanges, all kinds of student exchanges. These have all been 
kind of basically flat-funded. I am concerned about that, and 
what that means to our message abroad.
    Mr. Wolf. I agree on involving the private sector. I think 
it would be an interesting thing to have a cook-off among the 
public relations companies and see what ads they could come up 
with, to see their creative ideas.
    You could also use the Americans abroad, to put on an art 
show of American values. Let different high schools in Cairo 
come up with art from their point of view of what their 
interests are, and have it sponsored by the Americans abroad. 
In the same way, also have Americans abroad sponsor American 
musical groups to come through the Middle East.
    If you and I sit down to begin to solve an issue, and we do 
not know each other, it is very difficult. But if we develop a 
relationship first, then we can move on to the issue.
    Ms. Beers. That is right.
    Mr. Wolf. I think the more outreach of people-to-people, 
the better.
    Carnes Lord, who is an expert on public diplomacy, who used 
to be at the Fletcher School of Law, said that public diplomacy 
was successful during the Reagan years because Ronald Reagan 
tapped into the desire for freedom in the USSR, and behind the 
iron curtain and in the Eastern Bloc. Reagan told the people in 
the east that he valued their freedom more than the status quo.
    It seemed to me that our public diplomacy was successful 
then because we tapped into the legitimate yearnings. We should 
tap into the legitimate yearnings of those in Egypt, of those 
in Syria, who want freedom. This little cavity in everybody who 
wants freedom and respect, they may not be overly enthused with 
regard to their government.
    We should tap in. Reagan dealt with the Soviet Union, but 
he always articulated our values. Even when he went to the 
Soviet Union and went to the Danilov Monastery, he always spoke 
out for American values.
    Ronald Reagan said that the words in the Declaration of 
Independence were a covenant with the world; not only with us 
in America. I think that we should not be afraid to take our 
values to Saudi Arabia; to take our values to Cairo; to take 
our values and speak out on them.
    If they are going to get upset with us speaking out on 
values, then we do have a fundamental problem. But I think we 
ought not be reluctant to tap into those yearnings.
    Mr. Kennedy. Mr. Chairman.
    Mr. Wolf. Yes?
    Mr. Kennedy. In that regard, it seems to me, though, part 
of the frustration with our country is the fact that we say one 
thing and do another. We talk about these values, yet we align 
ourselves with these dictatorial regimes that create the kind 
of distrust of our Government.
    That is why we have got to deal with that, because we 
cannot be saying one thing and doing another.
    Mr. Wolf. Well, I agree with the gentlemen, and I think we 
should tell the Saudi government, the funding of the madrassa 
Schools in Pakistan was the breeding ground of Mullah Omar. The 
Taliban really began in the madrassas, in Peshawar, and all 
that area up along the border. That is where it began. Those 
schools were funded by the Saudis.
    So we should tell them, listen, we want to be your friends, 
but for you to be funding a school which goes out, over and 
over and over, is anti-west and anti-values, because we are not 
anti-Saudi. You do not come into our schools and hear anti-
Saudi statements.
    Ms. Beers. No.
    Mr. Wolf. We respect the Saudis. We like the Saudi people. 
So they ought not fund programs that are bringing about a 
disrespect and a hatred in some of those madrassa Schools. 
There are thousands of them, and I think every American public 
official ought to take some time, and go to Pakistan, and go 
into some of the madrassa Schools, and look at some of the 
curriculum.
    Ms. Beers. I just want to add one thing on that, because 
you mentioned it to me earlier, and it was striking. The 
Foreign Minister of Saudi Arabia has contacted us and asked if 
we will help reconstruct their educational process. We just 
funded this project with the NEA division, so that can get 
started.
    Mr. Wolf. That is good.
    Ms. Beers. It is good news, is it not?
    Mr. Wolf. I would urge you to take this report and read it.
    Ms. Beers. Do you mean the Defense Science Board Report?
    Mr. Wolf. Right, the report says the private media cannot 
and should not be relied on to act as advocates for national 
security policies. Therefore, the U.S. requires a coordinated 
means to speak with a coherent voice abroad. It also says the 
U.S. Government dissemination organizations are under-staffed. 
They are under-funded.
    The report also says that information dissemination of 
organizations suffer from poor coordination. They are not 
integrated into the national security planning and 
implementation process.
    The report also recommends that the President issue a 
national security Presidential directive on international 
information dissemination to strengthen the United States 
Government's ability to communicate with foreign audiences and 
coordinate public diplomacy and public affairs.
    It also recommends creating a National Security Council 
policy coordinating committee on international information 
dissemination with an expanded secretariat, led by the 
Department of State. It also recommends strengthening the 
Department of State's international information bureau.
    Now I know things are moving very, very fast. But I think 
this report ought to be digested. I believe that the White 
House and State Department should implement these 
recommendations, or at least put forward responses to the 
recommendations.
    The last major issue is on exchanges. The CSIS report 
entitled ``Reinventing Diplomacy in the Information Age'' 
recommends doubling the number of American students studying 
abroad in the next decade.
    Listen to these figures. In the year 2000, China had 
approximately 60,000 students in the U.S.; 7,600 students from 
Hong Kong were in the U.S. So that was a total of 67,000. There 
were only about 3,000 Americans studying in China, and 342 in 
Hong Kong.
    In the year 2000, there were approximately 15,000 students 
in the U.S. from the Middle East, while only 4,000 American 
students study in the Middle East. Some 40,000 students from 
India studied in the U.S., while 811 Americans studied in 
India.
    Then we come to Europe. I guess everyone likes to go to 
Paris. But in Europe, by far the most popular destination for 
U.S. students, 86,000 Americans studied there.
    So I think the State Department really has to be pushing 
these exchange programs. The benefit will really come later; I 
mean, it is not going to solve the problem by Labor Day. But it 
begins the process that really makes the difference to develop 
those relationships that I think can help make a big 
difference.
    Ms. Beers. It is curious that in the country you named, 
China, they are very personally supportive themselves. I know 
some of the countries around the world have funded the 
exchanges on their own initiatives. So it points to the 
efficacy of the whole system.
    Mr. Wolf. Well, with that, unless Mr. Serrano or Mr. 
Kennedy has any questions, we will submit a number of questions 
for the record.
    I have just a couple more things. I would urge you to pull 
together the very best minds outside of the Government on 
communicating with public audiences. Those who have done it 
before, those who are thinking about it, and bring them on an 
ad hoc, voluntary basis.
    Ms. Beers. Yes.
    Mr. Wolf. It is important to listen to people who are 
outside of Government, but have ideas, both those who have 
served and those who have not served, and also to listen to the 
Muslim community here in the United States, as you are 
apparently doing, to validate or at least to question your 
approach.
    Ms. Beers. Yes.
    Mr. Wolf. Because when they are questioning us, it forces 
us to make sure we are on the right path.
    Ms. Beers. Exactly.
    Mr. Wolf. Lastly, I think the White House has to coordinate 
this effort. It ought to be run out of the White House. Our 
soldiers in Afghanistan are doing an incredible job, and I 
think the Bush Administration is doing an incredible job.
    Ms. Beers. That is right.
    Mr. Wolf. The women are going back to school and the 
hospitals are getting supplies and the malnourishment has 
stopped. There are many more good things that have happened in 
Afghanistan.
    It does not mean that they will continue. That is why I 
think nation-building is important and to make sure that the Al 
Qaeda and Taliban never come back. Because 15,000 went through 
the training camps, and only 500 have been arrested.
    But on an objective basis, the Administration, the State 
Department, have done an excellent job there. In fact, in some 
respects, it is going better and more quickly than many people 
thought.
    Ms. Beers. I know.
    Mr. Wolf. So our policy and being involved with Afghanistan 
has made a difference. People are going to find fault, but we 
want to maintain progress so several years from now, when 
terrorism has been destroyed, our reputation in the Middle East 
and elsewhere is good.
    People should know the American people are good people. 
They care. They are decent. They are honest. They care about 
other people, and they do have empathy. We are the most 
generous people of the world, and we have to tell our story in 
a systematic way. But the White House really has to coordinate 
this, because U.S. AID, and other agencies, all have to be on 
this team.
    Ms. Beers. Yes.
    Mr. Wolf. It is not enough that they just carry out their 
activities; they have to tell people about it as well. The 
Department of Defense has to be involved, working together with 
the State Department. So I would hope that, this report could 
be monitored and looked at very carefully by the White House.
    With that, unless Mr. Serrano has anything else?
    Mr. Serrano. I just wondered if you could comment on the 
whole issue of translators and interpreters at the State 
Department?
    It seems to us that after September 11, one of the big 
issues was the lack of people at the State Department who spoke 
languages other than English, and if we are going to win this 
public relations war we need more folks who do that. What has 
been your experience?
    Ms. Beers. Well, we were scrambling right after September 
11. When Ambassador Ross showed up in my office with this 
elegant, classic Arabic, I had no intention of letting him go. 
He is now working aggressively to collect as many of the people 
who are knowledgeable about the languages in the Middle East 
and the other Muslim majority regions.
    We find they are there, and some of them are ex-patriots. 
Some of them are retired, and we are having to bring them back. 
The whole Foreign Service Institute is importantly emphasizing 
languages, not that it has not always. I think it is more acute 
in the Middle East because it became such a high profile issue 
than it is in other parts of the world.
    Conversely, when I have talked to the PAOs and been in the 
embassies, I am impressed with how many languages they have 
mastered and how comfortable they are usually in the region in 
which they serve.
    Mr. Serrano. All right. I will submit the rest of my 
questions for the record. I thank you for your testimony.
    Ms. Beers. Thank you.
    Mr. Wolf. Thank you very much for your testimony. We 
appreciate it very much.
    Next will be the Broadcasting Board of Governors. Your full 
statement will appear in the record. You can summarize or 
proceed as you see fit. Go right ahead.
                                         Wednesday, April 24, 2002.

                    BROADCASTING BOARD OF GOVERNORS

                               WITNESSES

MARC NATHANSON, CHAIRMAN
NORMAN PATTIZ, GOVERNOR

                   Opening Remarks of Marc Nathanson

    Mr. Nathanson. Thank you, Mr. Chairman. I appreciate that 
my remarks will be printed in the record, so I am not going to 
take the time of the Committee to read a lot of extensive 
remarks because you have them. I just want to express my 
appreciation to the committee for your support.
    My name is Marc Nathanson. I am the chairman of the 
Broadcasting Board of Governors. Thirty-four years ago, I was 
working on the Hill for Robert Kennedy, and then I went into 
private business in the international communications business, 
specifically the cable television business. I am very honored 
to serve my country in this position.
    The Broadcasting Board of Governors, working with the 
Radios, is very much involved in the efforts that you have been 
discussing today. We have with us today the heads of all of our 
radio services. They are here in the audience.
    With me besides Norm Pattiz, who will speak to you 
specifically about broadcasting to the Middle East, we have 
Mark Ledbetter, a fellow governor. In addition, we have Bob 
Reilly, the director of Voice of America; Tom Dine, the 
president of Radio Free Europe/Radio Liberty; Dick Richter, the 
president of Radio Free Asia; Salvador Lew, the new director of 
the Office of Cuba Broadcasting; and Brian Conniff, the acting 
director of the International Broadcasting Bureau and the 
executive director of the BBG.
    Let me just say briefly to you, Mr. Chairman, that since 
the Broadcasting Board of Governors was formed two and a half 
years ago, we are in a very complex world of international 
broadcasting. You can no longer just be in short wave radio, 
even though I know one of the Members is a great short wave 
radio fan, but short wave listenership is declining throughout 
many parts of the world.
    In order to be a player in international communications, 
one must be on FM, on AM, on digital satellite, on cable 
television, television and the internet. In other words, if 
America's message is to be heard by the world, then we must 
participate in all of these telecommunications media in our 
targeted countries throughout the world in order to increase 
the impact of U.S. foreign policy and have our voice be heard.
    The Broadcasting Board of Governors has come up with a 
comprehensive strategy which this committee has helped us to 
start--just start--to implement. We are focusing on targeted 
areas throughout the world; not just the Middle East, but 
throughout the world, to increase our message. We must have the 
ability to communicate with the people of those countries; not 
just the elites, but the mass audiences, the younger audiences, 
and to focus specifically on methods that have been used by 
commercial broadcasting, which I have been a part of for 43 
years, as has my colleague, Norm Pattiz, next to me.
    To achieve these goals, we must improve the marketing. We 
must let people know where our frequencies are so that they can 
listen to our message. We must strengthen our multi-media 
message so it is not just limited to short wave, but it is also 
on AM, FM, the internet, and television.
    We must update our formats, and our formats must be 
established on a country by country basis. What works in one 
country may not work in another country. We also must have much 
more control over our delivery systems and, if possible, have a 
24 hour radio stream in a country, that can be shared by 
various components of international broadcasting. We must 
satisfy our market niche. What works in Russia will not work in 
the Middle East or in China. We must adapt to the markets in 
each of these countries.
    The dollars that you have appropriated have gone toward 
making these improvements. Our budget request of $517 million 
includes $19 million to increase VOA and Radio Free Europe 
broadcasts to Central Asia and the Middle East that we have 
begun this year. We beefed up broadcasts after September 11 
thanks to supplemental funding. VOA increased programming in 
Dari, in Pashto, as well as languages to neighboring countries 
in Farsi, Urdu and Uzbek.
    As mandated by Congress, Radio Free Europe/Radio Liberty 
created the new Radio Free Afghanistan, which is now 
broadcasting three hours a day in Dari and Pashto for a total 
of six hours. Radio Free Europe plans to increase and to expand 
these hours and to create a major training program for Afghan 
journalists, which is just starting right now and is badly 
needed in that country.
    We are also working with the Defense Department to get AM 
and FM transmission capabilities in Afghanistan for VOA and 
RFE/RL broadcasts, as well as providing frequencies and 
facilities for the Afghan Government. The BBG broadcast can 
serve as a voice of reunification during a period of 
reconstruction in Afghanistan and help the process of democracy 
by providing the Afghan people with accurate, up-to-date news 
and information.
    U.S. international broadcasting has a combined total of 
more than two dozen journalists working in and around 
Afghanistan who are reporting not just on international events, 
but on local events and interviewing local government 
officials, as well as world leaders.
    We have many other key areas of priority, which are 
discussed in my written testimony. I could spend hours with you 
talking about Russia and China and other areas of the world, 
but I am going to skip over that because I want Governor Pattiz 
to focus specifically on our new Middle East project in which I 
know the committee is interested.
    Let me just say in summary that U.S. international 
broadcasting is actively fighting the war on terrorism by 
promoting democracy and telling the world, as Chairman Wolf 
just stated, that Americans are good, compassionate, charitable 
people.
    Thank you very much.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                    Opening Remarks of Norman Pattiz

    Mr. Pattiz. Thank you, Chairman Nathanson, and thank you, 
Mr. Chairman and Members of the Committee. My name is Norm 
Pattiz, and it is my privilege to be a member of the 
Broadcasting Board of Governors as well.
    I am amused when the Broadcasting Board of Governors is 
referred to as a part-time board of private citizens. We are 
private citizens, eight private citizens, along with the 
Secretary of State, but I can assure you this is nothing like 
any part-time job I have ever seen.
    In my other life, I am the chairman of Westwood One, which 
is America's largest radio network. We own, manage and 
distribute NBC radio networks, the CBS radio networks, Fox 
radio news and CNN radio news. I not only want to thank you for 
the privilege of being able to serve my country, but I want to 
thank my shareholders for allowing me the time to be able to do 
both jobs.
    As it relates to the Middle East Radio Network, I thought I 
would just very quickly tell you how it came about, what we 
said we would do, and where we are. When I was sworn in to the 
BBG a year and a half ago, I was asked to serve as the co-chair 
of the language review subcommittee. That is the BBG committee 
that is mandated by Congress to look at our broadcast language 
services on an annual basis to determine how our resources are 
divided up among the 65 different languages that we currently 
broadcast in.
    One particular area stood out, and I reported this back to 
the Board. In doing some research on the Middle East, I found 
that our entire commitment to the Middle East was seven hours a 
day of Arabic language programming broadcast in a one-size-
fits-all approach to the entire region distributed on short 
wave, which very few people listen to, and on a very weak 
medium wave, or AM signal, out of the Island of Rhodes, which 
was only audible in the evening and then only in the coastal 
areas. Clearly, whatever message we were distributing to the 
Middle East was not being heard.
    Our research, and we have done a great deal of research in 
the area, indicated that less than two percent of those polled 
in the region were even familiar with the Voice of America 
Arabic service. I reported that to the Board, and the Board 
said ``Congratulations, you are now the chairman of the Middle 
East committee. Go do something about it.''
    With other members of the Board, we traveled to the region 
and have traveled to the region on numerous occasions since 
that time visiting places like Cairo, Amman, and throughout the 
Gulf in places like Qatar, Bahrain, AbuDhabi, and Dubai. I have 
also visited Jerusalem, as well as TelAviv and also visited 
Ramallah, and observed a lot of things.
    The one thing that I observed firsthand is that there is a 
media war as it relates to us going on in the Middle East, and 
the weapons of that war are disinformation, incitement to 
violence, hate radio, journalistic self-censorship and 
government censorship, and that the United States does not have 
a horse in this race.
    The President, in his comments of October 10, I believe it 
was, in his prime time press conference said in so many words 
why do they hate us? Well, the only vision, the only view that 
they are getting of the United States of America is coming from 
primarily government-controlled media sources throughout that 
region. They are not hearing it from our own lips, and they are 
not getting a picture of who we are and what we are about 
presented in any way other than by their own indigenous media.
    We said what we were going to do about this was determine 
what resources existed for us. We wanted to put together a 
state-of-the-art, twenty-first century broadcasting service 
that would utilize FM broadcasting, AM broadcasting, digital 
audio satellites and the internet.
    In traveling to the region and meeting with modern Arab 
governments, we realized that we had a good possibility of 
getting FM frequencies throughout the region. By putting that 
together with powerful AM transmitters from outside the region 
and using digital satellite frequencies similar to the audio 
channels that you would find on something like----
    Mr. Nathanson. XM?
    Mr. Pattiz. No, not XM. What is the satellite----
    Mr. Pattiz. Direct TV. Thank you very much. I hope nobody 
from Direct TV or EchoStar is in the audience. By using those 
types of services which have digital audio satellite channels, 
we can download our signal there as well.
    What this does, is it creates what we call broadcast 
redundancy, which gives us the ability to be on all of these 
channels, and also, if we do our jobs correctly, it is 
conceivable that one or two governments might be irritated with 
some of the things that we have to say from time to time. We 
want to make sure that nobody can threaten to pull the plug on 
us, that we are able to be heard on several different channels 
of distribution.
    We have done that. We wanted to put together a 
sophisticated broadcast system using Western broadcast 
techniques to build the largest possible audience. We wanted to 
utilize the concept of formatics, which is what drives 
broadcasting, successful commercial broadcasting, throughout 
the United States, throughout the West and throughout many 
parts of the world.
    Television is a medium of programs. Radio is a medium of 
formats. When people listen to the radio, they tend to listen 
to radio because it is a style of broadcasting that they want 
to listen to throughout the day. I daresay if I went into any 
one of your cars right now and checked the settings on your 
radios to see what buttons were preselected, I could tell an 
awful lot about who you are.
    We determined through significant research--let me say 
this; this is a heavily research-driven project--that we wanted 
to go after the target audience of primarily those 25 years of 
age and younger. That represents between 60 and 70 percent of 
the population of the region, depending upon which country you 
are looking at, and it represents the Arab street. We want to 
make sure that we reach the Arab street.
    News seekers will find us. They will find us because of who 
we are. They will want to know what we have to say. Reaching 
the Arab street and attracting that audience is a completely 
different prospect. We have to attract that audience again by 
using sophisticated broadcasting techniques, music, news, 
information, and the kind of heavily researched programming 
that will attract that audience so that before we ever play the 
first record or before we ever produce the first feature, we 
have a very good idea of what that audience wants to listen to 
from a radio station before we ever flip the switch.
    We have done that, and we have been conducting research now 
since a year ago last January. Let me say that this project 
began a year ago last January, well before the events of 
September 11th.
    Where are we today? As of this moment, we are up and 
running. We are not completely there because some of the 
transmission resources will take a good deal of time to put on. 
We are building a Mid-East Broadcast Center in Dubai, which 
will be the center where we will locate our personnel 
developing individual program streams.
    We will be broadcasting 24 hours a day, seven days a week, 
and for a portion of every broadcast day we will have targeted 
programming streams that will go to five distinct areas within 
the region. We will have a targeted programming stream to 
Sudan. We will have a targeted programming stream to the Gulf. 
We will have one to Amman and the West Bank in Jordan. We will 
have one to Egypt, and we will have one to Iraq.
    Where are we right now? We are on the air on FM frequencies 
in Amman, Kuwait, AbuDhabi and Dubai. We will be coming on 
shortly in Qatar and Bahrain. We are on three digital satellite 
systems, ArabSat, NileSat and EutelSat. Soon we will be 
accessing a powerful medium wave transmitter in Kuwait where we 
will be able to put on our first targeted stream to Iraq.
    We expect by the end of the week, by the end of this month, 
to have our agreement signed for our transmitter in Djibouti, 
which will access primarily the Sudan, but give us great 
penetration into Saudi Arabia as well, and we also expect in 
very short order to have our agreement signed in Cyprus. Cyprus 
is a very important transmitter for us because that will cover 
the Levant and a good portion of the region by AM.
    I guess the headline is that the Middle East Radio Network 
is up and running. We are getting a lot of anecdotal 
information from our embassies in the region, from our bureaus 
in the region and from people we know in the region. We are 
getting information.
    We got one piece of information from one of our people in 
Jerusalem who says the radio station is being played in his 
gym. We got a call from somebody else who was telling us that 
he got in a cab in Amman, and it was being played in Amman. We 
talked to the Amman Embassy, who told us that they are hearing 
the radio station played throughout the country.
    We are on right now. We are playing music 24 hours a day. 
We are also up with news at 15 minutes and 45 minutes after the 
hour, well ahead of our projections, so we are doing 48 
newscasts right now. We expect within the next couple of weeks 
to start our policy programming.
    We will have interview programs, dialogues, round tables, 
policy discussions. Those will be the kinds of things that we 
will be broadcasting, but we will also have this underlying 
notion in mind. We have to marry our mission to the market.
    In the Middle East we can do it with a popular music radio 
station, and we have done significant research on this, that 
plays contemporary Arabic music and contemporary western music. 
We have researched it. We have been getting research back from 
Cairo, from Amman and from Bahrain on the type of music mix 
that we should be playing.
    I think that insofar as the Middle East Radio Network is 
concerned, we are accomplishing our mission. We are ahead of 
schedule. Your support has been absolutely essential, and now, 
as it relates to the President's budget for 2003, we have the 
full funding we requested.
    We thank you for your support. We look forward to working 
with you on a continuing basis. Chairman Nathanson and I would 
be happy to answer any questions that you have.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. Thank you very much. With my colleague here, Mr. 
Kennedy, I would just say in a serious vein that you remember 
the words of former President Kennedy when he said ask not what 
you can do for your country.
    I appreciate both of you doing it. I think it is very 
positive. The more you are spending on this and the less time 
that you are spending at your business is, quite frankly, more 
important because this country needs you.
    I think this is not something that I am an expert on. Maybe 
Mr. Serrano might know more or Mr. Kennedy might know more, but 
we really need people who have been in the business, who 
understand, who market it; not just motion, but that things are 
out there and really making a difference.
    I was pleased to hear you mention Saudi Arabia. When I saw 
your material on the countries--you mentioned Cyprus, Amman, 
Gaza, Kuwait--Saudi Arabia was not mentioned. I think we should 
take this directly to the Saudi people with our values.
    I know a lot of Saudis. They want freedom. They want 
liberty. They want a lot of the stuff that they are not really 
getting, and I think that they have to hear this message so I 
was going to ask why did you not mention it, but you very 
forthrightly mentioned it. I think it is important.
    Also, I think it is important that we are not only talking 
about the Middle East, but also other parts of the world. 
Africa is very important. We have had some discussion with your 
people on Nigeria, and I think it is important that the people 
that you have are also advocates for our position and not 
people who are not advocates for it because this is being 
funded by the United States Government.
    I appreciate your testimony. I am very impressed with both 
of you. Some questions. I have a number. How will you measure 
and how will you see the progress, and when will we be given 
something measurable? The anecdotal stories about the cab in 
Amman are important, but when will we have something measurable 
that the Congress and the country can see that this has made a 
difference or, conversely, that you are running something that 
is not good, and we are going to change it or direct it? When 
will we see this progress?

                   PROGRESS OF BROADCAST INITIATIVES

    Mr. Pattiz. We expect to be functioning with most of our 
program streams. We will be up and running in our Dubai Media 
Center. Right now we are broadcasting strictly from Washington, 
D.C., but we will be broadcasting from our Dubai Media Center 
by the end of summer.
    In the areas where we are broadcasting, we expect to go 
into those areas where we can do research. We have done 
research prior to this, which is how we know how well we were 
not doing, and we will be able to go in and do research after 
this. That research will basically give us the size and 
demographic breakdown of our audience.
    It will take us a little bit longer where we are depending 
upon our AM transmitters because our AM transmitters take much 
longer to build. We have to actually go out there and build 
those towers in very remote places, and some of them will take 
months to get up.
    In the places where we are broadcasting on FM and the 
places where we are broadcasting where they receive us on 
digital audio satellite, we will be able to do research within 
a matter of months that will show us exactly how we are doing 
in terms of audience delivery.
    Mr. Wolf. So by the end of the year we will have a good 
sense?
    Mr. Pattiz. Yes, sir.
    Mr. Wolf. You have been on the air for several months in 
Afghanistan. How large is your audience there?
    Mr. Nathanson. We have not started our research on Radio 
Free Afghanistan. We are planning to do research.
    One thing I want to assure the Committee members is the 
Board has insisted since its existence two and a half years ago 
that research is a vital component of international 
broadcasting. Relatively little research was done by 
international broadcasting in its 60 year history. It just made 
no sense to us.
    The other thing was a lack of promotion and marketing 
dollars. You have to let people know where you are and what 
frequencies you are on, so in all areas, including Afghanistan, 
where we are able to, and in some countries we cannot, there 
will be research. The research will be done by the end of the 
year, and we will share that research with the Committee.
    Mr. Wolf. So we do not know actually today?
    Mr. Nathanson. No. We do not know right now because we are 
just now putting on the transmitters. We have only had a few 
months. We are six hours a day in Dari and Pashto, and those 
are just beginning so we do not have enough information to let 
you know.
    I should say historically Voice of America has had a very 
high listenership in Afghanistan. Eighty percent of the males 
polled in research under the Taliban were listening to the 
Voice of America, so we are not as concerned about developing 
audience there because it is very media stark, but we will have 
research. We will share that with the Committee. We will have 
that by the end of the year.
    Mr. Wolf. What is our competition in Afghanistan?
    Mr. Nathanson. It is Iran.
    Mr. Wolf. Iran? Iran has a station? Has a TV station?
    Mr. Nathanson. Iran has put in radio transmitters, has 
offered it to the transitional government there. There is one 
in operation. They are also broadcasting in the three provinces 
that are closest to Iran, and they are in there. Other foreign 
broadcasters, the BBC being one, are going into the market.
    One of the things that we are doing is not just promoting 
Radio Free Afghanistan and the Voice of America, but we are 
working with the government to develop their own media because 
we think that is very important that they have an outreach. 
Part of what we are doing is sharing facilities and providing 
training.
    Mr. Wolf. Will they have a TV station up or a radio 
station?

                  RADIO STATION IN AFGHANISTAN STATUS

    Mr. Nathanson. Yes.
    Mr. Wolf. When will that be?
    Mr. Nathanson. We are just now in the final stages of 
negotiations of this, for both ourselves and the Afghan 
Government to use powerful AM transmitters in the country.
    Mr. Wolf. I will just ask this last question. Recent 
initiatives such as Radio Free Asia and Radio Free Afghanistan 
have been implemented by non-governmental organizations that 
receive grants from the Board.
    However, as a pilot project under the umbrella of the Voice 
of America, which is a U.S. Government agency, are there 
special challenges or differences in launching and operating a 
network that is really an entity of the government?
    Mr. Pattiz. Let me say this. There are challenges, yes, but 
there are also great opportunities. I have to say that in terms 
of the numerous trips that I have taken to the region and in 
the numerous countries and sitting down with Ministers of 
Information and Heads of State and others, Voice of America, 
and I know branding is not particularly a big word these days, 
but let me just say this:
    Voice of America is a brand name that is known worldwide, 
and it is a point of entry that is unparalleled in U.S. 
international broadcasting. So whatever the challenges are in 
working within the government structure of the Voice of 
America, I have to say that I think it has been more than made 
up for by the fact that this being a pilot project of the Voice 
of America opened a lot of doors that would have been much more 
difficult to get through had we not had it.
    Mr. Wolf. Mr. Serrano?
    Mr. Serrano. Thank you, Mr. Chairman. I also want to join 
in thanking you folks for your service.
    In this hearing today, many of us sound like we have 
forgotten, but we have not. It is at heart a budget hearing, 
and it has a very strong Middle East touch to it. I would do a 
disservice to myself and to my work here in Congress if I did 
not bring you to my second favorite island in the Caribbean, 
the first one being the one I was born in; the other one being 
Cuba.
    T.V. Marti has always been the Rodney Dangerfield of radio 
and TV in Congress. It gets very little respect. It always gets 
funded, but it does not get respect because many people feel, 
those who support it and those who do not, that it has not been 
successful at all, that it is not seen in Cuba, that the signal 
has been jammed by the Cuban Government, unlike Radio Marti 
that whatever you think about it it does get into Cuba. The 
people who come from Cuba tell me they hear it. They hear 
music. They hear our message.
    T.V. Marti? I have never met anyone from Cuba who tells me 
they ever saw TV Marti. What is the status on TV Marti?

                           RADIO AND TV MARTI

    Mr. Nathanson. TV Marti, as you said, as we have discussed 
in the past, is still being jammed. One thing that we are 
doing, in the Office of Cuba Broadcasting, is that we are going 
to stream part of TV Marti on the internet. We are told that 
there are 100,000 PC users on the island of Cuba, and streaming 
will be an attempt to have more viewers, and it is more 
difficult to jam because of the nature of the Internet versus 
television. Nonetheless, TV Marti continues.
    There are other places in the world our radio signals are 
jammed, China being one of them. We continue, though, to 
broadcast to China and North Korea, even though we are being 
jammed. We hope someday, working with other government 
agencies, including the State Department, that they will not be 
jammed, but they are being jammed today.
    Mr. Serrano. And so it is interesting that you folks, many 
of you, and certainly you do, sir, come from the private 
sector. In the private sector, you would not keep funding a 
program like TV Marti that has been a failure for so long.
    Mr. Pattiz. Well, that is an interesting question because 
it is a question that I raised when I came on the board. I got 
an interesting answer and one that resonated with me, which is 
there are places where the only way we can get it in is via 
short wave, and there are places like Cuba where we want to get 
a television signal into the area, and we cannot because we are 
jammed.
    Do we simply pack up our tent and go home and let people 
know that if all they have to do is jam us and we will lose our 
patience and go away? Or do we continue to send the message and 
push for ways to get that signal into the area?
    That is not something that I have to deal with in the 
private sector. It is something that I think is a reality in 
government life.
    Mr. Serrano. Chairman Nathanson, recently you and I have 
exchanged correspondence about Radio Marti's broadcast on 
February 27, 2002, of statements made by Mexican Foreign 
Minister Jorge Castenada in Miami and the resulting occupation 
of the Mexican Embassy in Havana.
    You mentioned in your response that all news organizations 
frequently shorten quotes and sound bites, but that you are 
aware of the sensitivities that surround Radio Marti 
broadcasts. How will you make sure that a similar event does 
not happen in the future?
    Let me for the record recall the fact that many folks were 
very troubled at the fact that they felt that the way Radio 
Marti presented the comments by the Foreign Minister sort of 
invited people to show up at the embassy.
    I do not think that is a statement on conditions in Cuba, 
but if tomorrow Radio Marti suggested that the people would be 
welcome at the American Embassy in any part of the world, in 
any country of the world, people would show up at the embassy 
to leave that country.
    Mr. Nathanson. You know, as we have discussed, it is 
critical to this Board and to me personally that all the radio 
services and in particular the Office of Cuba Broadcasting 
follow the journalistic practices of the Voice of America; that 
is, to present both sides of an issue, to be fair and truthful, 
not to be on one side or another.
    We are monitoring that on a constant basis. We are 
reviewing that. In any instance where that is not the case we 
are concerned. The IBB is responsible for that, which is part 
of the Broadcasting Board of Governors, and this is such a 
continuing issue that we have even provided training from 
Florida International University on journalistic standards to 
our people down there. We are constantly trying to improve 
that.
    I assure you that we want to ensure that balanced reporting 
and both sides of the issue go into all of our newscasts on all 
of our services, including the Office of Cuba Broadcasting. 
That is part of the original charter of Voice of America.
    Mr. Serrano. Let me ask you a question. We used to 
broadcast from Washington to Cuba.
    Mr. Nathanson. Yes.
    Mr. Serrano. Then there were appropriations as a political 
decision to transfer its operation to Miami. Did that make the 
signal stronger because it was closer to Cuba, or did that just 
allow some local folks to control the operation and take it 
away from you guys?
    Mr. Nathanson. It had nothing to do with the signal.
    Mr. Serrano. It had nothing to do with the signal?
    Mr. Nathanson. The signals were the same.
    Mr. Serrano. So the signal was the same, but the signals 
that were to be sent politically were different, so basically 
you guys no longer control Radio and TV Marti. It is done in 
Miami. Is that correct?
    Mr. Nathanson. No. The Board still controls it. The Board 
still has oversight, but it is not based in Washington. It is 
now based in Miami, by a decision of Congress, which was not 
supported by this Board or the previous Board. We followed the 
direction of Congress in doing that.
    Mr. Serrano. All right. Let me ask you one last question on 
this particular issue of the move. We broadcast to different 
parts of the world, and we are a country of communities. We 
have communities in this country. There is a big Polish 
community in Buffalo, New York, and in Chicago. There are Arabs 
in different parts of the country. There are Asians out west 
and most anywhere else.
    Have any of those other broadcast facilities moved to any 
of those communities, or is this the only one that moved to a 
particular community, meaning Miami, which has a large Cuban 
American population?
    Mr. Nathanson. To my knowledge, all of our broadcasts are 
either based in Washington, or in the case of Radio Free 
Europe/Radio Liberty they were based in Munich, and now they 
are based in Prague. The Office of Cuba Broadcasting was moved 
to Miami. That is the only one.
    Mr. Serrano. Let me ask you a question that is at best 
different, I admit--I thought of it as I was sitting here; I do 
not have it anywhere written--and perhaps seen to be bizarre.
    There is a growing number of people in Congress who I would 
love to boast have come around to my thinking on Cuba, but they 
on their own came around to change their minds, a large number 
of people in the business community. It is not what it was ten 
years ago.
    Yesterday we had an amendment on the Floor, an issue on the 
Floor, instructing the conferees to allow different sales of 
food and medicine to Cuba. It passed with almost a few hundred 
votes, a new day on the issue, but our message to Cuba is based 
now on a philosophy that a lot of Americans and a lot of 
Members of Congress do not agree with. That is not true in the 
Middle East where I think there is unity on what we are saying, 
not true in China, and not true in other places.
    With that in mind, what in this great democracy, with 
provisions for dissent, is there within our radio broadcast 
overseas? In other words, if a group or Member of Congress 
petitioned you folks to give us half an hour a week unedited 
for us to send a message to Cuba that says that we disagree 
with our Government and this democracy and that we think the 
embargo should end and that we look forward to the day when it 
ends and that we can work together to bring about changes in 
the world and that we are not their enemies, but their 
neighbor, number one, what would be the process or procedure to 
ask for that time?
    Two, realistically, and you can talk to me. I mean, there 
are only a couple of thousand people listening. What are our 
chances for success?
    Now, I must add something. This would be unique, I 
understand. We would be going on say every couple of weeks with 
15 or 20 minutes saying I disagree with my government on this 
issue. I am a great American. I love this country, but we are 
wrong. We should change.
    What would happen there?
    Mr. Nathanson. The Board of Governors is a firewall. It is 
a firewall between the journalists and Members of Congress and 
Members of the Administration. In other words, the journalists 
are supposed to report on news, both sides. If we are talking 
about embargo, pro embargo and anti embargo, both sides, if 
that is what the story is about.
    The Board is there to insure that both sides are being 
heard. However----
    Mr. Serrano. Let me interrupt you. You know, I have 
listened to Radio Marti. It does not tell two sides. It is set 
there to tell one side and to encourage people to get upset 
about their government and so on. That may be fine. That may be 
okay, but it is not a two-sided issue here.
    What I am saying is could I, could Mr. Rangel, could Mr. 
McGovern, could Ms. Emerson, who is very strong, folks like 
that, whether they are in private practice or public service, 
could we petition for time to tell our side of the story?
    I am sure in some circles we would be called subversive and 
anti-American, but we get a lot of that on this particular 
issue. What is in the----
    Mr. Pattiz. Do you want me to take a piece of this?
    Mr. Nathanson. If you want.
    Mr. Pattiz. Let me just tell you what I think, okay? I do 
not think you should have to petition anybody. I think that the 
service should seek you out. You know, I think that those are 
the kinds of things we should do.
    I mean, in the VOA charter, and we like to pattern most of 
what we do after that original charter, we are obliged to 
present the many views and many voices of America. We are not 
supposed to be presenting a single view of somebody's America. 
We are supposed to present a broad view of what is going on in 
America.
    Mr. Serrano. Listen, I do not want to interrupt you, and I 
do not want to take up more time from my colleagues here, but 
give me a break. That is not what happens on the issue of Cuba. 
You know that. I mean, that is not what is happening.
    Mr. Pattiz. I have been spending a lot of time in Bahrain.
    Mr. Serrano. In fact, I will tell you, to his credit that 
Mr. Lew, the director, came over and introduced himself and 
gave me his business card and said anything we can talk about I 
will. That is the first time I have seen the director of Radio/
TV Marti in my life ever approach me, and I say that to his 
credit. I respect that, sir.
    You know, we are a democracy. We have differences of 
opinions.
    Mr. Nathanson. Right.
    Mr. Serrano. You are kidding yourself if you think you are 
kidding me into believing that when it comes to Cuba, Radio and 
TV Marti offers a balanced approach to the point where you have 
a Member of Congress saying pretty-please is it possible that I 
could say in a very pro-democracy way there is a bunch of us 
that disagree with our government on this particular issue, and 
we are working to change this so people of Cuba understand.
    We are trying to change the way you get food from the 
United States because right now you have to buy it with cash. 
We are hoping we treat you like everybody else.
    Baseball players in Cuba are the only people in the world 
that are not allowed to play here. You know, the statement has 
always been Castro will not let them go. If he lets them go, 
they have to come here. First of all, they have to go to Miami 
before they can throw one pitch for the New York Yankees.
    If they go to Miami and say I left Cuba, and I just want to 
make money in the U.S. and play baseball, they are out of here 
in two seconds. They will be in minor leagues forever, or they 
will never get signed up. That is a fact of life.
    If I want to tell a baseball player I have a bill, H.R. 26, 
by the way, the Cuban Baseball Diplomacy Act, which would allow 
you, like anybody else, to get a visa, come here, play baseball 
and go back at the end of the season and keep your earnings and 
take them back. You pay your New York state taxes. Obviously, 
if Cubans played for the Yankees we would never lose again.
    If I wanted to tell them that, under this set up I cannot 
do that. I do not have equal time on that station. Why on that 
station? Because everywhere else our policy is pretty much in 
agreement. Both sides agree on what it should be, but it is not 
in this case.
    Mr. Pattiz. Well, it should not be that way, Congressman. 
It should not be that way.
    You know, the mission of U.S. international broadcasting 
quite simply is to promote freedom and democracy through the 
free flow of accurate, reliable and credible news and 
information about America and the world to audiences overseas, 
and it should apply to all of our services.
    Mr. Nathanson. And I will respond to your suggestion or 
your idea.
    Mr. Serrano. If I present it to you.
    Mr. Nathanson. You have presented it. I will respond to 
your idea. This is a new idea. I had not heard this before. I 
heard it today.
    Mr. Serrano. I have a bunch more.
    Mr. Nathanson. I welcome your ideas, and I will seriously 
respond to it. I cannot give you that answer today, but I will 
respond to it.
    Mr. Serrano. Thank you. Thank you so much.
    Mr. Wolf. Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman, Ranking Member 
Serrano.
    Clearly right now we are involved in a major clash of world 
views, and it is going to determine the future of what kind of 
world we live in, what kind of stability this world has. So 
much of it is driven from this polarizing place of the world 
called the Middle East.
    I just want to say and echo my colleagues in thanking both 
of you for the work that you are doing to help us modulate that 
extremism by bringing some voice of reason or, should I say, 
debate and democracy and a world view that is not polarized to 
a region of the world that is always polarized.
    I think that part of looking back, and hindsight is 20/20, 
we might have been able to make the historic agreements work 
that had been set out in Oslo if we had had this service up and 
going at that time because I have constantly heard from folks 
in the Middle East how one of the parts that broke down in this 
effort to reach an agreement between both sides was the fact 
that Arafat did not communicate or have an interest in 
communicating to his people what, the other side of the story 
was.
    As a result, not surprisingly, he did not win the support 
for what he was negotiating or that he needed in order to say 
``yes'' instead of ``no'' when that decisive moment came and an 
agreement was at hand.
    All I can say is I wish more of my colleagues could have 
heard your testimony today to really understand how significant 
a role you all were going to be playing in defusing, if 
possible, the extremism in this part of the world so that we 
can get to the first step.
    It seems to me one of the things that I have not heard a 
lot from our own media here in this country about what step one 
constitutes, and we hear about the Tenet plan, and we hear 
about all these plans, the Mitchell plan, is that maybe the 
first step is doing this kind of dialogue so that we can get 
someplace where there are some conversant folks that can talk 
about maybe some things that we have that we all agree with and 
begin the communication.
    It seems to me your programming captures the commonalities 
amongst all people, and that is the love of music and culture 
and, the spirit of which you are broadcasting to attract 
people, which is the spirit of our country, and that is the 
freedom to choose what you want to listen to.
    If we can take our entrepreneurs here in this country and 
the titans of business, Mr. Chairman, and send them over to the 
Middle East and have them find out what the market and what the 
street wants, believe me, they will find it. They know how to 
market. They are successful here and a very competitive, cut 
throat business. They have done it well, and they can do it 
there. It is very heartening to me to see that they are doing 
it on behalf of our country.
    I want to thank both of you for the good work that you do, 
and I look forward to joining with the Ranking Member and 
Chairman to continue to support your efforts and bolstering 
your budget because I do think, Mr. Pattiz, as you say, there 
is an information war going on out there.
    And that is what is fueling the physical war. It is when 
you see these folks arguing at each other, and you see the 
passion, you know that this is all about people's perceptions 
and view based upon their information. If we are not going to 
get the information out, how are we ever going to expect to get 
a dialogue that is going to be meaningful? So the only thing I 
wish that we had as part of Voice of America is an ability to 
jam this insightful, hate-filled radio broadcasting that is 
currently going on over there. It seems to me we do that in our 
military operations under the guise of what is known as ``psy-
ops.'' Why we cannot in the course of our Middle East 
endeavors, and maybe this is happening under the radar screen, 
but it seems to me if it is not, maybe it should, and we ought 
to consider using our modern-day technology to jam this 
disinformation and insightful, hate-filled messages that are 
coming out and only making it worse for our security. And our 
national security is directly related to how much of this hate-
filled rhetoric is out there. So that is my statement, and I 
just look forward to continuing to work with the Committee to 
get you the funds you need to build those new radio towers and 
to get whatever other technology you need to support what you 
are doing.
    Mr. Pattiz. Thank you, Congressman. I will let somebody 
else deal with the subject of jamming other people's signals. 
Let me just say that I think your support for the Middle East 
Radio Network has been critical for us, not only because of the 
importance of the area but also because the Middle East Radio 
Network is really a prototype for how we ought to be doing 
international broadcasting in the places where that is possible 
around the globe.
    And your point about focusing in on the market; we have a 
saying within the Board right now, which is marrying the 
mission to the market. It is critically important, and we are 
mindful of it. And we can do what we are doing in the Middle 
East in other places around the world. We used the language 
review process to get us started on the Middle East Radio 
Network with our own funds, and then we are fortunate enough to 
be supported by this body and the Administration and so forth. 
But as I say, this is the beginning of something that we think 
has great potential, and we really appreciate your support.

            Concluding Remarks of Subcommittee Chairman Wolf

    Mr. Wolf. In closing, we do appreciate it, and we will 
attempt to do what we can. I would urge you to be as diligent 
and as faithful and as effective as possible because this is 
very, very important. It goes hand in hand with the military 
that are doing the job that they are doing.
    Years ago, I was in Romania, and it was my effort to take 
away MFN from Romania. President Reagan signed that bill. The 
people of Romania basically wanted to lose MFN, and they would 
listen to Radio Free Europe. Whatever the Congress did, usually 
the next day they knew what had happened. I was in Tibet 
several years ago. We went in with a former Tibetan monk who 
did not look like a Tibetan monk. He lives in Massachusetts. 
The Chinese would not allow us in, so we went in with a 
trekking group. We went in under different auspices, and I got 
a clean passport. This fellow spoke the language. We would go 
into the bowels of the monastery and talk to the Tibetan monks. 
Every one we spoke to, literally every one, I would ask them, 
do you ever listen to the radio in America? Yes. They all did. 
One man said he did not. He used to, but he was a cab driver, 
and he got up very early and left. You are being listened to in 
Tibet by most of the people in Tibet, and it offers them hope 
and opportunity.
    I would also urge you to make sure you heard in Sudan, 
where 2.1 million Christians have been killed. There is slavery 
today in Sudan. Osama bin Laden lived in Sudan from 1991 to 
1996. Most of the groups that are active with regard to 
terrorism have training camps in and around Khartoum. Hamas 
comes into Khartoum on a regular basis and takes over a portion 
of a hotel. The Iranians are there. The Chinese are there. You 
are letting the people of Sudan, north and south, Muslim and 
Christian, know about these ideas. So I would encourage you to 
make sure that broadcasting to Sudan is very effective.
    And lastly, to our friends in the Saudi government, you 
should make a special effort to put our values on the airwaves 
that go into Saudi Arabia so they know where we stand. I have 
always been a little disappointed that our government always 
seems to pull its punches. They will not talk about religious 
freedom and fundamental values when they go to Saudi Arabia. We 
have American soldiers that are stationed there, sailors, we 
lost people in Khobar Towers, and yet for some reason we never 
can talk about our values. Prince Bandar can come here, live in 
my Congressional district, go wherever he wants to.
    President Bush spoke out very clearly that after what took 
place on September 11, there was not an anti-Muslim feeling in 
the United States. He went up to the mosque on Wisconsin 
Avenue, reached out in a very effective way, and made it clear 
that this was a war against terrorism, it was good versus evil 
and not anti-Muslim. But yet if we tried to talk about faith in 
Saudi Arabia, if people who work in the American Embassy try to 
worship whatever faith--men and women who wore the uniform were 
not able, the chaplains, were able to wear the insignia whether 
they were Catholic or Protestant or Jewish or Muslim, whatever 
the case may be, no insignias. Requiring the American women who 
serve in the military to wear a certain garb, or if they do 
not, they are actually going to have their career impacted. You 
should speak truth. As it says in the Bible, ``speak truth to 
the powerful.''
    I do not think we have anything to be afraid of when we 
talk about our values, everywhere, not just in selected cases. 
We will attempt to support you in every way we possibly can to 
do what you do, and even improve it because there are some 
cases that some of our services have not been very well 
listened to. They have been out of date and were just doing 
motion for motion's sake. Sometimes, when you do not know what 
to do you feel good if you are doing something. This is too 
important just to do something. What we do has to be effective 
to make a difference.
    We look forward to helping you financially, doing what we 
can, and then as you get some of these market surveys back 
whether it be validation of what you're doing or what you need 
to adjust, I would hope that you could, on a quarterly basis, 
and certainly before we mark up on the final bill, let the 
Committee know the results of your survey research.
    Mr. Pattiz. We are going to be right on this one, Mr. 
Chairman.
    Mr. Wolf. Good. With that, unless Mr. Serrano has anything 
else.
    Mr. Serrano. Mr. Chairman, there is a point I did not 
mention during this whole hearing today. I hope no one thinks I 
am being funny about this. I was talking to a diplomat, an ex-
diplomat from Latin America, who once told me, he said, you 
folks have tried to export democracy as your greatest product. 
Sometimes you have been successful, and sometimes you have not 
been successful. He said, but you have been very successful in 
exporting baseball throughout Latin America. It has unified so 
many people who continue to be identified with their country of 
origin while they play baseball here.
    I will give you an example. When you think of Sammy Sosa, 
you think of a great home run hitter, a great player, and a 
smile, the type of person who loves to play baseball, but you 
also think of the Dominican Republic. Very few people know he 
is an American citizen. But that relationship between the two 
countries over this one thing of baseball--now I am not asking 
you guys to get involved in this, but maybe just transmit more 
baseball games and less congressional hearings, and you would 
be surprised how much people will begin to see us in a 
different light.
    Mr. Pattiz. Yes.
    Mr. Serrano. My whole point is that there are so many 
things that we could be doing to promote who we are. Hopefully 
in the future it will be a little different than how we left 
baseball behind in Latin America. Do you want to find out which 
countries we occupy militarily? Just watch where they play 
baseball, and that is how you know. That is something good that 
we left behind along with some other things.
    So I thank you so much for your work, and like I said, even 
though we disagree on some things, I respect the work that you 
folks do, and I respect the work that all of the people that 
were here today do because it is done with the best intent of 
serving our country, and that is what it is all about. Thank 
you.
    Mr. Nathanson. Thank you.
    Mr. Wolf. The hearing is adjourned.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2003

                              ----------                              

                                          Wednesday, March 6, 2002.

                          DEPARTMENT OF STATE

                                WITNESS

HON. COLIN L. POWELL, SECRETARY OF STATE

             Opening Remarks of Subcommittee Chairman Wolf

    Mr. Wolf. Welcome, Mr. Secretary. We want to welcome you to 
the hearing, and I have an opening statement I am going to 
make, but before I do I want to share a personal comment. I 
want to thank the Administration--you, the President--your 
service and your team, Mr. Armitage, Mr. Grant, and all the 
people, for the outstanding job that they are doing, 
particularly after 9/11, and how things have changed. I want to 
put that out on the record from my own point of view. The other 
Members will have their own comments. But you have really done 
an amazing job, and I am very grateful.
    Also, I want to make it clear where I stand with regard to 
President Bush and the policies with regard to the war on 
terrorism, both domestic and foreign. I completely support what 
the President is doing. As you know, I chatted with you when I 
got back. I was in Afghanistan for two days. We were in Kabul. 
I do not know if you read the report or not, and I do not know 
if I am pessimistic or optimistic, but it is a tough, tough 
neighborhood. I think the more people focus and understand the 
complexity of the situation there, it will become very easy to 
defend the policy. I can go anywhere and talk about why this 
policy of the Bush Administration is the appropriate policy.
    I happened to have, in 1998, visited Algeria for several 
days. As you know, 100,000 people have lost their lives through 
terrorism in Algeria. Almost every family in Algeria has been 
touched by a form of terrorism.
    September 11 was not really new; the Marine barracks in 
Lebanon in 1983, the embassy in Lebanon in 1983, the Tanzania 
Embassy, the Kenya Embassy, the U.S.S. Cole, Khobar Towers. 
This is very evil what is going on.
    I just want to make sure that, one, I strongly support what 
the President is doing, as I know the American people do, and I 
think the Congress does on both sides. I do not think it is a 
controversial issue.
    Secondly, I appreciate very much your service and how you 
have handled yourself, certainly over the past year, but 
particularly since 9/11, and I want to thank you and thank your 
entire team. You have always been very helpful, very 
responsive. There may be some issues we do not agree with 
completely.
    We are going to have a number of questions--I know you have 
to leave at 12:30--on policy issues. In addition, a lot of the 
budgetary ones will be raised with Mr. Armitage and Mr. Green 
and others. But I just wanted to make that personal comment.
    Secretary Powell. Thank you, Mr. Chairman.
    Mr. Wolf. The Secretary today will testify regarding the 
fiscal year 2003 budget request for the operation of the 
Department and the assessed contribution of the United States 
to the United Nations and other internal organizations. Perhaps 
the key feature of this budget request is the second large 
personnel increase in as many years to improve diplomatic 
readiness and diplomatic security. The request includes funding 
for 631 new positions. If enacted, this will represent a 
historic increase of over 1,500 American employees in just two 
years. I think we will actually set a record.
    This dramatic expansion of the Department has been 
undertaken at the same time as widespread calls for reform. The 
Overseas President's Advisory Panel Report, the Carlucci 
Report, and others made significant reform recommendations that 
are not necessarily--and I stress not necessarily--directly 
linked to additional appropriations or staff. These included 
right-sizing, regionalizing, overseas presence, strengthening 
the authority of the ambassador to improve management, 
improving inter-agency coordination, and reorganizing the 
budget and foreign buildings functions of the Department.
    We will be interested to hear about the progress of these 
reforms, and the Committee will look to you to be able to 
reassure us that the large budget increases are in no way a 
substitute for reform. They should go together, and not just 
one taking the place of the other.
    As we have discussed last year, I think you will find the 
Committee eager to assist you in bringing about any needed 
reform and in achieving a more secure, strategically-managed 
U.S. presence overseas.
    I am pleased to see that your budget request continues the 
funding stream that Congress and the Administration has 
established to improve embassy security. I think that is very 
important. I saw the story with regard to Rome several weeks 
ago, and Singapore, and for the Committee--and I know Mr. 
Rogers was very supportive during his tenure--I am very 
supportive of making sure that we have improved embassy 
security. That is why when any reprogramming comes up we always 
make sure that this is done not to just move something, but is 
done to maximize security.
    Since the embassy bombings in Africa, the committee has 
provided over $4.3 billion to improve embassy security, so we 
will be interested to hear your views on how this effort is 
proceeding, how is General Williams, who I do not see in the 
audience today, but how is he doing?
    Another area of particular concern this year is funding for 
public diplomacy activities. There is a critical and immediate 
need for action to counter anti-American sentiment abroad that 
results largely from misinformation, lack of information, and 
misunderstanding.
     American people are good, decent, compassionate people. 
Had it not been for the American people and the American 
Government, I do not know what would have taken place in 
Bosnia. In some respects, if there was any problem, it was 
perhaps that we waited too long. But because of American 
efforts and the American military, in Sarajevo now the shops 
are open and people can walk, and that is mainly, as you know, 
a Muslim community.
    We came to the defense of the Muslims in Kosovo, which is 
90 percent Albanian Muslim, 10 percent Serbian Orthodox. The 
United States stood very boldly, and had we not participated, 
the genocide would have continued under Milosevich. You can 
look at other places as well, such as Macedonia, which has a 35 
percent Albanian Muslim population. I see President Mubarak is 
in town--$47 billion of American taxpayer money has been given 
to the Egyptian government since the Camp David Peace Accord.
    So America is a good place, and we are good people, and for 
some reason our message is not appropriately given out. I am 
concerned that this effort has not been sufficient, given the 
magnitude of the task, and that the budget request may be 
inadequate to continue and expand these important activities.
    I sent a letter to Mitch Daniels--I think we shared it with 
the Department--asking that in this area of public diplomacy 
there should be additional funding.
    The Committee is going to have a hearing later on, after we 
finish the normal process, with your Charlotte Beers, and we 
are going to try to bring in some outside experts, with regard 
to the Middle East--Muslim, Christian, all denominations--to 
see how we get the message out of the goodness of the United 
States.
    When I saw the latest survey--I know you saw that poll--the 
country with the most positive view of the United States seemed 
to be Lebanon. And even in Lebanon--I was in Lebanon in April--
it did not seem overly warm with regard to the United States. I 
told the Lebanese we had 241 Marines killed in the barracks who 
were there in defense of Lebanese people. So America is a good 
country, decent, honest, and we have to get that message out.
    I am concerned that there is not enough money in the public 
diplomacy area to tell the message. We have a great product, 
and that is American democracy, it is freedom, it is liberty. 
How do we get that out around the world? I also saw how few 
people in many of those countries believe that Usama Bin Laden 
was responsible for this activity. There should be no doubt. We 
should be able to make a clear case that Usama Bin Laden, al-
Qaeda, the Taliban were responsible for that activity. We have 
to let them see more data and more information, put it on a web 
page, bring people in. I think the more exchange that we have 
with regard to those countries, by our people going over, the 
better.
    I think we are just going to have to really rethink and 
maybe do it a little bit differently and maybe spend a little 
bit more. But this is not a battle that we can lose.
    Lastly, the American soldier is doing an outstanding job, 
our military.
    With that, I will just refer to Mr. Serrano.

         Opening Remarks of Subcommittee Ranking Member Serrano

    Mr. Serrano. Thank you, Mr. Chairman. It is always a 
pleasure to welcome Secretary Powell. I take great pride in 
bragging about the fact that you and I come from the same 
neighborhood.
    Secretary Powell. Thank you.
    Mr. Serrano. I chose to take on the voters every two years, 
you chose to take on the world, but it is worthwhile and I tell 
you that every morning as I leave my apartment on the Grand 
Concourse in the city and I see the Grand Concourse Walk of 
Fame, there you are. I am not on the Walk of Fame yet, but you 
are there, and we are working to try to reach that point.
    I know that especially today, Mr. Secretary, you face many 
complex challenges in terms of our Nation's foreign policy. Be 
assured, however, that our Nation continues to value your 
leadership at the Department of State.
    I look forward to working with you and Chairman Wolf on 
this year's State Department budget. I have reviewed the budget 
for the Department of State and I am in agreement that we 
should continue to place a priority on improving our worldwide 
security and readiness, on the hiring of additional personnel 
and on continuing our investment in updated computer 
technology. We should explore new initiatives in the area of 
public diplomacy. We must also continue our active 
participation in and obligation to the international 
organizations of which we are members, and, of course, we 
should continue to support and fund our peacekeeping 
obligation.
    I have told you this in private, and I have said it in 
public. I think, of the so many wonderful things that this 
country does, our peacekeeping effort has really shown who we 
are as a people, as a Nation, and I think that we should 
continue that and I will support you in any way that I can.
    Mr. Secretary, I also want to take a moment to thank you 
for the personal commitment that you have made and continue to 
make to having the personnel in our State Department and 
Foreign Service reflect our diverse society. Outstanding 
progress has been made and I know will continue under your 
leadership. I look forward to learning more details about this 
progress during the course of this hearing.
    Now I would like to take a moment to express my concerns 
about the diplomatic challenges that are part of our 
relationship with Latin America, an area that you know you and 
I have spent time talking about. We need to be careful, Mr. 
Secretary, to avoid military involvement in Colombia. Colombia 
has had a problem for many years, and those of us who have the 
opportunity to read both English and Spanish media accounts 
know that is a very difficult and sad situation that has been 
going on for a long time. It is also one of the few places 
where it is very hard at times to find out who the good guys 
are and who the bad guys are, because on any given day anyone 
can tell you that the bad guys are on both sides of the issue.
    And so I would just caution--and it is a message I also 
bring from many of my constituents--caution that our 
involvement in Colombia could be a long and costly one that may 
not take us in a direction that we want to go.
    In addition, we must never take for granted but rather 
should continue to devote careful attention to our relationship 
with countries in this part of the world.
    Mr. Secretary, you can be assured that I will provide 
assistance and support to Chairman Wolf as this year's State 
Department budget moves through the appropriations process. I 
firmly believe that the State Department, with its 
professional, talented, and dedicated personnel, plays an 
invaluable role in the conduct of our Nation's foreign policy. 
I will certainly continue to work to make this a successful 
budgetary year for you.
    Let me close by saying that, although you are the Secretary 
of State, in addition to being the Secretary of State, in my 
opinion, you play a major role in the Administration. One of 
the concerns I have which touches on the Justice Department and 
the FBI and the INS is the issue of civil liberties during this 
very difficult time. I know this is an issue of great concern 
to you. And so, again, in our desire to get the bad guys, we 
have to be careful that we do not hurt the good guys, and I am 
just concerned that the tension of people, the invasion of 
privacy could, again, lead us down a road we do not want to go 
to.
    I do not know if this is a compliment to you, but I have 
always seen you, as many other Americans, as a calming voice at 
times when storms are brewing. You always seem to have a handle 
on how to keep things in their proper place, while being one of 
the great American patriots of our time. And so I ask you to 
continue that balance--that balance that makes you feel secure, 
that if someone is trying to misbehave in our Government, you 
somehow look over their shoulder and say, ``Can we talk about 
this for a second?'' It is that second that will make the major 
difference in world peace and the future of this country, and I 
thank you for being with us today.
    Secretary Powell. Thank you, sir.
    Mr. Wolf. Mr. Secretary, your full statement will appear in 
the record. Proceed as you see appropriate.

           Opening Remarks of Secretary of State Colin Powell

    Secretary Powell. Thank you very much, Mr. Chairman, and I 
do have a full statement, and I appreciate its inclusion in the 
record in its entirety.
    I thank you for your very warm opening remarks, and Mr. 
Serrano, as well, for yours. Grand Concourse always brings back 
the fondest of memories for me, Mr. Serrano.
    I want to begin, Mr. Chairman, by thanking the committee 
for the solid support that it has provided to the Department 
during the first year of my tenure. I think we have tried to be 
worthy of that support. We have been aggressive with respect to 
the reform efforts within the Department. I have taken to heart 
all of the many reports about the Department that have been 
made over the years and trying not to have another report but 
to execute on the items that have been identified for us to 
execute on--getting the right-sizing of our embassies done, 
fixing our security problem, fixing our personnel system, 
getting the right people in the right place at the right time 
for the right job within the Department, opening up the 
Department to new ideas, making sure that the American people, 
especially young Americans, see the value of service in the 
State Department, whether they are in the Foreign Service or 
Civil Service or whatever component. I think we have been 
pretty successful at that.
    General Williams is not here with us right now. He is out 
checking buildings, I hope. That is what he is supposed to be 
doing, not sitting in hearings with me, except when you call 
for him, Mr. Chairman. But he has been doing a great job. He 
has really shaken up our whole building construction operation.
    As you know, we have given him a more direct line of 
authority into the leadership of the Department, and we have 
held him accountable, and he, in turn, is holding everybody 
accountable for using the best management techniques available 
within the commercial building industries to bring those 
techniques into the Department. We have reduced the overall 
cost of our embassies. We have done some very, very smart 
things with respect to standardization of power plants and 
things of that nature. I think we are being very good stewards 
of the money that you have given to us, that Congress has given 
to us, the American people have given to us for embassy 
construction.
    I can assure you that, as I said to you last year, I am the 
CEO of the State Department, not just foreign policy advisor, 
and there is not a day goes by that I do not devote part of my 
day, along with Deputy Secretary Armitage and Under-Secretary 
Green and other members of my staff, on the leadership and 
management issues that face the Department, and we are working 
away at them one at a time.
    With respect to public diplomacy, Mr. Chairman, I could not 
agree with you more. We have got to do a better job, and I 
think we are doing a better job and will continue to do so and 
we will get better under the leadership of Under-Secretary of 
State Beers, who brings a different kind of experience, new 
experience, marketing experience to the Department. Sometimes 
we get a little criticism about that: ``What does a marketeer 
know?'' Well, we are selling a product, and the product is a 
value system that we all believe in, not selling America as a 
way of imposing ourselves on somebody else, but a value system 
that believes in individual rights, democracy, freedom as a way 
into this 21st century world that is before us, that everybody 
could benefit from being a part of a globalized world where 
trade barriers are broken down, where our value systems mean 
more and more to people around the world.
    I am as disturbed as you are over some of the surveys we 
have seen recently where we have not been successful in getting 
that message out, and we have got a tough job ahead of us. 
There is the Israeli/Palestinian conflict that to some extent 
contaminates some of those surveys. We have got to work on 
that. We have our work cut out for us, but I can assure you 
that we will be dedicated to that task.
    I also want to assure you, Mr. Serrano, that I take very 
much to heart the issue of having a Department that represents 
America. I thank you for what you have done with respect to the 
Serrano Fellows and the other programs you have sponsored. You 
and I have had a chance to sit and talk about all of this, 
reaching out to Howard University with respect to African 
American youngsters applying for the Foreign Service and also 
to the Hispanic Associations of America to help us.
    I am very pleased, just as a little vignette, to say that 
4,000 minorities signed up to take the Foreign Service exam and 
showed up for the exam, and 652 have passed--the highest 
number, I think, probably ever. We are off to a good start and 
will continue working in that direction.
    With respect to Colombia, I understand perfectly your 
point, but there is a new situation now, with President 
Pastrana deciding that he could no longer allow the safe zones 
to exist. We have to help Colombia save its democracy from 
narco-traffickers and from terrorists, and we will have to re-
adjust our policies, take a hard look at what we are doing, and 
see if there are not other ways we can help Colombia protect 
itself short of the United States armed forces going in to do 
it, but there are other things we can do, and that is the 
subject of intense discussion within the Administration now.
    And, of course, Mr. Serrano, we take very much to heart 
your concerns, the concerns of all of us, that in an effort to 
protect ourselves from terrorism we cannot do away with the 
civil liberties and civil rights that are a hallmark of the 
American tradition and the American spirit, and we have to find 
the right balance to make sure we are protecting our people, 
because they expect that of their Government, but at the same 
time they expect not to have their civil liberties trampled. I 
am sure as we go forward we will find that right balance.
    Let me conclude that opening statement by saying I thank 
you, Mr. Chairman, you, Mr. Serrano, all the members of the 
committee for the strong support that you have provided to us.
    As you will recall, at our first budget hearing last year I 
told you that what we were requesting for 2002 represented a 
significant increase in the Department's resources for that 
fiscal year. I also told you that such an increase was a good 
start, that it was the first fiscal step in our efforts to 
align both the organization for the conduct of American foreign 
policy with the dictates, the requirements of American foreign 
policy in the 21st century.
    You heard my testimony, you responded, and we are very 
grateful. Because of your understanding and generosity, we have 
made significant progress, and we need to continue that 
progress in fiscal year 2003.
    The President's discretionary request for the Department of 
State and its related agencies for 2003 is $8.1 billion. These 
dollars will allow us to continue initiatives to recruit, hire, 
train, and deploy the right workforce. The budget request 
includes $100 million for the next step in the hiring process 
we began last year. With these dollars, we will be able to 
bring on board the 631 people you mentioned, and especially 
within that number 399 more foreign affairs professionals and 
be well on our way to repairing a large gap created in our 
personnel structure over the last ten years and relieve the 
strain that we have put on our people by almost a decade of 
too-few hires and inability to train properly and fill hundreds 
of positions.
    I would also mention that, as we are staffing up with more 
people, we are also putting into our Foreign Service Institute 
a requirement, a more serious requirement for leadership and 
management training so that we are not just creating 
professionals, we are creating professional leaders, people who 
will be leaders in the future, and we are making that a 
hallmark of all of our training and management activities.
    By 2004 we hope to have completed our multi-year effort 
with respect to overseas staffing, to include establishing the 
training pool I described to you last year. That is so 
important if we are to allow our people to complete the 
training we feel is needed for them to do their jobs, 
especially their next job. We have to have a little bit of 
flexibility in the system so people can go in the schools and 
not be removed from a position, but that there is a little bit 
of flexibility so that we do not have to gap positions while we 
are training people for those positions.
    Next March I will be back up here briefing on the results 
of our overall domestic staffing review. In addition to getting 
more people on board, we will continue to upgrade and enhance 
our worldwide security readiness, even more important in light 
of our success in disrupting and damaging the al-Qaeda 
terrorist network.
    The budget request includes $553 million that builds on the 
funding provided from the emergency response fund, the 
increased hiring of security agents, and for counter-terrorism 
programs. We will also continue to upgrade the security of our 
overseas facilities.
    The budget request includes over $1.3 billion to improve 
physical security, correct serious deficiencies that still 
exist, and provide for security-driven construction of new 
facilities at high-risk posts around the world.
    Mr. Chairman, we are right-sizing, shaping up, and bringing 
smarter management practices to our overseas building program, 
as I told you we would do so last year. The first change, as 
you well know, was to put General Chuck Williams in charge and 
give him Assistant Secretary equivalent rank. Now his overseas 
building operation has developed the Department's first long-
range master plan, which projects our major facility 
requirements over a five-year period. The Overseas Building 
Office is using best practices from industry, new embassy 
templates, and strong leadership to lower costs, increase 
quality, and decrease construction time.
    As I told you last year, one of our goals was to reduce the 
average cost of building an embassy, and I believe we are well 
on our way to doing just that. General Williams is making all 
of our facilities, overseas and stateside, more secure. By the 
end of 2002, over two-thirds of our overseas posts should reach 
minimal standards, meaning secure doors, windows, and 
perimeters. We are also making progress in efforts to provide 
new facilities that are fully secure, with thirteen major 
capital projects in design or construction, another eight 
expected to begin this fiscal year, and nine more in 2003.
    With this budget, Mr. Chairman, we will also be able to 
continue our program to provide state-of-the-art technology to 
our people everywhere. Because of your support in 2002, we are 
well on our way to doing this. We have an aggressive deployment 
schedule for our unclassified system which will provide desktop 
Internet access to over 30,000 State users worldwide in 2003 
using 2002 funding, and we are developing our classified 
connectivity program over the next two years.
    We have included $177 million in capital investment for IT 
requirements. Combined with the $86 million in estimated 
expedited passport fees, we will have a total of $263 million 
for our information technology initiative. Our goal is to put 
the Internet fully in the service of diplomacy.
    With this budget we will continue to meet our obligations 
to international organizations, also important as we pursue the 
war on terrorism to its end. The budget request includes $891 
million to fund U.S. assessments to 43 international 
organizations, active membership of which furthers United 
States economic, political, security, social, and cultural 
interests.
    The budget will also continue to meet our obligations to 
international peacekeeping activities. The budget request 
includes $726 million to pay our projected United Nations 
peacekeeping assessments, all the more important as we seek to 
avoid increasing even further our U.N. arrearages.
    Mr. Chairman and members of the committee, I ask for your 
help in getting the cap lifted so that we can eventually 
eliminate all of our arrearages. Only by lifting the cap will 
we avoid continuing to add to the arrearages.
    These peacekeeping activities also allow us to leverage our 
political, military, and financial assets through the authority 
of the United Nations Security Council and the participation of 
other countries in providing funds and peacekeepers for 
conflicts worldwide.
    We will also continue and enhance an aggressive effort to 
eliminate support for terrorists, and thus deny them safe haven 
through our ongoing public diplomacy activities, our 
educational and cultural exchange programs, and international 
broadcasting.
    The budget request includes $287 million for public 
diplomacy, including information and cultural programs carried 
out by overseas missions and supported by public diplomacy 
personnel in our regional and functional bureaus. These 
resources help to educate the international public on the war 
against terrorism and America's commitment to peace and 
prosperity for all nations.
    The budget request also includes $247 million for 
educational and cultural exchanges that build mutual 
understanding and develop friendly relations between America 
and the peoples of the world. These activities help build the 
trust, confidence, and international cooperation necessary to 
sustain and advance the full range of our interests. Such 
activities have gained a new sense of urgency and importance 
since the brutal attacks of September. We need to teach the 
people of the world more about America and America's role in 
the world. We need to show people throughout the world just who 
we are and what we stand for, just as the chairman noted a few 
moments ago.
    Moreover, the budget request includes almost $518 million 
for international broadcasting, of which $60 million is for the 
war on terrorism, to continue increased media broadcasts to 
Afghanistan and the surrounding countries and throughout the 
Middle East. These international broadcasts help inform local 
public opinion about the true nature of al-Qaeda and the 
purposes of the war on terrorism, building support thereby for 
the coalition's global campaign.
    Mr. Chairman, on the subject of public diplomacy let me 
expand my remarks a little bit. The terrorist attacks of 
September 11th underscored the urgency of implementing an 
effective public diplomacy campaign. Those who abet terror by 
spreading distortion and hate and inciting others take full 
advantage of the global news cycle. We must take advantage of 
that same cycle.
    Since September 11th, over 2,000 media appearances by State 
Department officials have taken place. Our continuous presence 
in Arab and regional media by officials with language and media 
skills has been unprecedented. Our international information 
website on terror is now on line in seven languages. Internet 
search engines show that it is the hottest page on that topic. 
Our 25-page color combination, ``The Network of Terrorism,'' is 
now available in 30 languages, with many different adaptations, 
including a full insert in the Arabic edition of ``Newsweek.'' 
``Right content, right format, right audience, right now'' 
describes our strategic aim in seeing that U.S. policies are 
explained and placed in the proper context in the minds of 
foreign audiences.
    Mr. Chairman, beyond the budget requests I have just 
outlined for you, we are working closely with OMB to examine 
our overall requirements. We believe that there are valid 2002 
needs that cannot wait for 2003. The Administration will bring 
the specific details of this supplemental request to the 
Congress in the near future. We have not finished our 2002 
supplemental request for you yet, but it will be coming to you 
in the very near future, and there will be a number of priority 
items that the State Department will have in that supplemental 
request.
    Some of you know my feelings about the importance to the 
success of any enterprise of having the right people in the 
right places, and if I had to put one of these priorities as 
the pinnacle of our efforts, it would be the hiring efforts 
that I have already described. We must sustain the strong 
recruitment program we have begun for the last year, and with 
your support I am sure that we will be successful in that 
regard.
    Mr. Chairman, all of these activities that we have talked 
about so far this morning have improved morale at the State 
Department. People see that we care about them. We are giving 
them secure, safe places in which to work. We are hiring people 
to help them do their jobs better. We are doing everything we 
can to let our people know that they are valued members of 
America's foreign policy team.
    While we concentrate on the Nation's foreign policy, we 
have to take care of those who execute it, and not only the 
Americans but especially the Foreign Service nationals. These 
are an extraordinary group of people we do not talk about often 
enough--foreigners who work in our embassy. For example, the 60 
Afghan employees in Kabul who worked diligently to maintain and 
protect our facilities throughout the 13 years that the embassy 
was closed. They worked at personal risk. We were able to get 
pay to them, but even then they were working at the risk of 
their lives. And when we went back into Kabul, the embassy was 
not in a state of total destruction, as we had expected. Those 
employees had stood by their jobs, had done a good job, and 
they are an essential part of the team, as well.
    I thank you for what you have done to allow me to push 
forward in that concept of teamwork, all being members of one 
family, and I ask for your support in getting the $8.1 billion 
that we need for fiscal year 2003, and also for the foreign 
affairs budget we will be asking for, as well, in this same 
request for $16.1 billion.
    I will also ask your help for the supplemental request that 
will be coming up in the near future.
    Mr. Rogers, I think I will stop at this point, and I am 
sure we will get into specific foreign policy issues in the 
course of our discussion as members of the committee return 
from voting.
    [The statement of Secretary of State Colin L. Powell 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                           MANAGEMENT ISSUES

    Mr. Rogers [assuming chair]. Mr. Secretary, thank you very 
much for that good statement. I say on behalf of the 
subcommittee and on behalf of the Congress, how much 
reassurance your presence in this position brings to us at this 
particular time in our history. The events of 9/11 and the 
aftermath are unsettling, of course, to all of us, but your 
steady hand and your steady advice and counsel to the President 
is something of a national treasure that we appreciate very 
much.
    Secretary Powell. Thank you, sir.
    Mr. Rogers. And I am glad to hear your very good report on 
the management issues at State. As you perhaps know, I chaired 
this subcommittee for the last six years and have served on it 
the last eighteen or nineteen years. One of the biggest 
problems that we have faced was that State was just not 
properly managed--wonderful people, dedicated to the Nation, 
patriotic in every respect, but there was just not the 
organizational or management structure there that allowed 
modern management procedures to be employed. I am glad to hear 
that it sounds like you have those in place.
    You have commented on that already. Would you care to add?
    Secretary Powell. I would always love to add to that 
proposition.
    Mr. Rogers, in our conversation last year I assure you I 
took very much to heart what you said to me about your 
disappointment and the disappointment of the Congress for many, 
many years with respect to the management of the Department, 
and I tried to be very faithful to my promise to you at that 
time that you would see a change. I think you have seen a 
change in the diplomatic readiness initiatives that we have 
underway. I think you have seen a change with the way in which 
we are running our building program. I think you have seen a 
change in the way we run our security programs. One of the 
issues was why you can't have representation on Capitol Hill. 
We now have an office up here in Capitol Hill that is closer to 
the Congress on the House side. I hope to open a liaison office 
on the Senate side, as well, for the purpose of showing you the 
State Department is here, wanting to know your constituent 
problems, wanting to hear from Members of Congress, providing a 
service to link you into the leadership and management of the 
Department even more closely.
    We spend an enormous amount of time in cutting through 
bureaucratic processes to make the Department move faster, to 
speed up the decision cycle.
    When I first came in, the letter that the President gives 
to each Ambassador took 18 months, in the previous 
Administration, to get approved. I told my staff we are going 
to get it done in four weeks and I will write it myself, and I 
did, and we got it done and the President signed it. It is just 
a matter of showing everybody that they are important.
    One of the things we have been working very hard on, Mr. 
Rogers, is to connect the Department, from the Secretary of 
State out to every last employee in every embassy. We are one 
team bound together by trust, by a common purpose, by policies 
that are coherent and consistent over time, that we are going 
to push down authority, that we believe the embassies are right 
and they know more than we do back here at C Street at the 
Truman Building. Now, that is not always the case, but we are 
certainly going to act that way as a way of empowering the 
whole organization.
    I think that the results are starting to show--starting to 
show by the number of people who are signing up to become 
members of the Department of State, Foreign Service exams and 
other applications coming in for Civil Service positions. I 
think we are doing a good job, but it has only been one year. 
You know you have the start-up period, when you are still 
trying to figure out what to do. But we will continue to work 
on this effort.

                          OPAP RECOMMENDATIONS

    Mr. Rogers. A big ship is hard to turn around quickly, and 
this ship is a big one. It has been adrift for a long time. So 
you are right, it is going to take a little while to see 
whether or not we are headed in the right direction management-
wise. But I like what I hear, and we will see whether or not 
the captain steering the wheel makes the ship turn or not in 
due course of time.
    The Crowe Report of your colleague a few years ago 
recommended--and I remain convinced--that the worldwide program 
of relocation and security improvements in our facilities 
overseas is an opportunity to minimize vulnerability by moving 
as many functions as possible to secure, regional locations and 
minimizing staffing at those vulnerable posts. Is that 
something that you agree with? And, if so, are you moving in 
that direction?
    Secretary Powell. I agree with it in principle where it 
makes sense. If you can do something on a regional basis and 
perform the mission and provide the service, then we should do 
so. So in principle yes, but you always have to balance that 
against whether or not you can really provide a service at 
Point A from a location at Point B or Point C that may be 
regionally oriented. I think we have to strike that balance. 
But as a matter of principle, yes.
    Mr. Rogers. The Kaden Report and the Carlucci Reports a 
year or two ago were good studies of reorganization and 
management issues within State and how we go about making our 
presence overseas known and felt and had a great number of 
recommendations, which I have been strongly supportive of. I 
think they did a wonderful job. What are your thoughts about 
the recommendations within those reports, like consolidation, 
right-sizing, America presence posts, and the like?
    Secretary Powell. I am supportive of almost all of them. I 
was a member of the Carlucci Study Team several years ago, so I 
am quite familiar with those actions and we used them as a 
benchmark. Now, not every one of them would I agree to, but I 
think for the most part I think you will find that we are 
following not only the spirit of those reports but the actual 
specific recommendations that they made.
    Mr. Rogers. Well, I hope so, because most of them are 
headed, I think, in the right direction, particularly the 
American presence posts.
    Secretary Powell. Yes, sir. As you know, Ambassador Rohatan 
in Paris started that idea, and we have documented it and we 
have two other countries now that are exploring it, two other 
places. One is Turkey, and the other one--I forget where it is, 
but we----
    Mr. Rogers. I think we have five in France.
    Secretary Powell. Five in France, one in Turkey, and 
there's another one.
    Mr. Rogers. One in Canada.
    Secretary Powell. Canada. Yes, sir.
    Mr. Rogers. Well, I recommend that. It is a good way to 
have our presence felt very effectively but with a minimum of 
presence. There's no bulls-eye on the door----
    Secretary Powell. Yes.
    Mr. Rogers [continuing]. For terrorists. You go to an 
office building and do your work unnoticed, more or less. So I 
hope that we would get more reprogramming requests here to open 
up others all around the world.
    Thank you, Mr. Chairman. Thank you, Mr. Secretary.
    Secretary Powell. Thank you.

                   FY 03 REQUEST FOR PUBLIC DIPLOMACY

    Mr. Wolf [resuming chair]. Mr. Secretary, on the public 
diplomacy issue, your budget request is basically flat. It is 
5.3 million. I understand how these things work, and I think we 
did share the letter with you. I am sure we did, over with the 
Department. You may not have seen it. But we asked for OMB to 
look at that.
    Would you want to comment on that? We have a great product, 
and I just do not know that 5.3 million for public diplomacy in 
the current situation that we are in--that is the only modest 
increase that you asked for in that program.
    Secretary Powell. Well, my figure of our overall account 
for public diplomacy, including educational, cultural programs 
is a $26 million increase up to $535 million total. It is $288 
million, or an $18 million increase, in the public diplomacy 
line.
    Mr. Wolf. But, still, well, I guess it depends on what we 
are counting.
    Secretary Powell. Yes.
    Mr. Wolf. But I do think we need more--I mean, I am not for 
spending a lot of money. I would like to think we can have a 
balanced budget again this year, if it is at all possible. But 
knowing what has taken place, I do not think we can, unless we 
defeat terrorism.
    In the effort against terrorism, I commend the 
Administration for mentioning Hezbollah. The Hezbollah were 
involved in the Marine barracks. You were in the Reagan 
Administration.
    Secretary Powell. Yes, sir.
    Mr. Wolf. The Library of Congress put together a series of 
all the terrorism activity. Hezbollah comes up over and over 
and over. So this impacts directly on what's taking place in 
the Middle East.
    It is the same thing with regard to public diplomacy, 
defeating terrorism and at the same time telling our story, so 
do you think it could use a little additional money?
    Secretary Powell. Yes, sir. We were only able to add $18 
million in 2003, but, as part of our supplemental discussions 
with OMB, we are trying to get more under the supplemental.
    Mr. Wolf. Good. I would hope so, and I have spoken to OMB 
about that.
    I also think----
    Secretary Powell. If I may, Mr. Chairman?
    Mr. Wolf. Sure.
    Secretary Powell. Sometimes it is cost free. It does not 
cost anything to do new ways, to go about it new ways, and that 
is what we are trying to do--get our ambassadors out on these 
Arab television networks and radio stations. We can do a lot in 
terms of getting articles placed that cost us nothing.
    My own little minor effort in this was appearing in Al 
Jazeera, appearing with another Arab network, and then going on 
MTV, which reached 346 million households around the world, and 
I had to defend the United States. Are we a Satan or are we a 
protector? I made the portion of the case I made. I got asked 
about the Middle East. I got asked about a variety of issues. 
Some made news, others did not make news. But it gave me a 
chance to tell----
    Mr. Wolf. Welcome to politics.
    Secretary Powell. But it got me to take our case to 90 
straight uninterrupted moments. It was supposed to be 60. They 
let it run for 90, broadcast six times to 33 MTV channels 
around the world, population 17 to 25, mostly in the non-
western part of the world. And in each one of the locations 
that it came down, our embassies throughout the world, consular 
officers or embassy staff or the embassador himself or herself 
stayed after the performance and talked to the youngsters who 
had come to hear it, and now they are following up with 
additional discussion.
    Out of one of our embassies the request came from the 
students who were there, ``Hey, we have never heard this kind 
of thing. Why don't you now come visit our university? We want 
to hear more.''
    So sometimes it is cost-free.

                     TERRORIST ACTIVITIES IN SUDAN

    Mr. Wolf. It is. We spoke to the students at AUB in 
Lebanon, and they were very open, and I think you are right. 
Well, I am glad you are doing that, and I hope when we have a 
hearing we are going to try to bring in some outside experts, 
because there are many people in this country who really know 
that part of the world, and I think it can help you.
    Things are moving quickly in Sudan. You know of the 
concern. I saw pictures of the result. There was a Soviet 
helicopter gunship that came in a week-and-a-half ago and 
gunned down people. We have reports. We have talked to a person 
by e-mail who was on the ground at the time. We sent pictures 
over, I believe, of some of the shells. There was some 
inference that the attack may have included chemical weapons. 
The shells exploded above the people. But they literally came 
in and gunned the people down, and this is supported with the 
money coming from the oil. The oil now has given the Sudanese 
government the ability to not only operate those training camps 
around Khartoum. Hamas comes in to Khartoum, there must be a 
shuttle. They come in on a regular basis. The Iranians are 
there and everything else.
    Could you bring us up to date? I saw the story about how 
the Sudanese have now said they will cooperate, but we have 
heard this before. I would like you to speak to that and maybe 
speak to the Sudanese government, too.
    Secretary Powell. As you know, Mr. Chairman, Senator 
Danforth led a mission for us and went over there a couple of 
times and came back with a four-point plan that looked like a 
road forward, and we told the Sudanese that, ``If you want a 
better relationship with the United States, this kind of action 
simply has to stop.'' And then you saw we got something of an 
agreement, which was a step in the right direction. The 
Sudanese have been helpful with respect to intelligence sharing 
and shutting down some of the terrorist activities that were at 
least officed or headquartered in the Sudan, and so we thought 
we were moving on a somewhat positive track, considering the 
difficulties in this region, and then this helicopter incident 
took place.
    I have no evidence to suggest that chemical weapons were 
spread at that time, but, nevertheless, we went immediately to 
the Sudanese government and said, ``That is it. We stop. We are 
not going forward. You do not understand. We were serious. You 
have got to stop activity like this or it stops. This has to be 
reciprocal. We do something, you do something. But it has to be 
permanent.''
    They have now come back and investigated the incident and 
told us that it should not have happened, it was an error, 
failure of command, and they have entered into an agreement 
with us which we have now put before the SPLA that this kind of 
activity will not take place, will stop.
    Mr. Chairman, you and I both have been around this track 
before, but what we have communicated to the Sudanese 
government is that we will hold you accountable, and the 
process of moving forward, of any opportunities for better 
relationship will come to a dead halt with the continuation of 
this kind of activity.

                         PROBLEMS FACING AFRICA

    Mr. Wolf. Good. Well, thank you.
    Several weeks ago Ted Koppel did a series on the Congo, 
Eastern Congo--Goma, Bokago, and others. It was very moving. 
For ABC to be dropping Koppel for Letterman, I do not 
understand. I mean, he did an incredible job. He went in there, 
spent a lot of time. Great, great show. I do not know if you 
happened to see it. In any event, 2,500 people are dead each 
day in the Congo. They have lost almost three million people. 
My sense is we now have to, in this Administration, put 
together a group of people who are literally the best experts 
in the world to shape our policy be toward Africa. There are so 
many problems. You have diamonds with regard to al-Qaeda, 
Sierra Leone, you have the problem with Guinea, you have 
Charles Taylor. I mean, we should be looking at it. What do we 
do. We should be re-flagging all of the ships coming out of 
Liberia with the Liberia flag. That would bring down the 
Charles Taylor Government.
    What should our policy be with regard to the Liberian flag? 
What should our policy be on the diamond issue? What should our 
policy be with regard to food aid and development? By the way, 
let me congratulate you for the President's appointment of 
Congressman Tony Hall. There's not a more capable and committed 
individual in this Congress, or frankly in the country, than 
Hall. Mr. Hall will do a great job and make you very proud. But 
how do we deal with debt forgiveness? We need to forgive debt, 
but we need to do it in a way that when the debt is forgiven 
there is a reciprocity with regard to freedom of religion, 
freedom of speech, that some things go back to the people. 
Africa is ablaze, it is afire, I mean, from AIDS, to the Congo, 
to Sudan, to Sierra Leone, to Guinea. We have to step back, and 
consinder that what we are doing, as a country, and as the 
West, really has not worked. The value of a life in Goma has 
the same value as a life in Berlin, or in London, or in 
Beijing.
    You do not have to make me a commitment, but I would like 
to think we could kind of step back, put together some of the 
very best minds, new thinking, new ideas. How do we do aid? 
What do we do with promoting democracy? How do we deal with 
debt forgiveness? What do we do? Also, I am concerned about 
terrorism. Terrorism is beginning to move. Charles Taylor has 
sheltered terrorists. Charles Taylor's people go up to Libya. 
But we need to really rethink what we are doing in Africa.
    If you look at the Ted Koppel piece on ``Nightline,'' 
``Five Days in Eastern Congo,'' he makes the point again, 2,500 
deaths a day. That is like the World Trade Center every single 
day. Many go into the bush and literally lay down and they die, 
and many who are not dying are living a life that is almost as 
bad as we can possibly imagine.
    What are your thoughts about the Congo and about how we 
should step back and maybe take a look at this whole continent 
called Africa with regard to rethinking some of the policy?
    Secretary Powell. The situation in the Congo is every bit 
the tragedy that you say it is, Mr. Chairman, and Ted Koppel 
did just a magnificent job of documenting it in his program.
    Mr. Wolf. I wonder if Letterman has ever been to Goma. 
Probably has not.
    Secretary Powell. Probably not.
    Mr. Wolf. Maybe he will go.
    Secretary Powell. I think I will stay out of the ABC----
    Mr. Wolf. I understand. I probably should have, too.
    Secretary Powell. It is a tragic situation. We are working 
with President Kabila and President Kagame and the other 
leaders in the region to try to bring an end to this conflict, 
and working with the U.N. with respect to putting in the 
peacekeepers and others necessary to try to help these 
desperate, desperate people.
    We are dealing with every one of these issues that you 
mentioned in as effective way as we can figure out. It is 
always wise to step back and take a look at the overall 
picture, but I find my day dealing with the individual pieces 
that won't wait for the overall picture to fall in place. We 
have been aggressive with respect to HIV/AIDS. We have taken 
the lead there. We have taken the lead in speaking out sharply 
against people like President Mugabe in Zimbabwe. My speech in 
South Africa last year made it clear that this kind of behavior 
and this kind of political action is no longer acceptable if 
countries wanted to progress into the 21st Century. Mr. Mugabe 
is an anachronism with the way he is going about the running of 
his country.
    I think we have been forthcoming with respect to trying to 
do something about the diamond trade and supporting actions up 
in Congress with respect to getting the diamond trade under 
control because it is such a source of income for the most evil 
purposes in Africa.
    So on each one of the issues you have mentioned we are 
working on those issues, but we can always benefit from 
stepping back and see if they are so integrated that we can 
come up with a single, overall approach that would deal with 
all of them. You do not get the kind of attention with respect 
to issues in Africa that you will in Afghanistan or Bosnia or 
anywhere else. You are quite right. Not only 2,500 people a day 
dying in the Eastern Congo, but look at how many are dying with 
respect to HIV/AIDS.
    The president of Botswana was in my office the other day 
and we were talking about it. It is a country of 1.6 million 
people with an infection rate of 38.9 percent. The average life 
expectancy has dropped from 69 to 44. This is an absolute 
pandemic. It is a tragedy. Of all 15-year-olds in Botswana, 50 
percent are infected. It cries out for more attention. It cries 
out for the whole world to do something about it. The whole 
world tends to have a difficult time figuring out how to get 
their hands around the problem.
    So I do not deny in the slightest way, Mr. Chairman, that 
you have a good idea in terms of let's step back and how do we 
take a look at this in a more holistic way. I am willing to 
explore that with you and find out what we might be able to do.
    Mr. Wolf. Good.
    Secretary Powell. But we are trying to work the individual 
problems every day, as well.
    Mr. Wolf. Well, you have to. I had the Library of Congress 
do a paper, which I will send to you, on this issue. I think 
you have to continue to meet those needs as they come, but you 
have got to--get a group of top people, experts who will care, 
and come in and see if there's something a little bit different 
we can do. Or maybe what is being done is correct, although I 
find it hard to believe what the world has done for the last 20 
years has been successful, because if that is success, my 
goodness, I would hate to see failure. But I think such an 
effort can make an impact. I will send you that paper.
    Mr. Serrano.

                     COLOMBIA AND U.S. INVOLVEMENT

    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Secretary, I want to just spend some more time with you 
on this issue of Colombia, which troubles so many people.
    Last year, when you came before the committee, I expressed 
to you my concern, and after correcting me on calling upon plan 
Colombia and changing to its new name, you assured us--and I 
believe that you meant that--that this would be for counter-
narcotic trafficking and growing issues and for democracy 
building and strengthening the law enforcement and judiciary.
    Backing up a second, prior to you coming before me, 
transcript of the hearing shows that I expressed the same 
concerns to Secretary Albright about Colombia. She went on to 
say the that Administration was involved with President 
Pastrana in trying to help him deal with the needs, the real 
needs of the FARC, and other groups, and that she and that 
Administration were trying to make President Pastrana 
understand that the bigger problem in Colombia was how to 
change the society so that certain people did not feel left 
out.
    Now, I should have prefaced my comments by saying that we 
are all fans of President Pastrana and we are hopeful that he 
is successful, but I think that those of us who feared a 
military involvement may not have been totally wrong. What we 
are hearing now, what we are reading now, is that we are now 
going to go and get involved in protecting oil fields or oil 
pipelines, and that we basically have declared again the narco 
folks, the FARCs, terrorists.
    Now, I am not suggesting that they are or they are not. I 
am only suggesting that after September 11th we Americans 
shiver at the word ``terrorist'' and identify with a group of 
people we want to get rid of. There's not a single American who 
says we should not get rid of every terrorist.
    But now it seems to some that the word ``terrorist'' could 
be loosely used to allow us involvement that we should be 
analyzing in different ways. This is a civil war. You and I 
grew up with a situation militarily where there was a civil war 
that we got involved in, and we honor all the folks that were 
there, but we spend so much time now wondering, you know, what 
was the involvement and what the involvement should have been.
    All that to say, Mr. Secretary, that we have to be careful 
not to get involved in Colombia in a civil war that we can't 
get out of.
    Secondly, if we have accomplished one thing, it is that 
people who usually opposed our involvement in Latin America 
have been kind of quiet for the last ``X'' amount of years 
because we have not been behaving that way. We may wake a lot 
of folks up in Latin America who now feel that, ``Here they 
come again using their military force.''
    I do not know who the good guys are in Colombia. Maybe that 
is where I open myself up to getting hit over the head by you. 
You do that in a very diplomatic way, I know. I do not know who 
they are. I know there's a government, a government that still 
cannot get rid of its involvement with the paramilitary group. 
I know there's narco traffickers on all sides of the issue. I 
know there's an insurgency group that brings pain to the people 
in the name of trying to bring a change in government. I know 
governments who traditionally bring pain to the people also.
    So I cannot figure it out, and I try to read it every day 
in English and in Spanish. I am wondering how some folks are 
figuring out somewhere else. So could you tell us how close are 
we to military involvement, and could you tell us what would be 
the reason for allowing our troops to be used in Colombia?
    Secretary Powell. There are no plans that I am aware of--
and I think I am aware of all plans--that involve the possible 
sending or use of American military units to Colombia to deal 
with the problem they have. Colombia is a friend to the United 
States. President Pastrana we all admire. There will be a new 
president by late summer.
    Colombia is fighting for its democracy. It is fighting for 
its right to have a legitimate, democratic form of government. 
It is under assault by narco traffickers, and it is also under 
assault by organizations such as the FARC and ELN, especially 
the FARC that has been after Colombian leadership for many, 
many years.
    President Pastrana boldly tried to resolve this with the 
creation of the safe havens in the hope that this would 
encourage the FARC and the ELN to negotiate seriously. There 
was doubt that this would be successful. And President 
Pastrana, after giving it his all, came to the conclusion that 
they would not negotiate in good faith, that this is not the 
solution to the problem, and he ended the safe havens.
    He is now faced with having to deal with these 
organizations which we have designated as terrorist 
organizations. Our policies to this point--as I have said to 
you last year, we have been faithful to that--have been to use 
Plan Colombia and the Andean Regional Initiative, or ACI, as it 
is called, for counter-narcotic purposes, and we have stayed 
within the letter of the law with respect to that.
    This year we continue to stay within the letter of the law, 
but we introduced a new element to protect the pipeline, 
because this was a pipeline that was being shut down on a 
regular basis and was affecting the basic economy of Colombia. 
It was reasonable for a democratic government to be able to 
protect the pipelines. We did not think that this did violence 
to anything we have said to the Congress previously and it was 
a smart thing to do.
    But the safe havens are now gone, and President Pastrana, 
and I believe whoever will replace President Pastrana, is in a 
conflict with the FARC. There are some things we might be able 
to do with the ELN. I believe it is reasonable for us to take a 
look at our policy in light of this changed circumstance, and 
that is what we are doing.
    It may be necessary--and the President has made no 
decision, has received no recommendation--it may be necessary 
for us to give the government of Colombia additional support 
that is outside the counter-narcotics facet to enable them to 
deal with this threat to their survival as a nation, this 
threat to their economic well-being, and once we have completed 
this review, we will come up to the Congress and ask for 
whatever we believe is necessary.
    Right now we are staying within the limit of the law, but 
it is clear that the kinds of things that we are being asked to 
provide to assist the Colombian government, such as more 
intelligence information, things of that nature, that will 
quickly run into the wall, the legislative wall that is there, 
and that is what we are examining--what more is it appropriate 
to give them so that they can defend their nation?
    We also have made it clear to President Pastrana and will 
make it clear to the future president of Colombia that if 
paramilitary forces are given a free hand, this is destructive 
of our effort to help you, and we particularly mean that with 
respect to AUC, as it is called, the umbrella organization. We 
made it clear to them, and they have assured us that they 
understand it and they are not going to give the paramilitary a 
free hand, because that is also destructive of their democracy.
    So this is what we are looking at now. We are reviewing our 
policies to see what it would be appropriate to do in order to 
assist this nation in its war.
    Mr. Serrano. Well, I would hope, Mr. Secretary, that, as 
you have stated here today, that if there is a move to involve 
us in any other way, that there is consultation with Congress, 
so that at least the American people can hear a full debate on 
this issue.
    Lastly, I understand--we all do, especially representing an 
area like I do in New York--that the issue of drug trafficking 
has always been a problem, but nowhere in our history, recent 
history that I can remember, have we said that that merited 
getting involved in a civil war. So when I hear the word 
``terrorist,'' I think of the World Trade Center. I think of 
Bin Laden, the al-Qaeda, and so on. Incidentally, so that we 
understand something, I voted against this when it came up in 
appropriations when President Clinton had his administration. I 
told President Clinton at that time that I felt we would get to 
this point and that he was making a mistake. So I want to make 
clear that I have disagreed with both Administrations on this.
    When this Administration now says, ``These folks are 
terrorists,'' should the American people assume that what the 
Administration is saying is they are terrorists in the same way 
those other folks are terrorists, that they present a physical 
threat to us? The drug threat we know about, but are they 
thinking of bombing us in some way and is that why we are 
calling them terrorists, or are they attacking us physically?
    Secretary Powell. I do not know that they are going to 
attack us physically, but with respect to their being 
terrorists there's no doubt in my mind. When an organization 
such as the FARC says it is interested in negotiations, but at 
the same time is hijacking airplanes to take elected 
representatives off the airplane, when they take a female 
Senator of Colombia, an elected representative who is trying to 
help people, and they murder her, they are terrorists, and it 
is terrorism that threatens stability in Colombia, and if it 
threatens stability in Colombia it threatens stability in our 
part of the world, in our neighborhood, in our back yard, and I 
think that is something that should be of concern to us, and 
that is why I think we have an obligation to review our 
policies and to see what else we might have to do that changes 
the line that is currently there in order to help the Colombian 
government.

                   NEW CHALLENGES FOR FOREIGN POLICY

    Mr. Serrano. I have one more question I want to ask on a 
separate subject, but, once again, I meant it seriously when I 
said that I always see you as a calming voice. Both in Spanish 
and in English, I hope you pay close attention to what some 
people may be saying.
    And, with all due respect, as far as terrorists go, there 
are some people who hijacked planes in Cuba and now live 
peacefully in Miami, and we have never called them 
``terrorists,'' so those issues become bigger issues.
    Our foreign diplomacy has always been geared towards 
dealing with governments and nations. Now it seems that the 
world changed September 11th. Maybe it was changing before that 
and we hardly noticed, but now there are people outside that 
understanding of nations and governments. Bin Laden is a fine 
example of that. He's neither a nation or a government, but he 
causes havoc on the world.
    How will you see our foreign diplomacy changing in order to 
deal with that issue? And are the tools we had in the past 
still relevant to what we are doing today?
    Secretary Powell. I think they are still relevant, but will 
have to be used in new and different ways and we will have to 
come up with new tools. You are quite right. The days of seeing 
a clear enemy on the other side of a boundary and that is who 
is going to attack us is not the case any more. There is no 
superpower out there that we should see as an enemy right now. 
They just do not exist, fortunately. That is the good news. 
That is the great news.
    But we find these trans-national kinds of threats. al-Qaeda 
is neither a government nor a state as we know it, and, 
nevertheless, it is an enemy. I mean, it attacked us. It 
violated our sovereignty and killed several thousand people at 
the World Trade Center and the Pentagon.
    How do we go about it? One, intelligence, law enforcement. 
But one of the principal ways we have to go about it, which 
falls into my area of foreign policy, is to make sure that any 
nation that wants to be a friend of ours, any nation that 
claims to be an ally of ours has to make sure that they are 
following policies that make it inhospitable, impossible for 
such organizations to find haven and succor in their country. 
That is what the President meant when he said we have to go 
after those who are giving haven. That is why we went into 
Afghanistan. That is why we went after the Taliban. The Taliban 
was given a chance to stop it. They said no. And that is why 
the nations that develop weapons of mass destruction that could 
fall in the hands of terrorists have to be nations of concern 
to us.
    And so we have to use foreign policy in relations with 
other nations and governments to make it clear to those nations 
and governments that they have to take action that cause their 
nations not to be havens and places of comfort for these trans-
national threats that now exist in the presence of terrorists 
who are looking for nations where they can find a corner to 
hide in or a financial system to exploit or the lack of an 
intelligence system to take advantage of.
    That is, I think, one of the new challenges for American 
foreign policy.

                     WINNING SUPPORT IN AFGHANISTAN

    Mr. Serrano. Without details, obviously, are we involved in 
Afghanistan in trying to, at the same time that we do what we 
do, win support from the folks for future endeavors?
    Secretary Powell. Yes, we are. Our public diplomacy efforts 
are active there, the fact that we are going to help them train 
their police force and army I think shows that we are 
interested in a better future for the Afghan people, our 
humanitarian efforts, that we are the largest provider of food, 
we support their mine-clearing programs. We are doing a lot, I 
think, that will cause the Afghan people to see that we come in 
friendship.
    The point that the chairman made earlier that we get a bum 
rap, you know, it was United States armed forces that went to 
help Muslims in Kuwait in 1991. It was not America that invaded 
Kuwait, it was another Muslim country that invaded Kuwait. We 
went to Kosovo for the same reason. We went to Afghanistan for 
the same reason. But sometimes people forget to give us credit 
for that or we forget to claim credit for it, as we should. We 
have not invaded any Muslim countries with the purpose of 
taking it over. We have not tried to overthrow any Muslim 
regime. They ought to look at other enemies to Muslim causes, 
not the United States.
    Mr. Serrano. Mr. Chairman, I want to close and join you in 
your opening comments in congratulating Secretary Powell and 
this Administration. My city was the center of the pain, and 
your leadership and the President's leadership has been 
something that we have valued and found comfort in in New York 
City, and I thank you.

                   U.S. INVOLVEMENT IN LATIN AMERICA

    Secretary Powell. And if I may have one final word, Mr. 
Serrano, you mentioned in the course of your remarks earlier 
about some who have been rather quiet about U.S. involvement in 
Latin America, as opposed to, shall we say, 15 years ago, when 
I was deeply involved, and you recall those days. And I am 
still kind of proud of the fact that America's efforts and 
willingness to get involved produced change in El Salvador and 
Nicaragua that turned out to be for the better.
    Mr. Wolf. Mr. Young, chairman of the full committee.

                  Remarks of Committee Chairman Young

    Chairman Young. Mr. Secretary, welcome.
    Secretary Powell. Mr. Chairman.
    Chairman Young. I apologize that other commitments have 
kept me from attending a full hearing today, but I did want to 
come by for just a few minutes and pay my respects to the 
American who assumed this tremendous responsibility in one of 
the most challenging times in the world's history, and to say 
that I believe you have done a really good job. I think you 
have represented our country well. And I just wanted to come by 
and say those few words to you, because we are really proud of 
what you have done.
    Secretary Powell. Thank you, Mr. Chairman, and thank you 
for your support of the Department's efforts.
    Mr. Wolf. Mr. Miller of Florida.

                     Extradition Issues with Mexico

    Mr. Miller. Mr. Secretary, I appreciate Mr. Young coming 
over just to make those statements, because you really do make 
us proud of this Administration and proud of the job that you 
have done after September 11th.
    One brief comment, something I brought up last year, Boys 
and Girls Clubs. We both share an appreciation of the job they 
do. It was dropped out of the budget last year by the 
Administration. Through Mr. Wolf we got it back in last year. 
But they included it this year, so thank you, because you have 
given that moral support. We appreciate that.
    Let me first ask a question about extradition issues. I 
admire the great job that the State Department does. Last year 
I ended up working with families over here that are trying to 
get someone accused returned. I worked with the family of Holly 
Maddox, who was brutally murdered in Philadelphia in 1977. Last 
year, Ira Einhorn was returned from France to stand trial in 
Philadelphia. It was a lot of work by a lot of people in 
Justice and State that you never read about or hear about, and 
it just happens very suddenly, but apparently the French 
government was very cooperative.
    Since September 11th, the European Union has apparently 
developed an extradition within their countries to make it just 
like extraditing someone from Florida to Missouri.
    How I got involved in this originally was because of an 
issue of a horrible murder in Sarasota in 1997 of a young 
mother of six, including quadruplets who were two years old. A 
hired killer drove from Texas to Sarasota and shot her twice, 
slit her throat twice, fled to Mexico. He's a U.S. citizen, 
born and raised in the United States.
    He eventually came back to the United States and was 
convicted--or pled guilty, actually, serving a life sentence. 
But the problem was we had to waive the death penalty, and so 
with Ira Einhorn, but the question is: the Mexican Supreme 
Court has recently ruled that the life sentence is, I guess, 
cruel and unusual punishment. It has a real threat to our--
because of the huge border we share with Mexico, and we are 
going to have a safe haven for criminals now with terrorism and 
drug dealers that would have--especially U.S. citizens to be 
extradited and to use the excuse of life sentence. I read in 
``Newsweek'' and ``The New York Times'' as many as 70 people 
are being delayed extradition for that.
    What can you tell me as where we stand on that issue--I 
know President Bush and you will be going to Mexico later this 
month--that we can do to address this concern, because we all 
agree we do not, with that huge border, have that safe haven in 
Mexico for criminals.
    Secretary Powell. This is an issue that I raised directly 
with Foreign Minister Castenega, the action of the Mexican 
Supreme Court last fall, which has thrown this whole issue into 
some turmoil.
    I do not think it is quite 70 cases that have been caught. 
It is a lesser number. And we have told them we cannot give 
assurances that there will be no life sentence, that it would 
be inconsistent with our law and with the laws of the several 
States.
    The Mexican government is very sensitive to this issue, 
and, frankly, Mr. Miller, I think we are working out ways to 
deal with this problem a case at a time, and there are some 
clever legal ways that one can work this issue so that we can 
get the extradition taken care of. And so this has high 
priority within the Department and within the Administration, 
high interest on the part of the Mexican government to make 
sure that we do not stop appropriate extraditions, but we have 
to use some clever legal means to make it happen.
    Mr. Miller. I hope we can have a more general policy with 
the Mexican government rather than have to do it case by case.
    Secretary Powell. We expect that, as a result of 
conversations I have had with Foreign Minister Casteneda and 
conversations between our Justice Department and our Justice 
officials and the commitment of the Mexican government, I 
expect that there is a way to resolve this as a general matter 
over the next couple of years.

                      VIOLENCE IN THE MIDDLE EAST

    Mr. Miller. Thank you very much.
    Let me ask one other line of questioning, and that is the 
Middle East. That has to be your frustration and your 
predecessor's great frustration, what's happening there. Of 
course, it is the front page news, sadly, day after day after 
day. I will just take a couple minutes, because we do not have 
too much time.
    How much control does Arafat have in that country? He's 
under house arrest. Who is running that country, or the 
Palestinians?
    Secretary Powell. Mr. Arafat is the elected head of the 
Palestinian authority, and he is clearly the leader of the 
Palestinian people. He is seen by the Palestinian people as 
their leader, so that makes him their leader, however others 
might wish it otherwise. And since he claims this leadership 
mantle, it seems to me he has the responsibility to bring under 
control those organizations in the Palestinian movement that 
are conducting these acts of violence, these acts of terror, 
these horrible acts that fill our screens every single day.
    No issue is of a higher priority to the United States, and 
there is no issue that I spend more time on than on this one, 
and we are encouraged by new initiatives that come along, such 
as the initiative that came from Crown Prince Abdullah of Saudi 
Arabia, suggesting that in due course, if we can get a 
settlement to the crisis, then we can get all Arab nations to 
recognize Israel and normalize relations with Israel once we 
can determine what the Israeli withdrawal will be and what the 
new boundary will be between the State of Israel and a 
Palestinian State.
    And, of course, President Mubarak was here this week, and 
he had an idea that perhaps we could get the two sides to sit, 
Mr. Sharon across the table from Chairman Arafat, and begin 
discussions. There were lots of ideas.
    We have had ideas out there. The President's statement at 
the U.N. last fall calling for the creation of a Palestinian 
state called Palestine, no American president has said that 
before. I gave a speech in Louisville that laid out in a very 
comprehensive way the American view and laid out in a very 
comprehensive way what both sides had to do and what both sides 
had to stop doing in order to move forward.
    And so we have had a lot of initiatives, a lot of ideas. 
They have all not worked so far because the violence continues. 
And you can come up with all the ideas in the world, but until 
the violence ends you are not going to move forward, and the 
violence has to end, and it has to end as soon as possible.
    We need to find a way to get into what is called the 
``Tenet work plan,'' which is a plan that George Tenet, our CIA 
director, worked out with both sides last year as a way to get 
them into the Mitchell process, the Mitchell plan. The Mitchell 
plan leads to a political discussion on the basis of U.N. 
Resolutions 242 and 338, but to get started the violence has to 
go down, so I am anxious to see both sides to do everything 
they can to bring down this tension, to bring down this level 
of violence so that we can get into the Tenet work plan, and 
both sides through this Tenet work plan can begin to work with 
each other and bring security to individual sections within the 
region and then the whole region so that there can be 
confidence-building measures undertaken as called for by the 
work plan and by the Mitchell plan and get back to 
negotiations.
    Both sides are following policies right now that will just 
lead to more violence, and it is a tragic situation, and the 
President is committed to doing everything he can to see that 
we can get into a process of discussion which will bring the 
violence to end, bring a cease-fire into place, and then get 
into peace discussions.
    Mr. Miller. Just reading a paper, I have not been there for 
several years now, but, I mean, Mr. Sharon is talking about 
just having to kill more Palestinians. That is what we are 
going to do. The Palestinians are saying we are going to kill 
more Israelis. I do not know how the Palestinian area even 
continues to survive. They are treated as second-class 
citizens. Now there's vigilante groups--it sounds like possibly 
Israeli vigilante groups that blew up a school, and the mayor 
says, ``Well, they are second, you know. We will only respond 
to them after we take care of everything else.''
    Well, you know, the roads are blocked. There's no commerce 
within the West Bank or Gaza. I am not sure how Mr. Arafat is--
house arrest, and he's symbolically the head of it, and how he 
can really function.
    Secretary Powell. He may be under restraints. He cannot 
move around freely. But he has the ability to call people or 
talk to people and give instructions, so I think he can do more 
and he should do more.
    Mr. Miller. I think Palestinians are second-class citizens 
over there, not the Israeli citizens but the Palestinians.
    Secretary Powell. Well, in this condition of violence 
everybody is a second-class citizen when you cannot even go out 
for an evening walk without worrying about a bomb going off and 
killing you. Yes, the Palestinian people are having--are under 
enormous difficulty right now, with their inability to get to 
jobs, their inability to conduct commerce, and all of these 
problems can be on the way to resolution with the ending of the 
violence, and Mr. Arafat has to do more. He can do more. He 
must do more. And I think at the same time Prime Minister 
Sharon has to take a hard look at his policies to see whether 
they will work. If you declare war against the Palestinians and 
think that you can solve the problem by seeing how many 
Palestinians can be killed, I do not know that that would lead 
us anywhere. Right now I am not satisfied that both sides have 
thought through the consequences of the policies they are 
following. They need to take a hard look at what they are doing 
now and find a way to get into the Tenet work plan as quickly 
as is possible.
    Mr. Miller. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Mollohan.

               FY 03 REQUEST FOR PEACEKEEPING ACTIVITIES

    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Secretary, I would like to welcome you.
    Mr. Secretary, just a couple questions regarding 
peacekeeping. I notice that your request for $726 million was a 
decrease. It does not seem adequate to me. How does this deal 
with the arrearages issue?
    Secretary Powell. Well, the decrease is a function of a 
lesser demand, lower assessment rates, termination of 
operations in Bosnia anticipated, reduction of operations in 
East Timor and Sierra Leone, and we assume that the rate cap 
will be lifted. If the cap is not lifted, then we may have to 
come in for more money.
    Mr. Mollohan. Well, how does it deal with--let me get back 
to the arrearages. Do we have an arrearage?
    Secretary Powell. Yes.
    Mr. Mollohan. About $318 million?
    Secretary Powell. Yes.
    Mr. Mollohan. Does this deal with the arrearage at all?
    Secretary Powell. No. We still have an arrearage.
    Mr. Mollohan. And how are we dealing with that?
    Secretary Powell. We have just finished paying our second 
tranche of $582 million, and it was always this arrearage that 
was left, and we really have not dealt with it. I want to work 
with the Congress in trying to get rid of the cap, which keeps 
the arrearage from continuing to build up, and then figure out 
a way of how to work off this last debt that we have to the 
United Nations. But I am anxious to get the cap lifted so that 
that does not increase.
    Mr. Mollohan. Where is the problem in lifting the cap? I 
mean, is the United Nations not doing something that Congress 
requires, which keeps arrearages from being dealt with? Do you 
have an authorizing problem? Talk about that issue and where 
the problems are.
    Secretary Powell. I do not know that there is anything left 
for the U.N. to do that it has not done that we are not 
satisfied with. The only thing right now is we have to get the 
cap lifted in the authorization bill. It is in the Senate 
version of the authorization bill, and we are still trying to 
lift that cap. But I think it is just a question of coming to 
grips with this final bill. It was all we could do last year to 
get the $582 million dealt with.
    Mr. Mollohan. What does that mean, it is all you could do 
last year to get it dealt with? It is all you could do to get 
that much money out of the Congress?
    Secretary Powell. To tie all the bows and check all the 
boxes and make all the pledges and all the other things that we 
had to do to satisfy the Congress that this was a smart thing 
for Congress to do. And I must give credit to Ambassador 
Holbrooke, my predecessor at the U.N., who pulled this all 
together and managed to satisfy the various constituencies in 
the Congress that it was time to get that bill taken care of, 
but there was still a remaining bill.
    Mr. Mollohan. Well, is it not time to pay the remaining 
bill, all the bows tied up and is it not time to get that 
remaining bill----
    Secretary Powell. I would love to get the cap lifted and 
all of the arrearages paid off.
    Mr. Mollohan. How do you get the cap lifted? What do you 
have to do?
    Secretary Powell. I need the House to authorize the lifting 
of the cap and for it to go through the conference process and 
come out the other end in the overall State authorization bill.
    Mr. Mollohan. So this budget does not anticipate your being 
successful in getting that cap lifted, does it, because you are 
not requesting the money----
    Secretary Powell. This budget assumes that the cap will be 
eliminated. It will go from 25% to 27%.
    Mr. Mollohan. Okay. So you assume to pay these arrearages 
in this request. Is the arrearages request contained in the 
$726 million?
    Secretary Powell. No.
    Mr. Mollohan. Then where is it?
    Secretary Powell. It is not in this submission.
    Mr. Mollohan. Then how does the budget anticipate----
    Secretary Powell. The budget does not reflect the 
elimination of arrearages.
    Mr. Mollohan. Okay. I am sorry. You probably misunderstood 
my question or I----
    Secretary Powell. I want to make sure I am saying it right.
    Mr. Mollohan. What I thought I asked was: does this budget 
anticipate the cap being----
    Secretary Powell. The budget anticipates the cap being 
lifted, but it does not request the money, because the 
arrearages money has already been appropriated.
    Mr. Mollohan. Where? Where is it?
    Secretary Powell. It is in previous appropriations.
    Mr. Mollohan. And carried?
    Secretary Powell. And carried forward, but we cannot finish 
it off----
    Mr. Mollohan. So you are just holding it pending----
    Secretary Powell [continuing]. Until we deal with the cap.
    Mr. Mollohan [continuing]. Authorization.
    Secretary Powell. Yes. It is an authorization issue. The 
funds were previously appropriated.
    [Secretary Powell consulting with aide.]
    Mr. Mollohan. If it is not quite right, maybe you can 
expand on that for the record.
    Secretary Powell. Yes.
    Mr. Mollohan. On to the adequacy of the $726 million for 
the peacekeeping missions that are ongoing, you have assumed a 
decrease, as I am reading this justification, in almost every 
one of the missions. Is that realistic? The U.N. is not going 
to continue anything in Bosnia, and all these other missions 
are going to decrease as you have reflected here?
    Secretary Powell. This is what we assume to be the case. If 
it turns out not to be the case, then we will have to come back 
to you.
    Mr. Mollohan. Well, I understand that.
    Secretary Powell. Yes.
    Mr. Mollohan. But the question is: is it realistic that we 
are going to be decreasing these missions in every one of these 
areas?
    Secretary Powell. Yes, I believe it is realistic.
    Mr. Mollohan. That would be great. That would reflect a lot 
of progress in many areas around the world.
    Secretary Powell. Well, there has been progress. For 
example, in East Timor, and especially Sierra Leone, the bulk 
of the work in Sierra Leone with respect to that peacekeeping 
operation and the collection of weapons has gone rather well, 
and so I think these are reasonable savings--or ``reasonable 
reductions'' is a better way to put it. But, you know, you 
cannot anticipate a new mission coming along or one suddenly 
expanding, in which case we will have to come back to you.

                   FY 03 REQUEST FOR PUBLIC DIPLOMACY

    Mr. Mollohan. I was just kind of surprised. Maybe the 
chairman will have detail on that.
    It is clear that we are not communicating adequately on a 
number of different levels with the Arab world. How does this 
budget address that issue? I mean, do you agree with that? I am 
sure you do, and you might talk about that a little bit and 
talk about how your budget addresses that. I am looking at a 
couple of areas here. The public diplomacy programs, $5.3 
million is about level funding. It says you expand the services 
in the Office of Broadcasting. Just as a starter, would you 
talk about that premise a little bit?
    Secretary Powell. I spoke about it earlier, but you are 
absolutely right that we have to do a better job of getting our 
message out, especially to Muslim Arab populations, and we do 
have an increase in public diplomacy. It is not as great as I 
would like, and we may well be coming in with more in a 
supplemental request that we are currently discussing with the 
Office of Management and Budget, and we have to do a better job 
of conveying our value system to the Muslim world, letting them 
know again that it is the United States who came to the rescue 
of Kosovo and Afghanistan and Kuwait, Muslim countries that 
were not invaded or attacked by the United States but were 
attacked by others.
    Mr. Mollohan. How are we doing that?
    Secretary Powell. Just by saying so and by putting out more 
and more people, by putting more and more people on Arab 
television and Arab radio, by putting more and more articles in 
Arab newspapers. We have a station opening up in the region 
that will convey our message more effectively.
    Mr. Mollohan. Who is opening that up?
    Secretary Powell. We are with a public/private venture.
    Mr. Mollohan. Not out of one of the radio----
    Secretary Powell. I do not think--no, it is a separate 
account--BBG, Broadcasting Board of Governors operation.

          FY 03 REQUEST FOR CULTURAL AND EDUCATIONAL EXCHANGES

    Mr. Mollohan. In cultural and educational exchange 
programs, which I think would be a natural complement to 
broadcast----
    Secretary Powell. Yes.
    Mr. Mollohan. You are requesting a decrease in the 
professional and cultural exchanges of $3.3 million, a bit of 
an increase in academic--actually, it is not an increase. It 
would be level funding, at best. In exchange programs it would 
be level funding, as well.
    Secretary Powell. On overall educational exchanges, it is 
not quite level, a slight increase of $8 million by my numbers.
    Mr. Mollohan. Well, I would say that would be virtually 
level funding with inflation. But these are wonderful programs. 
Hamid Karzai, I understand----
    Secretary Powell. He was.
    Mr. Mollohan [continuing]. Was a participant in one of 
these programs.
    Secretary Powell. He was a participant in one of the 
programs, and I could not agree with you more. These 
educational and cultural exchange programs, the Fulbright 
program, these are all wonderful efforts, as well as, for 
example, IMET--International Military Education and Training. 
We have increased that, as well. These are terrific ways of 
bringing young potential leaders to the United States, exposing 
them to our value system, letting them live here.
    Mr. Mollohan. Why don't we expand on that?
    Secretary Powell. Well, we have been expanding. I mean, 
there are limits. I would love to triple it. If you want to 
triple it, go ahead.
    Mr. Mollohan. Well, I think it would be delightful to 
triple it, but I think the question is what do you want to do?
    Secretary Powell. I want to increase them and we have 
increased them and I am going to try to increase them more in 
the years----
    Mr. Mollohan. Did you ask OMB for more money in these?
    Secretary Powell. We got more money. It is a slight 
increase.
    Mr. Mollohan. Well, I know. That did not quite answer my 
question.
    Secretary Powell. Yes, it is.
    Mr. Mollohan. Did you ask OMB for more?
    Secretary Powell. We asked and we received an increase.
    Mr. Mollohan. You received what you got? So, in other 
words, you wanted an $8 million increase and that was all?
    Secretary Powell. I do not know what we requested. I would 
have to go in and find out.
    Mr. Mollohan. I am not trying to catch you on it, I am just 
trying to----
    Secretary Powell. No, it is not a catch, Mr. Mollohan, but 
everything competes with something else, and when you go in and 
you try to get an increase in every single account--and I would 
love for this budget not to be $26 billion, I would love for it 
to be $46 billion, but it is not, cannot be $46 billion at this 
time. Maybe if I stay long enough I can get it up there.
    Mr. Mollohan. You know, in the war on terrorism the 
competition is huge and maybe it is not this program. Maybe you 
are asking to fight back more some place else by making the 
funding more robust. And I have not looked at every one of the 
accounts, so this line of questioning is my way of expressing 
my feeling that----
    Secretary Powell. No, I----
    Mr. Mollohan [continuing]. This is an area that we ought to 
be doing a whole lot more, and these exchange programs are 
wonderful programs.
    Secretary Powell. I could not agree with you more, Mr. 
Mollohan.
    Mr. Mollohan. Let me join all my colleagues in telling you 
how I admire what a good job you are doing. We appreciate your 
efforts.
    Thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Mollohan.
    We are going to recognize Mr. Obey and then Mr. Cramer. I 
apologize to Mr. Cramer. I think it has been a good practice to 
always recognize the chairman and the ranking member because 
they have 13 different committees to go to and subcommittees, 
but Mr. Obey and then Mr. Cramer and then Mr. Vitter.

                Remarks of Committee Ranking Member Obey

    Mr. Obey. Well, thank you, Mr. Chairman.
    I do apologize, Mr. Chairman, for not being here earlier. I 
have been across the hall with Secretary Thompson, who was also 
my former governor, so we had to do first things first.
    Mr. Secretary, I hope you do not take my comments the wrong 
way. There are lots of questions I would like to ask you on 
policy, but there is a more overriding concern I have this 
morning, and so I think I am just going to get something off my 
chest.

                  FY 03 ADMINISTRATIVE BUDGET REQUEST

    As you know, last year the administrative budget of the 
State Department was increased significantly, a 14 percent 
increase, going from $3.2 billion to about $3.7 billion. And, 
as you know, I was strongly for that. I urged my colleagues to 
provide just as much as humanly possible, because I thought 
that your agency had been under-funded for years.
    This year you are asking for 399 new positions and an 8 
percent administrative budget increase over last year, and I 
want to tell you I do not support that this year. It is as you 
say--every dollar that you put in this budget somewhere is 
accompanied by a dollar that has to be taken out.
    At the risk of offending the former Old Miss cheerleader on 
the Senate side, I am going to dare to suggest that the 
allocation of resources between what we are doing abroad and 
what we are doing at home might just not be plum perfect in the 
White House's budget. And if the cheerleader from Mississippi 
is going to hyperventilate over that, that is tough, but I want 
to get something off my chest.
    I am an internationalist. I believe very deeply that we 
need to be doing more than we are doing in a variety of areas. 
But the Marshal Plan was not sold at a time when we were 
clobbering domestic expenditures. The American public, even 
though public opinion polls were never positive in terms of the 
Marshal Plan, nonetheless the American public tolerated it as a 
grace note because they thought that their at-home needs were 
being tended to.
    I think there are a number of needs that are not being 
tended to at home which relate to our ability to marshal public 
support for national security expenditures and international 
expenditures. Example: homeland security. I am still steaming 
over the fact that last year the White House had to be dragged 
kicking and screaming into supporting additional homeland 
security funding above their own request, including 
bioterrorism preparedness funding. The President personally 
told me that if we passed one dime above the amount that the 
Administration asked for, he would veto our homeland security 
efforts last year. I think that was profoundly reckless, given 
the threats that were described to me by a number of agencies, 
including your own.
    In addition to that, I take a look at some other actions 
that are being taken by the Administration in its budget. Both 
political parties posed for political holy pictures supporting 
NIH. That is a nice, popular, politically sexy account. But 
then the White House budget cuts $1.4 billion from other health 
care programs. I do not think that kind of budget is going to 
marshal support for our providing more money for foreign aid. I 
think it is going to diminish public support for it.
    I firmly believe that we ought to be doing more to provide 
additional help for Third World countries with respect to their 
education problems and their health problems, but it is going 
to be hard as hell to convince the American public to do that 
when we are slashing the rate of increase in support for 
education that we had the last five years in this budget and 
when we are gutting programs like world health. The districts 
in this country where we need the biggest increase in public 
support for international activities are rural districts, and 
politically a practical fact is we ain't going to get that 
support from people if they see their own needs being short 
sheeted.
    So I just wanted to make that point because, as you say, 
nothing occurs in isolation, and in my view we are being set up 
in the Congress so that we are forced to choose between 
providing additional funding for international activities or 
additional funding for education and health care and job 
training, and we are forgetting the third part of the equation. 
I know we are not supposed to talk about taxes, nasty word, but 
the fact is these three numbers--and I recognize you are not 
making these decisions, but I am going to get this out every 
chance I get. These three numbers represent what has happened 
economically in this country over the last 20 years to after-
tax income. The top number is $400,000. That is the amount by 
which the most well-off 1 percent of people in this country 
have seen their after-tax income increase over a 30-year 
period. The $3,400 figure below that is the amount by which the 
American who is exactly in the middle of America's income 
stream, that is the amount by which their after-tax income has 
risen over the last 30 years--$3,400 as opposed to $400,000. 
And then, if you are unfortunate enough to fall in the bottom 
20 percent of people in terms of income in this country, over 
the last 20 years you have actually lost $100 in terms of real 
income after taxes.
    And yet, if you take a look at that tax cut that was passed 
last year, when fully effective that tax package will provide 
the folks who have already over the last 30 years had an 
average of $400,000 increase in their after-tax income, they 
will wind up with a $52,000 tax cut. The folks in the middle, 
who have seen their income rise by $3,400 over that same 
period, will have a $600 tax cut. And one-fourth of the people 
who have already lost ground will get absolutely nothing 
because they do not make enough to quality under the tax cut 
that Congress passed and the President signed.
    In my view, that is the context in which we are going to 
have to deal with all of the requests for defense, for foreign 
aid, education, you name it, and it seems to me--I know that 
some people are as offended when we talk about delaying 
scheduled tax cuts for this 1 percent at the top of the 
economic heap--and, incidentally, you have to make $330,000 a 
year to be in that top 1 percent. Not bad. But I know some 
people are offended when we talk about delaying tax cuts for 
those folks so that we can afford to do more of what you think 
we need to defend the national interest and more of what we 
think we need to do to strengthen us here at home, including 
education and health and homeland security.
    So I just wanted to put that on the table. It is beyond 
your jurisdiction, and I do not expect to debate you on it 
because it is the White House, OMB, and the other wizards in 
this town who are setting that policy. But I think this is a 
warped result which is going to result in squeeze on a lot of 
programs, including the administrative budget for which you are 
asking an increase to finance 399 new positions.
    I want you to understand why I think it is a different ball 
game this year than it was last year in terms of your budget 
request for administrative purposes.
    Thank you, Mr. Chairman.
    Secretary Powell. Thank you, Mr. Obey.
    Mr. Wolf. Thank you, Mr. Obey.
    Mr. Cramer.

                          EMBASSY CONSTRUCTION

    Mr. Cramer. Mr. Secretary, I want to add to the chorus of 
welcomes as well. I have been impressed with your leadership at 
the Department and especially since September the 11th. I have 
always enjoyed working with you and look forward to the day 
when we might interchange over issues that I brought up last 
year.
    Last year I talked to you about our embassies and security 
at our embassies, and you laid out for me and then sent General 
Chuck Williams to see me--most impressive plan with our 
security issues at our embassies. I am sorry I was not here for 
your testimony, but I read through the detail that you are 
offering there.
    I would like you to be a little more specific about what's 
coming on line. Thirteen facilities coming on line? What does 
that mean? Give me some examples of what we have accomplished 
specifically in the last year with regard to security.
    Secretary Powell. I would like to give you a more fulsome 
answer for the record, but let me just say that General 
Williams, in the course of the last year, has managed to reduce 
overall construction cost of embassies, new embassies, by about 
20 percent. One embassy in Beijing that we were building that 
was of great concern, he has been able to really reduce the 
cost of that embassy considerably. He is trying to do a better 
job of matrixing new embassies so that you have common 
components with respect to powerplants and other facilities 
that you can repeat embassy after embassy and not reinvent it 
with every new embassy building that you design, some common 
components with respect to embassy construction.
    Mr. Cramer. Now, does his plan take into consideration 
sites where we already have our embassies located and what we 
might do to improve those sites----
    Secretary Powell. Yes.
    Mr. Cramer [continuing]. Or is this mainly for new 
construction?
    Secretary Powell. No. He's put together a master plan that 
includes new construction as well as upgrading facilities in 
existing sites, such as the couple that I have referenced in my 
documents this morning. Kingston, Jamaica, is an example where 
we are upgrading a number of sites. It includes not only new 
construction, but, as well, it includes security-driven 
projects, things that have to be done because of security, not 
necessarily new construction, as well as redesign fit out of 
newly-acquired buildings. Bridgetown, Barbados; Kingston, 
Jamaica--newly-acquired buildings; design and construction of 
annexes in Athens, Tirana, Almaty, Albania, and Moscow. Then 
there are security-driven projects in Astana, Kazakhstan, 
Bamako, Mali, and in Panama City. He's got a master plan which 
I do not know if he's had a chance to provide to you or not, 
but a master plan of exactly what we are going to do for the 
next five years on the basis of new construction, on the basis 
of upgrades, on the basis of security-driven projects, and new 
office buildings, and presence facilities that we have talked 
about.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Cramer. I have not evaluated your budget, but your 
budget takes into account those new designs, those new plans, 
and new facilities, as well?
    Secretary Powell. Yes. Yes, it does.

                           EXCHANGE PROGRAMS

    Mr. Cramer. I want to echo some of the remarks of Mr. 
Mollohan about the exchange programs and the budgets for those. 
I have co-chaired with Roger Wicker a Russian leadership 
exchange program which I think has gone incredibly well, where 
we have brought young potential Russian leaders here to the 
United States, gotten Members of Congress--I think some 20 to 
30 Members of Congress that have sponsored those groups that 
have gone all across our country, settling into our 
communities, going to church with people, visiting business 
people, looking at land issues, school issues, all kinds of 
issues. Now, that program is not funded out of your budget, but 
it is funded out of another budget, so I think there are ways 
that we could incorporate these programs. But I also want to 
emphasize that I think these are programs very much worth of 
budget increases and budget priorities, as well.
    Secretary Powell. I could not agree with you more, sir. 
And, as I said to Mr. Mollohan earlier, these programs are 
terrific, and I had experience with them as a soldier when I 
met foreign officers back when I was a captain and I followed 
them throughout their careers and we have both ended up 
chairman of the Joint Chiefs of Staff of our respective 
services, and they always treasured the time they spent in the 
United States school. That is the military part of it.
    It is the same thing with Fulbright scholars, all your 
other kinds of programs where you bring people from overseas, 
have them come, live in our community, go to our schools, meet 
our families, understand our customs and traditions. This is an 
incredibly powerful investment.
    Mr. Cramer. And it sure gets us the chance to overcome some 
of the----
    Secretary Powell. Absolutely.
    Mr. Cramer [continuing]. Pre-set ideas of what we are 
really all about.
    Secretary Powell. Absolutely.

                  recrutiment at the state department

    Mr. Cramer. And also I want to go back to an issue that we 
discussed last year. You have done an incredible job with 
recruiting people for the Department, and, as I have had the 
few occasions to mix and mingle with our overseas State 
Department employees, I have been most impressed. It is always 
interesting to understand what family sacrifices they make, and 
husband-and-wife teams and how they go about settling 
themselves, especially when a spouse is not a State Department 
employee.
    In your comments you refer to a new web-based recruiting 
tool, and vigorously asserting the truth. Can you tell me a 
little bit more about what you mean by those?
    Secretary Powell. We made a major effort last year to let 
all young people in the United States and not-so-young people 
in the United States know that the State Department was looking 
for quality people who wanted to serve--serve in the front 
lines of democracy, as we called it. And, as a result, we 
doubled the number of youngsters applying for the Foreign 
Service exam last fall, and that is why we needed those 
positions that Congress gave us. No point in having a great 
recruiting effort you cannot hire at the other end of the 
process.
    We are also concentrating on the Civil Service part of it, 
as well, not just Foreign Service. We need great civil servants 
to come into the Department, as well. And so we are putting a 
lot more of this on the web--how to apply on the web, how to 
find out information about jobs in the State Department and 
Civil Service on the web. And so we are trying to make this 
user friendly, web-based. More and more people have access to 
the web and get information about the Department on the web.

                     DIPLOMTIC READINESS INITIATIVE

    Mr. Cramer. And the Department's diplomatic readiness 
initiative, what exactly is that?
    Secretary Powell. It is a tiger team. It is a bunch of 
people we have put together in their own little office drawing 
from assets within the Department, and their mission is 
diplomatic readiness--finding people who want to become part of 
the Department, getting them ready to take the exams.
    For example, people in my front office--I have a Cuban 
American in my front office, my executive secretary, and on the 
weekends she calls Hispanics who have taken the Foreign Service 
exam, or at least applied for it, and she makes sure that they 
show up to take it, to encourage them--that kind of direct 
contact. Our Diplomatic Readiness Task Force works on issues 
like that, cradle-to-the-grave, bringing people into the 
Foreign Service, and let them know we have a career path for 
them. We put out a training program now. They know what is 
expected of them over time. It just gives total attention to 
the readiness of our people to do the jobs that we have waiting 
for them.
    Mr. Cramer. How long has that task force existed?
    Secretary Powell. I inaugurated it and put it in a new 
office about six months ago.
    Mr. Cramer. Very good. Thank you. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Mr. Wolf. I thank you.
    Mr. Secretary, we have a vote and we are not going to keep 
you, so we are going to end in about four minutes.
    Mr. Kennedy, did you want to----

                      INTERNATIONAL CRIMINAL COURT

    Mr. Kennedy. Sure. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. I thank you for the job that you 
are doing on behalf of our country. You are representing our 
country very well and we are proud that you are our Secretary.
    I would like to bring up a question that I brought up last 
time that you were before this committee, and that has got to 
do with the International War Crimes Tribunal.
    As you know, last time we spoke about it--and I know of our 
differences on it--there are over 52 countries that have 
ratified the International Criminal Court, and it was at that 
time you said that the Administration's position would be to 
support the ad hoc courts that are already in existence, and 
yet in your budget you actually have lower--you cut, basically, 
funding for the ad hoc tribunals in former Yugoslavia and in 
Rwanda. So I would ask you what other multilateral venue do we 
have to bring the issue of criminal justice to light in an 
international setting if we do not support the ICC and we do 
not support the ad hoc?
    And let me just say one final thing. I think that the 
message that has been going around in the Congress about how we 
cannot get entangled with the ICC because we might end up 
becoming victims, our young men and women might be held 
accountable under the ICC statute, but it is not true that we 
are going to be under the ICC statute whether we ratify it or 
not. Even if that is the case, would not it make sense to join 
it, because if we did then we would be able to access the 
theory of complementarity and be able to have first right to 
try our own troops before they would ever be called before an 
ICC? So in essence we have more protections for our troops if 
we ratify it than if we do not, which is kind of a funny way of 
thinking about it, wrapping your head around the idea that by 
joining it you actually have more independence than by not 
joining it. I would ask you to comment on that, as well.
    Secretary Powell. We still believe that the ICC does not 
serve our interest and it has some deleterious effects with 
respect to our ability to conduct our operations around the 
world and might put at risk some of the Constitutional 
protections that we expect our soldiers to have and our 
soldiers expect to have.
    President Clinton believed this also at the time he signed 
the treaty or the agreement, because in the signing statement 
he as much as said that--that he did not intend to send it up 
for ratification, and this Administration does not intend to 
send it up for ratification, either.
    With respect to the various international tribunals, we do 
support them. My ambassador for war crimes tribunals, 
Ambassador Pierre Prosper, testified before Congress last week 
that some of these tribunals will be going out of service in 
the timeframe 2007, 2008, and their workload is decreasing over 
time, so I do not know what the specific numbers are with 
respect to specific cuts in any of the tribunals----
    Mr. Kennedy. It is four million for Rwanda and 2.5 for 
Yugoslavia.
    Secretary Powell. I would have to get for the record why 
those specific cuts are in there, but I suspect it does not 
reflect--I know it does not reflect a lack of support for these 
tribunals, but it may reflect the declining workload, but I do 
not know. I would like to give that to you for the record.
    Mr. Kennedy. Thank you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Secretary Powell. We just feel our soldiers are better 
protected not as a signatory to the ICC, and we recognize that 
it will go into effect once it is ratified by 60 countries.
    Mr. Kennedy. Yes.
    Secretary Powell. And when it goes into effect, it is with 
the force of international law, and therefore all persons are 
subject to it.
    Mr. Kennedy. Right.
    Secretary Powell. And we would have to then condition where 
we send our soldiers and under what circumstances we send them 
overseas as a function as to what dangers they might be put 
under with respect to the ICC. The United States is different. 
We are unique.
    Mr. Kennedy. I understand that.
    Secretary Powell. And I think we have a certain obligation 
to our young men and women in uniform.
    Mr. Kennedy. And that is why we have the theory of 
complementarity built into the treaty, and I know that was 
worked out through much work by the United States delegation. 
The whole purpose of that was that then we would retain the 
power to try our own troops under our own court martial system, 
our own justice system, rather than have them immediately go 
through the ICC. So it actually is the opposite. If we want to 
protect our troops, we had better ratify it, because then we 
maintain our first right of refusal, if you will, for trying 
these.
    Secretary Powell. That is not the judgment that this 
Administration or the previous Administration came to, and I do 
not believe we have gotten the level of protection, even with 
complementarity, that I believe our young men and women are 
entitled to.

                               EAST TIMOR

    Mr. Kennedy. Could I ask you also about East Timor, the 
fact that we have not been able to get, despite the memorandum 
of understanding, the Indonesian government to help us at all, 
helping to prosecute some of these war criminals as part of the 
whole reconciliation process. Could you comment on that?
    Secretary Powell. I would like to give that to you for the 
record. There has been a problem with that tribunal, but I 
would like to give you a more fulsome answer for the record.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                       AID WORKERS IN WEST AFRICA

    Mr. Kennedy. And the abuse by AID workers in West Africa.
    Secretary Powell. A source of enormous concern to us, and 
we are in discussions with the United Nations as to how to get 
to the bottom of this, how to find out those who are 
responsible and guilty and bring them to justice, but we have 
to make sure that we do not throw out the programs. There's 
some suggestion we should cut off funding for these programs, 
but the only ones who would be hurt are the people receiving 
the benefits----
    Mr. Kennedy. I hear you.
    Secretary Powell [continuing]. So we should not do that.
    Mr. Kennedy. I hear you.
    Secretary Powell. Yes.

                        U.S. POLICY IN COLOMBIA

    Mr. Kennedy. Let me also say finally that in my 
Congressional District we had a priest, Father Paul Guiterrez 
Corrales, who was assassinated in Colombia recently. He was a 
priest in my District. Obviously, the tumultuous war in 
Colombia is affecting our international policy to a great 
extent, and I just would like to make a point of saying that 
this is a case that I am watching, and I would like you to 
comment maybe to the committee--I know you may have already--
about what the State Department is doing to address these 
issues.
    Secretary Powell. I have commented to the committee 
earlier, Mr. Kennedy, with respect to the fact that we are 
reviewing our policy in light of the changed situation in 
Colombia with the end of the safe havens and whether it is 
necessary for us to assist the Colombians with counter-
terrorist efforts in addition to the counter-narcotics efforts 
that we are assisting them with. That review is taking place 
within the Department now.
    To assist them as they move more aggressively against these 
counter-terrorists or insurgents, some might call them, we will 
run up against the limits of the current authorities that we 
have under the counter-narcotics programs that we are running.
    Mr. Kennedy. And we will be following that.
    Secretary Powell. Yes.

                    GLOBAL POVERTY LOANS AND GRANTS

    Mr. Kennedy. Finally, I would just say I had a very 
interesting meeting with the president of the World Bank, Mr. 
Wolfenson, a couple of weeks ago. He went through with me the 
international poverty issue, which was featured in last week's 
``Time'' or ``Newsweek'' magazine.
    Secretary Powell. Yes.
    Mr. Kennedy. I am not sure which. And it really does point 
to our international security in the developing world with the 
booming populations who are in destitute poverty. As part of 
our national security, we will not be able to be fully secure 
unless we address the issues of global poverty.
    I would just say I agree with President of the World Bank 
Wolfenson that we should not convert these loan programs to 
grants, because we take the money out from being recycled. 
Basically, these loan programs through the World Bank are 
programs that are interest free and almost like grants, and 
when a country 30 years later gets to paying them back, and as 
they often do, they put the money back in circulation where it 
can go help another very troubled part of the world.
    I would just say that I am very troubled by the prospects 
of the Administration at Monterrey saying that they are about 
to turn this loan program into a grant program, because I think 
it will destroy what little we have in terms of recycled value 
and international aid, and I hope that you may be able to 
comment on that.
    Secretary Powell. There is an argument over this issue as 
to whether or not it is better just to give grant, and we are 
inclined to think that we probably can strike a better balance 
between loans and grants and give them grants so that the money 
goes to immediate use and you do not saddle that country with 
the debt, long-term or otherwise. And so I have the utmost 
respect for Jim Wolfenson. It is an area that I hope to be able 
to spend more time talking to him about so that we can have a 
more unified position when we get to Monterrey.
    Mr. Kennedy. Well, if we do go for the grant process then 
it would make sense we would up the money in our international 
aid budget.
    Secretary Powell. I am always for upping the money 
internationally.
    Mr. Kennedy. I would imagine you are, so maybe we could 
work on looking at those issues. Thank you.
    Mr. Wolf. Mr. Secretary, we are down to four minutes. Thank 
you very much. We will submit additional questions for the 
record or raise them in subsequent hearings. Trafficking in 
persons is a big issue we were going to raise with you, also 
the abuse of the children in West Africa. Also, we are waiting 
for the report to come up on compensation with regard to 
American victims of terrorism. In addition I wanted to raise 
the issue of the return of criminal aliens to their country of 
origin. There are 3,000 now in prison in the United States. We 
should be asking Vietnam and those other countries to take them 
back.
    We thank you for your testimony.
    Secretary Powell. Thank you very much, Mr. Chairman.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, April 11, 2002.

                        U.S. DEPARTMENT OF STATE

                               WITNESSES

RICHARD ARMITAGE, DEPUTY SECRETARY OF STATE
GRANT S. GREEN, JR., UNDER SECRETARY OF STATE FOR MANAGEMENT

             Opening Remarks of Subcommittee Chairman Wolf

    Mr. Wolf. The Committee will come to order. It is a 
pleasure to have with us the Deputy Secretary of State, Richard 
Armitage, and the Under Secretary of State for Management, 
Grant Green, for their second appearances before the Committee. 
I appreciate the great job that the Secretary and both of you 
are doing, and your people are doing; and frankly the Bush 
administration is doing with regard to all of the issues that 
we are facing. There have never been greater challenges when 
you look at Afghanistan and Middle East and what is taking 
place in Africa. I want to let you know we personally 
appreciate what you are doing. I am sure I speak for the rest 
of the Subcommittee.
    We will hear your testimony regarding the fiscal year 2003 
budget request for the operation of the Department, including 
the cost of improving security for employees overseas and other 
management improvement initiatives. The budget request includes 
funding to expand the efforts we began this year to 
significantly increase staffing, both overseas and 
domestically.
    You are seeking funding for 631 new positions and 
significant continued funding for capital technology 
investments and embassy security programs. For many years, this 
Committee has been very supportive and helped you to improve 
the management of the Department. We look forward to hearing 
about the progress you are making in bringing about needed 
reforms and putting in place improved management structure and 
many other issues. There will be a number of questions on 
policy issues I am sure and a number of budget issues as well.
    With that, let me recognize Mr. Serrano. And after that you 
can proceed as you see fit. Your full statements will appear in 
the record.

           Opening Remarks of Ranking Minority Member Serrano

    Mr. Serrano. Thank you, Mr. Chairman. Good morning, 
gentlemen, it is nice to see you here. It is obvious from the 
chairman's comments that we are big supporters of the State 
Department and the work you have to do. And I want to join the 
chairman in saying that these are very difficult times. You 
guys have done a great job and the ladies who are at the 
Department also. We are very proud as Americans and very 
grateful to you for the work that you are doing.
    I will also tell you when the Secretary was here before 
this Committee, I was careful not to ask him a single question 
about Cuba and I didn't get him in any trouble anywhere in the 
country. I am not promising you the same thing. And lastly, one 
thing I mentioned to the Secretary, which is of great concern 
to me and one that falls more on the Justice Department than on 
your department, but since you are the State Department, and 
since you play such a major role just keep in mind as we go 
through this very difficult time in this country and as we try 
throughout the world to root out the evil of terrorism and get 
the bad guys, that in the process, we in this country don't 
hurt the good guys and that we respect peoples' civil liberties 
and civil rights, and we don't stereotype people ethnically, 
racially or in religious terms.
    We don't want to repeat what we did during World War II. We 
don't want 20, 30, 40 years from now to feel about Arab 
Americans and other groups the way we now feel about what we 
did to the Japanese-Americans during World War II. And I know 
this is a very delicate situation you have in your hands. And 
as I said, it probably falls more on the Justice Department 
than it does on you. But it is something that I need to remind 
us and to remind myself, that we have to be balanced in this 
approach so that as we get the bad guys, and we don't hurt the 
good guys. And with that, I welcome your testimony and stand 
ready to work with Chairman Wolf to make your life much easier 
this year.

              Opening Remarks of Deputy Secretary Armitage

    Mr. Armitage. Thank you Mr. Chairman. Mr. Serrano, if I may 
just comment on your comments. Sir, that is not a Justice or 
State or Defense issue you raised, it is a human issue, and I 
thank you for reminding us. It belongs to all of us. It is our 
duty to respect every human being and treat them with the same 
dignity and respect which with we want to be treated. I 
appreciate the reminder.
    Mr. Chairman, I owe you several thanks today. First of all, 
to you, and your committee, thanks for supporting us so well. 
We are extraordinarily grateful and we count on earning your 
continued support. Number two, I want to thank you for the 
letter that you sent me. I want to make some comments about the 
Middle East in a while, and I think your letter, which I got 
yesterday reminding us of the words of Dr. Martin Luther King 
and the Nobel laureate Elie Wiesel do come to mind as Secretary 
Powell is on the eve of his journey into Jerusalem. I want to 
thank you for the letter.
    Third I want to thank you and the committee for allowing us 
to reschedule this hearing from March 21st, because what you 
allowed us to do that day was to go to Andrews Air Force base. 
I had the duty of welcoming back into this family the remains 
of Barbara Green and her daughter, Kristen, and welcome back 
into this family her husband, who was gravely injured and her 
son. It gave us the opportunity with President Bush to 
privately meet with them at Andrews Air Force base out of the 
glare of the press lights. He didn't want press.
    The President and Mrs. Bush spent some time with Mr. Green 
and his son. Although obviously the President couldn't bring 
back his wife, the President told the Greens that he would pray 
for them, and he was secure in the knowledge that they were in 
a better place. He went on to say that none--no less than our 
men and women in uniform, the men and women of the Department 
of State are fighting on the front lines, and he appreciated 
their sacrifice. That reminded me vividly why we are here.
    Mr. Chairman, before we were going to have the last 
hearing, I asked your permission to poll the members of your 
committee to see if there were particular issues they wanted me 
to raise. I did receive some responses, and I will tick, tick, 
right down if I may and I will end with you, Mr. Chairman. 
Congressman Miller and Congressman Latham both wanted to talk 
about embassy security, which my colleague Grant Green can 
address in much greater length than I. We are appalled as 
anyone else with the cost of security today.
    General Williams, who directs our overseas building 
operation, has decided on a modular construction plan, to 
standardize embassies which we hope will allow us to bring down 
the cost. He is using best business practices. He put together 
an advisory panel from industry. Quite stunning the level of 
these folks. I went down and spoke to them, and Grant spoke to 
them. They are there to give us the latest, greatest ideas on 
how to save our money, the money Congress appropriates to us 
and how to make sure that we are as safe as possible. We will 
continue to do that. I don't know how to go below the cost of 
embassy security. It is something that we face in this day and 
age and I don't think we will be able to get away from it.
    Congresswoman, you were kind enough to talk to me about 
your own concerns, which is small businesses and the 
availability of our embassies and the State Department 
particularly to help them. Of course, if you are Lockheed 
Martin or Boeing, I guess you can easily get help, but small 
businesses are particular. We do have a unit in the Department 
of State dedicated to this. I am going to ask, with your 
permission, that Assistant Secretary Tony Wayne come up and 
provide you the information that we do have and make sure that 
all of the small businesses in which you are interested know 
what our embassies can and can't do.
    Now out in the field, is the foreign commercial service is 
in the main duty. Our ambassadors have this duty as well; we 
accept it, we embrace it, and I appreciate you raising it to 
me. With your permission, Tony Wayne will contact you.
    Congressman Vitter raised the issue of the Middle East. I 
want to make a few remarks. Secretary Powell is on his way to a 
meeting with King Abdullah. Tonight, at 4:20 our time, he will 
land in Jerusalem and begin his discussion with Prime Minister 
Sharon, and most probably with Chairman Arafat on Saturday. You 
saw he left Madrid after getting strong statements from what is 
now called the Quartet, the UN, the EU, the Russians, and of 
course the United States. Strong statements which he would not 
have been able to get, and we would not have seen from the EU 
or any of these folks left to their own devices. It was a 
strong statement that paralleled the President's April speech 
and called on both sides to make the necessary sacrifices.
    It is obvious that the leadership of Chairman Arafat has 
been a disappointment. Our President said that the other day. 
He is, however, the elected leader of the Palestinian people. 
He is what we have to deal with. It is clear that suicide 
bombers are not martyrs. They are murderers. We have to do 
something about the lack of hope that leads people to that type 
of decision.
    Finally, we recognize that the Israelis do have a right to 
self-defense, but they have to realize that in this projection 
of their self-defense, there can be repercussions that were not 
considered beyond their control. That is why the Secretary has 
been sent by the President, because we couldn't sit by in 
silence as a friend of the Israelis and friend of the 
Palestinian people while this suffering went on.
    The Secretary is going to do his utmost, with the support 
of the administration, to try to revive the vision which he 
spoke of in his Louisville, Kentucky speech, and the President 
was so eloquent at the UN of two states, Israel and Palestine. 
It was the first time an American President has spoken about 
the state of Palestine, living side by side in peace and having 
a hope of a future for all of their peoples.
    Congressman Serrano, on the question of minority rights, 
you have raised this consistently. I want to assure you and 
show you that not only do we hear you, but you can see results. 
Unfortunately, many of the things that we do in our government 
lives seem to have a gestation period. But I think in a year, 
we have seen some changes that have happened. Let me just tell 
you that last year we had 23,459 people who applied for the 
foreign service exam, of which 8206 were minorities. 12,150 or 
so actually took the exam, of which 4,086 were minorities and 
652 minorities passed, which is the highest we have had since 
we have kept these records.
    Is that good enough? No. However if you look at that and 
with the Pickering scholarships, with the Serrano scholarships 
and the fact that we work with 52 universities to try to 
recruit minorities from Texas to Howard, I think you can see 
that we are pushing. You can quibble with us if you like 
whether we are pushing hard enough or fast enough, and we will 
take whatever guidance you want to give. When I came here last 
year, I spoke about our office of civil rights. The State 
Department was 76 out of 79 agencies when it came to EEOC 
complaints, 76 out of 79.
    Secretary Powell made it clear to Barbara Pope, who runs 
the Office of Civil Rights, that she will be in the top five 
this year. Right now, we have only 17 cases that are still 
outstanding and that have been on hold for more than a year. We 
are getting into the top 5. We are knocking on the door, and in 
slightly less than the year that Barbara has been on the job.
    Finally Mr. Chairman, you are responsible for us adding at 
least 120.5 million dollars to our supplemental request. You 
came back from a trip to Kabul. You showed us a video. That 
video had a stunning effect on all of us and allowed us to get 
OMB permission to put in among other things a budget request 
for $120.5 million for the embassy in Kabul. I wanted to report 
specifically to you, because you told me on the phone that 
those Marines better have weights. Those Marines got their 
weights. We took them from Islamabad and crossed through Kabul. 
They are exercising in pretty shoddy quarters, but they are 
exercising. I will stop there, sir, and thank you very much for 
your support and Mr. Serrano's and Congresswoman Roybal-Allard 
and look forward to your questions.

                Opening Remarks of Undersecretary Green

    Mr. Green. Mr. Chairman, members of the Subcommittee, I am 
happy to be here, along with the Deputy Secretary, to testify 
on support of the State Department's budget for fiscal year 
2003. The Secretary's management priorities are pretty simple. 
They haven't changed: its people, its technology, its 
facilities, its security and the resources necessary to achieve 
those objectives. Thanks in great part to the tremendous 
support from this Subcommittee, I think we are making 
tremendous progress in restoring the management platform of the 
Department, but it is still going to take a couple more years, 
I think, to get us where we need to be.
    Let me address people for just a second. With the FY 2002 
funding the Department received, we have taken the first steps 
to meeting the needs of both our overseas requirements and here 
in the main State Department. We join the Secretary in asking 
you for your support so we can maintain the hiring plan. We 
have got to complete this plan in order to restore the health 
of the diplomatic corps.
    As the Deputy mentioned, in September, the foreign service 
entrance exam had about 13,000 takers, the highest number since 
1988 and a 63 percent increase over just the year before. We 
are proud to have the highest number and percentage of minority 
exam takers and passers ever. We have cut from 27 months to 10 
months the time a successful applicant waits to be hired after 
taking the test. Incidentally, we have filled all seats in the 
most recent A100 course, which is our basic course for foreign 
service officers, and we are well on our way to doing the same 
for all of the fiscal year 2002 classes. They are subscribed 
right now at 80 percent.
    The next foreign service exam, and we have gone from one a 
year to two a year, occurs this Saturday. We have over 25,000 
people who have registered for that exam. Let me move----
    Mr. Wolf. Is that an all-time high?
    Mr. Green. I will check. It has got to be an all-time high, 
because we were at 23,000 and that was the highest since 1988, 
but I will confirm that. It is over 25,000. Regarding embassy 
security, for just a moment, as you know, we have more than 30 
U.S. Government agencies overseas that rely on us as the 
platform at over 260 diplomatic and consular posts. Obviously, 
as the Deputy mentioned, one of our major concerns about these 
overseas facilities are security and safety where our people 
work and live. Our security challenges again are pretty 
straightforward, sustaining the security readiness as the 
threat levels are elevated, strengthening our existing security 
programs and having the flexibility to deal with increasing 
threats worldwide.
    In the area of technology, our priorities also have not 
changed in the last year. They are OpenNet Plus, which is web 
access for all State Department employees on their desktops by 
mid 2003, based on increases we received in the 2002 budget; 
provide classified connectivity and e-mail to every eligible 
post by fiscal year 2004, and provide a foundation for 
modernizing our outmoded 1950s messaging telegram system.
    Lastly, test and evaluate the foreign affairs system 
integration system, which is currently being piloted in posts 
in Mexico and India which will enable us to communicate across 
agencies and across posts.
    Finally, facilities. In the aftermath of September 11, the 
security and working conditions of our employees not only 
overseas, but also in the United States, became a major 
concern, and we are moving aggressively to improve both. The 
deputy had mentioned some of the initiatives that had been 
taken by our overseas building office. Let me add they have 
also developed a long range overseas building plan covering six 
years of planning data. That plan is in the final stages of 
approval at OMB, and should be in your hands within 30 to 45 
days. It will serve as a strategic road map for facilities and 
increases the transparency in our decision making process. As 
Rich mentioned, they have developed the standard embassy design 
concept for small, medium and large embassies. This concept 
will reduce the cost while speeding the construction and 
enhancing the quality of our new embassies overseas.
    By the end of this fiscal year over two-thirds of our 
overseas posts should reach minimal security standards, meaning 
secured doors, windows and perimeters. We are making progress 
in efforts to provide new facilities that are fully secure with 
13 major capital projects in design and construction, another 
nine expected to begin this fiscal year, and nine planned for 
fiscal year 2003. Obviously, these are our highest priorities. 
They cost something. For the administration portion of the 
foreign affairs account in fiscal 2003, in our budget 
submission, we are requesting $5.9 billion.
    Mr. Chairman I think I speak for the Deputy when I say we 
will be happy to answer any questions that you and other 
members of the Subcommittee may have.
    Mr. Wolf. Good. Well, thank you both very much and we have 
a number of questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                EMBASSIES IN AFGHANISTAN AND TAJIKISTAN

    Mr. Wolf. On the supplemental request, you are seeking $322 
million for State programs funded under this subcommittee. Over 
$200 million of that is for the embassy security projects in 
Afghanistan and Tajikistan. Can you describe the projects and 
the American diplomatic presence that you are planning for both 
countries?
    Mr. Armitage. If I may, Mr. Chairman, in Kabul we have 
spaces for 28 American diplomats. We have 21 there. There are 
92 Marines present right now. There are any number of other 
agencies, including CIA, who are there. In the short-term, we 
are trying to make thorough use of trailers, et cetera, for 275 
spaces total. We cannot, however achieve that total of 
Americans until we have a much better situation on the ground.
    For instance, we are going to have to dramatically kick up 
our AID component. Right now, because of the security 
situation, it is very difficult to get AID personnel out into 
the field for extended stays because they have to go in an 
armored vehicle with DS protection. This will change over time. 
We do not have a full staffing profile. I am sure you are more 
familiar with than I am, and you know what it needs to have in 
terms of upkeep and rehab. We also want a secure chancery, or 
work building.
    In Dushanbe, Tajikistan, we are basically living in 
something that is on the street. It is an old office building 
and has barbed wire around it. Until recently, we had our 
ambassador working out of Almaty and travelling to Dushanbe. We 
hope we will have a full embassy, particularly as we have such 
a large number of U.S. Forces.
    Mr. Wolf. How many personnel will be in the embassy?
    Mr. Armitage. I don't think we have a profile. We have 12 
or 14 that are there now.
    Mr. Wolf. When fully staffed, what is your expectation?
    Mr. Armitage. An embassy of that size would have roughly 
what we have in--slightly less than what we have in 
Afghanistan.
    Mr. Wolf. 24, 23?
    Mr. Armitage. There will be more than that. I think with 
other personnel it will be quite a bit higher.
    Mr. Green. Mr. Chairman, the plan right now for the 
chancery is 39 U.S. Desks and 42 foreign service nationals 
desks, if you will.
    Mr. Wolf. You have----
    Mr. Green. Let me just add, because I just mentioned to 
you, I talked to Chuck Williams. You and I both went to Kabul 
and saw it at its worst. I saw it a little better than you saw 
it, but not much. Chuck reported to me yesterday he spent a 
day-and-a-half with the ambassador. They walked the ground. As 
I mentioned to you, the two Butler-like buildings for the 
Marines are up. They are prepared to be occupied by the 
Marines. We are going to take about two weeks because there is 
some concern about overhead cover. Chuck's people are going to 
build a structure over these two buildings. They are light 
weight. They are like a Butler Building and then have some 
sandbag cover over the top. We are going to do the same with 55 
or so relocatables that are now in place and ready to be 
occupied.
    As the Deputy said, we can now house about 250, 275 people 
there. In addition to that, which of course is the temporary 
arrangement, the ambassador and General Williams have agreed on 
the concept for a full-up, permanent facility with an annex, a 
GSO facility, Marine security guard compound and housing for 
some of our people within the Kabul complex.
    Mr. Wolf. Within your supplemental request is $25.6 million 
to rehabilitate the chancery.
    Mr. Green. That is going to be mostly for mechanical--if 
you went into the basement of that place--you saw it--
mechanical, air, heat, some structural, water, some structural 
improvements, doors, windows, blastproof doors and windows and 
those kinds of things.

                  PUBLIC DIPLOMACY EFFORTS AND FUNDING

    Mr. Wolf. Last month when the Secretary was here, I raised 
the issue of a vigorous public diplomacy program. The Committee 
is going to have a hearing on the 24th with Under Secretary 
Charlotte Beers and we are getting outside witnesses to come in 
to tell us what they believe we should be doing with regard to 
telling the good American story abroad, particularly in the 
Middle East. It is very disturbing to hear about low public 
opinion of America among Kuwaitis when we think in terms of the 
American soldiers who sacrificed their lives for the Kuwaiti 
government and Kuwaiti people. Clearly, their media and their 
government people are not speaking out to tell the story. I 
know the story. You know the story.
    Anyone who truly knows, knows that America is not anti-
Muslim. We were the ones who rescued the Muslim community in 
Kosovo. We were the ones who led the effort with regard to the 
Muslim community in Sarajevo and Bosnia. And if it had not been 
for us and what is taking place in Kosovo with our 
stabilization force there who knows what would have happened.
    So the same with regard to Kuwait and all over the world. 
And I think we have to do a better job with the media in the 
Middle East. And I also believe that we should take our values, 
the eternal values that were talked about in the Declaration of 
Independence. Ronald Reagan said the Declaration was a covenant 
with the world, not only with the American people, but with the 
world. Many of these countries where our reputation is not that 
good, where it ought to be very high, really don't have a free 
press.
    There are anti-Semitic statements in the press in Egypt. We 
should jump on that and speak out, not criticizing the Egyptian 
people, but criticizing the media and criticizing their 
government, because as they say one thing, they feed the fire. 
So we need a public diplomacy program that tells the good story 
of the American people and of the American men and women who 
are in Kabul today and throughout Afghanistan living in very 
difficult conditions. The Afghan people are very appreciative 
of what the United States Government and our people are doing.
    If you ask the average Muslim on the street, they will tell 
you they want more, not less. They want more American soldiers. 
They want more Special Forces. They want more Marines, more 
than we can perhaps even give. So I looked at the supplemental 
request. You included $10 million for an exchange program, $7.5 
million for information programs, and I have really serious 
concerns. I know most other members on both sides of the aisle 
share the perception that this is an enormous task. Is this 
amount of money sufficient? This would not be sufficient to 
sell a very good product in the United States. It is not fair 
to make an analogy of a product. The product we are selling is 
honesty, integrity, democracy, freedom of speech, freedom of 
religion, freedom of movement, respect for women. I was in an 
Afghan school and the women told me they wanted an education. 
They are all anxious to have that education.
    So is this really enough? Hopefully, we will get some 
information out of this hearing to encourage and urge our 
government to do more. Maybe we lost something in the abolition 
of the USIA and the resources that we used to have, such as 
libraries around the world. But we can't go back and revisit 
that now. But is this really enough? Shouldn't we be pulling 
together the best minds, both American and non-American, 
prominent Muslims from the Middle East who are very supportive 
for what the United States is doing. And there are many that 
are--in fact, privately, almost all of them are. When I talked 
to them off the record privately, they are all supportive. They 
are all anxious. No one in the Kuwait government asked us to 
leave. No one in the Saudi government but perhaps one or two 
asked us to leave. And you can go right across the board.
    In Mr. Hyde's bill, there is an authorization for $70 
million. We have American men and women who have risked their 
lives. You all have done a very great job. Our military has 
done a great job. This is one of the areas that you may have to 
invest and be bold and put more money in to tell the great 
story that we have. So is this $7.5 million for information 
programs and $10 million for exchange programs really enough to 
tell the story?
    Mr. Armitage. I would say the way you set it up, absolutely 
not, but I need to tell you why we put that number in. The 
tenets under which we move forward with the supplemental were 
very strict because OMB and the administration wants to make 
sure they are absolutely credible. One of the rules was you 
cannot go in for money that is not an emergency. You have got 
to be able to justify this as an emergency that needs to be 
addressed before the FY03 bill comes forward, before the 2003 
bill becomes law.
    That from the beginning, I think, puts constraints on us. 
Do we want more money? Absolutely. I have talked to Chairman 
Hyde about his bill. But any amount of money would be wasted 
unless we know exactly what we are doing. You correctly said 
that in my words, if I may, our values are special because they 
are universal values. That is what makes us special.
    If you look at a word that has become unfashionable now in 
politics, but if you look at focus groups and focus groups in 
Egypt, if you ask what word springs to mind when you hear the 
United States, the word was a four letter word, it was 
``hope.'' It was only way down the list when you got to the 
question about Middle East and Palestinian rights and things of 
that nature.
    Hope, freedom, et cetera were on the list. Charlotte Beers 
will be up here and you and I talked about this hearing. 
Charlotte looks forward to coming up here. One of the 
preparations we did, and she is doing was to have all of our 
PAO officers in. I believe we have been a little slow to truly 
embrace our public affairs officers. I spoke to them yesterday 
and found they were thrilled because we were paying attention 
to them. I spoke in the Secretary's, stead. It proved to me 
yesterday that we have first, really embraced our family and 
got them ready to go out and do exactly what you want done and 
what we need done.
    Second, we have to know exactly what we are selling to 
whom. What we are selling is hope. We are selling our universal 
values. It sounds easy to do, but it is not quite that easy 
because we have to go through the thicket of governments in 
many cases which are not Democratic.
    I appreciate your point criticizing the media, which, in 
effect, in most of those governments, is criticizing the 
government, but it allows you to do it and not get into a big 
confrontation. The short answer is no it is not enough money, 
but we are under pretty tight constraints to make sure that we 
can look you in the eye and say that is about the money we need 
in an emergency supplemental between the time we hope the 
emergency supplemental is enacted and the time the 2003 bill is 
enacted.
    Mr. Green. You mentioned the travelling exhibit.
    Mr. Armitage. Charlotte briefed us this morning. We have 
had an exhibit from New York, the Twin Towers exhibit, and it 
shows fire fighters in the moments of most stress during the 
horror of September 11. It is going around the country. It is 
going to 26 Middle Eastern cities. It went to Kuwait yesterday, 
and it was such a hit because it shows humans and human 
suffering, that we all suffered when the towers were hit.
    It is in Jeddah now, and we are having the same response 
from the Saudi population, which is even much more conservative 
than Kuwait. That is the kind of thing that we have learned 
that we are on the right track on and going in the right 
direction because we are not talking about politics but human 
values and universal values.
    Mr. Green. To go a little further on that one, when it went 
to Kuwait, they thought they had limited availability of people 
to attend so they kind of had to be on the A list. Once the 
officials in the Kuwaiti government went to it, they were so 
impressed they opened it to all citizens. It is very striking. 
It is very emotional when you see these fabulous photographs.
    Mr. Wolf. I would like to see it when she comes up here. 
Also I think in the political process sometimes when you are 
making a message you have to say it 10 times before people hear 
it. And we may all feel good at the first meeting, but 
sometimes we have to have 10 meetings to make the case. We have 
a great product. This is almost a God-ordained product. I mean 
this is a product of the Declaration of Independence. Go to 
Williamsburg and walk it. This is a product that will sell 
every where in the world because it is the right product. It is 
freedom, liberty, respect and dignity.
    And I think we may have an emergency when I turn on the TV 
and see the demonstrations and things like this. So the 
Committee may need to put more money toward this effort. This 
is not only a military effort, it is also to win the hearts and 
the minds.
    I think some of our friends in the Middle East ought to be 
very careful. There is an article that Bob Kaplan wrote for the 
Atlantic Monthly in March. He points out that Egypt and some of 
these countries may very well see the closing down of certain 
Americans' involvement there.
    Mr. Armitage. I want to say what Charlotte is going to talk 
about. One of the things she is going to talk about is that it 
is not sufficient to have the message. We have to magnify the 
message. One of the ways we are going to do it is these 
exchange programs which you also mentioned, Mr. Chairman, where 
we are bringing in journalists, and we sit them down. I had the 
Middle Eastern journalists in my office the other day. We had 
the Indonesians. They sat down with the leadership of State, 
and we had at it. But the response when they go back home, when 
they are allowed to write, is quite fantastic because they 
magnify the message and get it out ten fold. We are not just 
reaching one journalist. They are getting it out, and we found 
that experience just recently in Indonesia. We are also finding 
it in the Middle East States, such as Jordan, Kuwait. Obviously 
Saudi Arabia less so, and Egypt less so.
    Mr. Wolf. I will be looking forward to talking with her. I 
am going to leave the subject, but I also think we should use 
the Muslim community in the United States to speak out because 
they know of our values. They are good citizens. They know of 
our values. It would be powerful to have a Muslim living in the 
United States who has come from Syria talk about the values in 
the United States, the Muslim in the United States who has come 
from Lebanon, someone who has come from Egypt to talk about the 
goodness of the American people. What we have to tell people is 
that most of the food that came to the Muslim community in 
Afghanistan during the days of the Taliban was paid for by the 
American people. We didn't go telling everybody and bragging 
but the American people were feeding and paying for the food 
that the average Afghan was eating during the reign of the 
Taliban.
    So I think there is an opportunity to use the Muslim 
community in the United States who want to participate, who 
want to be involved, to use them. There would be nothing 
greater than a face of a Muslim from America to go back and be 
on Al-Jazeera and say this is the goodness of the country I now 
live in.
    Mr. Armitage. I hosted Shariff Abdul-Rahim, which won't 
mean anything to you unless you happen to be a basketball fan. 
He is an NBA all star this year with the Atlanta Hawks. And he 
agreed to work with us and publicize his life as a Muslim, and 
this is MTV stuff. This reaches a lot of young people because 
basketball is big. But that is the kind of thing that Charlotte 
has got us doing. He agreed to do this. His father is an imam 
in Atlanta, and he speaks quite passionately about this 
country.
    Mr. Wolf. He should be on television.
    Mr. Armitage. We are following him around and filming him, 
not talking about how many points he scored but what is life 
like for you as a practicing Muslim in this country.

                         REPORT OF SUDAN ENVOY

    Mr. Wolf. Shifting to Africa and then I am going to 
recognize Mr. Serrano. On the issue of Sudan, one, I want to 
thank the President and the Secretary for appointing Senator 
Danforth as a special envoy. He is getting ready to make his 
report, I understand, by sometime this month.
    Mr. Armitage. End of the month.
    Mr. Wolf. There was a news clip by Charles Cobb yesterday, 
where it said Khidir Haroun Ahmed in Saudi Arabia said the 
following thing. He said, Major General Ahmed Abbas speaking at 
a nationally televised address in Khartoum this weekend is 
calling for a holy war in support of the embattled Palestinians 
and for freeing the Gaza Mosque from Zionists. Training camps 
have been operating in Khartoum and the suburbs for years. We 
know where they are and we know who has gone in certain 
circumstances, although they have changed uniforms. The camps 
have been set up pursuant to an order by Sudan President Umar 
Hasan al-Bashir to train volunteers to join the fight against 
Israeli military occupation.
    The training camps are ready to receive volunteer fighters 
as of today. I am not against talking to people that I don't 
agree with. In fact you have to talk to people. But I think the 
Sudan government better get the word from the Bush 
administration. We are expecting them to bring about a just 
peace by the end of this year. If there is not a just peace by 
the end of this year, there will be a number of people who will 
begin to aggressively push for other options to deal with the 
problem here.
    Could you tell the Committee what your plans are once 
Senator Danforth submits his report? Let me say I congratulate 
you. You have done a great job and I think there are a lot of 
positive things taking place. But where do we go from here? The 
report's filed. I don't know if Senator Danforth is going to 
stay or not stay. That is up to him. But what is our policy now 
to bring about a just peace, working with the English, working 
with the Norwegians. Where do we go once the report is filed?
    Mr. Armitage. Right now with the Norwegians in the Nuba 
Mountains we have two U.S. Colonels working with them to be the 
monitors. We have several issues going simultaneously with him, 
all of which are extraordinarily well known to you, as it was 
your idea.
    Mr. Wolf. He was your idea. I just thought we were going to 
have an envoy but I never even thought of him to be honest with 
you.
    Mr. Armitage. He is going to file his report and it is 
supposed to be on the 28th, and we want him to give it to the 
President. The only problem we have is scheduling one and make 
sure he gets in to see the President and take the time he needs 
to make his report. We have two colonels now in the Nuba 
Mountains along with the Norwegians monitoring things. Some 
food is now going forward. The cease fire is more or less 
holding. The question of slavery is being looked at at this 
very minute.
    George Lukes, one of our diplomats, is on the team. I think 
there is a 10-person team there. The very comments you referred 
to--I didn't see that news broadcast, but a couple of days ago 
we saw Bashir, the President screaming out about jihad and holy 
war. Walt Kansteiner, our Assistant Secretary for African 
affairs, was following with the foreign minister, saying this 
is absurd.
    Now the pushback we got from the foreign minister is for 
domestic consumption. It doesn't mean anything. Saying it don't 
make it so. We have to really be all over him on this one, and 
we really have been tough on Bashir with this kind of language. 
You were gentle. You didn't use the language that he allegedly 
used in his speech, which was very, very inappropriate. We 
can't have a relationship with a country that moves like that.
    Mr. Wolf. Well, then I think when Senator Danforth makes 
his report on the 28th, the administration has to be able to 
articulate, as a result of this, what we are going to do.
    Mr. Armitage. I brought with me today, because you 
expressed in a phone call some interest in a meeting with him, 
opposition leader John Garang. I got a memo from that meeting 
and shows further some of the complications. We are working 
with Garang and the southerners as you know trying get one 
country, two systems, but the right kind of systems and the 
right kind of setup. That is another complicated factor because 
we are moving forward with Garang and his colleagues.

                         U.S. POLICY IN AFRICA

    Mr. Wolf. Last question, and then I will go to Mr. Serrano. 
Africa is having a difficult time. We had the CRS do a report 
and we sent a copy to the Secretary. It said HIV/AIDS has cut 
life expectancy in Botswana from 71 years to 39 years. Both of 
us would be dead if we lived in Botswana. In Zimbabwe from 70 
years to 38 years. U.S. Census Bureau experts predict that the 
life expectancy throughout southern Africa will be 30 years old 
by the year 2010.
    There are so many other things. In that piece that Kaplan 
wrote for the Atlantic, he said in Africa, the rising tide of 
young males will be even more extreme than in the Middle East. 
The top ten ``youth bowl countries'' are all in sub-Saharan 
Africa. The next decade could be disastrous, judging by recent 
political violence that has developed, and gang warlordism in a 
number of African cities. He said, ``Nigeria is already 
crumbling although too slowly to generate headlines.''
    ``The loss of central authority may be part of a long-term 
transition that will ultimately yield positive results and in 
the long-term it will provide new opportunities and havens for 
global terrorist groups to strive in legally governing 
realms.''
    We had asked the Secretary to look at the possibility of 
appointing a panel to take 90 days to come up with a policy for 
Africa. We were going to put in legislation here and it would 
take us months to get it out.
    What we ask for in the letter is a blue ribbon panel to 
come up with strategies and solutions to address how the United 
States can help solve the massive challenges facing Africa. My 
sense is not only are you having the AIDS problem, the health 
problem, but you are going to have little Afghanistans 
developing. This can be a Presidential panel or a panel 
appointed by the Secretary of prominent people who know a lot 
about Africa, far more than I know. How do we do this? Maybe 
the establishment of a new university in Kenya. Africa is 
crumbling before us. This is not a big expensive proposition--
20 people, 90 days, come up and see if the administration can 
refocus because what we, the United States, are doing now isn't 
working.
    I think we have to try to do something different. It is not 
just a question of spending more money, but spending it wisely 
and getting the results for whatever we were spending. Not 
supporting corrupt governments, but doing it in a way that help 
these people.
    Mr. Armitage. When I came back to government this time 
after an 8-year absence, I was shocked more than anything else 
by what I saw in Africa. What I saw in almost every country was 
that the infrastructure was much worse than it had been 8 years 
before. It happened for a lot of reasons, not the least of 
which is the unbelievable prevalence of HIV/AIDS. You know the 
map as well as I, east and west and north and south, and it 
radiates in a horrifying stream showing the incidence of 
infection and the implosion of HIV/AIDS.
    I think the trap we fall into very often is we look at the 
parts instead of the whole. For instance, we have been very 
active in Sierra Leone trying to stop Charles Taylor. We have 
been active in the DROC in trying to bring some sense to that. 
We are happy that the Angola War has ended after 20-odd years. 
But we are looking at the parts, and you are suggesting we look 
at the whole. You mentioned Nigeria. You have a city, Lagos, 
with 32 million people. No infrastructure can keep up with that 
implosion of population.
    You run the risk of having what you suggest, as you call it 
in the military, a strategic center of gravity against the 
government, and something that will develop into little 
Afghanistans and things of that nature. I must admit to you I 
don't know where that piece of literature from the Secretary 
is. I will find out, and I will respond to you once I go back. 
But I see we tend to focus on the individual problems where we 
are making some small success, but we are missing the whole.
    Mr. Wolf. Mr. Serrano.

                     VISAS AND INFORMATION SHARING

    Mr. Serrano. Thank you, Mr. Chairman. Let me ask you a 
question and then move on to some comments I would like to 
make. Recently we learned about the embarrassing and 
potentially dangerous error that occurred at the INS where 
student visas were mailed to two of the men who were 
responsible for the September 11 terrorist attacks. What are 
you doing at the State Department to ensure that similar 
problems do not occur with various systems that you deal with 
and how much money are you proposing to spend in FY 2002 to 
enhance the entry exit technology and how will these work?
    Mr. Armitage. Grant will get into the particulars. I don't 
think I am putting him on the spot. Part of what is being 
proposed by Mr. Ridge gets right at the whole problem of INS in 
identifying who is who, and who has responsibility for 
admitting people, and following up on people who are visitors 
to our country. Part of the answer to your question, I think, 
will lie on whatever legislation eventually comes out of the 
Congressional process, but it is not just because of the 
terrible embarrassment to the INS, but the people who are to 
follow up and actually apprehend, if necessary. Justice, part 
of INS, is separate from the people who have visas or the State 
Department. Our difficulty historically has been that we don't 
always get information from the FBI or CIA.
    Since September 11, I can say with complete assurance that 
has improved enormously. God knows it must after that horror. 
But whether it still is where it ought to be, I think not.
    Mr. Green. We have a strong track record, I believe, in 
dealing with the other agencies in sharing information. We have 
the Consular Lookout and Support Systems, the CLASS system 
where we share very detailed information on people coming into 
this country with the INS, Customs and DEA. We have on the law 
enforcement side a tip-off system which we fund out of consular 
affairs money which are run by our Intelligence Research 
Bureau, which shares information with the law enforcement 
community.
    Subsequently that information provides name checks and 
checks to INS and Customs. With the advent of Homeland Security 
and the standing up of that, we are working with them very 
closely on the terrorist tracking system. We have people 
detailed there. We sit on six of their 11 subgroups, working 
groups. I just think that, as the Deputy said, the sharing of 
information is getting much better, unfortunately, in the 
aftermath of September 11. We still have some difficulty on the 
law enforcement side having them provide information to us. 
That is also slowly getting better. We have about, as you 
probably know, we will take in about estimated 1.2 billion in 
various fees in the consular area this year. We keep about half 
of that to support border security, pay for our consular 
officers throughout the system, upgrade IT systems relating to 
security and the border. If you draw a circle around the 
country, we are the first line of defense for people coming 
into the country. We are making tremendous progress both in 
what we are doing in the information technology area, the 
sharing of information and also in working very closely with 
the Homeland Security Office.

                         LATIN AMERICAN POLICY

    Mr. Serrano. I thank both of you for those comments. That 
is a grave concern and it was pretty embarrassing and everyone 
wants to make sure that it doesn't happen with other systems 
that we have in place. Let me just be very careful how I say 
this. I don't want to put you in a situation that you may not 
want to be in, but when the chairman spoke about public 
diplomacy and spreading our message, part of the message is the 
fact that we have a unique system. We perfected it pretty well 
and that is the whole issue of having a judicial branch, an 
executive branch and a legislative branch. And we take each 
branch very seriously.
    Without mentioning names, I would just hope that the 
Secretary, and that you folks begin to pay closer attention to 
the fact that there are some members of the administration in 
the State Department who have taken it on their own to 
disregard comments coming out of Congress and publicly denounce 
comments coming out of Congress in terms of what this Congress 
feels should be some of our behavior in Latin America. You 
know, as I look across here to Mr. Wolf and Mr. Vitter and Mr. 
Miller, we have reached some decisions in the last few years on 
Latin America and have taken a long time to get there. For all 
of us it has been very painful to go there, to get to that 
point. And now we have top officials at the State Department 
get up in front of recorders in public and say we don't care 
what Congress is saying on this issue.
    I am not here to allow us to give in to anyone on a 
particular issue, and I am not going to allow that to happen. 
Well, there is a big difference between that statement and the 
President saying I disagree with the Congress on the 
supplemental, and I think for the good of the American people, 
we should pass the supplemental. That is what this country is 
about. But it is different to say that when Mr. Miller and I, 
or Mr. Latham and I, reach a point where we reach some sort of 
understanding on an issue that that issue should not be paid 
attention to and for us to be seen by a member of the Secretary 
of State's Department as a bunch of idiots with no power and no 
responsibilities.
    And that bothers me. The reason I don't want to mention the 
person's name is because I will be on record as having 
denounced them and there will be all kinds of back and forth, 
and I don't want to get into that. You know who I am talking 
about. You know what I am talking about. This year I am up for 
reelection as we all are. I take very seriously that fact. 
Every morning when I drive by the Capitol dome, as dramatic as 
this may be, I get chills. I take very seriously the fact that 
someone who came from a poor town in Puerto Rico and came and 
lived in a public housing project in the Bronx became a Member 
of the Congress. I didn't accomplish all that, and I didn't do 
all that with the help of people in my district to be made an 
idiot by someone who is appointed to our government.
    So I would hope that you begin to look at that and at the 
minimum, whisper to the gentleman and say they were elected, 
you were not. You should pay a little respect.
    Mr. Armitage. If I may, I got the message very loud and 
clear, and I know to whom you are referring, and, as I 
indicated this very day, I will take this up. It will not 
happen again, at least with that individual. Let me make a 
comment more generally about the responsibilities of the 
various branches. One of the reasons we are the best hope, I 
think, of mankind, at least as far as I am concerned, we as a 
Nation, is because unlike every other great power that has ever 
gone before us, we have got this necessary and creative tension 
among our three branches of government which keeps power from 
being concentrated in any one person's or groups' hands. It is 
self-renewing. We all in Secretary Powell's State Department 
understand exactly what the duties and the rights and 
prerogatives are. We know who is appointed, and who earned it. 
That is the policy and I will take this back and take care of 
this matter.
    Mr. Serrano. Thank you so much. Let me move on. As you 
know, part of the reason why I was so careful in my 
presentation is because of the great respect that I have for 
you, and Secretary Powell. Some of the obvious things, he and I 
come from the same neighborhood as well, and that carries.
    Mr. Armitage. Yeah, but he speaks Yiddish.
    Mr. Serrano. Well, when it comes to his budget, he is a 
real nudge. We know what that is all about. And I came to 
Congress incidently like so many children of my generation with 
all kinds of troublesome thoughts about the State Department 
and how much the State Department is responsible for any 
mistakes our country made overseas.
    Since then, I have gotten to really care for the work you 
do, to respect and be very supportive of it. There is one issue 
I am going to disagree with very loudly, and I am going to be 
as vocal as I can. And that is the fact that I think we are 
making a terrible mistake in Colombia. I think we are on the 
brink of getting into what I call a Spanish speaking Vietnam. 
That has been going on for over 30 years. It is hard to tell 
who the good guys and the bad guys are anymore in Colombia. The 
traditional left has no respect for the Colombia left--
interesting because they don't see them as true insurgent 
revolutionaries.
    The military folks of Latin America are not crazy about the 
paramilitaries in Colombia. And not many people respect any 
government in Colombia. With all of that in mind, I am troubled 
by the fact that we have found a new gimmick in our country and 
that is a gimmick that plays on the fears and sentiments of the 
people. It is very shrewd because it makes it difficult for 
guys like me to confront and the fact is that we no longer call 
people insurgents or narco-traffickers or murderers. We call 
them something dash terrorists. So now they are narco-
terrorists and we have to get the narco-terrorists.
    In the process you are asking now in the supplemental for 
changes in the language that will allow you to be involved 
which is just what Bill Clinton told us he wasn't going to do, 
and George W. Bush told us he wasn't going to do and that is to 
allow the helicopters and the advisers to be used in a military 
way to get the terrorists, not to get the paramilitaries, not 
to get any corrupt people in the government, not to get the 
Attorney General who is no longer enforcing or conducting the 
human rights violations or studies or investigations, not to 
get them. We have taken sides now. When we take sides, we are 
making a terrible mistake. It will probably happen. I will be 
probably one of a few lonely voices saying don't do this. It 
will probably happen.
    But even if it happens and we get involved, you folks don't 
have the ability to curtail our involvement and suggest to the 
President how far we should go or could go. I tell you 
something, representing a district in the south Bronx, I am in 
touch with people from Latin America on a daily basis. You 
don't have to travel there. They are in my district, and they 
live there, work there and travel there. They are very pro-
American, but they tell us that the thought of American 
uniforms, soldier uniforms throughout any part of Latin America 
will awaken the dormant left and bring back that ugly anti-
American sentiment.
    In the Middle East Secretary Powell is saying guys, you 
have to come to talk peace, and you have to be strong--the 
first one to talk about a Palestinian State openly which is 
right and the security of Israel. In the same way that is what 
we should be doing in Colombia, not sending in--as we will and 
you can say we won't but we will--we will send troops and we 
will attack the insurgents and we will create a backlash. That 
is a 35 years Civil War. And we can go in there and just clean 
out a cave. So I hope you keep that in mind because I am sure 
this will happen somewhere on down the line, and that you don't 
let it get out of hand.
     Mr. Armitage. Mr. Serrano, I take seriously your words. 
This is an area in which we will disagree without being 
disagreeable. You have very strong heartfelt sentiments. The 
administration has them as well. I want to be clear on one 
thing, and you cautioned us to make sure you limit your 
involvement. I do want to be sure that it is understood, and it 
was discussed yesterday at Mr. Kolbe's hearing, when we talk 
about movement and we do want an expansion of the authority--we 
want it, but we don't want to get rid of the Byrd cap or the 
Leahy amendment, which discusses human rights particularly.
    I want to be clear on that.
    Second, part of the reason we came forward is because we 
were very clearly warned and cautioned and advised by the 
Congress. Come forward. Let us debate it, as our system 
requires, and be clear about it. We have a disagreement, but I 
hope we get some credit. We are trying to be clear about it. I 
do take seriously your warning.
    Mr. Serrano. One last comment: You are getting around us 
when you include it in a supplemental that talks about a fight 
on terrorism, and which talks about embassy security. You have 
a choice. You either vote against the whole package or you 
accept it as it is. Had you brought it to Congress alone as a 
freestanding situation, the sentiment would be different. This 
is a very smart way of doing it, but it is not a totally honest 
way of doing it. This is too big of an issue to be in a 
supplemental. This is a declaration of war, in many ways, and 
that should stand by itself. Thank you.
    Mr. Wolf. Mr. Miller.

                      Cost of Embassy Construction

    Mr. Miller. I just got back Tuesday from a trip with Mr. 
Kolbe and some others to Africa--Mali, Ethiopia, Mozambique, 
South Africa--we made numerous stops. Every time I travel 
reinforces the admiration that I have for the people that work 
for State. They do a great job and they often live in difficult 
conditions. When I first came to Congress, I thought of people 
going to Paris and going to embassy parties. That is not the 
way it is in Addis Ababa and other places in the world. And it 
is a great challenge to live in the lifestyle, the air they 
breathe, the food that is available, I have great admiration 
for State Department employees.
    We were looking at a lot of the AIDS challenges and what we 
are doing to address them. I know this work is not funded by 
this subcommittee, but there is a lot being done.
    When I visit places, I visit the embassy and see the 
facilities. I am interested in the question of the cost and the 
planning for new embassies and also the operational costs of 
embassies.
    How much do Congressional requirements contribute, if they 
do, to that cost? We have security problems in Moscow from 20 
years ago that affects some of our thoughts, and what happened 
in Nairobi raises different security concerns. Comment on what 
is going on with planning for new embassies, and buying the 
land. We have nine planned for next year and nine the following 
year. How does the cost vary between all of these? I know the 
costs are not the same in Addis Ababa versus the one in Berlin 
where I visited. That is going to be very costly.
    Mr. Armitage. I do recall our telephone conversations, and 
also concerns about the cost of embassies and the cost of 
security of embassies, and I made some remarks. Basically we 
are trying to control the costs by having modules or models 
small, medium and large. They all look alike so they do not 
have a unique design. Relatively alike. We save money that way, 
through economies of scale.
    Second, General Williams, who takes this business very 
seriously, has put together a rather unique and formidable 
industry panel. I spoke to him a couple of months ago. It will 
give us the latest of what is business practice, how can we 
save money, et cetera.
    Grant can be more specific on how Congress costs us money. 
But I think our system requires it in a way. I do not like all 
of the ``Buy America'' aspects of it because it does raise 
prices, and I think in some cases we could do a lot more if we 
used a lot more local materials.
    I do not know how to get around the absolute need to have 
total and complete and continual oversight. So it may cost us a 
little more, but I think the system demands it because when you 
have gentlemen like yourself stand up and say you have been 
there and done that and you know how people are living and how 
they have done that and you can attest that you have got people 
out there who are doing the Lord's work and are not living with 
their face in the canape tray, they are in hard and dangerous 
places doing work for our country.
    Mr. Miller. On the Buy America, like basic things, light 
bulbs, paper products and all of that? And what can we buy in 
the local market versus have to import from the U.S.?
    Mr. Green. On those kind of things, expendables, we are 
buying a lot more----
    Mr. Miller. We are not required to buy our bulbs and such?
    Mr. Green. Absolutely not. We warehouse those in Europe and 
ship them to the various posts. At risk of repeating some of 
the things that the Deputy said, I think the whole thing on 
overseas construction and positive movements began with the 
reorganization of the building operations and pulling them and 
making them a stand-alone organization. General Williams has 
made, I think, tremendous progress in reorganizing that, making 
it a results-based organization, with accountability.
    I do not know if any of your staff have been over and sat 
in on some of these review sessions, but if they have not, and 
they are interested in how we are doing things overseas in a 
business-like way, I would encourage them to do that. These 
happen a couple of times a month, and all of the stakeholders 
are in the room, 30, 40 people from contractors to the design 
people to the architects to the actual construction folks, and 
they go through every one--not every project, but I just sat 
through one on China about 2 weeks ago. It is a very business-
like process.
    Rich mentioned the three standard embassy designs that we 
have adopted which reduce costs. We will put a facade on them 
that fits the local community or the local country's 
architecture, but basically they are a standard design. This 
enables us to not design something new and go into those costs 
every time.
    Another thing that I think is interesting in the cost area 
is we now have approval from OMB to do a pilot in 2003, 
assuming the Congress agrees, on cost-sharing. In other words, 
other agencies, other departments which rely on our platforms 
would share in the construction costs of those facilities.
    This does two things. It spreads the cost and it makes 
other departments and other agencies look very carefully at 
right-sizing. Now there is no incentive. There is no incentive. 
When you have to start paying for desk space in a classified 
portion of an embassy, you will ask yourself, I think, twice 
whether I really need five people, and can I get by with three.

                       RIGHT-SIZING AT EMBASSIES

    Mr. Miller. Tell me in an embassy, other than State 
Department people, how many other agencies?
    Mr. Armitage. It is 30 in a big----
    Mr. Miller. Thirty other agencies, that is what you are 
talking about? The 30 people from Agriculture, Commerce?
    Mr. Green. Some agencies do not--this Subcommittee has a 
lot of interest in what we do overseas. Some of the other 
oversight committees do not have that same interest. I go back 
to right-sizing. I don't want to beat a dead horse. We are 
under a lot of pressure to right-size. Make sure you have the 
right number of people at the right post. Other agencies 
frankly do not think much about that. I do not think a lot of 
them even know how many people they have overseas at a 
particular post.
    Mr. Miller. With 30 different agencies, that is a large 
number to be there. I know they are all under the ambassador. 
He or she is in charge in that country, but you are talking 
about a large number of desk spaces. When we visit these 
embassies, you meet a lot of them and they play critical roles.
    Mr. Green. Sure they do. Sure they do.
    Mr. Miller. But right now there is no way to oversee the 
numbers in the budgets?
    Mr. Green. There is not a systematic, organized way to do 
it. Now, that being said, a couple of years ago there was an 
interagency group that went out to about a half dozen embassies 
and tried to divine a concept for right-sizing and they could 
not even agree on a concept. GAO recently went to Paris. They 
have not completed their report, but I was briefed on it about 
a week ago, and they believe now they have a concept, a 
structure for possibly right-sizing an embassy. We are going to 
have a hearing the end of this month and discuss that, among 
other things. While, as you say, the chief of mission has 
tremendous authority to run that post, we, very frankly, with 
some of the other agencies do not have a lot of leverage. And 
as the world changes, and as there is more and more emphasis on 
health issues, terrorist issues, drug issues, you get--you 
continue to get a larger influx of law enforcement people and 
health and ag and----
    Mr. Armitage. FBI.
    Mr. Green [continuing]. FBI, and it is tough to just say 
hey, no. Go home.
    Mr. Miller. I met a lot of them. Whether it is CDC people 
or the FBI, certainly a larger presence, and each has a 
critical role.
    Mr. Green. Sure.

                           MIDDLE EAST POLICY

    Mr. Miller. One other comment about Africa. Where it is 
heading is just a huge concern as HIV, the role of Government 
there, whether it is the president of South Africa or Swaziland 
and the acceptance of the cause of it, the spread of it. The 
orphan crisis there. The role of women is just horrible. But I 
see we are trying, the international community is trying.
    I know we do not have much time, but let me briefly switch 
over to the Middle East, which is not a budget issue. I had 
limited news while we were gone. We watched CNN International 
for our news in Africa. But we are not popular over in that 
part of the world. I mean, the perception is that we have 
chosen sides, we are pro-Israeli--Israel's position, and the 
image is that we have given a green light to Sharon to do 
whatever he wants. Secretary Powell shows up in Morocco and 
they say what are you doing here? Get off to Jerusalem, 
basically I think is what was said.
    I know we were talking about this communications issue 
earlier. It is more than just communications. So please comment 
about what we are doing there, and comment about the settlement 
issue. I know we do not have much time. But the settlement 
issue is a thorn in the sides of the Palestinians and we are 
defending these settlements, basically our country is, because 
we are defending the Sharon policy.
    Mr. Armitage. The President has called for a halt to 
settlement activity.
    Mr. Miller. We have been calling for a halt to that for 20 
years.
    Mr. Armitage. It is one of these things, depending on how 
you look at that time, the settlements, there was an allowance 
for natural growth. Well, how much is that? How much is 
``natural growth,'' and how do you define it? The wording that 
surrounded settlements historically is not clear, and we are 
hoisted on our own petard. I think it is not right to blame all 
of our image problems in the Middle East on the Palestinian 
question. I think to some extent that is the immediate one, and 
it is certainly causing the demonstrations right now that we 
are seeing in front of our embassies, whether it is in Bahrain 
today or in Cairo or anywhere else. I think it is more subtle, 
and in part television is a reaction against oppressive 
governments at home and lack of the ability for young people to 
express themselves in other ways. We did not give a green 
light. The President said: Withdraw now. The reason Secretary 
Powell went the way he did, and why he is in Amman Jordan right 
now, is because we are going to make progress. Not only does 
Israel have to stop the military activity, but Arafat has to be 
told by the Arabs that he has to get in line. He has to once 
and for all stand up and show some leadership. That is why the 
crown prince of Saudi Arabia in Morocco, that is why he went to 
Cairo and Amman, and will arrive tonight. We have to get the 
moderate Arabs to put some steel in Arafat to do the right 
thing. His leadership has been, as I said earlier, 
disappointing, to say the least. That is why the Secretary went 
about it this way.
    Finally I might say in Madrid you saw the statement by the 
Quartet. The statement issued by the Quartet is one that none 
of those organizations, the U.N., I think, or the Russians, 
would have ever issued on their own, calling for the 
Palestinians as well as the Israelis to restrain themselves. 
There was a method to this madness, if you will.
    Mr. Miller. Causing problems for our friends, whether it is 
in Egypt or Jordan and such by these demonstrations and the 
image that--CNN is not the only source--that all you see is 
what is taking place in Palestine. And I do not know how much 
they show of the bus bombings in Israel which are a horrific 
sight, and the terrorism that takes place there, but the image 
is the U.S. is being very one-sided.
    Mr. Armitage. Yet every single person in the region and 
probably in the world wants us to fix it. While we have the 
image that you talked about, I think there is also the almost 
palpable hope that we will fix it because we are the only ones 
that can.
    Mr. Miller. Well, let us hope that we can. Thank you, Mr. 
Chairman.
    Mr. Wolf. Ms. Roybal-Allard.

                         DEFENSE TRADE CONTROLS

    Ms. Roybal-Allard. Thank you, Mr. Chairman. First of all, I 
want to express my concern for the lack or the small amount of 
money that is being allocated for information. I share the 
Chairman's concerns about that. Because I think lack of 
information is a part of the problem that we are facing, for 
example, in the Middle East. And it is an emergency because I 
do not think we are going to be able to begin to turn things 
until, for example, in this case the Muslim world learns to 
trust the United States, and the only way they can do that is 
through gaining a better understanding of what it is we stand 
for and what it is we have already done to help the Muslim 
world.
    By not having that kind of information, it contributes to 
the hatred that exists about the United States and makes it 
easy to feed that hatred and to turn it into the kind of 
terrorist threats that we are facing now. So I think getting 
out information is critical.
    And in talking to Muslim Americans in my own district, they 
themselves are frustrated by the fact that accurate information 
is not getting out and that they, even though they have 
volunteered in various ways, are not being utilized to get the 
message out to their families and the friends that are still in 
those areas. So I just wanted to make that statement.
    Last year we talked about some of the problems that small 
businesses were experiencing with the Office of Defense Trade 
Controls and at that time you attributed some of the problems 
to the fact that you were understaffed and you were, in fact, 
starting to take steps to make the whole process more user-
friendly.
    What I would like for to you do is tell me what you have 
been able to do since then, but also to respond to a GAO report 
that was issued in December that found a lot of deficiencies 
that still existed in the agency and also to respond to them. I 
believe there was a difference of opinion about that report and 
I would like to give you an opportunity to respond to that.
    Mr. Armitage. Thank you. Lincoln Bloomfield, the Assistant 
Secretary for Political and Military Affairs, has been tasked 
by Secretary Powell to not only make this whole process user-
friendly, whether it is small business or otherwise, by the 
way, because the complaints were not just limited to small 
business. I was in business. I was one of the complainers, so I 
know.
    I do not have at my fingertips the processing time, but the 
processing time was down sufficiently for a group of industry 
folks come in to see me just to thank us for having made that 
move. Linc Bloomfield has more people on it and has cut down 
the process time. I apologize, I do not know what it is. I 
received an industry group not so long ago that thanked me for 
that and urged us to continue. The question of the GAO----
    Ms. Roybal-Allard. If I can, let me just summarize a part 
of it maybe that you can respond to. It says that the State 
Department has not established formal guidelines for 
determining the agencies and offices that need to review 
license application. As a result, the licensing office refers 
more license applications to other agencies and offices than 
may be necessary. The reviewers in the State Department 
reviewing offices consider license reviews low priority.
    I am reading directly from it.
    Mr. Armitage. Yes, ma'am.
    Ms. Roybal-Allard. Are those guidelines being established? 
Do you disagree with----
    Mr. Armitage. I am not sure how much I disagree with it. I 
am looking at the defense trade control paper that I have here. 
What I have is sort of along the lines of what I was briefing 
on a minute ago about people coming in and telling us that we 
were moving in the right direction. Processing time lines are 
at an all-time low and the outside auditors have determined 
that even with the process deficiencies which you speak about, 
the department handles its case as equally efficient as other 
agencies with much greater additional human resources.
    Perhaps there is a difference of opinion, but that is what 
our outside auditor is telling us. I want to be clear with you. 
In no way am I or Secretary Powell or any of us saying that we 
have got it right.
    Ms. Roybal-Allard. Okay. I guess really what I am trying to 
find out, based on these findings--for example, the State 
Department lacks procedures to monitor the flow of license 
applications through the review process. The planned business 
system upgrade needs to focus on ensuring a timely flow of 
applications and implementing a mechanism to track the progress 
of applications. Otherwise the benefits of the upgrade may be 
limited.
    I guess my question is that these things have been 
identified and are you now taking steps to remedy them?
    Mr. Armitage. I want to say yes, we are, but since I do not 
personally--I have not personally looked at this, let me take 
that back, if you do not mind. I think we are, but I do not 
want to say something that I have to come back and say that I 
was wrong. I would like to take that question and come back 
with a correct answer that I can stand by.
    [The information follows:]

    While a good deal of work is already under way to make 
updated and revalidated business rules fully operational, we 
believe future IT development will provide the tools to further 
improve process efficiency. This will include electronic 
transmittal of data with electronic ``clocks'' and ``ticklers'' 
to monitor and track cases.
    Assistant Secretary Bloomfield recently convened a session 
of the Defense Trade Advisory Group during which industry 
representatives were briefed about the upcoming IT pilot 
program and were asked for their input. A kick-off session with 
industry participants in the pilot will be initiated soon.

    Ms. Roybal-Allard. I appreciate that. I have gotten 
complaints from businesses in my district. I have one more 
question. This actually comes from a constituent who did not 
have a good experience. He has an idea and has recommended that 
the ODTC inaugurate a pilot program that is designed to provide 
a one-stop-shopping for small businesses or other companies who 
are new to the licensing process. And the idea is to set aside 
two or three licensing officers to screen new registrants and 
shepherd them through the voluntary disclosure and licensing 
process, with the ultimate goal being to make sure that small 
businesses do not get lost in the process, that they gain a 
positive experience in learning how to go through the process 
and hopefully not have to hire these high-priced counsels to 
accomplish the same thing.
    Mr. Armitage. In other words, you want to put me out of my 
private job. I see where you are going here.
    If you will write me the name of that constituent where I 
can find him, I will have Linc Bloomfield call them, as a 
result of this conversation, and probably this afternoon.
    Ms. Roybal-Allard. Okay. Thank you.

                       HIRING AT STATE DEPARTMENT

    Mr. Wolf. Thanks. We have three votes, but we are almost at 
the end of one. I will just ask a few questions and then we 
will recess for probably about 15 minutes at the most and come 
right back.
    The Congress fully funded your fiscal 2002 request for 
additional personnel. Between the CJS bill and the 
supplemental, you have received 871 new positions. You are now 
seeking an additional 631 new positions in your budget request 
for fiscal year 2003. This takes you well beyond your original 
goal of 1,158 new positions for full diplomatic readiness. What 
more remains to be done or has the definition of readiness 
changed based on September 11?
    Mr. Armitage. What has changed, we are still looking for 
1,158 foreign service officers. The additional numbers to make 
up the 600 odd that you have spoken about are DSA, more 
diplomatic security, and computers----
    Mr. Wolf. That was changed based on 9/11?
    Mr. Armitage. It is in addition to.
    Mr. Wolf. So 9/11 changed that?
    Mr. Armitage. Yes, the DS, it did.
    Mr. Green. The 1,158, I think this often gets confused. 
Those are new positions over 3 years, which we hope to get us 
back up to the level that we need to be. That does not include 
attrition, which runs about overall through civil service, 
foreign service probably runs about 400 a year, and it does not 
include these added diplomatic security CA personnel that are a 
result of principally 9/11.
    So this year--or 2003, I should say, 2003, we are looking 
at a total of 1,411 folks to come in across the board. Civil 
service, foreign service, both foreign service generalists and 
specialists. So the 1,158 that we often throw out and people 
seem to hang on, those are the positions we need and hopefully 
over 3 years, 360 last year, 399 in 2003--I should say 360 in 
2002, 399 in 2003, and 399 in 2004 is what we hope to have to 
make up those shortages that we have to give us the training 
float.
    Mr. Wolf. Right. I understand.
    We are just going to recess. We will be back in about 15 
minutes. Thank you.
    [Recess.]

                            EMBASSY IN ROME

    Mr. Wolf. The hearing will resume. Can you tell us a little 
bit about the embassy problem in Rome, the counterterrorism 
issue that you had in Rome?
    Mr. Armitage. The recent holes and whatnot?
    Mr. Wolf. People were arrested, who were they?
    Mr. Armitage. We have had different cells over the last 
year, a lot of intelligence information about various cells and 
al Qaeda operatives, and it reached a crescendo at the time of 
the President's visit some time early summer. We actually had 
to have the Italian police bust a few safe houses to disrupt 
activities. We continue to receive reports of that. Recently in 
the embassy in Rome, some water systems looked like they had 
been tunnelled into. My understanding of the investigation is 
that it is relatively inconclusive, and we have not found that 
these folks were actually going to introduce something into the 
water system. However--and the holes were relatively small. 
They did not do a very good job if they were going to introduce 
something into the system.
    Because of the high level of threats that we have been 
receiving generally, we took it seriously. Two weeks ago in 
four Italian cities we had to put out a travel notice because 
of our fear that Americans would be targeted.
    Mr. Wolf. So arrests were made in the Rome situation?
    Mr. Armitage. I do not think they were technically 
arrested, but I think they were held for a while and they are 
gone.

                      REWARDS FOR JUSTICE PROGRAM

    Mr. Wolf. The department received an additional $51 million 
in emergency supplemental funding for emergencies in diplomatic 
and consular services. Part of the funding was for the Rewards 
for Justice Program which has been widely publicized both here 
and abroad. These would be rewards for information preventing 
terrorist acts or information leading to the arrest and 
conviction of terrorists. What kind of response and results 
have you seen from the program and how much has been paid out 
in rewards?
    Mr. Armitage. Sir, I will have to take that. I do not know 
the answer. With your permission, I will take it. Does anybody 
know?
    Mr. Millette. We have not paid rewards yet. We have paid 
for advertising.
    Mr. Armitage. Jim Millette tells me that we have not paid 
any rewards yet. I cannot tell you how many hits we have had.
    Mr. Wolf. Tell us how much was spent for advertising.
    Mr. Armitage. And how many hits we get out of this.
    Mr. Wolf. So no rewards have actually been paid?
    Mr. Armitage. No, sir.

                   BORDER SECURITY POSITIONS AND FEES

    Mr. Wolf. Border security, the department's primary 
homeland security role, is in your consular and border security 
activities which are funded through fees, not appropriated 
funds. The budget includes a program increase of $78 million 
for these activities from anticipated fee revenue including an 
additional 98 new consular positions. What initiatives are you 
undertaking to safeguard the Nation's borders and to improve 
the visa application and review process? If somebody comes in 
from Syria, they are making application for a visa, how does 
that tie back in with regard to INS? How is that tied back in 
with regard to the FBI?
    Mr. Armitage. Let me give you sort of the long-winded 
answer, if I may, and Grant probably wants to either correct it 
or add to it.
    Mr. Wolf. You are a great team.
    Mr. Armitage. We have done this before. Sir, the consular 
fees are one of our many ways of bringing some revenue to the 
department, which obviously is applied to border security. We 
have been down, since September 11th, 13 or 14 percent. We are 
right now contemplating and have out for public comment a raise 
in the visa fee from $45 to $65.
    Mr. Green. $65, correct.
    Mr. Armitage. Which will make up for that shortfall. We are 
looking for 70 consular affairs people and 28 or so domestic.
    Mr. Green. 98 new ones overseas and 36 domestic. That was 
in 2002, and we are looking for 70 and 28--70 overseas and 28 
domestic this year, which will permit us to strengthen further 
our border security process.
    Back to your question, though, on how do we--if somebody 
applies for a visa in Syria, that goes into the CLASS system, 
which is distributed and available to the border agencies, INS 
and DEA. Then it is also distributed into the TIPOFF system 
which gets into the law enforcement component of it. What 
Homeland Security is doing now is attempting to rationalize, 
systematize all of those various IT systems so that in the end, 
hopefully, I think their objective is to get to one system that 
everybody plugs into, where now you have different ones.

                       BORDER SECURITY AND VISAS

    Mr. Wolf. Well, if somebody does come from Syria, does that 
information first go to INS?
    Mr. Green. Absolutely. It goes into the CLASS system which 
is available to the INS.
    Mr. Wolf. And also the FBI?
    Mr. Green. Yes, sir.
    Mr. Wolf. And that person is not granted a visa until----
    Mr. Green. If they fit the category that we are looking 
for, they will not get a visa for, I think, 20 days.
    Mr. Wolf. That is the way that fellow Rahman came in. He 
came from Egypt and the Sudan, there was a visa granted to him, 
and now he is in a prison, and he was involved in the bombing 
of the World Trade Center in 1993. So the more you can keep 
this from coming to our shores by----
    Mr. Armitage. Going to Grant's point, being the first line 
of defense is how our consular officers are referred to by the 
Secretary, by the senior leadership in the department.
    Now we got a little bad publicity after 9/11 because we 
changed--we profiled, frankly. We profiled people in our visa 
application process. People who are of a certain age, primarily 
male, who came from certain countries where the visa 
application process was slowed down, just to make sure we could 
look through all the various databases to make sure that we 
were not letting a bad character in inadvertently. We took some 
heat for it, but I think it has worked out fairly well.

                     TRAINING OF CONSULAR OFFICIALS

    Mr. Wolf. What you are doing to upgrade the credibility and 
reputation of the consular offices? Generally the reputation 
has been it is staffed by the most junior person. They are not 
going to go on and move up. It is not the best job. That has 
been the history when you go around and talk to them. That does 
not mean it is not a very important job. I think it is. The 
Secretary ought to have an awards program and single out people 
in the consular offices that are doing a good job.
    Mr. Armitage. We are making sure that they are looked at, 
and the consular cones are looked at when it comes time to get 
a chief of mission. The executive secretary is now a consular 
affairs officer. She was previously an ambassador. That is, 
probably for a system like the Foreign Service, is the way you 
really score and make it clear that the consular officer is 
full-fledged foreign service family member, and that is where 
the reward is. They see they are becoming chiefs of mission.
    Mr. Green. We have to do that across those cones in which 
we have difficulty in both recruiting and retaining.
    Mr. Armitage. And public diplomacy.
    Mr. Green. But it is in many cases, particularly in some of 
the larger posts, drudgery. As you know, having visited. We try 
to rotate people through there. They are not just consular 
officers that serve in those positions. We rotate political 
officers, ECON officers and so on, so that everybody gets a 
bite of that apple. But it is difficult.
    Mr. Wolf. Do they meet with the FBI before they go abroad? 
Is there a training program at the Foreign Service Institute 
whereby an FBI agent is brought in for one of the courses, to 
tell them what they should be looking for? Is there some 
mechanism?
    Mr. Green. Rather than give you what I think is the answer, 
let me give you some specifics. I have got to assume that in 
the A100 course there is certainly exposure to many law 
enforcement----
    Mr. Armitage. They have a lecture, but that is not quite 
the question that you raised.
    Mr. Wolf. Particularly since 9/11.
    Mr. Green. And as they go on in their consular training, I 
have to assume that, but let me give you specifics.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                       RETURN OF CRIMINAL ALIENS

    Mr. Wolf. Certain countries refuse to accept the return of 
criminal aliens who are currently being detained in the United 
States. There are 3,000 of those detainees and the Justice 
Department's costs of detention are substantial. $70 million a 
year. Section 621 of last year's CJS bill prohibits the use of 
funds by State and Justice to grant visas for countries that 
deny the return of such aliens, Somalia, Vietnam.
    Mr. Armitage. Cambodia.
    Mr. Wolf. Cambodia. This restriction is triggered by 
determination by the Attorney General. Mr. Ashcroft expressed a 
willingness to make such a determination.
    How are you coordinating this with your ambassadors and 
with others? By the end of the year I may offer an amendment on 
the floor, not put it in the bill, just put it out on the floor 
and let members vote, that we do this legislatively to Vietnam. 
If Vietnam cannot take back their 340 people. Give me a break. 
Now if they take them back, good for them. Good for us. And 
also good for the American people, because they will not get 
out of jail and rob somebody in the United States or kill 
somebody.
    So could you talk to us a little bit about that?
    Mr. Armitage. Yes, this is a very instructive issue. The 
Attorney General not only has a willingness to do it, he has 
done it. He invoked, I think it is 243D or B, whatever, in the 
case of Guyana. Of course, the State Department took the 
position that it would be the end of the world, you cannot do 
that. What do you think happened after we--the Attorney General 
did invoke it? Within a month Guyana has come to a decision 
that they would accept their returnees. It worked just like the 
legislation proposed.
    We are now using that same threat with Vietnam and Cambodia 
particularly. The Attorney General, there is no doubt in my 
mind if he does not feel he is getting satisfaction, he will 
invoke it in those cases. The most recent one, Guyana, worked 
very well for them.

                      CENTER FOR SECURITY TRAINING

    Mr. Wolf. I would encourage you. Armenia has 35 such 
people. I am very supportive of Armenia. I was in Nagorno 
Karabakh. I think what happened to the Armenian people has been 
a tragedy. But I also think Armenia ought to take back these 35 
people. Somalia, 51 from Somalia. I would encourage to you do 
that. And hopefully we can wrap this up by the end of the year 
and find out who really wants to trade with us or have dealings 
with us. I did not serve in Vietnam. You did, and I appreciate 
that. I have admired you. I have never voted for MFN for 
Vietnam but if we are going to trade with them particularly 
after the number of lives that we lost in Vietnam, and 
colleagues that both of you must have had in Vietnam, clearly 
the Vietnamese government better take these people back. If 
they do not, we ought not grant any visas. And my sense is this 
also goes to the diplomatic corps.
    You are requesting 52 million for the establishment of a 
Center for Antiterrorism and Security Training in the 
Washington, D.C. area. The facility would host training for 
State Department diplomatic security agents as well as foreign 
law enforcement officers under the Antiterrorism Assistance 
Program funded by Mr. Kolbe's foreign operations bill.
    Why is this necessary and what will we be doing at this 
center? Could you not work it in with Quantico or expanding 
Quantico or develop some relationship there?
    Mr. Green. Well, sir, the problem we have now, is that we 
are spread all over the country.
    Mr. Wolf. Yes.
    Mr. Green. We have in theory a capacity to train about 
3,000 of these people a year. We need to train more than that. 
We would like to train 700 under the ATA program and 3,000 of 
our diplomatic security agents. We lose a lot of training time. 
We are out there with a tin cup begging for ranges and 
defensive driving facilities. We need to have a location close 
to Washington, which provides a couple of advantages. This 
certainly eliminates lost training days, TDY, and travel time. 
It also permits those individuals, particularly the foreign law 
enforcement personnel who come here for training, to interface 
with other law enforcement agencies here in town.
    Mr. Wolf. I think it is a great idea.
    Mr. Green. A full range of training from medical training 
to dog training to ranges, and defensive driving. We will still 
have a couple of specialized training facilities like in 
Louisiana. We have got a pipeline security facility there 
because Louisiana has got a lot of pipelines. We will retain a 
small desert training facility in the Southwest. We really need 
to bring this together so that we do not waste so much money in 
shuttling people around the country and we can expand the 
capability through additional training. We are looking at 
several sites. Obviously Aberdeen is one that is high on our 
list.
    Mr. Wolf. I would encourage to you look in Virginia, too. I 
mean, I am not trying to--let me say for the record, I do not 
put things in my area that ought not be there. If it does not 
fit in, then it ought not go. But you also have a facility out 
in Warrenton that is a very large, large facility which used to 
be with another government agency. And you have----
    Mr. Green. Indian Town Gap has been looked at.
    Mr. Wolf. You have AP Hill and others. But you feel this 
would be an opportunity? Would you then close down other ones? 
Where do they go now? Glynco now?
    Mr. Green. They would still go to Glynco for normal law 
enforcement training. For the foreign terrorists and 
antiterrorist training program, the person would come from law 
enforcement and individuals from other countries do not go to 
Glynco. We have training facilities around the country where we 
send them.
    Mr. Wolf. Now you train a group in my district, you train 
an Egyptian team in Front Royal with regard to the dogs. There 
is a dog training facility, ATF and Customs have that. How 
would that differ? Would they continue to be there or would 
that be then moved to----
    Mr. Green. I do not know specifically, sir, but I can 
certainly get that.
    Mr. Wolf. If you could let us know, because I am interested 
in this.
    Mr. Green. Okay.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. Also, how much of it would be diplomatic security 
as opposed to the ATA program?
    Mr. Green. If we get a single facility, what we are looking 
at is 7,000 a year ATA and about 3,000 a year diplomatic 
security.
    Mr. Wolf. Okay.
    Mr. Green. So 35 percent, 65 percent.

                        EMBASSY SECURITY FUNDING

    Mr. Wolf. We are just beginning on the effort to upgrade 
the security of all the overseas facilities. Only 3 programs 
have been funded from the list of posts requiring urgent 
replacement. With all that is left to do and with the current 
environment of increased terrorist threats against U.S. 
interests worldwide, is it the wrong time to be seeking less 
money for embassy security?
    Mr. Green. I do not know that we are seeking less. I think 
maybe the confusion is in 2002, there was some AID money 
included in that number. I think we are really, I think, $24 
million higher than----
    Mr. Armitage. We have $82 million in 2003 foreign ops 
capital construction.
    Mr. Wolf. 2002 was $665 million.
    Mr. Green. But that included AID. That included about $80 
million for AID and----
    Mr. Wolf. So if you add that in.
    Mr. Armitage. We put it in the foreign ops with Mr. Kolbe.
    Mr. Green. So we are actually about a plus $25 million in 
2003.

                           EMBASSY IN BEIJING

    Mr. Wolf. We recently received a reprogramming request from 
the Department to reallocate $224 million from other priority 
fiscal year 2002 embassy security capital construction projects 
to the project in Beijing, which your fiscal year 2003 budget 
defines as a nonsecurity project. Why are you proposing to do 
that, and is the Beijing project a security-driven project as 
your reprogramming suggests, or is it driven by post 
responsibilities and staffing outgrowing the existing facility?
    Mr. Armitage. What it is driven by is a reciprocal 
agreement with China. We completed our negotiations with them. 
They are moving ahead on their embassy, and we want to move on 
the exact same scheduling. We do not want them finishing their 
embassy before ours is finished and then finding ourselves with 
having difficulty with getting materials introduced. You are 
right. The Beijing embassy is on the list and is in the second 
tier, and we are using nonsecurity money or requesting to use 
nonsecurity money. I think the fact of the matter is where 
Beijing may not be a physical security post, it is clearly a 
technical security post.
    Mr. Wolf. But they do not even allow the Falun Gong to 
unveil a banner in Tiananmen. So if they do not want somebody 
to come to the embassy, they will not come to the embassy.
    Mr. Armitage. It is not so much a physical security as it 
is technical security and electronic surveillance. I could make 
the argument that it really is a security expenditure.
    Mr. Wolf. On that issue, in addition to China, in addition 
to the threats of terrorists and criminals fraudulently 
obtaining visas, I think there is an urgent need to prevent 
visas to those who would commit espionage. I have read things 
and have read articles and have talked to individuals talking 
about this could potentially be a serious problem with regard 
to China, that China may very well have people trying to steal 
secrets from the United States, particularly from high-tech 
companies. So what do we do to make sure that personnel who are 
responsible for issuing visas in China are sensitive to this 
issue?
    Mr. Armitage. I know it is primarily a domestic law 
enforcement issue with FBI, and it is a real problem, 
particularly on the West Coast. But it has spread to the East 
Coast. It is particularly, as you suggest, in high-tech 
machinery, high-tech manufacturing processing. Industrial 
espionage is a big factor in China's espionage plans.
    I do not know that we have particularly raised this with 
consular affairs office. I think it is a little difficult to 
know the motives behind some of these people, if they otherwise 
qualify for a visa, they are a business person and they want to 
do business but they have a sideline of doing industrial 
espionage, like the Japanese did for a number of years. Like 
the French have had for some years. I guess I need more advice 
on it.

                   INFORMATION SHARING IN GOVERNMENT

    Mr. Green. Let me just add one thing, if I might, sir. Very 
frankly, we have to do better--I do not mean State Department 
necessarily, the Government--we have to do better in having the 
FBI share some of that information with us. Of all the sharing 
of information that is going on within the Federal Government, 
the weakest link as far as our consular offices are concerned 
is getting law enforcement information from the FBI. And they 
get--I am not throwing rocks, they get into sources and methods 
and all of those kinds of things. We have got to have better 
cooperation there.
    Mr. Wolf. Okay. Well, we will talk briefly. I wanted to 
mention it because I wanted to ask you if you could do 
something. I think you understand the point that I am trying to 
make.
    Mr. Green. Yes, sir.

                      LONG RANGE CONSTRUCTION PLAN

    Mr. Wolf. Your testimony last year and this year referred 
to the Bureau of Overseas Building Operations' long range 
planning efforts, but the committee still has not seen the 
plan. If it is linked to appropriation requests and spending 
plans, this plan could potentially be a major step toward 
making the embassy security and construction program function 
more efficiently, including the congressional review process.
    Mr. Green. You are going to see it 30 to 45 days. It is at 
OMB right now.
    Mr. Armitage. 30 to 45 days.
    Mr. Green. It is a good document.

                          VICTIMS OF TERRORISM

    Mr. Wolf. Section 626 of last year's bill asked the 
President to submit a legislative proposal to establish a 
comprehensive program to ensure fair, equitable compensation of 
all U.S. victims of international terrorism, including those 
with hostage claims against foreign states. The proposal has 
not been submitted yet. State has taken the lead in developing 
the proposal. I am not asking you to give me specifics at this 
time, but could you talk about what type of proposal we might 
see, what do you think would be fair, and when the Congress 
might very well see something?
    Mr. Armitage. We do have the lead. We are required by 
legislation to develop such a proposal. Even last night 
Assistant Secretary Paul Kelly and others were over at OMB 
working on that proposal. Do you know what the timetable is?
    Mr. Kelly. It is over at OMB. We are pushing them to get it 
over here. Our proposal specifically contains $250,000 
compensation across the board for anyone killed in the line of 
duty. We are looking at a funding source. That seems to be the 
potential concern with OMB, how is this going to be funded? Is 
it going to be State's blocked funds? Is it going to be from 
the Justice crime fund? Is it going to be appropriated funds? 
We are trying to resolve that.
    Mr. Wolf. Okay. So you think something will be up here by?
    Mr. Kelly. A decision coming out of the OMB within the next 
week.
    Mr. Wolf. With that, I think what we will do is we will 
just submit the rest of the questions for the record. And I 
appreciate both of you taking the time, and the hearing is 
adjourned.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Armitage, Richard................................................   113
Beers, Charlotte.................................................   441
Gershman, Carl...................................................   108
Green, G.S., Jr..................................................   113
Keith, Ambassador Kenton.........................................   421
Nathanson, Marc..................................................   481
Negroponte, J.D..................................................   185
Pattiz, Norman...................................................   481
Powell, Hon. C.L.................................................     1
Telhami, Professor Shibley.......................................   405
Wood, William....................................................   185


                               I N D E X

                              ----------                              

                           Secretary of State

                                                                   Page
AID Workers in West Africa.......................................    72
Colombia and US involvement......................................    24
Diplomatic Readiness Initiative..................................    65
Embassy Construction.............................................    39
East Timor.......................................................    69
Exchange Programs................................................    64
Extradition issues with Mexico...................................    29
FY 03 Administrative budget request..............................    37
FY 03 Request for Cultural and Educational Exchanges.............    35
FY 03 Request for Public Diplomacy...............................    20
FY 03 Request for Public Diplomacy...............................    35
FY 03 Request for Peacekeeping Activities........................    33
Global Poverty Loans and Grants..................................    72
International Criminal Court.....................................    65
Management Issues................................................    18
New Challenges for Foreign Policy................................    27
OPAP Recommendations.............................................    19
Opening Remarks of Subcommittee Chairman Wolf....................     1
Opening Remarks of Subcommittee Ranking Member Serrano...........     4
Opening Remarks of Secretary of State Colin Powell...............     5
Problems facing Africa...........................................    22
Recruitment at the State Department..............................    64
Remarks of Committee Chairman Young..............................    29
Remarks of Committee Ranking Member Obey.........................    37
Terrorist activities in Sudan....................................    21
US involvement in Latin America..................................    29
US Policy in Colombia............................................    72
Violence in the Middle East......................................    31
Winning Support in Afghanistan...................................    28
Questions for the Record:
    Chairman Wolf: International Property Protection.............    74
    Rep. Charles Taylor:
        Immigrant Task Force.....................................    77
        Colombia: ONDCP-Sponsored Study of CoCo Assessment 
          Methodologies..........................................    78
    Rep. Lucille Roybal-Allard: Refugees.........................    82
    Rep. Dan Miller: Mexican Extradition.........................    91

                  The National Endowment for Democracy

Statement of Carl Gershman.......................................   108

         Department of State, Administration of Foreign Affairs

Border Security and Visas........................................   151
Border Security and Positions and Fees...........................   151
Center for Security Training.....................................   155
Cost of Embassy Construction.....................................   143
Defense Trade Controls...........................................   147
Embassies in Afghanistan and Tajikistan..........................   132
Embassy in Beijing...............................................   160
Embassy in Rome..................................................   150
Embassy Security Funding.........................................   160
Hiring at State Department.......................................   149
Information Sharing in Government................................   161
Latin American Policy............................................   140
Long Range Construction Plan.....................................   161
Middle East Policy...............................................   146
Opening Remarks of Deputy Secretary Armitage.....................   114
Opening Remarks of Ranking Minority Member Serrano...............   113
Opening Remarks of Subcommittee Chairman Wolf....................   113
Opening Remarks of Under Secretary Green.........................   117
Public Diplomacy Efforts and Funding.............................   133
Report of Sudan Envoy............................................   136
Return of Criminal Aliens........................................   155
Rewards for Justice Program......................................   150
Right-sizing at Embassies........................................   145
Training of Consular Officials...................................   152
US Policy in Africa..............................................   138
Victims of Terrorism.............................................   161
Visas and Information Sharing....................................   139
Questions for the Record:
    Ranking Minority Member Serrano:
        Grenade Attack at Islamabad Church.......................   163
        Recruitment and Hiring...................................   164
        Educational and Cultural Exchange Programs...............   174
    Rep. Lucille Roybal-Allard: Diversity in the State Department 
      Workforce..................................................   177

            Department of State, International Organizations

Abuse of Children in West African Refugee Camps..................   227
Ambassador to East Timor.........................................   237
Concluding Remarks of Subcommittee Chairman Wolf.................   185
Fee Splitting in the Tribunal Courts.............................   235
FY 03 Request for Peacekeeping Activities........................   241
Human Rights Commission..........................................   239
Human Rights in China............................................   202
Opening Remarks of Ambassador Negroponte.........................   189
Opening Remarks of Ranking Minority member Serrano...............   188
Opening Remarks of Subcommittee Chairman Wolf....................   185
Opening Remarks of William Wood..................................   202
Oversight of Peacekeeping Expenditures...........................   236
Peacekeeping Cap and FY 03 Request...............................   230
Peacekeeping in Afghanistan......................................   231
Peacekeeping in Congo............................................   228
Problems Facing Africa...........................................   229
Renovation of US/UN Building.....................................   238
Rwanda Tribunal..................................................   234
Sexual Trafficking in Bosnia.....................................   236
UN and Afghanistan...............................................   232
UN and a Palestinian State.......................................   240
UN and Sexual Trafficking........................................   242
UN Auditors at Tribunals.........................................   238
UN Ban on Human Cloning..........................................   241
UN Sanctions on Liberia..........................................   225
US Rejoining UNESCO..............................................   242
War Crimes Tribunals.............................................   233
Weapons Inspectors in Iraq.......................................   243
Questions for the Record:
    Chairman Wolf:
        Sanctions on Liberia.....................................   246
        War on Terrorism/Afghanistan.............................   247
        UN Peacekeeping in the Congo (MONUC).....................   248
        Peacekeeping Reform and Oversight........................   249
        UN Regular Budget/Zero Nominal Growth....................   252
        United Nations Capital Master Plan.......................   253
        International Criminal Tribunals.........................   254
        UN Human Rights Commission...............................   255
    Ranking Minority Member Serrano: United Nations Educational, 
      Scientific and Cultural Organizations (UNESCO).............   256

                            Public Diplomacy

Collaboration....................................................   468
Concluding Remarks of Subcommittee Chairman Wolf.................   504
Cultural Outreach................................................   474
Dealing with Negative Opinions...................................   432
Governmental Coordination........................................   451
Hollywood........................................................   473
Latin America....................................................   471
Media............................................................   452
Nagative Opinions of the U.S.....................................   431
Opening Remarks of Ambassador Keith..............................   421
Opening Remarks of Chairman Marc Nathanson.......................   481
Opening Remarks of Governor Norman Pattiz........................   490
Opening Remarks of Ranking Minority Member Serrano...............   407
Opening Remarks of Dr. Shibley Telhami...........................   409
Opening Remarks of Subcommittee Chairman Wolf....................   405
Opening Remarks of Undersecretary Beers..........................   441
PD Authorization.................................................   466
Polling and Intelligence.........................................   451
Private Sector partnerships......................................   472
Progress of Broadcasting Initiatives.............................   496
Public Affairs Officers Conference...............................   466
Radio and TV Marti...............................................   498
Radio Station in Afghanistan Status..............................   497
Recent Opinion Polls and Perceptions.............................   435
Speaking to People...............................................   469
Supplemental Spending............................................   451
Support in Moderate States.......................................   434
Quesstions for the Record:
    Chairman Wolf:
        Difference Between Public Diplomacy and Public Affairs 
          Function...............................................   507
        Non Traditional Public Diplomacy Programs................   508
        Public Diplomacy as a Function of the State Dept.........   509
        Interagency Coordination of Public Diplomacy.............   510
    Ranking Member Serrano: Public Diplomacy's Role in Improving 
      Relations With Europeans and Latin Americans...............   511
    Rep. Lucille Roybal-Allard:
        Exchange Programs........................................   513
    Department Structure and Support for Public Diplomacy........   515
        International Education Policy...........................   516
        Gilman International Scholarship Program.................   517
        Overseas Advising Centers................................   518
        Public Diplomacy in the U.S..............................   519

                                <greek-d>

</pre></body></html>
